APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Ninth Circuit, Jones v.
Shinn, No. 18-99006
(November 29, 2019) . . . . . . . . . . . App. 1
Appendix B Memorandum of Decision and Order
in the United States District Court for
the District of Arizona, Jones v. Ryan,
No. CV-01-00592-TUC-TMB
(July 31, 2018). . . . . . . . . . . . . . . App. 52
Appendix C Order Denying Rehearing in the
United States Court of Appeals for the
Ninth Circuit, Jones v. Shinn, No. 18-99006
(August 24, 2020) . . . . . . . . . . . App. 185
Appendix D Opinion in the United States Court of
Appeals for the Ninth Circuit,
Ramirez v. Ryan, No. 10-99023
(September 11, 2019) . . . . . . . . App. 213
Appendix E Order in the United States District
Court for the District of Arizona,
Ramirez v. Ryan, No. CV-97-01331PHX-JAT
(September 15, 2016) . . . . . . . . App. 262

ii
Appendix F Order in the United States District
Court for the District of Arizona,
Ramirez v. Ryan, No. CV-97-01331PHX-JAT
(September 28, 2010) . . . . . . . . App. 294
Appendix G Order in the United States District
Court for the District of Arizona,
Ramirez v. Ryan, No. CV-97-01331PHX-JAT
(November 04, 2010) . . . . . . . . . App. 347
Appendix H Order Denying Rehearing in the
United States Court of Appeals for the
Ninth Circuit, Ramirez v. Ryan, No.
10-99023
(August 24, 2020) . . . . . . . . . . . App. 349

App. 1

APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-99006
D.C. No. 4:01-cv-00592-TMB
[Filed: November 29, 2019]
__________________________________________
BARRY LEE JONES,
)
Petitioner-Appellee,
)
)
v.
)
)
DAVID SHINN, Director;
)
STEPHEN MORRIS, Warden,
)
Arizona State Prison-Eyman
)
Complex,
)
Respondents-Appellants.
)
__________________________________________)
OPINION
Appeal from the United States District Court
for the District of Arizona
Timothy M. Burgess, Chief District Judge, Presiding
Argued and Submitted June 20, 2019
San Francisco, California

App. 2
Before: Johnnie B. Rawlinson, Richard R. Clifton,
and Paul J. Watford, Circuit Judges.
Opinion by Judge Clifton
SUMMARY*
_________________________________________________
Habeas Corpus
The panel affirmed in part and vacated in part the
district court’s grant of federal habeas relief to Barry
Lee Jones, a state prisoner who was sentenced to death
following his conviction for one count of sexual assault,
three counts of child abuse, and felony murder for the
death of four-year-old Rachel Gold.
The panel held that 28 U.S.C. § 2254(e)(2), which
precludes evidentiary hearings on claims that were not
developed in state court proceedings, did not prohibit
the district court from considering the evidence
adduced at a hearing pursuant to Martinez v. Ryan,
566 U.S. 1 (2012) (concerning cause to excuse
procedural default), to determine the merits of Jones’s
underlying ineffective-assistance-of-counsel claim.
The panel also concluded that the district court did
not err in determining that (1) the assistance provided
by Jones’s counsel was constitutionally deficient
because he failed to perform an adequate pretrial
investigation into whether Rachel’s injuries were
sustained during the time she was alone with Jones,

*

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 3
and (2) Jones has demonstrated prejudice due to
counsel’s failures.
The panel therefore generally affirmed the order of
the district court that granted Jones habeas relief on
the guilt-phase portion of his IAC claim and ordered
the State to release him from custody unless it initiated
new trial proceedings against him. However, on one of
the five counts of conviction, regarding Jones’s failure
to seek medical care for the victim (Count Four), the
panel concluded that the ineffective assistance only
affected the jury’s classification of Jones’s offense as
intentional or knowing but not his underlying guilt
based on a less culpable mental state, such as
recklessness. The panel therefore affirmed the district
court’s grant of Jones’s habeas petition but vacated in
part its remedy. The panel instructed the district court
on remand to amend its order to require that the state
court either retry Jones on Count Four or resentence
him on that count for the lesser included offense of
reckless misconduct.
__________________________________________________
COUNSEL
Myles A. Braccio (argued), Assistant Attorney General;
Lacey Stover Gard, Chief Counsel; Mark Brnovich,
Attorney General; Capital Litigation Section, Office of
the Attorney General, Phoenix, Arizona; for
Respondents-Appellants.
Cary Sandman (argued) and Karen Smith, Assistant
Federal Public Defenders; Jon M. Sands, Federal
Public Defender; Office of the Federal Public Defender,
Tucson, Arizona; for Petitioner-Appellee.

App. 4
OPINION
CLIFTON, Circuit Judge:
A warden and several other employees of the State
of Arizona (collectively the “State”) appeal the grant of
federal habeas relief to Barry Lee Jones, a state
prisoner under sentence of death. Jones was convicted
of one count of sexual assault, three counts of child
abuse, and felony murder for the death of four-year-old
Rachel Gray. Jones v. Ryan, 327 F. Supp. 3d 1157,
1163–64 (D. Ariz. 2018) (“Jones Habeas”). To determine
whether Jones qualified for habeas relief, the district
court considered evidence presented at hearings to
determine whether Jones could establish cause to
excuse the procedural default of a claim of ineffective
assistance of counsel (“IAC”) pursuant to Martinez v.
Ryan, 566 U.S. 1 (2012) (“Martinez hearing”). Id. at
1163. It then concluded that Jones had established
cause to excuse the procedural default of his
meritorious guilt-phase IAC claim that trial counsel
failed to sufficiently investigate the police work,
medical evidence, and timeline between Rachel’s fatal
injury and her death (Claim 1D), and it therefore
granted his habeas petition. Id. at 1163, 1168.
We hold that 28 U.S.C. § 2254(e)(2), which
precludes evidentiary hearings on claims that were not
developed in state court proceedings, did not prohibit
the district court from considering the evidence
adduced at the Martinez hearing to determine the
merits of Jones’s underlying IAC claim. When a district
court holds an evidentiary hearing to determine
whether a petitioner’s claim is excused from procedural

App. 5
default under Martinez, it may consider that same
evidence to grant habeas relief on the underlying claim.
We also conclude that the district court did not err
in determining that (1) the assistance provided by
Jones’s counsel was constitutionally deficient because
he failed to perform an adequate pretrial investigation
into whether Rachel’s injuries were sustained during
the time she was alone with Jones, and (2) Jones has
demonstrated prejudice due to counsel’s failures. At
Jones’s trial, the State presented evidence that
established that most of Rachel’s injuries, including her
fatal injury, were consistent with infliction on Sunday,
May 1, 1994, between 2:00 p.m. and 5:30 p.m, a few
hours before she was pronounced dead the next
morning. Jones Habeas, 327 F. Supp. 3d at 1169. The
State also presented evidence from several witnesses
that supported its theory that Rachel was in the sole
care of Jones during that time. Id. at 1173–74. At the
Martinez hearing, Jones presented evidence, both from
his own experts and from a government expert’s prior
statements, that Rachel may have in fact been injured
earlier. Id. at 1179–80. He also presented evidence of
other potential suspects who had access to Rachel
outside the critical disputed hours, including her
mother, other children in the trailer park, her siblings,
and her mother’s former boyfriend. Id. at 1188–89.
Although this evidence would not necessarily exonerate
Jones, there is a reasonable probability that the jury
might have arrived at a different conclusion on the
question of whether Jones had inflicted the injuries or
knowingly failed to seek care. We generally affirm the
order of the district court that granted Jones habeas
relief on the guilt-phase portion of his IAC claim and

App. 6
ordered the State to release him from custody unless it
initiated new trial proceedings against him.
However, on one of the five counts of conviction,
regarding Jones’s failure to seek medical care for the
victim (Count Four), the ineffective assistance only
affected the jury’s classification of Jones’s offense as
intentional or knowing but not his underlying guilt
based on a less culpable mental state, such as
recklessness. We therefore affirm the district court’s
grant of Jones’s habeas petition but vacate in part its
remedy. The district court should amend its order to
require that the state court either retry him on Count
Four (as its order currently states, 327 F. Supp. 3d at
1218) or resentence him on that count for the lesser
included offense.
I.

Background

In April and early May 1994, Jones shared his
trailer with his girlfriend Angela Gray, his 11-year-old
daughter Brandie Jones, and Angela’s three children:
four-year-old Rachel Gray, 11-year-old Rebecca Lux
(“Becky”), and 14-year-old Jonathon Lux.1 Jones
Habeas, 327 F. Supp. 3d at 1163, 1181. At
approximately 6:15 a.m. on Monday, May 2, 1994,
Jones drove Rachel and Angela to Kino Community
Hospital in Tucson, Arizona. Id. at 1163. Rachel was
admitted and pronounced dead on arrival, caused by a
small bowel laceration due to blunt abdominal trauma.
1

Because Angela and Rachel have the same last name, we will
refer to them by their first names. We will likewise refer to
Rebecca Lux as “Becky,” Jonathon Lux as “Jonathon,” and Brandie
Jones as “Brandie.”

App. 7
Id. Rachel also had a laceration to her left scalp,
injuries to her labia and vagina, and multiple internal
and external contusions. Id.
Jones was arrested and charged with:
(1) engaging in an act of sexual intercourse with
Rachel, in violation of A.R.S. § 13-1406 (Count
One); (2) causing physical injury to Rachel by
striking her abdominal area causing a rupture to
her small intestine under circumstances likely to
produce death or serious physical injury, in
violation of A.R.S. § 13-3623(B)(1) (Count Two)2;
(3) causing physical injury to Rachel by bruising
her face and ear and causing a laceration to her
head, in violation of A.R.S § 13-3623(C)(1)
(Count Three); (4) causing Rachel to be placed in
a situation where her health was endangered
under circumstances likely to produce death or
serious physical injury, in violation of A.R.S.
§ 13-3623(B)(1) (Count Four); and (5) felony
murder, in violation of A.R.S. § 13-1105 (Count
Five)
Jones Habeas, 327 F. Supp. 3d at 1163.
Under Arizona law, first degree murder can either
be (1) premeditated, meaning the defendant
intentionally or knowingly caused the death of another

2

Unless otherwise noted, all references to A.R.S. § 13-3623 are to
the version of the statute in effect at the time Jones was charged
and convicted. The statute was revised in 2000 so the section
under which Jones was convicted, § 13-3623(B)(1), is now § 133623(A)(1). See 2000 Ariz. Legis. Serv. Ch. 50 (H.B. 2395) (West).

App. 8
with premeditation, or (2) felony murder, if the
defendant caused a death during the commission of or
in furtherance of enumerated predicate felony offenses.
A.R.S. § 13-1105(A) (1994). Those enumerated
predicate offenses include sexual assault (as charged in
Count One) and child abuse under § 13-3623(B)(1) (as
charged in Counts Two and Four). Id. § 13-1105(A)(2);
State v. Styers, 865 P.2d 765, 771 (Ariz. 1993) (In
Banc); Jones Habeas, 327 F. Supp. 3d at 1212. Jones
was only charged under a felony murder theory. Jones
Habeas, 327 F. Supp. 3d at 1163.
In Counts Two and Four, Jones was also charged
with the lesser included offenses of child abuse
committed recklessly, A.R.S. § 13-3623(B)(2), and child
abuse committed with criminal negligence, A.R.S. § 133623(B)(3). The trial judge explained that the child
abuse charges could only be predicate felonies for
felony murder if Jones committed them intentionally or
knowingly under circumstances likely to produce death
or serious physical injury. Jones Habeas, 327 F. Supp.
3d at 1212.
The day after Jones’s arrest, May 3, Sean Bruner
was appointed to represent Jones. Id. at 1168. Bruner’s
partner Leslie Bowman also represented Jones as an
informal “second-chair” attorney, although she was
never formally appointed by the trial court. Id.
Angela was also charged on Counts Four and Five
of the same indictment. Id. at 1163. She was tried
separately, prior to Jones’s trial, and she was convicted
on Count Four. Id. Because the jury determined she
had acted recklessly in failing to render care, rather
than intentionally or knowingly, she was ineligible for

App. 9
felony murder and therefore acquitted on Count Five.
Id. at 1163–64.
Jones was tried before a jury in April 1995. Id. at
1164. The trial judge instructed the jurors that the
sexual assault charge (Count One) and two of the child
abuse charges (Counts Two and Four) could be
predicate felonies for the felony murder charge (Count
Five) if Jones committed them intentionally or
knowingly under circumstances likely to produce death
or serious physical injury. Id.
On April 14, 1995, Jones was convicted of one count
of sexual assault, three counts of child abuse, and
felony murder. State v. Jones, 937 P.2d 310, 313 (Ariz.
1997) (“Jones State”). The jury did not specify which
specific felony or felonies—out of Counts One, Two, and
Four—it found as a predicate for felony murder under
Count Five. The jurors found that both child abuse
charges that qualified as predicate felonies were
committed intentionally or knowingly under
circumstances likely to cause serious physical injury or
death. Jones Habeas, 327 F. Supp. 3d at 1164.
After finding two statutory aggravating
factors—that the crime was especially cruel, A.R.S.
§ 13-703(F)(6), and the victim was under the age of
fifteen, A.R.S. § 13-703(F)(9)—and no statutory or nonstatutory mitigating factors, the trial judge sentenced
Jones to death for the murder.3 Jones State, 937 P.2d
3

Prior to the Supreme Court’s decision in Ring v. Arizona, 536
U.S. 584, 589 (2002), trial judges in Arizona determined mitigating
and aggravating circumstances and decided whether a death
sentence should be imposed. In Ring, the Supreme Court held that

App. 10
310 at 313. The trial court sentenced him to a term of
27 years on Count One, 35 years on Count Two as a
class two felony, 3.75 years on Count Three, and life
imprisonment on Count Four as a dangerous crime
against children in the first degree with two prior
predicate felony convictions. A.R.S. §§ 13-604.01(F), 13604.01(J)(1)(h) (1994).
The Arizona Supreme Court affirmed Jones’s
convictions and sentences. Jones State, 937 P.2d at 313.
It noted that the following evidence linked Jones to
Rachel’s injuries: on the day she received her injuries,
Jones left his trailer three times with Rachel in his
van; two children saw Jones hitting her while he drove;
Jones stopped at a Quik-Mart to get ice for Rachel’s
head injury; and police found traces of Rachel’s blood
type on his clothing and in his van. Id. While visiting
Jones’s trailer that evening, a friend’s son asked Jones
about Rachel’s condition, and Jones falsely stated that
he had taken her to get examined by paramedics at the
fire department. Id. The court held that the evidence at
trial was sufficient to sustain a guilty verdict on the
sexual assault charge in part because “substantial
evidence was introduced to conclude that Rachel’s
physical assault and sexual assault all occurred within
the two-hour time period during which she was alone
with defendant in his van.” Id. at 318–19.
Jones filed a petition for post-conviction relief
(“PCR”), which included IAC claims based on defense

this procedure violated the Sixth Amendment. Id. However, Ring
does not apply retroactively. Schriro v. Summerlin, 542 U.S. 348,
358 (2004).

App. 11
counsel’s alleged failures to seek mistrial after three
jurors saw him in handcuffs, interview Angela, followup on his request for a second attorney, meet with
Jones enough times to adequately prepare for trial, and
explicitly inform Jones of his right to testify in his own
defense. After holding an evidentiary hearing, the trial
court denied his petition. Jones Habeas, 327 F. Supp.
3d at 1165. The Arizona Supreme Court summarily
denied his petition for review. Id.
Jones initiated federal habeas proceedings on
November 5, 2001, and he filed an amended petition on
December 23, 2002. Id. Claim 1D of his habeas petition
alleged in part that counsel was ineffective for failing
to conduct sufficient trial investigation; adequately
investigate the police work, medical evidence, and
timeline of death versus injury; and conduct sufficient
mitigation investigation for sentencing. Jones v.
Schriro, No. CV01-592-TUC-FRZ, 2008 WL 4446619, at
*5 (D. Ariz. Sept. 29, 2008).
Under the doctrine of procedural default,
In all cases in which a state prisoner has
defaulted his federal claims in state court
pursuant to an independent and adequate state
procedural rule, federal habeas review of the
claims is barred unless the prisoner can
demonstrate cause for the default and actual
prejudice as a result of the alleged violation of
federal law, or demonstrate that failure to
consider the claims will result in a fundamental
miscarriage of justice.

App. 12
Coleman v. Thompson, 501 U.S. 722, 750 (1991). The
district court determined that the majority of Claim 1D
was procedurally defaulted because it had not been
raised and exhausted in state court. Jones v. Schriro,
2008 WL 4446619, at *2, *5. As cause to excuse the
procedural default of Claim 1D, Jones alleged that PCR
counsel was ineffective for failing to present this claim
in state court. Order, Jones v. Schriro, No. CV01-592TUC-FRZ, at 9 (D. Ariz. Sept. 27, 2004), Dkt. 115.
Following then-governing Supreme Court precedent,
the district court determined that PCR counsel’s
purported ineffectiveness did not constitute cause
because “there is no constitutional right to counsel in
state PCR proceedings.” Jones v. Schriro, 2008 WL
4446619, at *5. The court ordered supplemental
briefing regarding Jones’s allegation that it would be a
fundamental miscarriage of justice not to review the
entirety of Claim 1D on the merits, and on September
29, 2008, it denied relief after concluding Jones had not
demonstrated a fundamental miscarriage of justice.
Jones Habeas, 327 F. Supp. 3d at 1165. In doing so, it
emphasized the demanding nature of the fundamental
miscarriage of justice standard, and noted that while
Jones’s evidence was “compelling and may have been
persuasive to some jurors in the first instance, it is not
sufficient on collateral review to establish that no
reasonable juror would have found Petitioner guilty” as
required to meet this standard. Jones v. Schriro, 2008
WL 4446619, at *14. The court did, however, issue a
certificate of appealability on its procedural ruling that
Claim 1D was in part procedurally defaulted. Id. at
*32.

App. 13
While Jones’s appeal from the denial of habeas
relief was pending, the Supreme Court decided
Martinez v. Ryan, 566 U.S. 1 (2012). Jones Habeas, 327
F. Supp. 3d at 1165. In Martinez, the Court held that
“procedural default will not bar a federal habeas court
from hearing a substantial claim of ineffective
assistance at trial if, in the initial-review collateral
proceeding, there was no counsel or counsel in that
proceeding was ineffective.” 566 U.S. at 17. On August
19, 2014, we granted Jones’s motion for a limited
remand to reconsider Claim 1D in light of intervening
law, including Martinez.
The district court ordered supplemental briefing to
address whether cause existed under Martinez to
excuse the procedural default of Claim 1D, and
whether Jones was entitled to habeas relief on the
claim. Jones v. Ryan, No. CV-01-00592-TUC-TMB,
2017 WL 264500, at *1 (D. Ariz. Jan. 20, 2017) (“Jones
Evidentiary”). Jones sought review based on Martinez
for Claim 1D allegations that trial counsel was
ineffective for failing to investigate and present
evidence to test the reliability of any of the State’s
evidence, including the timeline between injury and
death, and failing to conduct a reasonably sufficient
mitigation investigation for sentencing. Id. at *2. On
January 20, 2017, the district court determined that an
evidentiary hearing was necessary to determine
whether Jones could establish cause to excuse the
procedural default of Claim 1D. Id. at *3. On October
30, 2017, it held a seven-day evidentiary hearing on the
guilt-phase portion of the IAC claim. Jones Habeas, 327
F. Supp. 3d at 1163.

App. 14
On July 31, 2018, the district court held that Jones
had established cause to excuse the procedural default
of his meritorious guilt-phase IAC claim that counsel
failed to conduct an adequate pre-trial investigation,
leading to his failure to uncover key evidence that
Rachel’s injuries were not sustained on the afternoon
of May 1, 1994, when she was alone with Jones. Id. at
1200, 1218. It therefore granted his habeas petition,
ordering the State to release him unless it initiated
retrial proceedings within 45 days.4 Id. at 1163. The
state then filed a notice of appeal.5 Dkt. No. 1. After the
district court denied the State’s motion to stay the
district court’s judgment, we granted the stay and
expedited the appeal. Jones v. Ryan, No. CV-01-00592TUC-TMB, 2018 WL 5066494, at *1 (D. Ariz. Oct. 17,
2018).
II.

Standard of Review

This court reviews de novo a district court’s decision
regarding habeas relief, including questions regarding
procedural default. Sexton v. Cozner, 679 F.3d 1150,
1153 (9th Cir. 2012). Ineffective assistance of counsel
claims are mixed questions of law and fact which we
also review de novo. Rhoades v. Henry, 638 F.3d 1027,
1034 (9th Cir. 2011). “Factual findings and credibility

4

Jones also made arguments alleging ineffective assistance of
counsel during the penalty phase of his trial, but the district court
did not reach the merits of those claims, leaving them for
consideration in the future, if necessary. See Jones Habeas, 327 F.
Supp. 3d at 1218.

5

“A certificate of appealability is not required when a state or its
representative . . . appeals.” Fed. R. App. P. 22(b)(3).

App. 15
determinations made by the district court in the
context of granting or denying the petition are reviewed
for clear error.” Larsen v. Soto, 742 F.3d 1083, 1091–92
(9th Cir. 2013) (citation and internal quotation marks
omitted).
III.

Discussion

The State challenges the district court’s grant of
habeas relief on Jones’s guilt-phase IAC claim on three
grounds. First, it argues that 28 U.S.C. § 2254(e)(2)
should have prevented the district court from
considering evidence developed to overcome procedural
default under Martinez v. Ryan, 566 U.S. 1, when
resolving the merits of the underlying habeas claim.
Second, it argues that the district court erred in
granting habeas relief on all of Jones’s convictions
because counsel consulted with an independent
pathologist before trial, the record is silent as to why
counsel did not further involve the expert, the newlyproffered medical evidence was imprecise and doubleedged, and strong circumstantial evidence showed
Jones’s guilt. Third, it argues that the district court
erred by granting habeas relief on Jones’s Count Four
and Five convictions, based on Jones’s failure to take
the victim to the hospital, because these counts did not
depend on the timing of the victim’s injuries, and the
evidence at the Martinez hearing did not undermine
the trial evidence proving Jones’s guilt on these counts.
A. Consideration of “New Evidence” from Martinez
Hearing
Federal habeas courts should not review claims by
prisoners who have not exhausted available state

App. 16
remedies, including when the state court concludes
that the prisoner defaulted his federal claims pursuant
to an “independent and adequate state procedural
rule.” Coleman, 501 U.S. at 731, 750. In Martinez, the
Supreme Court recognized that a “federal habeas court
may excuse a procedural default of an ineffectiveassistance claim when the claim was not properly
presented in state court due to an attorney’s errors in
an initial-review collateral proceeding.” 566 U.S. at 5.
Jones sought review based on Martinez for his
Claim 1D allegations that trial counsel was ineffective
for (1) failing to investigate and present evidence to
test the reliability of any of the State’s evidence,
including the medical evidence and the question of the
timeline between injury and death (“guilt phase”); and
(2) failing to conduct a reasonably sufficient mitigation
investigation for sentencing (“sentencing phase”). Jones
Evidentiary, 2017 WL 264500, at *2. The district court
conducted a seven-day evidentiary hearing to
determine whether Jones could establish cause to
excuse the procedural default of Claim 1D. Jones
Habeas, 327 F. Supp. 3d at 1163. That Martinez
hearing included testimony and exhibits that were not
previously considered by a state court, including
testimony from trial and PCR counsel, several experts,
and additional testimony from witnesses who testified
on behalf of the State at trial. Id. at 1178. The federal
habeas court extensively considered the evidence and
argument presented in these proceedings to conclude
that (1) Jones had established cause to excuse the
procedural default of his IAC claim and (2) the claim
was meritorious, warranting habeas relief. Id. at 1163.

App. 17
The State argues that 28 U.S.C. § 2254(e)(2)
prevents a district court from considering new evidence
developed to overcome a procedural default under
Martinez when considering the merits of the
underlying claim. That section provides:
(2) If the applicant has failed to develop the
factual basis of a claim in State court
proceedings, the court shall not hold an
evidentiary hearing on the claim unless the
applicant shows that . . . the claim relies on . . .
a factual predicate that could not have been
previously discovered through the exercise of
due diligence; and . . . the facts underlying the
claim would be sufficient to establish by clear
and convincing evidence that but for
constitutional error, no reasonable factfinder
would have found the applicant guilty of the
underlying offense.
28 U.S.C. § 2254(e)(2). The State argues that while
§ 2254(e)(2) does not bar new evidence offered to excuse
a procedural default under Martinez, it does govern
merits review and precludes an evidentiary hearing on
a claim not pursued in state court. It argues that the
district court therefore erred by considering evidence
outside the state-court record to grant relief on Claim
1D.
As we have previously recognized and now explicitly
hold, Martinez’s procedural-default exception applies to
merits review, allowing federal habeas courts to
consider evidence not previously presented to the state
court. The Supreme Court explained in Martinez that
if the prisoner’s state court attorney is ineffective, “the

App. 18
prisoner has been denied fair process and the
opportunity to comply with the State’s procedures and
obtain an adjudication on the merits of his claims.” 566
U.S. at 11. The Court’s concern was with the prisoner’s
opportunity to “vindicat[e] a substantial ineffectiveassistance-of-trial-counsel claim,” a claim which “often
depend[s] on evidence outside the trial record.” Id. at
11, 13. The Court held that the federal habeas court
may hear a claim of ineffective assistance of trial
counsel where the initial state collateral proceeding
“may not have been sufficient to ensure that proper
consideration was given to a substantial claim.” Id. at
14.
In Detrich v. Ryan, 740 F.3d 1237 (9th Cir. 2013)
(en banc), which did not produce a majority opinion, a
four-judge plurality held that Martinez recognized that
determining “whether there has been IAC often
requires factual development in a collateral
proceeding.” Id. at 1246 (W. Fletcher, J., plurality).6
Determining whether counsel’s performance was
deficient often requires asking the attorney to state the
strategic or tactical reasons for his actions, and
determining prejudice often requires discovery and an
evidentiary hearing to assess the effect of the deficient
performance. Id. at 1246–47. As the district court
explained in denying the State’s motion to stay,

6

Although this conclusion was not “supported by a majority of the
en banc panel,” none of the other opinions discussed the issue of
whether Martinez allowed factual development in a collateral
proceeding when considering the underlying claim, so they did not
express any opposition to the proposition stated by the plurality
opinion. See Clabourne v. Ryan, 745 F.3d 362, 375 (9th Cir. 2014).

App. 19
[I]t is simply illogical, and extraordinarily
burdensome to the courts and the litigants, in a
post-Martinez world, for a court to allow full
evidentiary development and hearing on the
Martinez “claim,” but not allow consideration of
that very same evidence as to the merits of the
underlying trial-counsel IAC claim because his
constitutionally ineffective PCR counsel failed to
raise that claim.
Jones v. Ryan, 2018 WL 5066494, at *4.
While the Supreme Court held in Cullen v.
Pinholster that a federal habeas court is ordinarily
confined to the evidentiary record from state court, it
held that the court was limited to “the record that was
before the state court that adjudicated the claim on the
merits.” 563 U.S. 170, 180 (2011) (emphasis added).
Because the underlying claim in a Martinez case has
not been adjudicated on the merits in a state-court
proceeding, “Martinez would be a dead letter if a
prisoner’s only opportunity to develop the factual
record of his state PCR counsel’s ineffectiveness had
been in state PCR proceedings, where the same
ineffective counsel represented him.” Detrich, 740 F.3d
at 1247. We have explained that “Martinez may provide
a means to show ‘cause’ to overcome the default and
reach the merits of the new claim.” Dickens v. Ryan,
740 F.3d 1302, 1321 (9th Cir. 2014). The Supreme
Court in Martinez recognized that “[c]laims of
ineffective assistance at trial often require
investigative work.” 566 U.S. at 11. Courts may require
expanded records to reach the merits of these claims.

App. 20
Other courts have reached the same conclusion as
our four-judge plurality from Detrich. The Eighth
Circuit held that Martinez provided an exception to
§ 2254(e)(2) in Sasser v. Hobbs, 735 F.3d 833, 853–54
(8th Cir. 2013). The Fifth Circuit has also noted that if
the district court found cause and prejudice for the
procedural default of any claim, “[i]t should then revisit
the merits of any such claim anew,” and its cause and
prejudice findings “may directly address its merits
determination of certain elements of that claim.”
Barrientes v. Johnson, 221 F.3d 741, 771, 771 n. 21 (5th
Cir. 2000). See also Woods v. Sinclair, 764 F.3d 1109,
1138 (9th Cir. 2014) (citing the four-judge plurality
from Detrich and remanding to the district court to
determine whether defendant’s IAC claims were
substantial and whether PCR counsel was ineffective
for failing to raise them, potentially with an
evidentiary hearing and an opportunity to expand the
record).
We conclude that 28 U.S.C. § 2254(e)(2) does not
prevent a district court from considering new evidence,
developed to overcome a procedural default under
Martinez v. Ryan, when adjudicating the underlying
claim on de novo review.
B. Merits of Ineffective Assistance Claims
In his habeas petition, Jones claimed that his Sixth
Amendment right to effective assistance of counsel was
violated by his trial counsel’s failure to adequately
investigate the police work, medical evidence, and
timeline between Rachel’s fatal injury and her death.
Jones Habeas, 327 F. Supp. 3d at 1168. At trial, the
State presented evidence that most of Rachel’s injuries

App. 21
were inflicted on the afternoon of May 1, and she was
in Jones’s sole care multiple times that afternoon. Id.
at 1169, 1174–77.
As the district court correctly noted, id. at 1167,
claims of ineffective assistance of counsel are governed
by the principles set forth in Strickland v. Washington,
466 U.S. 668 (1984). To demonstrate prejudice under
Strickland, Jones had to show that (1) counsel’s
performance was deficient so he “was not functioning
as the ‘counsel’ guaranteed the defendant by the Sixth
Amendment” and (2) “the deficient performance
prejudiced the defense” so that he was deprived of “a
trial whose result is reliable.” Id. at 687. As to the
prejudice prong, Strickland requires a petitioner to
“show that there is a reasonable probability that, but
for counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable
probability is a probability sufficient to undermine
confidence in the outcome.” Id. at 694.
The district court concluded that trial counsel acted
unreasonably in failing to conduct a medical
investigation into the timing of Rachel’s injuries. Jones
Habeas, 327 F. Supp. 3d at 1201. It found there was a
reasonable probability that, absent counsel’s failures,
the jury would have had a reasonable doubt as to
Jones’s guilt. Id. at 1209. The State argues the district
court erred by excusing Claim 1D’s procedural default
and granting relief under Strickland.7

7

Like the parties, we will discuss Counts Four and Five separately
because these depend on Jones’s failure to obtain care for Rachel,
rather than on any harm he personally caused.

App. 22
1. Trial Evidence
Throughout the trial, the parties tried the case on
the premise that Rachel sustained her injuries on the
afternoon before her death. In opening statements, the
prosecutor stated:
[W]hat we will prove to you is that . . . Barry
Jones was the only adult that had care of
[Rachel] that day and thus the only adult that
had the opportunity, in fact, was seen by
neighborhood children abusing Rachel, that he
is her rapist, and that he is her murderer.
Defense attorney Bruner similarly stated:
“Everything in this case is going to center around what
happened on Sunday, May 1st. Specifically, a couple of
disputed hours . . . .” In Counts One through Three,
Jones was charged with and found guilty of inflicting
the specific injuries to Rachel’s abdomen, scalp, and
vagina. See Jones Habeas, 327 F. Supp. 3d at 1211–12.
In Count Four, he was charged with intentionally or
knowingly endangering Rachel by failing to take her to
the hospital. Id. at 1212. The jury found that Jones
committed Count One and Counts Two and Four
knowingly and intentionally, so all three could serve as
predicate felonies to support the felony murder
conviction in Count Five. Id.
At trial, the State presented evidence from several
witnesses to establish that most of Rachel’s injuries—
including bruising, her scalp injury, her vaginal injury,
and the fatal bowel injury—were consistent with
infliction between 2:00 p.m. and 5:30 p.m. on May 1,
1994. Id. at 1169. It presented medical testimony by

App. 23
Steven Siefert, an emergency room doctor at Kino
Community Hospital; Sergeant Sonia Pesquiera of the
Pima County Sheriff’s Department (“PCSD”), the lead
investigator of Rachel’s death; and Dr. John Howard,
a forensic pathologist with the Pima County Medical
Examiner’s office. Id. Defense counsel did not present
any evidence regarding the timeline. The defense, in
fact, presented only one witness of its own, Jones’s 11year-old daughter Brandie. Id.
Dr. Siefert estimated that Rachel died between two
or three hours before she arrived at the hospital at 6:16
a.m. on May 2, 1994. Id. at 1169–70. He and Dr.
Howard both observed extensive bruising, including
around the left side of her face and behind her ear,
consistent with a slap or blow to the side of the head.
Id. at 1170. Dr. Howard opined that many of the
bruises and abrasions were inflicted approximately one
day prior to death. Id. He explained that the number
and multiple locations of injuries was consistent with
Rachel having been beaten. Id. at 1171. Dr. Siefert also
opined that Rachel’s bruising would have begun to
appear within a few hours of infliction, and assessed
that 95 percent of her injuries occurred within 12 to 24
hours before her death. Id.
Rachel had an inch-long head laceration, above and
behind her left ear, that went down to the skull bone.
Id. Dr. Howard assessed that the injury was consistent
with having been caused by a blunt force object with a
relatively straight edge, like a pry bar found in Jones’s
van. Id. He opined that it was consistent with
occurrence between 2:00 p.m. and 5:30 p.m. on May 1.
Id.

App. 24
Sergeant Pesquiera testified that she observed
discoloration on the outside of Rachel’s labia and
pooled, bright red blood on the inside. Id. Dr. Howard
determined that she had blunt force injuries to her
labia, bruising and scrapes, and a half-inch tear to her
vagina. Id. He concluded that these genital injuries
occurred about one day prior to her death, consistent
with the time frame of “dozens” of her other injuries,
and were consistent with penetration or attempted
penetration. Id.
Dr. Howard determined that Rachel died of blunt
abdominal trauma that caused a laceration of the small
bowel. Id. He explained that she had sustained blunt
force injury to her abdominal organs, causing a tear of
the small bowel and bruising of the tissues around the
small bowel, the wall of the large bowel, and connecting
the intestine to the back of the abdominal wall. Id. at
1172. The rupture of her bowel required a force
equivalent to a fall from more than two stories, an
automobile accident at greater than 35 miles per hour,
or a forceful directed blow to the abdomen. Id. This
rupture caused peritonitis, inflammation and irritation
of the lining of the abdominal tissues that causes death
over a period of hours to days, or sometimes weeks. Id.
He opined that the “injury is typical of having occurred
about one day prior to death,” in the same age range as
the scalp, genital, and external injuries. Id. He opined
that it could have occurred in the 24 hours prior to her
death, possibly between 2:00 p.m. and 5:30 or 6:00 p.m.
on May 1. Id. Defense counsel used Dr. Howard’s
testimony to argue that if the pry bar had been wielded
by an adult, it would break ribs, fracture skulls, and do
incredible damage to a small child, but he did not ask

App. 25
Dr. Howard any questions about the timing of any of
Rachel’s injuries. Id.
The State also presented testimony by Sergeant
Pesquiera, Arizona Department of Public Safety
Criminalist Edward Lukasik, and PCSD Detective
Clark that blood consistent with having come from
Rachel was found in Jones’s van and on blue jeans he
wore at the time of his arrest. Id. Based on impression
stains, the State argued that Rachel’s head was
bleeding as she lay in the back of the van because that
was where she was sexually assaulted, beaten, and hit
with the pry bar on the third trip away from the house.
Id. at 1173. The State also argued based on the
evidence of spatter stains found on the passenger seat,
floor of the van, and Jones’s shirt sleeve that after the
assault, Jones put Rachel in the passenger seat and
kept hitting her “trying to make her shut up.” Id.
In support of its theory that Rachel was in Jones’s
sole care during the afternoon of Saturday, May 1, the
State presented the testimony of Rachel’s sister Becky;
neighborhood children Ray and Laura, who claimed to
see Jones hit Rachel; Jones’s former girlfriend Joyce
Richmond; and her adult son Terry. Id. at 1174–77.
Becky testified that there was a week when Rachel
started “being scared” of Jones and would not go to him
when he called her over. Id. at 1174. She testified that
on the morning of Sunday, May 1, she, Rachel, and
Jonathon got up early, watched cartoons, and ate lunch
until Jones got up around 2:30 or 3:00 p.m., when a
friend of his stopped by to see him. Id. Shortly after his
friend left, Jones gave Becky and her brother
permission to ride their bikes. Id. Becky then saw

App. 26
Jones leave his van on his first of three trips with
Rachel that day, to go to the store for food, and he
returned an hour and a half later. Id. Becky testified
that Rachel was not sick or crying and seemed okay. Id.
She testified that approximately fifteen to twenty
minutes after Jones returned from the store, he left
again for about thirty minutes, and Rachel seemed
okay again when Becky saw her after this trip. Id.
Becky further testified that Jones later took Rachel to
his brother’s house, and they were back before Becky
left for her friend’s house around 5:00 or 6:00 p.m. Id.
The State argued that Jones assaulted Rachel in the
back of the van on this third trip. Id.
Becky testified that around 6:30 p.m., when she
returned from her friend’s house, she saw Rachel was
on the couch, pale, bleeding from her head, vomiting,
and with bruises on her face, hands, and fingers. Id.
That was also the first time Becky saw her mother
awake that day. Id. Jones left for a time, and when he
returned, Angela took Rachel outside where Angela
and Jones had an argument. Id.
Norma Lopez testified that on May 1, she sent her
eight-year-old twins Ray and Laura to the Choice
Market on Benson Highway at 3:00 p.m. or 4:00 p.m.
Id. at 1175. When they returned, Ray told Norma he
saw a yellow van with a man inside hitting a little girl.
Id. The next day Norma heard on the news that a man
had been arrested in relation to the death of a little
girl, and her children identified that person as the man
they had seen in the van. Id. She later called 911 to
report the twins’ identification. Id. Ray and Laura also
testified at Jones’s trial that they had seen a man

App. 27
hitting a little girl while driving, although Ray
acknowledged that he could not see the driver’s face
and Laura admitted she could just see “a little bit”
through the front window of the van. Id. at 1175–76.
Joyce Richmond, Jones’s former girlfriend, testified
that she returned Brandie to Jones’s trailer sometime
between 7:00 p.m. and 8:00 p.m. on May 1. Id. at 1176.
Richmond saw Rachel on the couch with a bleeding
head, but without bruises on her face or hands. Id. She
was accompanied at Jones’s trailer by her adult son
Terry, who testified that he questioned Jones about
Rachel’s bleeding head. Id. He testified that Jones told
him he had taken Rachel to the fire department. Id.
Becky testified that she woke up early in the
morning on May 2, found Rachel in the bedroom
doorway, and put her back in bed. Id. at 1177. She next
woke to her mother yelling, and Jones then took Angela
and Rachel to the hospital. Id. Jones returned and took
Becky and Brandie to a neighboring camp, where law
enforcement located Jones and transported him to the
Sheriff’s Department at 8:00 a.m. on May 2. Id. On the
way there, Jones was upset, said there was something
wrong with his little girl, and asked if they would take
him to see her. Id.
Jones’s only witness, his daughter Brandie, testified
that she saw a six-year-old boy hit Rachel in the
stomach with a metal bar on April 30. Jones v. Schriro,
2008 WL 4446619, at *8. The State pointed out
numerous inconsistencies between her testimony at
trial, interviews she gave to law enforcement, and her
testimony at deposition; Brandie also admitted lying to

App. 28
detectives and defense counsel. Jones Habeas, 327 F.
Supp. 3d at 1177.
2. Martinez Hearing
At the Martinez evidentiary hearing, the court
heard testimony from defense trial counsel Sean
Bruner and Leslie Bowman; defense PCR counsel
James Hazel; lead investigative detective Sergeant
Sonia Pesquiera; forensic pathologists Dr. Philip Keen,
Dr. Janice Ophoven, and Dr. John Howard; emergency
medicine and trauma specialist Dr. Mary Pat McKay;
biomechanics and functional human anatomy expert
Dr. Patrick Hannon; and crime scene and bloodstain
pattern analyst Stuart James, among others. Id. at
1178. The court found that the evidence presented
during those proceedings about which trial and PCR
counsel were aware or should have been aware would
have suggested the need for counsel to conduct further
investigation into the medical timeline, blood evidence,
and eyewitness testimony. Id. As discussed further
below, the evidence suggested the bruises could not be
reliably dated and might have resulted from natural or
accidental processes; the scalp, vaginal, and fatal
injuries were likely at least two days old; and the
bloodstains were not typical of those produced during
a beating.
On July 14, 1994, on defense counsel’s motion, the
trial judge authorized up to $1,000 for a defense expert
to review Rachel’s autopsy report or to conduct a
second autopsy. Id. at 1180. On July 20, 1994, Bowman
sent forensic pathologist Dr. Keen a letter
acknowledging Dr. Keen’s agreement to review
Rachel’s autopsy report, and posing several questions

App. 29
for Dr. Keen to consider when reviewing the report,
including whether Rachel’s injuries could be dated and
the amount of force necessary to inflict them. Id.
Bowman confirmed in the letter that Dr. Keen had
explained that his review of the autopsy “may involve
obtaining access to photographs, slides and other
physical evidence” and such access could “be arranged
as necessary.” Id.
At the Martinez hearing, Bowman acknowledged
that it would have been reasonable to anticipate that
the State would present medical evidence dating
Rachel’s injuries to the afternoon of May 1, and Bruner
testified that he did expect that at some point the State
would present medical evidence tying Rachel’s injuries
to those couple of disputed hours. Jones Habeas, 327 F.
Supp. 3d at 1199. Dr. Keen testified that he “would not
have speculated about the time of injury” without
receiving the tissue slides. He explained that he had no
recollection of ever reviewing any photographs, slides,
or other physical evidence, and there is no record that
he had ever received such evidence. Jones Habeas, 327
F. Supp. 3d at 1180. Bowman also testified that she
knew that an examination of the tissue slides was
necessary in order to date Rachel’s injuries, and that it
was possible that she and Bruner “dropped the ball and
didn’t follow up properly.”
About a month later, on August 18, 1994, defense
counsel and Dr. Keen spoke by phone, but neither can
recall what was discussed during that call. Id. Four
days later, on August 22, 1994, Rachel’s body was
released for burial with the consent of defense counsel

App. 30
and without a second autopsy. Id. Dr. Keen did not
testify at Jones’s trial. Id.
We must consider whether there was evidence
presented at the Martinez hearing but not at trial that
might have created reasonable doubt. See Daniels v.
Woodford, 428 F.3d 1181, 1201 (9th Cir. 2005)
(comparing “the evidence that actually was presented
to the jury with that which could have been presented
had counsel acted appropriately”).
Sergeant Pesquiera decided early in the
investigation that Rachel’s injuries occurred on
Sunday, May 1, even though she never asked Dr.
Howard to share his findings on the timing of the
injuries. Jones Habeas, 327 F. Supp. 3d at 1178. In his
pretrial interview and during Angela’s trial, Dr.
Howard suggested a larger window of time during
which Rachel’s injuries might have been inflicted,
including potentially April 30. Id. at 1179. Sergeant
Pesquiera did not document inquiry to any medical
professional about the timing of Rachel’s injuries, and
she agreed at the evidentiary hearing that if she had
more precise medical information that showed the
injuries could have happened several days earlier, as
Dr. Howard’s 2004 declaration suggested, she would
have expanded her investigation. Id. at 1178–79.
During his pretrial interview, Dr. Howard stated
there were no tests available to determine the exact
age of bruises, but he could provide approximations. Id.
at 1179. Dr. Ophoven explained that interpreting the
age of bruises from physical appearance and color was
recognized by the forensic community to be very
inaccurate and should not be done. Id. at 1193. Dr.

App. 31
Howard agreed that he would have told the attorneys
that you cannot really distinguish or date bruises to a
specific day had the attorneys asked him about that at
Jones’s trial. Id.
Dr. Ophoven testified that some of the marks on
Rachel’s body, along with wounds that were actively
bleeding, could have been caused by metabolic changes
at the cellular level from the body not getting enough
oxygen and glucose. Id. She further stated that it was
possible many of the bruises observed on Rachel’s body
at the time of her death could have been caused by falls
or other injuries sustained while Rachel attempted to
walk or otherwise move around during the final stages
of sepsis and peritonitis. Id. at 1194.
During his pretrial interview, Dr. Howard stated
the injury to Rachel’s scalp was “[p]robably two days
old,” and he elsewhere made reference to the scalp
injury as being 72 hours or older. Id. at 1179. Dr.
Ophoven reviewed gross photographs of the scalp
injury and believed they were consistent with Dr.
Howard’s opinion in his pretrial interview. Id. at 1194.
Both Dr. Hannon and Dr. Ophoven concluded that the
pry bar found in the van did not cause Rachel’s scalp
injury or the fatal injury to her bowel, and both agreed
it was possible the injury could have been inflicted by
another child. Id.
In his pretrial interview, Dr. Howard stated that
the vaginal injury most likely occurred one or two days
before death. Id. at 1179. At Angela’s trial, Dr. Howard
testified that the minimal age of the vaginal injury was
12 hours prior to death, but was more typical of around
24 hours. Id.

App. 32
Dr. Ophoven conducted a microscopic examination
of the physical evidence of Rachel’s vaginal injury
obtained during autopsy and concluded that Rachel
had a vaginal injury that was weeks old, and possibly
predated the time period in which Rachel lived with
Jones. Id. at 1192. Dr. Keen also reviewed the photo
micrographs of Rachel’s vaginal injury and identified
connective tissue indicating that the vaginal injury was
multiple days, possibly weeks, old, and was older than
the abdominal injury. Id. Both Dr. Ophoven and Dr.
Keen agreed that the evidence of fresher blood in
Rachel’s vaginal area indicated a newer injury in
combination with an older injury, but this did not
necessarily indicate recent intentional sexual trauma
as opposed to irritation of an older injury, poor hygiene,
itching or scratching, or reopening of an older wound
during the death process. Id. On cross-examination, Dr.
Howard admitted that his testimony at Jones’s trial
could have left the jury with the misimpression that
the vaginal injury was most consistent with infliction
between 2:00 and 5:00 on the afternoon of Sunday, May
1, while his findings were that the injury was most
consistent with infliction on Saturday, April 30. Id. at
1193.
During his pretrial interview, Dr. Howard was not
asked if he could date the small bowel injury, but he
did say it could take hours to a day to develop severe
symptoms of the associated peritonitis, and then an
unspecific number of hours after that to die. Id. at
1179. At Angela’s trial, he testified that the internal
injury was “most consistent” with 24 hours prior to
death. Id.

App. 33
At the Martinez hearing, both Dr. Ophoven and Dr.
McKay concluded that the injury to Rachel’s small
bowel occurred at least 48 hours (and probably many
more hours) before her death. Id. at 1190. Dr. Ophoven
arrived at this conclusion based on her review of the
autopsy records and supporting documentation,
including photographs and tissue slides taken during
Rachel’s autopsy. Id. Dr. McKay testified regarding her
personal experience treating duodenal injuries like
Rachel’s as well as an extensive literature review she
undertook focused on pediatric injuries involving
duodenal rupture, perforation, laceration, treatment
and outcomes. Id. at 1191. In her study of more than
200 cases of intestinal injury in children over many
decades, including at least 160 cases of duodenal
perforation describing the injury timeline from
diagnosis, she did not find a single reported case in
which a duodenal injury resulted in death within 48
hours after the known time of injury. Id. Dr. Ophoven
and Dr. McKay agreed that there was nothing in
Rachel’s medical records that would suggest that her
inflammatory response to the injury would deviate
from the standard case. Id. Dr. Howard explained that
if he had been asked the right questions at Jones’s
trial, he would have testified truthfully that in his
judgment the injury was most consistent with having
occurred prior to May 1, but he admitted that he did
not make this finding clear to Jones’s jury. Id. at 1192.
Using bloodstain analysis principles that were
available in 1994, blood pattern analyst Stuart James
testified that the bloodstains he observed in the van
were consistent with Rachel being carried or moved
within the van while she was bleeding from an open

App. 34
wound. Id. at 1195. He concluded that the bloodstains
were not typical of those produced during a beating
because there was only a single laceration on Rachel’s
head, which often just produces blood flow and not
impact splatter. Id. He further explained that the
traces of blood on Jones’s May 2 clothing indicated
contact and proximity to a source of wet blood but were
insufficient to conclude anything about whether a
beating took place in the van. Id. James testified that
these stains could have occurred as the result of lifting
or otherwise attending to Rachel while she was
bleeding. Id.
3. Counts One, Two, and Three
The district court concluded that the convictions of
Jones on Counts One, Two, and Three all depended on
the premise that Jones physically and sexually
assaulted Rachel on May 1, when she was in his
custody, and there was a reasonable probability that
the jury would have had a reasonable doubt about that
conclusion had defense counsel performed adequately
to challenge the premise that the injuries were inflicted
at that time. Id. at 1212.
a. Deficient Performance
Although the court defers to a lawyer’s strategic
trial choices, “counsel has a duty to make reasonable
investigations or to make a reasonable decision that
makes particular investigations unnecessary.”
Strickland, 466 U.S. at 691. The State argues the
district court departed from Strickland’s presumption
of reasonableness and effectively presumed that
counsel behaved unreasonably.

App. 35
In particular, the State argues that defense counsel
acted reasonably by consulting with independent
medical pathologist Dr. Philip Keen before trial,
specifically inquiring about the timing of Rachel’s
injuries. Because neither Dr. Keen nor Jones’s
attorneys could recall the content of the conversation
between Dr. Keen and counsel or the reason Dr. Keen
was not involved further in the case, the State contends
that the court should have presumed counsel acted
reasonably and strategically. The State argues the
court’s factual finding that counsel abandoned the
medical investigation based on “inattention and
neglect, not reasoned strategic judgment” was clearly
erroneous because no affirmative evidence established
that counsel abandoned their medical investigation for
negligent or inattentive reasons.
We agree that the “court must indulge a strong
presumption that counsel’s conduct falls within the
wide range of reasonable professional assistance.”
Strickland, 466 U.S. at 689. The State correctly notes
that neither Dr. Keen nor counsel could recall the
content of their phone conversation, which might
otherwise shed light on exactly why no further
consultation occurred.
The State does not dispute, however, that both
Bruner and Bowman acknowledged that it would have
been reasonable to anticipate that the State would
present medical evidence dating Rachel’s injuries to the
afternoon of May 1. Jones Habeas, 327 F. Supp. 3d at
1199. The district court concluded defense counsel
acted unreasonably in failing to conduct their own
investigation on the dating of the injuries and in failing

App. 36
to challenge any of the State’s evidence that suggested
all of Rachel’s injuries were consistent with being
inflicted on the afternoon of May 1, when Rachel was
alone with Jones in his van. Id. at 1200. Defense
counsel also never challenged the critical injury
timeline evidence, failing to impeach Dr. Howard with
his earlier statements and testimony finding Rachel’s
injuries “most consistent” with infliction prior to May
1. Id. at 1206. Bruner admitted his failure was due to
inattention. Id.
In her prior letter to Dr. Keen, Bowman
acknowledged that he had explained that his review of
the autopsy “may involve obtaining access to
photographs, slides and other physical evidence.” Id. at
1180. Bowman also testified that she knew that an
examination of the tissue slides was necessary in order
to date Rachel’s injuries, and that it was possible that
she and Bruner “dropped the ball and didn’t follow up
properly.” The State on appeal concedes that Dr. Keen
did not receive those slides. We conclude that the
district court did not clearly err by finding that
“[c]ounsel knew the slides were needed to make a
reliable timeline assessment but failed to ensure they
were provided to Dr. Keen.” Jones Habeas, 327 F.
Supp. 3d at 1202.
Counsel also knew before trial that there was going
to be evidence presented with respect to the
interpretation of blood evidence, but failed to consult
with any bloodstain interpretation expert. Id. at 1203.
Becky reported that Jones and Angela did CPR on
Rachel, then rushed her to the hospital, so there was
reason to believe that the trace amounts of blood on

App. 37
Jones’s clothing might have been transferred from
Rachel’s bleeding head while Jones attempted to
administer aid or transport Rachel to the hospital. Id.
The State does not challenge the district court’s
conclusion that trial counsel’s failure to investigate the
blood evidence was objectively unreasonable. See id. at
1203.8
The State also argues reasonable counsel could have
elected not to present medical testimony on any count
because that testimony would have shown Jones’s guilt
on Count Four and, by extension, Count Five, the most
serious charge. Dr. Keen and Dr. Ophoven both
conceded that Rachel may have suffered a new vaginal
injury shortly before her death, which may have been
damaging to Jones on Count One, the sexual assault
charge, which was also a predicate for the felony
murder charge in Count Five. The State does not
dispute that counsel did not obtain an opinion from Dr.
Keen or any other expert regarding the injury timeline,
however, so counsel’s decision could not have been
made based on the asserted “double-edged” and
“imprecise[e]” nature of an expert’s opinion. We agree
with Jones that trial counsel cannot reasonably choose
not to present evidence without undertaking the

8

The district court ultimately concluded that the presentation at
trial by the defense of a bloodstain expert would not have, by itself,
established a reasonable probability of a different verdict. In
combination with the evidence discussed above regarding the
timing of the injuries, however, the district court concluded that
the potential impact of a bloodstain expert strengthened its finding
that Jones suffered prejudice from counsel’s deficient performance.
Id. at 1210.

App. 38
underlying investigation that would undercover the
evidence.
b. Prejudice
The State argues Jones has not shown a reasonable
probability of a different result given the medical
evidence’s imprecision and the strong circumstantial
evidence of his guilt. It points to testimony by Becky
that Rachel was eating and behaving normally on
April 30 and the morning of May 1; by two
neighborhood children that they saw Jones striking
Rachel in the afternoon on May 1; by a neighbor that
she saw Rachel markedly ill in the late afternoon, after
she had returned from her excursion alone with Jones;
and by Richmond, her son, and Becky that Rachel’s
health declined in the late evening.
At trial, the State presented substantial evidence
that all of Rachel’s injuries were consistent with
infliction on the afternoon of Sunday, May 1, when she
was alone with Jones in his van. Defense trial counsel
could have questioned this evidence or presented its
own investigative findings to cast doubt on this
timeline but failed to do so. Jones Habeas, 327 F. Supp.
3d at 1206.
At trial, Dr. Howard testified that the abdominal
injury occurred as few as twelve hours prior to death.
Id. at 1171. Drs. Ophoven and Keen both estimated
that her abdominal injury occurred two or more days
prior to her death. Id. at 1190. At Angela Gray’s trial,
Dr. Howard indicated that the internal injuries
occurred about 24 hours prior to her death. Id. at 1179.
He also agreed that if asked the right questions by

App. 39
defense counsel at Jones’s trial, he would have testified
truthfully that the injury was most consistent with
having occurred prior to May 1. Id. at 1192.
Dr. Howard also testified at Jones’s trial that
Rachel’s scalp injury was consistent with having been
inflicted between the hours of 2:00 p.m. and 5:30 p.m.
the day prior to her death, and her vaginal injury
occurred on a time frame consistent with all her other
injuries. Id. at 1171. In his pretrial interview, Dr.
Howard dated the scalp injury as probably two days
old. Id. at 1179. Dr. Ophoven provided the same earlier
time frame for the scalp injury. Id. at 1194. Dr. Keen
estimated that the vaginal injury was older than the
abdominal injury. Id. at 1192. Dr. Ophoven estimated
that it began weeks prior and possibly predated when
Jones began living with Rachel and her family. Id. at
1192. Dr. Howard also testified at the Martinez hearing
that the injury was most consistent with infliction on
Saturday, April 30. Id. at 1193.
We agree with the district court that the evidence
presented at the Martinez hearings “undermines
considerably the confidence in the outcome of the trial
court proceedings.” Jones Habeas, 327 F. Supp. 3d at
1206.
4. Count Four
Counts One to Three charged Jones with inflicting
affirmative injury to Rachel by sexual assault, causing
Rachel’s abdominal injury, and lacerating her scalp and
bruising her, respectively. In contrast, the charge
against Jones in Count Four was instead based on his
failure to take Rachel to the hospital after she was

App. 40
injured. Specifically, Count Four charged Jones with
child abuse under circumstances likely to cause death
or serious physical injury, in violation of A.R.S. § 133623(B). The jury instructions required proof that:
1. The defendant acted under circumstances
likely to cause death or serious physical injury;
and 2. The defendant caused physical injury to
a child, or, having custody or care of a child, the
defendant allowed the health of the child to be
endangered; and 3. The defendant acted with
one of the following mental states:
(A) intentionally or knowingly, (B) recklessly, or
(C) with criminal negligence.
The third element of the crime, involving the
defendant’s mental state, distinguishes between
different forms of the crime. Violation of section 133623 is a class 2 felony “[i]f done intentionally or
knowingly,” a class 3 felony “[i]f done recklessly,” and
a class 4 felony “[i]f done with criminal negligence.”
A.R.S. §§ 13-3623(B). The jury instructions explained
that the jury was permitted to find the defendant guilty
of the less serious crimes of child abuse committed
recklessly or with criminal negligence (as opposed to
intentionally or knowingly). In addition, the trial court
correctly instructed the jurors that Counts Two and
Four could only be considered predicate felonies for
felony murder if they were committed intentionally or
knowingly, under circumstances likely to produce
death or serious injury. Jones Habeas, 327. F. Supp. 3d
at 1163–64. A finding that Jones had acted recklessly
or with criminal negligence in failing to obtain medical

App. 41
assistance for Rachel would not support a conviction for
felony murder.
The jurors returned a guilty verdict, finding that
Jones committed the crime intentionally or knowingly.
Id. at 1164. At sentencing, the court described Count
Four as “a dangerous crime against children in the first
degree with two prior predicate felony convictions” and
“a class two felony.” It then sentenced Jones to life
imprisonment, his longest term-of-years sentence.
The district court found there was a reasonable
probability that the jury would not have found that
Jones acted with a knowing or intentional state in
Count Four if the defense put on evidence questioning
the medical timeline and suggesting he was not the
actual perpetrator of the assault. Id. at 1213–14.
a. Deficient Performance
The State argues counsel reasonably attempted to
challenge Count Four only on the ground that Jones
lacked care or custody of Rachel because the Arizona
Supreme Court did not pronounce the legal standard
on that issue until his case. See Jones State, 937 P.2d
at 314–16. Although it may have been reasonable for
counsel to challenge Count Four on the ground that
Jones lacked care or custody, that defense was not
incompatible with a defense based on the injury
timeline. Defense counsel could have made both
arguments. The fact that counsel brought a separate,
non-antagonistic defense should not affect the relevant
Strickland inquiry of whether counsel’s performance
was deficient and prejudicial in failing to adequately
investigate the medical evidence and medical timeline

App. 42
of Rachel’s injuries. See Jones Habeas, 327 F. Supp. 3d
at 1212 n.17.
The State also argues the medical testimony Jones
presented at his habeas proceeding was double-edged,
so reasonable counsel could have elected to omit it,
precluding a finding of deficient performance. As noted
above, however, counsel’s decision could not have been
made based on the doubled-edged nature of experts’
opinions because counsel did not obtain an expert’s
opinion on the injury timeline. Counsel could not have
decided not to present evidence because it was doubleedged if he was never aware of that evidence in the
first place.
b. Prejudice
To prove Jones acted knowingly, the State had to
prove he was “aware or believe[d]” Rachel’s health was
endangered and she needed medical treatment. A.R.S.
13-105(9)(a)–(b).
The State argues Jones’s expert witnesses at the
Martinez hearing conceded facts sufficient to prove
Jones’s guilt. It argues Count Four is “established if
Jones intentionally or knowingly permitted Rachel’s
health to be endangered,” so it does not matter whether
he lacked knowledge of the extent of Rachel’s injuries.
(emphasis in original). In support of this proposition, it
cites to State v. Payne, 314 P.3d 1239 (Ariz. 2013);
State v. Mahaney, 975 P.2d 156 (Ariz. App. 1999); and
Varela v. Ryan, No. CV-15-1971-PHX-JJT (JFM), 2016
WL 8252819 (D. Ariz. Nov. 15, 2016). The State argues
the evidence, including concessions by Drs. Ophoven
and McKay, establish that Jones was aware Rachel’s

App. 43
condition was declining and her health
endangered, yet he did nothing to help her.

was

As the State itself acknowledges, though, state law
requires evidence that Jones intentionally or knowingly
permitted that Rachel’s health be endangered. A.R.S.
§ 13-105(9)(a)–(b). The Arizona Court of Appeals has
defined this term as “expose to potential harm,” which
“requires more than the ordinary danger to which
children are exposed on a daily basis.” Mahaney, 975
P.2d at 159, 159 n.4. While the Arizona Supreme Court
has affirmed that the trial court need not allow the
defendant to argue that the State must prove the child
was abused under circumstances that the defendant
intended or knew were likely to cause death or serious
physical injury, it did so because “the mens rea refers
to the act that the defendant ‘does.’” Payne, 314 P.3d at
1260–61. An Arizona district court has also concluded
that “the danger must result from the defendant’s
actions; pre-existing danger from someone else’s
actions does not suffice.” Varela, 2016 WL 8252819, at
*13. We agree with the district court in this case that
“[i]f Petitioner was not the perpetrator, if he did not
cause the injuries, there was little evidence presented
at trial that would suggest he was put on notice of the
severity of the injuries, and thus could form the
requisite intentional and knowing mental state.” Jones
Habeas, 327 F. Supp. 3d at 1213.
At the habeas hearing, Dr. Ophoven described the
likely symptoms of Rachel’s cause of death, a ruptured
duodenum with dehydration, shock, and eventually
peritonitis. She described how “they wouldn’t feel good,
but they would not necessarily look like they were

App. 44
suffering from an impending catastrophe.” She
described cases of children, as well as adults, not
appearing to need medical attention “until there’s
actually a catastrophic decompensation like happened
in this case,” which could be “as short as two or three
hours.” She described how in children, “the period
before irreversible shock can be very short,” so until
that moment, “you may or may not appreciate that a
catastrophic event is about to take place.” She also
testified that the symptoms of small intestine injury
could be missed, as the symptoms frequently are not
interpreted as serious until the catastrophe manifests
itself.
Dr. McKay testified that the symptoms of
discomfort and pain would vary by person. She
explained that children in the victim’s age group might
not have the ability to explain that the symptoms were
different or worse than normal stomach ache. She also
testified that in her personal experience, she had seen
delay in severe symptoms and in diagnosis of duodenal
injuries.
Dr. Ophoven and Dr. McKay both testified that the
seriousness of an injury like Rachel’s could readily be
missed until the final stages. At the hearing on
November 1, 2017, Dr. Ophoven testified that there
could be a significant delay of symptoms that looked
really bad from duodenum injury. We conclude that
there is a reasonable probability that the jury would
not have found that Jones intentionally or knowingly
exposed Rachel to “more than the ordinary danger to
which children are exposed on a daily basis.” See
Mahaney, 975 P.2d at 159 n.4.

App. 45
Furthermore, both Jones and Rachel’s mother
Angela had care or custody of Rachel in the hours
leading up to her death. Angela was charged with and
convicted of endangering Rachel by failing to obtain
medical assistance in Count Four, but she was found by
the jury in her trial to have acted only recklessly, not
intentionally or knowingly. We note that Angela told
police that she and Jones discussed taking Rachel to
the hospital on the night of May 1, but she was “scared”
that if she did so “they might take her away” because
of the cut on her head and the bruises on her stomach.
Jones Habeas,327 F. Supp. 3d at 1184. Nonetheless,
her jury determined she had acted only “recklessly.” Id.
at 1163. As a result, she was only convicted of the
lesser included class 3 felony, for which she was
sentenced to a term of 8.75 years.
We conclude that it was reasonably probable that a
similar verdict would have been reached on Count Four
for Jones, if the defense had presented evidence that
Rachel’s injuries had been inflicted earlier in time,
meaning before the State had established that Rachel
was in Jones’s sole custody. Although the jury could
reasonably have convicted Jones of intentional or
knowing action even including the evidence counsel
should have presented, we conclude that Jones has
shown “that there is a reasonable probability that, but
for counsel’s unprofessional errors, the result of the
proceeding would have been different.” See Strickland,
466 U.S. at 694.
We acknowledge that this is a close question. There
was ample evidence that could have supported a
verdict that Jones’s action in failing to obtain medical

App. 46
assistance was intentional or at least knowing. Dr.
Ophoven acknowledged that she was “not backing
down from [her] opinion that a caretaker of the child
should have known that she needed immediate medical
attention.” She had previously stated her opinion that
in the hours before Rachel, Angela, and Jones went to
bed, “it would have been evident to anyone with Rachel
that she was in need of immediate medical attention,”
so “the decision to withhold medical care is consistent
with fatal neglect.”
The night before her death, multiple people noticed
Rachel’s condition and pointed it out to Jones. Joyce
Richmond reported that she was at Jones’s trailer the
night of May 1, and Rachel was lying quietly on a
pillow with her head bleeding. Jones Habeas, 327 F.
Supp. 3d at 1184. Jones and Angela told her that some
kids had pushed Rachel out of the van. Id. Shortly after
his arrest, Jones himself told police that he and Angela
were up with Rachel much of Sunday night, and Rachel
would throw up anytime she drank anything. Id. at
1183.
Jones also told multiple individuals that he had
taken Rachel to get medical attention. Angela told
police during questioning that Jones told her he had
taken Rachel to the fire station where they rinsed her
head out and informed him she was not in need of
stitches. Id. at 1184. Joyce Richmond told police that
Jones told her he had taken Rachel to the fire station,
and they said she would be all right. Id. Terry
Richmond testified that he questioned Jones about
Rachel’s bleeding head, and Jones told him he had
taken Rachel to the fire department. Id. at 1176. When

App. 47
he was interviewed by police shortly after he was
arrested, Jones stated that he did not take Rachel to
the Rural Metro Fire Department, as he had told
Angela and others, because he saw a police vehicle
there and did not have a driver’s license. Id. at 1183.
He told police that he did encounter an EMT at the
Quik-Mart who looked at the cut, shined a light in the
eyes, and advised Jones to “keep the ice pack on it and
it’ll be okay.” Id. The captain of the Rural Metro Fire
Department testified that all emergency encounters
were logged, but there were no records of Jones or
Rachel in the call log. Id. at 1176.
All of that evidence could support a factual finding
by the jury that the failure of Jones to seek medical
assistance for Rachel was deliberate because he did not
want to call attention to his own misconduct. That
result was not certain, however. Most of this evidence
applied to support the case against Angela, as well. She
was Rachel’s mother, likely to have been held most
responsible for observing her daughter’s condition, but
the jury in her trial declined to find that she had acted
intentionally or knowingly. It appears to us, as it did to
the district court, that there was a reasonable
probability that, if presented with evidence that
Rachel’s injuries had not been inflicted when she was
in Jones’s sole custody, the jury in Jones’s case would
similarly have had a reasonable doubt on the question
of whether Jones’s failure to obtain medical care for her
was the result of intentional or knowing misconduct
instead of recklessness.
Jones also challenges his conviction on Count Four
by arguing that the State was required to show that

App. 48
the delay in seeking treatment created or increased a
likelihood of death or seriously physical injury. He
argues Dr. Ophoven and Dr. McKay each cast doubt on
whether any actions by Jones after Rachel appeared ill
would have had any impact. Id. As a result, he
contends that he could not be convicted on Count Four
under any mental state, including recklessness,
because Rachel would have died anyway.
Dr. Ophoven testified that once a person entered
irreversible shock, the system of blood circulation had
broken down and the person could not be recovered
even in the hospital. However, on cross-examination,
she clarified that if Rachel had gone to the doctor
before irreversible shock set in, this would have been a
potentially survivable injury. She later confirmed that
these injuries were “very treatable.” Jones’s experts at
the Martinez hearings also agree that his “failure to
take Rachel to the hospital either caused or contributed
to her death.” See Jones Habeas, 327 F. Supp. 3d at
1213. The evidence does not support the argument that
nothing that Jones did or did not do would have
mattered. We also agree with the district court that
“there is evidence that Petitioner was concerned about
getting Rachel care because he would be perceived as
the perpetrator of child abuse,” so he has not
demonstrated that he lacked any criminal mental
state. Id.
c. Remedy
Sixth Amendment remedies should be “tailored to
the injury suffered from the constitutional violation
and should not unnecessarily infringe on competing
interests.” United States v. Morrison, 449 U.S. 361, 364

App. 49
(1981). “Thus, a remedy must ‘neutralize the taint’ of a
constitutional violation, while at the same time not
grant a windfall to the defendant or needlessly
squander the considerable resources the State properly
invested in the criminal prosecution.” Lafler v. Cooper,
566 U.S. 156, 170 (2012) (citations omitted).
With respect to Count Four, this is not a situation
where “resentencing alone will not be full redress for
the constitutional injury.” See Johnson v. Uribe, 700
F.3d 413, 426 (9th Cir. 2012) (quoting Lafler, 566 U.S.
at 171). Jones has demonstrated prejudice as to his
specific offense of conviction but not as to his overall
guilt on Count Four. He has not established a
reasonable probability that he would not have been
convicted at all on that charge, particularly of the
lesser included offense of having acted recklessly in
failing to assist Rachel. The district court also
concluded that “Petitioner’s own experts in these
proceedings do agree that Petitioner’s failure to take
Rachel to the hospital either caused or contributed to
her death” but concluded that their testimony did not
“show that Petitioner had the requisite mental state of
‘intentionally and knowingly’ to support a conviction of
the class 2 felony child abuse charge, a felony murder
predicate, as opposed to a lesser charge of the class 3
felony, recklessly, or class 4 felony, negligently.” Jones
Habeas, 327 F. Supp. 3d at 1213. Our own de novo
review leads us to conclude that a conviction on Count
Four for reckless conduct was a reasonable possibility,
but that a complete acquittal on Count Four or a
conviction for the lesser crime of having acted with
criminal negligence were not reasonable possibilities.
We therefore conclude that “a new trial would [not] be

App. 50
tailored to such constitutional violations and would
improperly grant [Jones] a windfall.” See Loher v.
Thomas, 825 F.3d 1103, 1122 (9th Cir. 2016). The
appropriate remedy for this error is resentencing based
on the lesser included offense, for reckless rather than
intentional or knowing conduct. Alternatively, because
the evidence could have supported a conviction on
Count Four based on intentional or knowing
misconduct by Jones, the State may elect to retry him
on that charge.
5. Count Five
Count Five charged Jones with felony murder for
either sexual assault of a minor under fifteen (Count
One) or child abuse committed intentionally or
knowingly under circumstances likely to cause death or
serious physical injury (Counts Two and Four). Jones
Habeas, 327 F. Supp. 3d at 1212. The jury found Jones
guilty of Count Five after finding that he had
committed Counts Two and Four under circumstances
likely to produce death or serious physical injury with
a knowing or intentional mental state. Id. The habeas
court concluded that Jones had demonstrated prejudice
with respect to the capital charge because there was a
reasonable probability that the jury would not have
convicted Jones of any of the predicate felonies. Id. at
1214.
As discussed above, the State argues that Jones
failed to prove deficient performance or prejudice on
Count Five largely because the evidence at the
Martinez hearing did not call into question his guilt on
Count Four, and by extension Count Five. Because
we conclude Jones has demonstrated deficient

App. 51
performance and prejudice with respect to Counts One,
Two, and Four, he has also demonstrated ineffective
assistance on Count Five.
IV.

Conclusion

We hold that the district court properly considered
evidence adduced at the Martinez hearing to determine
whether Jones’s IAC claim was excused from
procedural default when determining the merits of
Jones’s underlying IAC claim even though this
evidence was not before the state court. Jones has
demonstrated that counsel rendered deficient
performance in failing to adequately investigate
whether Rachel’s injuries were sustained during the
time she was alone with Jones, and that he was
prejudiced by these failures. As to Count Four,
however, this failure only affected the jury’s
determination that Jones had acted intentionally or
knowingly, but not his underlying guilt on the lesser
included offense of reckless misconduct. Accordingly,
we affirm the district court’s grant of Jones’s habeas
petition but vacate in part the district court’s remedy.
The district court is directed to amend its order
accordingly. The State may elect to seek resentencing
on Count Four or to retry him for the more serious
version for that offense. Otherwise, the district court’s
order that the State release Jones from custody unless
it initiates new trial proceedings is affirmed.
AFFIRMED IN PART; VACATED IN PART;
REMANDED.

App. 52

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
No. CV-01-00592-TUC-TMB
[Filed: July 31, 2018]
__________________________________________
Barry Lee Jones,
)
)
Petitioner,
)
)
v.
)
)
Charles L. Ryan, et al,
)
Respondents.
)
__________________________________________)
DEATH PENALTY CASE
MEMORANDUM OF DECISION AND ORDER

App. 53
TABLE OF CONTENTS
I.

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . 3

II.

FACTUAL
AND
PROCEDURAL
BACKGROUND . . . . . . . . . . . . . . . . . . . . . . 4

III.

GOVERNING LAW . . . . . . . . . . . . . . . . . . . . 8

IV.

RELEVANT FACTS . . . . . . . . . . . . . . . . . . 11
A. Trial Court Proceedings: The Evidence
Presented at Trial . . . . . . . . . . . . . . . . . . 11
1. Rachel’s Injuries and Cause and Time
of Death . . . . . . . . . . . . . . . . . . . . . . . . 13
2. Events of April 30–May 2, 1994 . . . . . 20
B. Post-Conviction Relief Proceedings . . . . . 26
C. Federal Habeas Proceedings . . . . . . . . . . 27
1. Evidence Suggesting the Need for
Further Investigation . . . . . . . . . . . . . 28
2. Evidence That Could Have Been
Presented at Trial . . . . . . . . . . . . . . . . 46

V. ANALYSIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 60
A. Ineffective Assistance of Trial Counsel:
Deficient Performance . . . . . . . . . . . . . . . 60
1. Medical Evidence . . . . . . . . . . . . . . . . 60
2. Bloodstain Evidence . . . . . . . . . . . . . . 66
3. Reliability of Eyewitness Testimony/
Accident Reconstruction . . . . . . . . . . . 67

App. 54
4. Funding . . . . . . . . . . . . . . . . . . . . . . . . 69
5. Trial Strategy . . . . . . . . . . . . . . . . . . . 70
B. Ineffective Assistance of Trial Counsel:
Prejudice . . . . . . . . . . . . . . . . . . . . . . . . . . 72
1. Timing of Rachel’s Injuries. . . . . . . . . 72
2. Bloodstain Evidence . . . . . . . . . . . . . . 76
3. Reliability of Eyewitness Testimony/
Accident Reconstruction . . . . . . . . . . . 79
4. Conclusion . . . . . . . . . . . . . . . . . . . . . . 80
C. Ineffective Assistance of PCR Counsel:
Deficient Performance . . . . . . . . . . . . . . . 84
D. Ineffective Assistance of PCR Counsel:
Prejudice . . . . . . . . . . . . . . . . . . . . . . . . . 90
VI. CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . 90

App. 55
I.

INTRODUCTION

Petitioner Barry Lee Jones (“Petitioner”) is a state
prisoner under sentence of death. In 2001, Petitioner
filed a Petition for Writ of Habeas Corpus (“Petition”)
alleging that he is imprisoned and sentenced to death
in violation of the United States Constitution. The
Court denied the Petition. This matter is now before
the Court on limited remand from the Ninth Circuit
Court of Appeals. (See Doc. 158.)1 The Court of Appeals
has ordered this Court to reconsider Petitioner’s claim
of ineffective assistance of counsel (“IAC”) in failing to
conduct an adequate investigation at the guilt and
penalty phases of trial (“Claim 1D”),2 in the light of
intervening law, including Martinez v. Ryan, 566 U.S.
1 (2012).
Following supplemental briefing (Docs. 167, 175,
180), the Court found that an evidentiary hearing
would be necessary to determine whether Petitioner
could establish cause to excuse the procedural default
of Claim 1D. (Doc. 185.) On October 30, 2017, the Court
held a seven-day evidentiary hearing on the guilt-phase
portion of the IAC claim. Following the hearing, the
parties submitted post-hearing briefs and responses.

1

“Doc.” refers to numbered documents in this Court’s case file
(prior to August 2005) and this Court’s electronic case docket
(beginning August 2005).

2

This Court previously denied on the merits a narrow subset of
Claim 1D—the allegation of ineffectiveness based solely on
counsel’s failure to meet with Petitioner a sufficient number of
times to prepare an adequate defense. (Doc. 141 at 24.) That
subset of Claim 1D is not at issue in this limited remand.

App. 56
(Docs. 288– 291.) After careful consideration of the trial
record and the evidence and argument presented in
these proceedings, the Court concludes that Petitioner
has established cause to excuse the procedural default
of his meritorious guilt-phase IAC claim, and grants
the Petition.3 Petitioner will be released from custody
unless, within 45 days, the State initiates new trial
proceedings against him.
II.

FACTUAL
AND
BACKGROUND

PROCEDURAL

In April and early May 1994, Petitioner was sharing
his trailer with Angela Gray (“Angela”) and her three
children, including the four-year-old victim in this case,
Rachel Gray (“Rachel”), and her siblings, 11-year-old
Rebecca Lux (“Becky”) and 14-year-old Jonathon Lux
(“Jonathon”). Petitioner’s 11-year-old daughter Brandie
Jones (“Brandie”) also lived in the same trailer. At
approximately 6:15 a.m. on Monday, May 2, 1994,
Petitioner drove Rachel and Angela to Kino
Community Hospital in Tucson, Arizona, dropped them
off, and left. Rachel was admitted and pronounced dead
on arrival. Her cause of death was determined to be
homicide caused by a small bowel laceration due to
blunt abdominal trauma. Rachel also had a laceration
of her left scalp behind the ear, injuries to her labia
and vagina, and multiple internal and external
contusions.

3

The Court addresses only the guilt-phase portion of this claim
because, in light of its disposition, the penalty-phase portion of the
claim need not be reviewed. See Hernandez v. Chappell, 878 F.3d
843, 865 n.4 (9th Cir. 2017).

App. 57
Petitioner was arrested that same day and charged
with knowingly and intentionally: (1) engaging in an
act of sexual intercourse with Rachel, in violation of
A.R.S. § 13-1406 (Count One); (2) causing physical
injury to Rachel by striking her abdominal area
causing a rupture to her small intestine under
circumstances likely to produce death or serious
physical injury, in violation of A.R.S. §13-3623(B)(1)
(Count Two); (3) causing physical injury to Rachel by
bruising her face and ear and causing a laceration to
her head, in violation of A.R.S §13-3623(C)(1) (Count
Three); (4) causing Rachel to be placed in a situation
where her health was endangered under circumstances
likely to produce death or serious physical injury, in
violation of A.R.S. § 13-3623(B)(1) (Count Four); and
felony murder, in violation of A.R.S. § 13-1105 (Count
Five).4 Angela was also charged under Counts Four and
Five of the indictment, but was tried separately and
convicted under Count Four prior to Petitioner’s trial.
(ROA 2; Doc. 288, Supp. Ex. 1.)5 Because the jury
determined Angela acted recklessly, rather than
intentionally or knowingly, in failing to render care she
was ineligible for conviction of felony murder and
therefore acquitted on Count Five. (Doc. 288, Supp. Ex.
1.)

4

Pima County Superior Court Judge James C. Carruth presided
over Petitioner’s trial and sentencing. Pima County Superior Court
Judge John M. Quigley presided over Petitioner’s petition for postconviction relief proceedings.

5

The Court takes judicial notice of the verdict and judgment
against Angela Gray.

App. 58
Petitioner was tried before a jury in April 1995. The
gravamen of the prosecution’s case against Petitioner
was that Rachel was solely in Petitioner’s care on the
afternoon of May 1, 1994 when her injuries, including
her fatal abdominal injury, were inflicted. The trial
judge instructed the jurors that two of the child abuse
charges—Count Two, alleging Petitioner struck Rachel
in the abdomen rupturing her small intestine, and
Count Four, alleging Petitioner endangered Rachel by
failing to take her to a hospital—and the sexual assault
charge—Count One—could be predicate felonies for the
felony murder charge. The trial judge further
instructed the jurors that the child abuse charges could
only be predicate felonies if Petitioner committed them
intentionally or knowingly under circumstances likely
to produce death or serious physical injury. See State v.
Jones, 188 Ariz. 388, 391, 937 P.2d 310, 313 (1997).
Petitioner was convicted on all charges. See Jones, 188
Ariz. at 391, 937 P.2d at 313. The jurors found that
both child abuse charges that qualified as predicate
felonies were committed under circumstances likely to
cause serious physical injury or death and that
Petitioner’s mental state was intentional or knowing.
During the penalty phase of trial, Judge Carruth
found the existence of two aggravating factors: the
murder was especially cruel and the victim was under
the age of 15. Judge Carruth found no mitigating
factors sufficiently substantial to call for leniency, and
sentenced Petitioner to death for the first-degree
murder conviction.
The Arizona Supreme Court affirmed the
convictions and sentences, finding that evidence

App. 59
supported the conclusion that virtually all of Rachel’s
injuries occurred within a two-hour period:
. . . Rachel’s sister, Rebecca, testified that
Rachel spent the morning with her and their
brother watching cartoons. Rachel “seemed fine”
when her siblings went out to ride their bikes,
about 3:00 p.m. Additionally, Rachel “seemed
fine” after the first two times that she returned
with defendant. Rachel first accompanied
defendant to the market. Rebecca saw Rachel
standing at the door when they returned, and
she seemed fine. The second time defendant
returned with Rachel, Rebecca again saw her
standing at the door, and Rachel appeared to be
fine. If Rachel had already suffered genital
injuries, she would have been in pain. The
examiner testified at the aggravation/mitigation
hearing that the genital injuries would have
caused pain at basically all times. The third time
that defendant went out with Rachel, he told
Rebecca that he was going to his brother’s house.
However, his brother’s wife testified that
defendant never visited their house on that day.
During defendant’s third trip with Rachel, two
children saw defendant hitting Rachel while he
drove. One of the children placed the time at
5:00 p.m. Blood spatter in the van likely was
created by defendant hitting Rachel after she
had already suffered a head injury. Additionally,
blood spatter consistent with Rachel’s blood type
was found on defendant’s jeans, along with
traces of blood on defendant’s shirt and boots.
The next time that Rebecca saw Rachel, at about

App. 60
6:30 p.m., Rachel was in a lot of pain. Many of
the injuries that Rachel now had were consistent
with defense against a sexual assault. Thus,
substantial evidence was introduced to conclude
that Rachel’s physical assault and sexual assault
all occurred within the two-hour time period
during which she was alone with defendant in
his van.
The evidence of the time period of Rachel’s
injuries, the testimony that defendant was seen
hitting her, the fact that Rachel was fine before
she went out with defendant the third time and
was injured when she returned, and the fact
that defendant told others that he had taken
Rachel to see the paramedics when he had not,
support the finding that defendant committed
the sexual assault along with, and as part of, the
overall physical assault.
Jones, 188 Ariz. at 397, 937 P.2d at 319.
Petitioner filed a petition for post-conviction relief
(“PCR”) with the trial court. After an evidentiary
hearing, the PCR petition was denied in its entirety.
(ROA-PCR 31.)6 The Arizona Supreme Court
6

“ROA” refers to the 5-volume record on appeal from trial and
sentencing. “APP” refers to the record on appeal from direct review
to the Arizona Supreme Court. “ROA-PCR” refers to the docket
numbers from the one-volume record on appeal from postconviction proceedings prepared for Petitioner’s petition for review
to the Arizona Supreme Court (Case No. CR-01-0125-PC). “PR”
refers to the docket numbers of documents filed at the Arizona
Supreme Court for that petition for review proceeding. “RT” refers
to the reporter’s transcripts from Petitioner’s state court

App. 61
summarily denied Petitioner’s Petition for Review. (PR
7.)
Petitioner initiated this federal habeas proceeding
on November 5, 2001 (Doc. 1), and filed an amended
petition on December 23, 2002, raising 21 claims (Doc.
58). In Claim 1D of the petition, he alleged, in part,
that counsel was ineffective for failing to:
(1)

adequately investigate potential
suspects and crucial witnesses;

(2)

raise legal challenges
identifications;

(3)

adequately
challenge
testimony; and

(4)

hire a forensic pathologist to challenge the
State’s evidence regarding the nature and
timing of the victim’s injuries.

to

other

eyewitness

blood-spatter

(Id. at 37–66.) The parties briefed the claims (Docs. 69,
79) and motions for evidentiary development (Docs. 89,
90, 101, 102, 108, 109, 113). Petitioner asserted PCR
counsel’s ineffectiveness as cause to excuse the
procedurally defaulted portion of Claim 1D. (Doc. 79 at
25, 60–62.) This Court determined, consistent with
proceedings. The state court original reporter’s transcripts and
certified copies of the trial and post-conviction records were
provided to this Court by the Arizona Supreme Court on December
12, 2001. (Doc. 16.) “EH RT” refers to the reporter’s transcripts
from Petitioner’s evidentiary hearing in his federal habeas
proceedings. “EH Ex. at ____” refers to the Bates stamped page
number of exhibits admitted during Petitioner’s evidentiary
hearing in his federal habeas proceedings.

App. 62
then-governing Supreme Court precedent, see Coleman
v. Thompson, 501 U.S. 722, 735 n.1 (1991), that PCR
counsel’s purported ineffectiveness did not constitute
cause for the procedural default because “there is no
constitutional right to counsel in state PCR
proceedings.” (Doc. 115 at 9–11.) The Court ordered
supplemental briefing regarding Petitioner’s allegation
that it would be a fundamental miscarriage of justice
not to review the entirety of Claim 1D on the merits.
(Id. at 40.) The Court denied relief on September 29,
2008, concluding that Petitioner had not satisfied the
fundamental miscarriage of justice standard to
overcome the default of Claim 1D. (Doc. 141 at 23.)
While Petitioner’s appeal from this Court’s denial of
habeas relief was pending, the Supreme Court decided
Martinez, holding that where IAC claims must be
raised in an initial PCR proceeding under state law,
failure of counsel in that proceeding to raise a
substantial trial IAC claim may provide cause to excuse
the procedural default of the claim. 566 U.S. 1, 17
(2012). Subsequently, Petitioner moved the Ninth
Circuit to stay his appeal and grant a limited remand
in light of Martinez. The Ninth Circuit granted the
motion and remanded for reconsideration of Claim 1D,
stating that “Claim 1D is for purposes of remand
substantial.” (Doc. 158) (citing Martinez, 566 U.S. 1;
Trevino v. Thaler, 569 U.S. 413 (2013); Detrich v. Ryan,
740 F.3d 1237 (9th Cir. 2013) (en banc); Dickens v.
Ryan, 740 F.3d 1302 (9th Cir. 2014) (en banc)).
In September 2015, the parties completed
supplemental briefing in this Court. For purposes of
the evidentiary hearing, the Court bifurcated Claim 1D

App. 63
into guilt-phase and penalty-phase subsections, and, on
October 30, 2017, held an evidentiary hearing to
determine if Petitioner could establish cause, under
Martinez, to excuse the procedural default of the guiltphase subsection.
III.

GOVERNING LAW

Federal review is generally not available for a state
prisoner’s claims when those claims have been denied
pursuant to an independent and adequate state
procedural rule. Coleman, 501 U.S. at 750. In such
situations, federal habeas review is barred unless the
petitioner can demonstrate cause and prejudice or a
fundamental miscarriage of justice. Id. Coleman held
that the ineffective assistance of counsel in postconviction proceedings does not establish cause for the
procedural default of a claim. Id.
In Martinez, however, the Court announced a new,
“narrow exception” to the rule set out in Coleman. The
Court explained that:
Where, under state law, claims of ineffective
assistance of trial counsel must be raised in an
initial-review collateral proceeding, a procedural
default will not bar a federal habeas court from
hearing a substantial claim of ineffective
assistance at trial if, in the initial-review
collateral proceeding, there was no counsel or
counsel in that proceeding was ineffective.
566 U.S. at 17; see also Trevino, 569 U.S. at 423.
Accordingly, under Martinez a petitioner may
establish cause for the procedural default of an

App. 64
ineffective assistance claim “where the state (like
Arizona) required the petitioner to raise that claim in
collateral proceedings, by demonstrating two things:
(1) ‘counsel in the initial-review collateral proceeding,
where the claim should have been raised, was
ineffective under the standards of Strickland v.
Washington, 466 U.S. 668 . . . (1984)’ and (2) ‘the
underlying ineffective-assistance-of-trial-counsel claim
is a substantial one, which is to say that the prisoner
must demonstrate that the claim has some merit.’”
Cook v. Ryan, 688 F.3d 598, 607 (9th Cir. 2012)
(quoting Martinez, 566 U.S. at 14); see also Clabourne
v. Ryan, 745 F.3d 362, 377 (9th Cir. 2014), overruled on
other grounds by McKinney v. Ryan, 813 F.3d 798, 818
(9th Cir. 2015) (en banc); Dickens, 740 F.3d at 1319–
20; Detrich, 740 F.3d at 1245. A determination that a
petitioner has shown cause and prejudice sufficient to
overcome a procedural default allows a federal court to
consider de novo “the merits of a claim that otherwise
would have been procedurally defaulted.” Atwood v.
Ryan, 870 F.3d 1033, 1060 n.22 (9th Cir. 2017) (quoting
Martinez, 566 U.S. at 1) (internal quotation marks
omitted).
In Clabourne, the Ninth Circuit summarized its
Martinez analysis. To demonstrate cause and prejudice
sufficient to excuse the procedural default, a petitioner
must make two showings:
First, to establish “cause,” he must establish
that his counsel in the state postconviction
proceeding was ineffective under the standards
of Strickland. Strickland, in turn, requires him
to establish that both (a) post-conviction

App. 65
counsel’s performance was deficient, and
(b) there was a reasonable probability that,
absent the deficient performance, the result of
the post-conviction proceedings would have been
different. See Strickland, 466 U.S. at 687, 694,
104 S.Ct. 2052. Second, to establish “prejudice,”
he must establish that his “underlying
ineffective-assistance-of-trial-counsel claim is a
substantial one, which is to say that the prisoner
must demonstrate that the claim has some
merit.” Martinez, 132 S.Ct. at 1318.
Clabourne, 745 F.3d at 377.
The remand order in this case states that “the
remanded claims are for purposes of remand
substantial.” (Doc. 140 at 2.) Because the Ninth Circuit
has already found the remanded claim substantial,
prejudice under Martinez has been established. The
issue of cause remains—that is, whether postconviction counsel’s performance was ineffective under
Strickland. The Court will address cause by assessing
PCR counsel’s performance and the strength of the
underlying ineffective assistance of trial counsel claim.
See Clabourne, 745 F.3d at 377–78. Determining
whether there was a reasonable probability of a
different outcome of the PCR proceedings “is
necessarily connected to the strength of the argument
that trial counsel’s assistance was ineffective.” Id.
“PCR counsel would not be ineffective for failure to
raise an ineffective assistance of counsel claim with
respect to trial counsel who was not constitutionally
ineffective.” Sexton v. Cozner, 679 F.3d 1150, 1157 (9th
Cir. 2012).

App. 66
Claims of ineffective assistance of counsel are
governed by the principles set forth in Strickland v.
Washington, 466 U.S. 668 (1984). To prevail under
Strickland, a petitioner must show that counsel’s
representation fell below an objective standard of
reasonableness and that the deficiency prejudiced the
defense. Id. at 687–88.
The inquiry under Strickland is highly deferential,
and “every effort [must] be made to eliminate the
distorting effects of hindsight, to reconstruct the
circumstances of counsel’s challenged conduct, and to
evaluate the conduct from counsel’s perspective at the
time.” 466 U.S. at 689; see also Wong v. Belmontes, 558
U.S. 15, 17 (2009) (per curiam); Bobby v. Van Hook, 558
U.S. 4, 7 (2009) (per curiam); Cox v. Ayers, 613 F.3d
883, 893 (9th Cir. 2010). The Court exercises a strong
presumption that “counsel’s conduct falls within the
wide range of reasonable professional assistance; that
is, the [petitioner] must overcome the presumption
that, under the circumstances, the challenged action
might be considered sound trial strategy.” Strickland,
466 U.S. at 689 (citation and internal quotation marks
omitted). “The proper measure of attorney performance
remains simply reasonableness under prevailing
professional norms.” Id. at 688. With respect to
Strickland’s second prong, when a petitioner challenges
a conviction, the court considers “the totality of the
evidence” before the jury and “the question is whether
there is a reasonable probability that, absent the
errors, the factfinder would have had a reasonable
doubt respecting guilt.” Id. at 695. In other words,
contrasting the evidence presented to the jury with
that which could have been presented, the Court asks

App. 67
whether the omitted evidence would have created
reasonable doubt in the mind of at least one reasonable
juror. Hernandez v. Chappell, 878 F.3d 843, 852 (9th
Cir. 2017) (quoting Daniels v. Woodford, 428 F.3d 1181,
1201 (9th Cir. 2005); Rios v. Rocha, 299 F.3d 796, 813
(9th Cir. 2002)).
With respect to the guilt-phase subsection of his
claim, Petitioner alleges that his Sixth Amendment
right to effective assistance of counsel was violated by
his trial counsel’s failure to conduct a sufficient trial
investigation and adequately investigate the police
work, medical evidence, and timeline between Rachel’s
fatal injury and her death. Petitioner further alleges
that post-conviction counsel performed deficiently
within the meaning of Strickland when he failed to
investigate and present this substantial IAC claim,
thus excusing the procedural default of the claim under
Martinez. Respondents assert that Petitioner has not
shown that PCR counsel was ineffective in failing to
raise the claim because PCR counsel raised multiple
IAC claims and attempted to obtain additional
resources. Respondents also argue that Claim 1D fails
on the merits and that Petitioner therefore cannot
establish cause under Martinez because he was not
prejudiced by PCR counsel’s performance as there was
no “reasonable probability that, absent the deficient
performance, the result of the post-conviction
proceedings would have been different.” (Doc. 175 at
14) (quoting Clabourne, 745 F.3d at 377).
In section IV below, the Court describes the
proceedings and the relevant evidence as discussed at
the trial, post-conviction relief, and federal habeas

App. 68
stages of Petitioner’s case. In section V, the Court
analyzes these facts in light of the above framework.
IV.

RELEVANT FACTS

The following section describes (1) the trial
proceedings and evidence presented at trial, (2) the
proceedings at the post-conviction relief phase, and
(3) the evidence presented during these federal
proceedings that Petitioner asserts was available at the
time of his trial that either suggested the need for
further investigation by trial counsel or could have
been presented at trial.
A. Trial Court Proceedings: The Evidence
Presented at Trial
Attorney Sean Bruner7 was appointed to represent
Petitioner on May 3, 1994, the day after Petitioner’s
arrest. Bruner’s partner Leslie Bowman, who at that
time had been admitted to the bar for a little less than
a year, also represented Petitioner as an informal
“second-chair” attorney though she was never formally
appointed by the trial court. (EH RT 10/30/17 at 44; EH
Ex. 9 at 1.) As Petitioner’s court-appointed counsel, it
was Bruner’s sole responsibility to ensure Jones
received competent representation.
At trial, the State sought to prove that (1) only an
adult was capable of inflicting the fatal small bowel
wound; (2) Rachel’s fatal injuries were inflicted in the
7

Bruner was admitted to the bar in 1981 and received a criminal
law specialist certification in 1990. (EH Ex. 9 at 1.) Prior to
Petitioner’s case, Bruner had represented one death-eligible
defendant at trial. (Id.)

App. 69
late afternoon on May 1, 1994, sometime after 2:00
p.m. when Petitioner woke up for the day; and
(3) Petitioner was the only adult that had care of
Rachel at that time and took her on several trips away
from the trailer park in his van. The prosecutor
summarized the State’s theory in closing: “Who is her
rapist? Who is her murderer? The answer to that
question is simple. Who was with her all day on
Sunday, May 1st.” (RT 4/13/95 at 92.) In order to
support the intentional or knowing infliction of the
child abuse charge alleged in Count Four, the
prosecutor argued that Petitioner beat Rachel in order
to rape her, and when Petitioner failed to take her to
the hospital, “[s]he died as a result of that beating
because only the defendant knew how badly she was
hurt.” (Id. at 104.)
The State bolstered its theory by presenting the
testimony of two neighborhood children who allegedly
observed Petitioner abusing Rachel as he took her on
one of three trips in his van on the day before her
death. The State also presented testimony that the
laceration on Rachel’s scalp as well as some of the
abdominal contusions and abrasions were consistent
with having been inflicted between 2:00 p.m. to 5:30
p.m. on May 1, and with being hit with a pry bar found
in Petitioner’s van. Additionally, the State presented
evidence that the blood found in Petitioner’s van was
Rachel’s, and, based on bloodstain analysis, was
consistent with an assault on Rachel that took place in
the van.
Bruner acknowledged in opening statements that
“[e]verything in this case is going to center around

App. 70
what happened on Sunday, May 1st. Specifically, a
couple of disputed hours . . . .” (RT 4/6/95 at 60.) Bruner
asserted that on May 1, there was nothing obvious
about Rachel that would have caused Petitioner to
think he needed to take her to the hospital. He asserted
that nobody would testify that Rachel looked as she
appears in the autopsy photos, suggesting the bruising
on her body in the photos had something to do with
lividity, or the pooling of blood after the heart stops
beating. (Id. at 61.) Bruner further asserted that the
testimony of the neighborhood children, if believable,
“is strong proof for the State,” but “they couldn’t
possibly have seen what they claim now months later
to have seen,” then admitted he could not explain,
exactly, why that was, suggesting that the jury should
just decide for themselves if a “couple small children
looking up at that van, whether they could have
possibly seen what they now claim to have seen . . . .”
(Id. at 64–65.)
The following is a summary of the testimony and
evidence presented by the State at Petitioner’s trial
that established when Rachel was injured, who she was
with when the injuries occurred, and where the injuries
occurred. The State presented numerous witnesses who
testified about the medical and physical evidence, as
well as the events of the days immediately prior to and
following her death. Defense counsel presented no
witnesses to challenge the medical timeline from injury
to death, and presented only one witness in total,
Petitioner’s 11-year old daughter Brandie, in support of
his case.

App. 71
1. Rachel’s Injuries and Cause and
Time of Death
The State presented critical evidence at Petitioner’s
trial from witnesses that established that most of
Rachel’s injuries, including the fatal injury, were
consistent with infliction between 2:00 p.m. and 5:30
p.m. on May 1, 1994. Rachel’s body was examined by
Steven Siefert, an emergency room doctor at Kino
Community Hospital; by Sergeant Sonia Pesquiera8 of
the Pima County Sheriff’s Department (“PCSD”), the
lead investigator of Rachel’s death; and by Dr. John
Howard, a forensic pathologist with the Pima County
Medical Examiner’s office.
a. Time of Death
Dr. Siefert was the first to examine Rachel, and
testified that she was dead upon arrival at the hospital.
(RT 4/6/95 at 77.) Based on temperature and the
existence of rigor mortis, Dr. Siefert estimated that
Rachel died sometime two to three hours before she
arrived at the hospital at 6:16 a.m. on May 2, 1994. (Id.
at 74, 76–77, 80.) This fact is not in dispute.
b. External Bruising and Abrasions
Sergeant Pesquiera examined Rachel’s body at the
hospital and, based on her training and experience
with approximating ages of bruising based upon their
color and appearance, testified that Rachel’s body was
covered with contusions and abrasions which were in

8

Sergeant Sonia Pesquiera was known as Sonia Rankin at the
time of the investigation.

App. 72
varying stages of healing; some bruising appeared new,
such as along her eyelid, and some appeared to be in
the healing stage, such as on the bottom of her eyes.
(RT 4/12/95 at 34, 37.) Over defense counsel’s objection,
Sergeant Pesquiera opined that the injuries were not
accidental. (Id. at 35.)
Dr. Siefert testified that Rachel’s body was covered
with bruises and abrasions, primarily on the front of
her body and across her face and forehead, but also on
her back, arms, and legs. (RT 4/6/95 at 81.) He also
observed that Rachel had a large bruise on each side of
her forehead, as well as intense coloration on the outer
edge of her right eye and discoloration below the eyes.
(Id. at 95–96.) Dr. Howard assessed the purple
coloration on Rachel’s face as arising from an injury
that probably occurred one day prior to death, but also
noted some green discoloration which would have been
present for several days. (RT 4/12/95 at 116.)
Dr. Siefert and Dr. Howard observed that Rachel
had bruising around the left side of her face and behind
her ear, as well as bleeding into both ear drums,
consistent with a slap or blow to the side of the head.
(RT 4/6/95 at 90–91; RT 4/12/95 at 140–41.) Dr.
Howard noted that Rachel also sustained internal
bleeding due to blunt force trauma to the back of her
neck, as well as diffuse bleeding into the deep layers of
her whole scalp. (RT 4/12/95 at 137–38.)
Rachel had four or five small bruises on her right
forearm and several on her right hand, as well as six
bruises on her left forearm and hand, injuries typically
associated with trying to ward off an impact, known as

App. 73
defensive type wounds. (RT 4/6/95 at 85–87, 88–89; RT
4/12/95 at 39–40, 150–51.)
Dr. Howard opined that the bruises and abrasions
on Rachel’s hand and arm were inflicted approximately
one day prior to death. (RT 4/12/95 at 113–14.) This
included swelling in her left middle finger that
indicated injury to bone or ligaments; this injury would
have been painful and noticeable within an hour of its
infliction. (RT 4/6/95 at 89, 104–05; RT 4/12/95 at 114.)
Dr. Howard identified abrasions and contusions on
Rachel’s right and left thigh, both knees, and her right
leg; he opined that they varied in appearance from less
than a day old to approximately five days old. (RT
4/12/95 at 113.) He indicated that much of the bruising
on Rachel’s front side was consistent with having been
inflicted by knuckles but he could not identify with any
particularity what actually was used to inflict the
injuries. (Id. at 126, 160.)
Rachel had contusions and abrasions on her back,
her buttocks, and on the back of her left thigh,
consistent with being dragged across a rough surface or
with fingernail scrapes. (Id. at 112; RT 4/6/95 at 41,
93.) Based on the colors of the bruising, and the
presence or absence of scab formation, Dr. Howard
opined that these injuries occurred within one to two
days prior to her death. On her front torso, Rachel had
20 to 30 bruises, large areas of abrasions, and a red
bruise area under her right arm. (RT 4/6/95 at 93–94;
RT 4/12/95 at 115.) Dr. Howard opined that some of
these bruises were recent, occurring within the prior
day to two days, while others were of a coloration
indicating an origin of several days prior to death. (RT

App. 74
4/12/95 at 115.) There was a linear bruise pattern to
the right of her navel; Dr. Howard opined that this
injury was consistent with the pry bar found
underneath the driver’s seat of Petitioner’s van but
could have been caused by many different objects. (Id.
at 78, 128, 160.) Sergeant Pesquiera also testified that
the linear contusions or bruises on Rachel’s abdomen
were consistent with the pry bar found in Petitioner’s
van. (Id. at 78.)
Dr. Siefert opined that Rachel’s bruising would have
begun to appear within a few hours of infliction, and
assessed that 95 percent of Rachel’s injuries had
occurred within 12 to 24 hours before her death. (RT
4/6/95 at 121, 128, 103–108, 111, 127; RT 4/12/95 at
94.) Dr. Siefert noted that some of the bruises were a
few days old, including the bruising beneath Rachel’s
eyes. (RT 4/6/95 at 103, 105, 111; RT 4/12/95 at 37.) Dr.
Siefert concluded that Rachel had suffered nonaccidental trauma, possibly at multiple times by
multiple mechanisms. (RT 4/6/95 at 128–29.) Similarly,
Dr. Howard explained that the number and multiple
locations of the injuries were not consistent with a
simple childhood accident, but rather were consistent
with Rachel having been beaten. (RT 4/12/95 at 137.)
He concluded that all of the external injuries he
documented, which he assessed as having been
inflicted within one day of death, were consistent with
having been inflicted between the hours of 2:00 p.m.
and 5:30 p.m. on the day prior to her death. (Id. at
117.)
On cross-examination, defense counsel confirmed
with Dr. Siefert that 95 percent of the bruises were

App. 75
formed within the 12 or 24 hours before death, but that
this estimate was dependent on factors—such as the
child’s metabolism and the amount of force used to
inflict the injury—that were unknown to Dr. Siefert.
(RT 4/6/95 at 127–28.) Dr. Siefert agreed that some of
the bruises, as well as the scalp injury discussed below,
could have been caused by Rachel falling out of a van.
(Id. at 129.) Dr. Siefert admitted on re-direct
examination that there was “no way to really know”
based on the appearance of the bruises how long each
one took to develop after the blunt injury that caused
it. (Id. at 134.) Dr. Siefert concluded that the totality of
Rachel’s injuries indicated that the trauma was
nonaccidental and perhaps occurred at multiple times
or by multiple mechanisms. (Id. at 135.)
c. Scalp Injury
Rachel had a head laceration, above and behind her
left ear, which was one inch long and went down to the
skull bone. Dr. Howard assessed it as consistent with
having been caused by a blunt force object with a
relatively straight edge, consistent with the pry bar
found in Petitioner’s van. (RT 4/12/95 at 121, 123.)
Based on the injury’s external and microscopic
appearance, he opined that it was typical of having
been inflicted one to two days prior to death but was
consistent with occurrence between 2:00 p.m. and 5:30
p.m. on May 1. (Id. at 116–17.)
d. Vaginal Injury
Sergeant Pesquiera testified that upon examination
of Rachel’s body, she observed discoloration on the
outside of her labia and pooled, bright red blood on the

App. 76
inside. (RT 4/12/95 at 42.) Dr. Howard determined that
Rachel had blunt force injuries to her labia, bruising
and scrapes, and a half-inch tear to her vagina. (Id. at
134.) Dr. Howard concluded that the injury to Rachel’s
genitalia occurred about one day prior to her death,
consistent with the time frame of “dozens” of Rachel’s
other injuries, (id. at 133, 136), and that these injuries
were non-accidental, painful, and consistent with
penetration or attempted penetration. (Id. at 134–36).
e. Fatal Small Bowel Injury
Dr. Howard determined that Rachel died of blunt
abdominal trauma that caused a laceration of the small
bowel and that her death was a homicide. (RT 4/12/95
at 155.) Dr. Howard explained that, internally, Rachel
had sustained blunt force injury to her abdominal
organs causing a tear of the small bowel and bruising
of the tissues around the small bowel, the wall of the
large bowel, and the tissues connecting the intestine to
the back of the abdominal wall. (Id. at 141–42.) The
rupture of her bowel caused inflammation and
irritation of the lining of the abdominal tissues, a
condition called peritonitis. (Id. at 145.) When this type
of damage is not repaired, Dr. Siefert explained it
typically causes death over a period of hours to days, or
sometimes weeks. (RT 4/6/95 at 115). The amount of
force required to rupture a healthy bowel is equivalent
to a fall from more than two stories, an automobile
accident at greater than 35 miles per hour, or a forceful
directed blow to the abdomen (id. at 113–14; RT
4/12/95 at 151, 153–54); Dr. Siefert did not believe
enough force for such an injury could be inflicted by a
child under the age of six. (RT 4/6/95 at 116.) Rachel

App. 77
would have experienced pain at the time of the blunt
force injury; Dr. Howard indicated she would then have
had continual abdominal pain while Dr. Siefert stated
that the pain might decrease initially, but would not go
away. (Id. at 119; RT 4/12/95 at 146.) Over the next
several hours, a person with peritonitis would lose
bowel function, causing nausea, vomiting, and
dehydration. (RT 4/6/95 at 119–20; RT 4/12/95 at 146.)
Dr. Howard opined that the “injury is typical of having
occurred about one day prior to death,” in the same age
range as her other injuries, including the scalp, genital,
and external injuries. (RT 4/12/95 at 148.) Dr. Howard
opined that the fatal injury could have occurred in the
24 hours prior to her death, possibly in the time
between the hours of 2:00 p.m. and 5:30 or 6:00 p.m. on
May 1. (Id. at 148–49.)
Defense counsel cross-examined Dr. Howard and
established that Rachel had no broken bones, and that
if she had been hit hard enough with the pry bar, it
might have resulted in fractures of the skull or ribs,
depending on the amount of force used. (Id. at 158–59.)
Dr. Howard agreed that while the pry bar was
consistent with the injuries, any number of objects
could also have caused the injuries. (Id. at 159–60.)
Based on Dr. Howard’s testimony, defense counsel
argued that if the pry bar had been wielded by an
adult, it would break ribs and fracture skulls, and
would have done incredible damage to a small child.
(Id. at 112.)
Defense counsel asked no questions of Dr. Howard
regarding the timing of any of Rachel’s injuries.

App. 78
f. Bloodstain Evidence
The State also presented testimony and evidence
from Sergeant Pesquiera, Arizona Department of
Public Safety Criminalist Edward Lukasik, and PCSD
Detective Clark to support the State’s theory that
Rachel was assaulted in Petitioner’s van. Blood
consistent with having come from Rachel was found on
a Circle K bag, on carpeting and the front passenger
seat’s upholstery in Petitioner’s van, and on blue jeans
worn by Petitioner at the time of his arrest. (RT 4/7/95
at 118, 120–21, 126–27; RT 4/11/95 at 106–7, 109; RT
4/12/95 at 55–59.) No blood was found on the tools
collected from Petitioner’s van, including the pry bar
and the blue and metal pipes. (RT 4/11/95 at 100–01;
RT 4/12/95 at 85–87.)
Rachel’s pajamas and underwear were taken into
evidence, and oral and vaginal swabs were also taken
during Rachel’s autopsy. (RT 4/12/95 at 43–47.)
Serological testing revealed no presence of semen or
seminal fluids on the vaginal swabs or on Rachel’s
pajamas or her underwear. (RT 4/11/95 at 90, 111–12.)
A substance consistent with vomit was found on
Rachel’s pajamas and a sleeping bag. (RT 4/11/95 at
98–99; RT 4/12/95 at 45–46.)
Sergeant Pesquiera also collected clothing from
Petitioner on the day of his arrest, testifying that she
would expect to find blood on the clothing of a driver in
the car at the time that Rachel was struck. (4/12/95 at
61, 74–75.) There was a trace of blood not further
identified on the red T-shirt and boots, but not the
denim jacket, worn by Petitioner at the time of his
arrest. (RT 4/11/95 at 95, 108–09; RT 4/12/95 at 61–62.)

App. 79
Sergeant Pesquiera testified that fingernail
scrapings were taken from Rachel but there was
nothing detected under her nails. (RT 4/12/95 at
90–91.) Despite some of Rachel’s abrasions appearing
as if she had been scratched, Sergeant Pesquiera
explained that Petitioner’s fingernails were not
analyzed to determine if any of Rachel’s blood or skin
was present because there was a lot of oil and other
things under his nails. (Id. at 90–91.)
Sergeant Pesquiera testified that she was not an
expert in the field of bloodstain evidence, but “could
appreciate what type of stains they were in
relationship to where the victim could have been and
the assailant could have been.” (RT at 4/12/95 at 28,
63–65.) Sergeant Pesquiera explained that blood
spatter is seen when an area of injury has static blood
on it and then is struck or shaken in some way like a
blow or blunt force trauma causing the blood to spatter
out. (RT 4/12/95 at 73.)
Sergeant Pesquiera submitted samples of several
items that appeared to be bloodstains taken from
multiple locations in Petitioner’s van: from carpet
between the two front seats and partially behind the
passenger seat, from carpet and wood chips located
partially behind and underneath the passenger seat,
from a cigarette package, from a Circle K bag located
behind the driver’s seat, and from the right front
passenger seat. (RT 4/12/95 at 55–60.) Over defense
counsel’s objection, Sergeant Pesquiera testified that a
bloodstain identified as Item V6 appeared to be “an
impression stain or a stain where the blood has
actually soaked through and has been in that position

App. 80
for quite a while to where it soaks down through
the carpeting.” (Id. at 72.) Sergeant Pesquiera
distinguished the impression stain on the carpeting
from the spatter stains found on the van’s passenger
seat and another portion of the carpet identified as
Item V7, which she testified were consistent with a
person already bleeding being struck or shaken causing
the blood to spatter out. (Id. at 72–73.) Because Dr.
Siefert had testified that bleeding stops very quickly
after death (RT 4/6/95 at 79), the State argued, based
on the impression stain, that Rachel’s “head was
bleeding as she was laying in the back of that van
because she had been beaten and hit with that pry bar
as part of that sexual assault, and this is where the
sexual assault occurred. . . . on the third trip away from
the house.” (RT 4/13/95 at 97.) The State also
argued—based on the evidence of spatter stains found
on the passenger seat, floor of the van, and the right
sleeve of Petitioner’s shirt—that after the assault,
Petitioner put her in the passenger seat of the car and
kept hitting her “trying to make her shut up” (id. at
97–100), and the blood could not have gotten in the van
on the way to the hospital because Rachel was already
dead and therefore was not bleeding anymore. (Id. at
137.) Defense counsel offered no expert testimony to
challenge Sergeant Pesquiera’s opinions, but rather
argued that Sergeant Pesquiera was not an expert in
blood spatter and the State could have presented an
expert if they had wanted to. (Id. at 113.)
2. Events of April 30–May 2, 1994
The State presented evidence from several
witnesses that supported its theory that Rachel was in

App. 81
the sole care of Petitioner during the afternoon of
Saturday, May 1, when the fatal injuries allegedly were
inflicted.
Becky testified that she had been living in
Petitioner’s trailer for a few months with her mother,
Angela; her siblings, Jonathon and Rachel; and
Petitioner’s daughter, Brandie. (RT 4/11/95 at 18–19,
60.) Petitioner never hit Becky, and she never saw him
hurt Rachel or her brother. (Id. at 65–66.) There was a
week, however, when Rachel started “being scared” of
Petitioner, and would not go to Petitioner when he
called her over or when he asked her to go with him on
a ride. (Id. at 25–28.) He did sometimes hit Rachel
“[f]or play,” which sometimes made her cry. (Id. at 43.)
Becky testified that Rachel seemed fine and ate dinner
on Saturday night, April 30, and was not sick or
throwing up. (Id. at 29.) Becky stated she saw
Petitioner leaving with Rachel in the van three times
on May 1. (Id. at 37–38.)
Becky testified that on Sunday morning, May 1,
Becky, Rachel, and Jonathon got up early, watched
cartoons, and ate lunch until Petitioner got up around
2:30 or 3:00 p.m. when a friend of his stopped by to see
him. (Id. at 30–33, 62.) Shortly after Petitioner’s friend
left, Petitioner gave Becky and her brother permission
to ride their bikes. (Id. at 36.) After riding their bikes
around the trailer court for an hour, Becky saw
Petitioner leave in his van on the first trip with Rachel,
telling Becky he was going to the store for food. (Id. at
37, 64.) He returned an hour and a half later with milk
and corn dogs. (Id. at 63, 69.) Becky testified that

App. 82
Rachel seemed okay after this trip, she was not sick or
crying. (Id. at 70.)
Becky described the first trip when questioned by
the prosecutor and the second and third trips when
cross-examined by defense counsel. Becky testified
that approximately fifteen to twenty minutes after
returning home from the store and putting away the
groceries, Petitioner left again and was gone for about
thirty minutes. (Id. at 70.) Becky saw Rachel again
after this trip, and testified that she seemed “okay” at
that time. (Id. at 70–71.)
When asked by defense counsel about the third trip
in the van, Becky testified that Petitioner took Rachel
to his brother’s house. (Id. at 79.) Becky had no idea
how long they were gone, but stated that they were
back before Becky left for her friend’s house, around
5:00 or 6:00 p.m. (Id. at 71, 79.) The State argued that
it was during this third trip that Petitioner assaulted
Rachel in the back of the van. (RT 4/13/95 at 93–94.)
Becky testified that when she was putting her bike
away before going to her friend’s house, she saw that
Rachel was at home and that Rachel was standing and
looked fine. (Id. at 41–43.) Around 6:30 p.m., when
Becky returned from her friend’s house, Becky testified
that Rachel was on the couch; she was pale, her head
was bleeding, she was vomiting, and she had bruises on
her face, hands, and fingers. (Id. at 44–46, 49–50, 72.)
This was the first time Becky saw her mother awake
that day. (Id. at 41.) Petitioner left for a time, and
when he returned, Angela took Rachel outside where
Petitioner and Angela had an argument. (Id. at 48–49.)

App. 83
The State presented evidence that the St. Charles
family, who lived in a bus at a transient camp, got a
visit from Petitioner sometime on May 1; Ron St.
Charles (“St. Charles”) thought Petitioner seemed
angry. (RT 4/12/95 at 7–9, 17.) St. Charles testified that
he did not know if anyone else was in the van with
Petitioner, and that Petitioner did not get out of his
van.
Michael Fleming (“Michael”), Petitioner’s neighbor
at the Desert Vista trailer park, testified that on May
1 he saw Rachel looking sick between 2:00 and 5:00
p.m.; she was pale with dark circles under her eyes,
and she looked wet and like she wanted to vomit, but
he did not see any blood, bruising, or scrapes. (RT
4/7/95 at 164–66, 168, 171–73.) Michael Fleming saw
his wife, Stephanie Fleming (“Stephanie”), pick Rachel
up and take her back to Petitioner’s trailer. (Id. at
165–66.)
Petitioner’s sister-in-law testified that Petitioner,
Angela, and the children were supposed to attend
Petitioner’s nephew’s birthday party on May 1, but
they never showed up. (RT 4/11/95 at 119–24.)
Norma Lopez (“Norma”) testified that on May 1 she
sent her children—eight-year-old twins Ray and Laura
Lopez—to the Choice Market on Benson Highway at
3:00 p.m. or 4:00 p.m. (RT 4/7/95 at 50.) When they
returned, Ray told Norma he saw a yellow van with a
man inside hitting a little girl. (Id. at 51.) The children
described the man as a white man with messy brown
hair driving a yellow van and the girl as little and
blond-haired. (Id. at 51–53.) The twins saw him driving
with one hand and hitting the girl in the face and chest

App. 84
with the other, and they could see the girl crying. (Id.
at 51.) The next day on the news Norma heard that a
man had been arrested in relation to the death of a
little girl. (Id. at 53–54.) When she had the children
watch the news, they identified that person as the man
they had seen in the van. (RT 4/7/95 at 55.) One or two
days later, Norma reported the twins’ identification by
calling 911. (Id. at 56.)
At Petitioner’s trial, Ray testified that he had gone
to the Choice Market with Laura around 5:00 p.m. on
a Sunday. (RT 4/7/95 at 8–9.) He testified that, on his
way home, he saw a white man with bushy hair in a
yellow van, driving with one hand while hitting a little,
four-year-old white girl hard with his right hand and
elbow. (Id. at 9–11, 14.) He demonstrated how the man
hit her with the back of his right fist. (Id. at 12–12.)
Ray testified that the man hit the girl three times. (Id.
at 11–13.) He testified he could not see the girl’s face,
but that she was crying. (Id. at 13.) When pressed by
the prosecutor, he agreed he did not know whether she
was crying or not. (Id.) He also admitted that he had
previously told the police that he saw her with her
mouth open and could see that she was crying. (Id. at
13–14.) He did not see the driver’s face, only his hair
from behind. (Id. at 25–26.) He could not identify
Petitioner in court, but was able to identify a picture of
Petitioner from the day of his arrest. (RT 4/6/95 at 175;
RT 4/7/95 at 18.) Ray was also unable to identify a
picture of Petitioner’s van as the yellow van he saw
that day because it did not have windows in the side.
(RT 4/7/95 at 29–30.) Bruner established, through
cross-examination, that Ray did not see Petitioner’s
face or any facial hair, only his hair from behind, and

App. 85
questioned whether he could see up into the van given
his height. (Id. at 25–27.)
Laura testified that she recalled seeing a white man
driving a yellow van on her way home with Ray from
the Choice Market. (Id. at 34–37.) She said she could
see a little bit of the man’s face, and he was ugly with
puffy hair and was hitting a little, white blonde girl.
(Id. at 36–38.) She testified she could not see the girl’s
face, but the man was hitting the girl on the left side of
her face with his elbow. (Id. at 36–38.) The prosecutor
asked Laura if she remembered telling the police she
could see that the girl was crying and she could see her
face; Laura agreed and remembered that she was
crying. (Id. at 38.) Bowman established, through crossexamination, that Laura only saw them through the
front window of the van and could see just “a little bit”
of the side part of both the man and girl’s faces. (Id. at
43–44.) Laura also admitted that the little girl’s face
was not higher than the windows. (Id. at 44.) She
remembered seeing the man from the van on the news
that same day. (Id. at 40, 45.)
Sara Petrilak, a clerk at the Quik-Mart on Benson
Highway, testified that Petitioner went into the store
on May 1, 1994 between 3:15 p.m. and 5:00 p.m. (RT
4/7/95 at 142, 144, 159.) She did not know Petitioner’s
name, but recognized him as a regular at the store. (Id.
at 145–46, 149.) The store clerk testified that Petitioner
got ice and that he was with a little girl who sat on a
ledge outside the store. (Id. at 147–48.) On crossexamination, Petrilak testified that the girl did not
seem to be upset, and she would have heard the girl if
she was crying, but she was not. (Id. at 150–51.)

App. 86
Joyce Richmond (a.k.a. Rose Royer and Alice
Knight) (“Richmond”), Petitioner’s former girlfriend,
testified that she spent Saturday night, April 30, at a
friend’s house with Petitioner until approximately 3:00
a.m. (RT 4/11/95 at 135–36.) Petitioner’s daughter
Brandie spent the weekend with Richmond from Friday
after school until Sunday, May 1, when Brandie
returned with Richmond to Petitioner’s trailer
sometime between 7:00 p.m. and 8:00 p.m. (Id. at
137–38, 141.) Richmond saw Rachel on the couch with
a bleeding head; she said Rachel did not have bruises
on her face or hands. (RT 4/11/95 at 141, 151–53.)
Richmond’s adult son, Terry Richmond (“Terry”),
was at Petitioner’s trailer with his mother on the
evening of May 1 and saw that there was blood on the
pillow under Rachel’s head. (Id. at 157.) Terry
questioned Petitioner, who told him that he had taken
Rachel to the fire department. (Id. at 157–58.) Terry
testified that he had seen bruises on Rachel’s face, but
after he was asked if he saw bruises on Rachel’s face
that night, he could not remember whether he had. (Id.
at 163.) Subsequently, after reviewing a transcript he
was shown, he recalled telling defense counsel during
an earlier interview that he did not see any bruises or
marks on Rachel. (Id. at 164.) Terry further testified he
had witnessed Angela previously strike Rachel on the
side of her head. (Id. at 160.) He was not sure when
that had occurred, but stated it was probably the week
before May 1. (Id. at 161.) After reviewing the
transcript from his interview with defense counsel,
Terry admitted it might have occurred the night before.
(Id. at 161–63.)

App. 87
At trial, the State contended that Petitioner lied
about having Rachel’s head wound examined at the fire
station by a paramedic. (RT 4/6/95 at 45–46.)
Petitioner’s counsel countered that Petitioner never
said he went to the fire station but rather said that a
Rural Metro EMT who happened to be at the QuikMart had examined Rachel’s head wound. (Id. at
71–72.) Captain Scott Ferguson, with the Rural Metro
Fire Department, testified that there are four people,
including himself, on duty during each 24-hour shift at
the station located close to Petitioner’s trailer and
about a half block away from the Quik-Mart. (Id. at
187, 191.) If a crew member leaves the station to go the
Quik-Mart, all four personnel have to go and they have
to take the engine. (Id. at 191, 196–97.) If they
encounter an emergency while they are out, they have
to notify dispatch so they are placed out of service for
purposes of receiving another emergency call, and it
would be logged as well. (Id. at 197; RT 4/12/95 at
68–69.) Captain Ferguson testified there were no
indications on the call log, and he had no independent
recollection of treating a little girl on May 1 for a head
laceration. (RT 4/11/95 at 199–200.) Captain Ferguson
explained that it would be inappropriate to ever look at
a child’s head laceration and just send the child home
because a spinal injury is always suspected in
conjunction with a head injury. (Id. at 201; 4/12/95 at
70.) Petrilak testified that a lot of Rural Metro
personnel regularly came into the Quik-Mart, but she
did not notice an EMT treating the little girl outside
the store and believed she would have been aware if
that had occurred. (RT 4/7/95 at 148–49, 154, 158–59).

App. 88
Becky woke early in the morning on May 2 and
found Rachel in the bedroom doorway; she put her back
in bed. Becky next woke to her mother yelling, and
Petitioner took Angela and Rachel to the hospital. (Id.
at 52-54.) Petitioner came back and took Becky and
Brandie to the St. Charles camp around 7:30 a.m. (Id.
at 55–56, 143; RT 4/12/95 at 10–11.) St. Charles
testified that Petitioner was extremely upset,
distraught, and crying. (4/12/95 at 22.) St. Charles’s
wife Rosemary reported Petitioner was unsteady on his
feet and she and her husband put him to bed, where
she heard him “moaning and saying I am very sorry
Rachel, I love you.” (RT 4/11/95 at 180–81.) She
admitted on cross-examination that Petitioner was also
crying with tears coming down his face. (Id. at 182.)
Law enforcement located Petitioner at the St. Charles
camp after 8:00 a.m. on May 2, 1994, and transported
him to the Sheriff’s Department. (RT 4/6/95 at 167,
169, 172.) On the way there, Petitioner was upset, said
there was something wrong with his little girl, and
asked if they would take him to see her. (Id. at 173.)
Petitioner presented evidence from only one
witness: Petitioner’s daughter Brandie. (RT 4/13/95 at
6.) Brandie testified that she saw a boy, about six years
old, hit Rachel in the stomach with a metal bar. (Id. at
8.) She denied ever having told law enforcement that
she saw Rachel fall out of the van on May 1, or that
afterwards she saw her dad run Rachel over to the
paramedics, stating first that she was home but did not
see it happen, then later saying she was at Richmond’s
house and could not have seen it. (Id. at 13, 21–23.)
The State impeached her testimony, pointing out
numerous inconsistencies between her testimony at

App. 89
trial, interviews she gave to law enforcement, and her
testimony at a deposition; Brandie also admitted lying
to detectives and defense counsel. (RT 4/13/95 at 11–
28.)
B. Post-Conviction Relief Proceedings
On September 22, 1999, following an unsuccessful
appeal, the Arizona Supreme Court appointed James
Hazel to represent Petitioner in his state PCR
proceedings. (EH Ex. 126.) The Arizona Supreme Court
waived the requirements, pursuant to A.R.S. § 13-4041
and Rule 6.8(c) of the Arizona Rules of Criminal
Procedure, for the appointment of experienced
appellate counsel in capital post-conviction
proceedings. (Id.) The Arizona Supreme Court also
ordered counsel to “direct requests for the appointment
of investigators and experts to the superior court
pursuant to A.R.S. § 13-4013(B) and § 13-4041(J).” (Id.)
Despite the order directing counsel to make
requests for investigators pursuant to A.R.S. § 134013(B), Hazel moved for the appointment of an
investigator pursuant to Rule 706(a) of the Arizona
Rules of Evidence. (EH Ex. 130.) The PCR court denied
the motion without prejudice, stating that the motion
failed to recite any specific reason to support the need
for such appointment at the present time, or indeed,
that counsel had even reviewed the record. (EH Ex.
131.) Hazel filed a motion for reconsideration, again
pursuant to Rule 706(a) of the Arizona Rules of
Evidence, stating that an investigator was needed to
attempt to prove others may have caused the fatal
injuries to the victim, including the mother and
teenage brother, and to locate additional new defense

App. 90
evidence. (EH Ex. 132.) The PCR court denied the
motion for reconsideration, again stating that nothing
in the motion established why the appointment of an
investigator was reasonably necessary (EH Ex. 133)—
a statutory requirement for the county-funded
appointment of investigators, see A.R.S. § 13-4013(B).
Hazel filed Petitioner’s PCR petition and supporting
memorandum on March 28, 2000. (EH Ex. 134.) Hazel
argued that Petitioner was entitled to a jury trial on
the issue of aggravating factors. Hazel also argued that
Bruner was ineffective for failing to: (1) move for a
mistrial when jurors viewed Petitioner in shackles
during the trial, (2) interview Angela, (3) follow up with
the court on his motion for appointment of a second
attorney to assist him, and (4) meet with Petitioner a
sufficient number of times in order to discuss the case
and trial preparation. (Id.)
The PCR court held an evidentiary hearing on
Petitioner’s ineffective assistance claim, at which
Petitioner testified on his own behalf and Bruner
testified as a witness for the State. (RT 9/18/00.) The
PCR court denied the petition and, after being elected
Gila County Attorney, a position for which he had
campaigned during the course of representing
Petitioner, Hazel withdrew from representation and
attorney Michael Villareal was substituted as counsel.
(EH Exs. 137–38; ROA PCR 31, 33, 40.) Newlyappointed counsel’s motion for rehearing was denied.
(ROA PCR 46–47.) On October 30, 2001, the Arizona
Supreme Court summarily denied Petitioner’s petition
for review. (PR 7.)

App. 91
C. Federal Habeas Proceedings
During the evidentiary hearing in these
proceedings, the Court heard testimony from Sean
Bruner and Leslie Bowman, Petitioner’s trial counsel;
James Hazel, Petitioner’s PCR counsel; Sonia
Pesquiera, the lead investigative detective; Dr. Philip
Keen, Dr. Janice Ophoven, and Dr. John Howard, all
forensic pathologists; Dr. Mary Pat McKay, an
emergency medicine and trauma specialist; Paul
Gruen, an expert on collision and accident
reconstruction; Dr. Patrick Hannon, an expert on
biomechanics and functional human anatomy; Dr.
Philip Esplin, an expert in psychology and investigative
interviews; Stuart James, a crime scene and bloodstain
pattern analyst; and attorney Dan Cooper, a standard
of care expert.9 The Court also admitted numerous
exhibits proffered by the parties. (Docs. 268–69.)
1. Evidence Suggesting the Need for
Further Investigation
In this section the Court reviews the evidence
presented during these proceedings about which trial
and PCR counsel either were aware as a result of their
own investigations, or should have been aware because
it was contained in the PCSD investigatory reports,
that would have suggested the need for both trial
counsel and PCR counsel to conduct further
investigation into the medical timeline, blood evidence,
and eyewitness testimony.
9

The parties stipulated to the expertise of Dr. Ophoven, Dr.
McKay, Dr. Hannon, Mr. Gruen, Dr. Esplin, and Mr. James. (See
Doc. 243 at 5–6.)

App. 92
a. Timing of Rachel’s Injuries
Sergeant Pesquiera decided early on in the
investigation that Rachel’s injuries occurred on
Sunday, May 1. (EH RT 11/6/17 at 64–65.) Dr. Howard,
however, had not addressed the timing of Rachel’s
injuries in his autopsy report, and Sergeant Pesquiera
never asked him to share with her his findings on the
timing of Rachel’s injuries. (Id. at 65–66.) Sergeant
Pesquiera did not document any inquiry to a medical
professional about the timing of Rachel’s injuries and
Dr. Howard reported to her only that the injuries were
caused by a blunt trauma and that it was a homicide.
(Id. at 68–70.) Sergeant Pesquiera agreed with counsel
during the evidentiary hearing in these proceedings
that, at the time she was conducting her investigation,
she had no reason to believe that Rachel’s injuries
could have happened more than a day before her death.
(Id. at 71–73.) If she had more precise medical
information that showed the injuries could have
happened several days earlier, as Dr. Howard’s 2004
Declaration (EH Ex. 45) suggested, she would have
expanded her investigation. (EH RT 11/6/17 at 73–74.)
Statements made by Dr. Howard in his pretrial
interview and in testimony during Angela’s trial
suggested a larger window of time during which
Rachel’s injuries might have been inflicted, including
potentially April 30.
(i)

External Bruising

During his pretrial interview, conducted before
either Angela’s or Petitioner’s trial, Dr. Howard stated
that there were no tests available to determine the

App. 93
exact age of bruises, but he could provide
approximations. (Id. at 4, 11–12.) Dr. Howard
described the green bruising as having occurred several
days before death, and the purple bruising as possibly
occurring the same day up to four or five days before
death. (Id. at 4.) Trial counsel failed to impeach Dr.
Howard with these statements regarding the imprecise
nature of Dr. Howard’s attempt to date Rachel’s
bruises.
(ii)

Scalp Injury

During his pretrial interview, Dr. Howard said that
he had microscopically examined tissue samples and
determined the injury to Rachel’s scalp was “[p]robably
two days old . . . .” (EH Ex. 46 at 665.) Elsewhere
during the interview, Dr. Howard made reference to
the age of the scalp injury as being 72 hours or older.
(Id. at 650, 657.) During Petitioner’s trial, counsel did
not impeach Dr. Howard with these earlier statements
and testimony regarding the scalp injury.
(iii)

Vaginal Injury

In his pretrial interview, Dr. Howard stated that,
based on microscopic examination of the cells, the
vaginal injury had most likely occurred one or two days
before death; he was not asked during this interview to
clarify if one day meant 24 hours. (EH Ex. 46 at
668–69.) Dr. Howard testified at Angela’s trial that the
minimal age of the vaginal injury was 12 hours prior to
death, but was more typical of around 24 hours. (EH
Ex. 48a at 3472–73.) During Petitioner’s trial, counsel
failed to challenge Dr. Howard’s testimony on the
timing of the genital injury, and did not impeach Dr.

App. 94
Howard with these earlier statements and testimony
finding the injury more typical of occurrence prior to
the afternoon of May 1.
(iv)

Fatal Small Bowel Injury

During his pretrial interview, Dr. Howard was not
asked if he could date the small bowel injury but did
say it could take hours to a day to develop severe
symptoms of the associated peritonitis, and then an
unspecified number of hours after that to die. (EH Ex.
46 at 681–82.) Bowman, the least experienced attorney
involved in this case, attended Angela’s trial in
preparation for Petitioner’s trial, and obtained an order
to have Dr. Howard’s testimony from Angela’s trial
transcribed on the grounds that his testimony in
Angela’s trial was crucial to Petitioner’s defense. (EH
RT 10/30/17 at 56–57; EH Ex. 27.) During Angela’s
trial, Dr. Howard testified that the internal injury was
“most consistent” with 24 hours prior to death. (EH Ex.
48a at 101.) Dr. Howard placed the minimum amount
of time between injury and death at “many - - several
hours. Perhaps 12 hours,” and agreed that Rachel’s
injury could have occurred from 12 hours to 36 hours
prior to death. (Id. at 101.) At Petitioner’s trial, defense
counsel failed to challenge or impeach Dr. Howard’s
testimony with his earlier testimony finding the injury
“most consistent” with occurrence on April 30, and did
not attempt to show that under Dr. Howard’s 12-hour
time frame, the injury would have had to be inflicted by
3:00–4:00 p.m., at a time when Rachel showed no signs
of having just been beaten and raped.
On July 14, 1994, on defense counsel’s motion,
Judge Carruth authorized up to $1,000 for a defense

App. 95
expert to review Rachel’s autopsy report or to conduct
a second autopsy, if necessary. (EH RT 10/30/2017 at
74; EH Ex. 24D at 23; ROA 46.) Bruner explained to
Judge Carruth that he did not necessarily want to have
a second autopsy performed, but in the past had been
able to get the slides released and then have the report
and slides reviewed by somebody else, and he wanted
that done. (RT 7/14/94 at 3.) Trial counsel’s file
contained a scientific article advising of the necessity
of having the tissues examined in order to date the
injuries. (EH RT 10/30/17 at 98–99; EH Ex. 35.)
Bowman testified in these proceedings that, based on
her pretrial interview with Dr. Howard, she knew a
defense expert would have to examine the tissue slides
in order to date the injuries. (EH RT 10/30/17 at
99–100.)
On July 20, 1994, Bowman sent forensic pathologist
Dr. Keen a letter acknowledging Dr. Keen’s agreement
to review Rachel’s autopsy report, and posing several
questions for Dr. Keen to consider when reviewing the
autopsy report, including whether Rachel’s injuries
could be dated and the amount of force necessary to
inflict them. (EH Ex. 58 at 4799–800.) Bowman
confirmed in the letter that Dr. Keen had explained
that his review of the autopsy “may involve obtaining
access to photographs, slides and other physical
evidence”; Bowman also confirmed that such access
could “be arranged as necessary.” (EH Ex. 58 at 4799.)
Dr. Keen explained in these proceedings that he could
not determine the timing of Rachel’s injuries, other
than a generic interpretation of “it’s recent,” just from
the autopsy report; rather, he required access to slides
to make a reliable determination in terms of hours or

App. 96
days. (EH RT 10/31/17 at 71, 73; EH Ex. 57 at 4101.)
Dr. Keen explained he had no recollection of ever
reviewing any photographs, slides, or other physical
evidence at that time. (Id.) There was no record that he
had ever received such evidence; if he had, it would
have been recorded in two places: the county sending
the evidence (Pima County), and the county receiving
the evidence (Maricopa County). (Id. at 71–72.) The
record would probably also contain a billing for
expenses such as copying. (Id. at 72.)
Approximately one month later, on August 18, 1994,
defense counsel and Dr. Keen spoke by telephone. (EH
RT 10/30/2017 at 79–80; EH Ex. 12.) Neither defense
counsel nor Dr. Keen can recall what was discussed
during that call. (EH RT 10/30/2017 at 80; EH RT
10/31/17 at 74.) Four days later, on August 22, 1994,
Rachel’s body was released for burial with the consent
of defense counsel and without a second autopsy being
performed. (EH Ex. 36; EH RT 10/30/2017 at 81.) Dr.
Keen did not testify at Petitioner’s trial.
(v)

Physical Evidence

PCSD Detective Clark obtained and executed a
warrant to search Petitioner’s trailer on May 2. (EH
Ex. 1 at 1673.) Detective Farrier assisted him in the
search. (Id.) The record contains no report that anyone,
neither law enforcement nor defense counsel,
attempted to identify and locate the clothing worn by
Petitioner or Rachel on May 1, the day Petitioner is
alleged to have beaten and sexually assaulted Rachel.
(See EH RT 11/06/17 at 87–89.) Sergeant Pesquiera
could not remember any sexual assault case where
there was not a documented effort to identify and

App. 97
locate the victim’s clothing, and could not rule out the
possibility that the clothing Rachel and Petitioner were
wearing that day might have had exculpatory value.
(Id. at 88–89, 92.) Sergeant Pesquiera did not ask
Angela to help identify the clothes Petitioner and
Rachel were wearing on May 1. (Id. at 89–90.)
b. Events of April 30–May 2, 1994
At the time of her death, Rachel had been living in
Petitioner’s small trailer at the Desert Vista trailer
park in Tucson, Arizona. Angela and her children had
moved into Petitioner’s trailer approximately four
weeks before Rachel’s May 2 death. (EH RT 11/7/17 at
45; EH Ex. 1 at 472; EH Ex. 1610 at 248, 255.)
Sergeant Pesquiera interviewed Isobel Tafe, a
resident in the trailer park, on May 19. (EH Ex. 81 at
5142.) Tafe told Sergeant Pesquiera that she saw
Rachel around 2:00 or 3:00 p.m. on Saturday, April 30,
and that Rachel looked sick and had a pale grayish
color; she was with her sister but was not being
supervised by any adult. (EH Ex. 81 at 5142–43.)
Sergeant Pesquiera prepared a report stating that Tafe
had seen Rachel on Saturday, April 30. (EH Ex. 1 at
1852.)
10

Exhibit 16 is an investigative report authored by Petitioner’s
trial investigator George Barnett, a retired Tucson Police Officer
with 21 years of law enforcement experience and 5 years of
independent investigative experience. (EH RT 10/31/17 at 17; EH
Ex. 15 at 4369.) Defense counsel retained Barnett to assist with
the trial investigation. Barnett was deceased at the time of the
Court’s evidentiary hearing in this matter, but filed two
declarations during the course of these federal habeas proceedings.
(EH Ex. 14–15, 19.)

App. 98
During her testimony at the evidentiary hearing,
Sergeant Pesquiera confirmed that it had always been
her understanding that Becky had consistently
reported, in pretrial interviews as well as her
testimony at Angela’s trial, that Petitioner and Rachel
only went on two trips in the van on Sunday, May 1,
before Rachel appeared sick. (EH RT 11/6/17 at 57–59.)
Her investigation also suggested that Petitioner took a
third trip with Rachel to the Quik-Mart after Angela
woke up, around 6:30 or 7:00 p.m., after Rachel
appeared sick at the Flemings’s residence. (Id. at
35–36, 57.) When Rachel returned from this third trip,
she had a bag of ice on her head. (Id. at 37)
Becky was first interviewed by Detective Ferrier on
May 2, 1994. (EH Ex. 1 at 1111.) Becky stated that
Petitioner first left with Rachel to go to the store in the
afternoon, around 1:00 or 2:00 p.m.; “the second place
was to his friend’s house.” (Id. at 1116.) After the
second trip, Becky saw Rachel “smiling and looking out
the door.” (Id. at 1117.) When Becky left to go to her
friend’s house at 5:15 p.m., Rachel was watching
television and looked “ok,” but when she returned, she
saw Rachel lying on the couch. (Id.)
Detective Downing interviewed Becky on May 9.
(EH Exs. 39 (transcript), 43 (videotape).) Becky stated
that Petitioner woke up at 2:33 p.m. on Sunday, when
his friend stopped by the trailer. (EH Ex. 39 at 1133.)
Becky was outside riding her bike when Petitioner told
her he was taking Rachel with him to his friend’s house
and left with her in the yellow van. (Id. at 1131–33.)
Petitioner returned about 30 minutes later. (Id. at
1134.) Becky said Petitioner left again with Rachel,

App. 99
telling Becky he was going to the store. (Id. at 1134.)
Rachel did not appear hurt when she left on that trip
with Petitioner. (Id. at 1134.) After that, when Becky
put her bike away to go to her friend’s house, she saw
Rachel standing in the living room, watching television;
Becky did not know if Rachel was hurt, but when
Becky left, Rachel was standing on the porch waving to
her. (Id. at 1130, 1135–36.) When Becky returned,
Rachel was lying on the couch and Angela had placed
a wash cloth on her head. (Id. at 1137.)
During Angela’s trial, Becky testified that after
Petitioner’s friend visited the trailer around 2:30 or
3:00 p.m., Petitioner told Becky he was going to the
store and left in the van with Rachel. (EH Ex. 41 at
6449–50.) After the trip to the store, Becky testified
that Petitioner left again with Rachel, telling Becky he
was going to his friend’s house. (Id. at 6451–52.) When
Petitioner got back, Becky asked permission to go to
her friend’s house. (Id. at 6453.) When Becky returned
around 6:30 p.m., Rachel was lying on the couch; she
looked sick and her head was bleeding. (Id. at
6454–55.) On cross-examination at Angela’s trial,
Becky was asked if she was “sure they left, they went
and came back two separate times?” Becky responded
“Yes.” (Id. at 6493.) Petitioner’s trial counsel did not
impeach Becky with any of these statements from
Angela’s trial or from her pretrial interview.
Contrary to the State’s theory that the assault
occurred during a third trip in the van, witnesses to
Rachel’s third trip with Petitioner indicated this third
trip occurred after Rachel appeared sick. Detective
Thomson interviewed Angela shortly after Rachel was

App. 100
brought to the hospital. (EH Ex. 1 at 414.) Angela
stated that she slept all day on May 1, and when she
woke up Rachel was taking a nap; Petitioner explained
to Angela that Rachel was playing with some little boys
and she had fallen out of the van. (Id. at 416, 418.)
Angela left to make a phone call and to check on
Brandie. (Id. at 416.) When she got back to the trailer,
Petitioner was returning in the van. (Id.) He explained
that when Rachel woke up there was blood all over her
head so he took her to the paramedics who rinsed her
head out and told him there was no need to stitch it.
(Id. at 416.) Rachel told Angela she did not want any
dinner because her stomach was upset. (Id. at 419.)
Angela noticed some bruises on her chest and Rachel
explained that “the little boy pushed her out of the
van.” (Id.)
Stephanie Fleming, Petitioner’s neighbor, recounted
the events she recalled from Sunday, May 1 in an
interview with Sergeant Pesquiera. (EH Ex. 72 at 333.)
Stephanie remembered seeing Rachel playing on her
bike around 3:30 p.m. (Id. at 334–35.) She went to
Petitioner’s trailer at that time because Angela had
previously asked her if she wanted to babysit. (Id. at
335.) Stephanie saw Petitioner in the kitchen and
Angela was wide awake and told Stephanie she no
longer needed her to babysit. (Id. at 335–36.) Stephanie
saw Rachel outside riding her bike at that time, and
she did not look sick. (Id.) Around 5:15 p.m., Rachel
went into Stephanie’s camper. Stephanie noticed she
was soaking wet, but didn’t have any bumps on her
head, and no blood, but was “trying to get sick” though
she never threw up. (Id. at 337–38.) Her face was a
greenish color, and she had black under her eyes. (Id.

App. 101
at 338.) She was not wearing a shirt, but Stephanie
saw no bruises or scratches on her, except on her arms.
(Id. at 339, 341.) Stephanie picked her up to take her
home and when they ran into Petitioner on his way to
check on her, Rachel went willingly to him. (Id. at
341–42.) After that, Petitioner, Rachel and Angela
drove away in the van. (Id. at 343–44.) Stephanie did
not see the van return, but did see it leave again
around 7:30 p.m., and it was gone until close to 9:30
p.m. (Id. at 346–47.)
Petitioner was first interviewed Monday morning
shortly after he was brought in from the St. Charles
camp. (EH Ex. 73 at 686.) Petitioner stated that he saw
Rachel was with two little boys her same age when she
fell out of his van on Sunday afternoon. (Id. at 691–92,
695.) He said that he gave Rachel half of a Tylenol or
aspirin and she went back out to play; he pushed her
on her bike until she started playing with the boys
again. (Id. at 691, 696.) Petitioner told the officers that
after Rachel had fallen out of his van, he and Rachel
went to visit St. Charles and then to the Choice Market
to get dinner; Rachel went into the market and helped
carry the milk. (Id. at 729, 735, 741–42.)
Petitioner said that, sometime after 5:00 p.m.,
neighbors Stephanie and Julian Duran waved for
Petitioner to come over and told him Rachel was
getting sick. (EH Ex. 73 at 702.) Petitioner stated he
put her down for a nap and it was after that when he
first noticed her head start to bleed. (Id. at 691, 696.)
Around 5:30 p.m., he took Rachel to the Quik-Mart to
get some ice for her head. (EH Ex. 73 at 703–06, 718,
749.) He did not stop at the Rural Metro Fire

App. 102
Department fire station as he later told Angela and
others, but stated that he did encounter an EMT at the
Quik-Mart who looked at the cut, shined a light in her
eyes, commented that they were “reacting equal,” and
advised Petitioner to “keep the ice pack on it and it’ll be
okay.” (Id. at 704–06, 718, 774.) Petitioner thought the
EMT was on his way to or from work because there was
no emergency vehicle there. (Id. at 719.) Petitioner
stated he did not take Rachel to the Rural Metro Fire
Department because he saw a police vehicle there and
he did not have a driver’s license. (Id. at 704, 774.)
During Petitioner’s pretrial statement, he never stated
that Rachel was examined by a Rural Metro EMT, but
maintained that he saw a man in a brown-shirted EMT
uniform who was not driving an official vehicle. (EH
Ex. 73 at 705–06, 749.) When Petitioner returned to the
trailer, Angela, who used to be in nursing, said “head
wounds bleed a little bit so no big deal.” (EH Ex. 73 at
704.) Petitioner told the officers that he and Angela
were up with Rachel much of Sunday night, and that
Rachel would throw up anytime she drank something.
(EH Ex. 73 at 705, 723.)
Detective Ruelas took a statement from Petrilak,
the Quik-Mart clerk, who verified that Petitioner was
in the store getting ice in a plastic bag, but did not
bring his child in with him, and could not opine on
Petitioner’s actions outside or if she saw him talking
with anyone, stating that she “didn’t watch him
anymore . . . once outside the store I don’t pay attention
to them, especially when I have customers in the store.”
(EH Ex. 1 at 1877; EH Ex. 66 at 5072.) Because
Petrilak had testified at trial that she believed she
would have been aware of an EMT treating a little girl

App. 103
outside the store, but did not notice that happening,
trial counsel could have impeached this statement with
her statement to Detective Ruelas that she did not pay
attention to him after he left the store. Despite these
prior statements, trial counsel did nothing to impeach
Petrilak’s statement that she would have noticed Rural
Metro personnel arriving in an official vehicle, or would
notice any Rural Metro personnel looking at or talking
to the little girl. Trial counsel did confirm the time of
day Petrilak might expect Rural Metro personnel to be
there, and obtained information from Petrilak that
Rural Metro always parked in front where they could
be seen.
Sergeant Pesquiera acknowledged during the
evidentiary hearings in these proceedings that, despite
verifying that Petitioner went to the Quik-Mart and to
his friend Ron’s house, and that he did not go to the
Rural Metro Fire Department, there is no “indication
anywhere in the sheriff’s department record” that
anyone attempted to verify and document that
Petitioner went into the Choice Market around 4:00 or
4:30 in the afternoon and that Rachel was fine at the
time. (EH RT 11/6/17 at 99–101; see also EH Ex. 66.)
Sergeant Pesquiera interviewed Rachel’s mother
Angela on May 2 and again with Detective O’Connor on
May 3 after Rachel’s autopsy. (EH Ex. 1 at 414–26,
472–517, 518– 616.) Angela said that she slept all day
on May 1 and did not wake up until 6:30 p.m. (Id. at
416, 418.) Angela said after she woke up and saw
Rachel’s head was bleeding, Rachel told her that a little
boy had pushed her out of the van. (Id. at 419, 475.)
Petitioner also told her that Rachel had fallen out of

App. 104
the van earlier while playing with some little boys. (Id.
at 418.) Angela stated that at 7:00 or 7:30 that evening,
after she returned from making a phone call, Petitioner
was just returning in his van and told her that when
Rachel woke up from a nap her head was bleeding; he
took her to the fire station where they rinsed her head
out and informed Petitioner she was not in need of
stitches. (Id. at 416.)
Angela reported that she asked Rachel if she had
gone to see the firemen, and Angela reported that
Rachel said she had seen a lot of them. (EH Ex. 1 at
506, 530.) Angela also stated during this interview that
she and Petitioner discussed taking Rachel to the
hospital on the night of May 1 but that she was
“scared” that if she did so “they might take her away”
because of the cut on her head and the bruises on her
stomach. (Id. at 557.) She stated that she did not see
bruises on Rachel’s face until Monday morning. (Id. at
419, 476, 592.) Sergeant Pesquirea noted that Angela
“was not emotionally upset, and showed very little
emotion about her arrest or her child’s death” in the
May 3 interview. (Id. 66 at 5216.)
Angela told officers she put Rachel in bed with her
that night because Rachel wanted to sleep between
Angela and Petitioner. (EH Ex. 1 at 477.) Rachel,
however, was not present in Angela’s bed when Angela
woke up at approximately 6:00 a.m. (Id. at 478.) Angela
found Rachel in Rachel’s bed and could not wake her
up. (Id. at 478.) Petitioner transported Angela and
Rachel to the hospital in his van while Angela held
Rachel and performed CPR. (Id. at 482–84, 548–49.)
Angela related that once Petitioner dropped her off at

App. 105
the hospital he was to return home to attend to the
other children. (Id. at 418, 483, 549.) Angela was not
sure, but thought Petitioner was going to return to the
hospital, possibly bringing the other children with him
or maybe after taking them to school. (Id. at 483, 549.)
Angela said that Petitioner had never hit the kids. (Id.
at 425, 576.) Angela advised Sergeant Pesquiera that
Petitioner had protected her and was the “first guy
that’s made (her) feel safe.” (Id. at 491.)
Richmond was interviewed on May 2 and August
30, 1994. She reported that she was with Petitioner
most of the night on Saturday, April 30, into the early
morning of Sunday, May 1. She was at Petitioner’s
trailer on Sunday evening May 1, sometime between
7:00 p.m. and 8:00 p.m., where she saw Rachel lying
quietly on a pillow with her head bleeding. (EH Ex. 1 at
1302–03.) Petitioner and Angela told her that some
kids playing in Petitioner’s van had pushed Rachel out
of the van. (Id. at 1303–04.) Petitioner told Richmond
that he had taken Rachel to the paramedics at the fire
station, and they said she would be alright. (Id. at
1304.)
Richmond also stated that, on Monday morning,
Petitioner, upset and hysterical, arrived at her house
with Brandie and Becky. (EH Ex. 1 at 1306–08, 1311,
1327.) Richmond and Petitioner took the girls to his
friend Ron St. Charles, and then Petitioner told
Richmond to take Petitioner’s van to go to the hospital
to check on Rachel and Angela because Petitioner did
not want to go to the hospital. (Id. at 1309–11.)
Petitioner left in a truck with St. Charles, and
Richmond was stopped by police officers on the way to

App. 106
the hospital. (Id. at 1307–08.) Petitioner was located at
the St. Charles camp and transported to the Sheriff’s
Department.
From May 17 through May 27, Sergeant Pesquiera
conducted other interviews of people who resided in or
were at the trailer park on May 1, 1994. (EH Ex. 66 at
5218–23.) About two weeks later, a Pima County
Sheriff’s photographer was dispatched to the Choice
Market to photograph the parking lot. (EH Ex. 65a at
4756–63.) Other than taking photographs, no
additional investigation was conducted by the Sheriff’s
Department.
On the morning of May 3, 1994, Norma Lopez
reported to PCSD Detective Bruce Clark that her
children observed a person in a van striking a child.
(EH Ex. 66 at 5083.) Norma told police that her eightyear-old twins walked to Choice Market at about 4:00
p.m. for soda. (EH Ex. 76 at 1050–51.) She reported
that when the children returned home from Choice
Market ten minutes later, they were “dying to tell her”
that they had seen a man who “looks like Alonzo[11] in
a yellow van . . . punching a little girl.” (Id. at 1052.)
The children stated he “was driving with one hand. . . .
swerving like he was drunk” and was hitting the girl in
the chest with his elbow and hitting her face with her
fist. (Id.) The children also reported they could see and
hear the girl crying. (Id. at 1052–53.) Norma then told
Detective Clark that when she saw Petitioner on the
news the following day, she “knew right away” that the

11

Alonzo was a friend of the family. (EH Ex. 76 at 1051.)

App. 107
same guy the kids saw in the van was “the same guy
that was on the news.” (Id. at 1052.)
The Lopez children, Ray and Laura, were
interviewed in their mother’s presence that afternoon
by Detective Clark. (EH Exs. 77, 79.) There were
several instances during the interview that Detective
Clark corrected what he perceived to be incorrect
answers, and provided Ray with the correct answer, or
suggested the correct answer in the question he posed.
For example, when Ray stated he went to the store in
the afternoon after school, Detective Clark followed up
with these leading questions:
Det. Clark: . . . What, do you go to school on
Sundays?
Ray:

No.

Det. Clark: . . . [W]hat did you do for the first part
of the day? You did, you didn’t go to
school, what’d you do just playing?
Ray:

Yes
...

Det. Clark: . . . It was light out right?
Ray:

Uh huh (yes) yeah.

Det. Clerk: And it was kind of blue skies and
sunny?
Ray:

Yeah.

(EH Ex. 77 at 1057.)

App. 108
Detective Clark also asked how far away the Choice
Market is, “just a block away or ten blocks away?” (EH
Ex. 77 at 1058.) When Ray responded that it was ten
blocks away Detective Clark said: “No, no, no, no.
Okay, we gotta, we gotta be real serious about this,
okay? . . . So how far do you really think it is from
here?” (Id. at 1058.) Ray responded with the other
choice given by Detective Clark: a “[b]lock away.” (Id.)
Detective Clark continued asking leading questions.
(Id. at 1058–59.) Ray told Detective Clark that when he
went to the Choice Market around 5:00 p.m. on May 1,
he saw a man with long, messed up, curly hair, wearing
a blue shirt and a blue and white baseball cap hitting
a little girl while driving a yellow van with one hand.
(Id. at 1060–61, 1063.) Ray thought the van was
swerving because the man was hitting the girl. (Id. at
1063.) Because Ray had stated he could see the man’s
hands, Detective Clark stated to Ray that “he was
pretty close then, you could see his hands?” (Id.) Ray
agreed he was. (Id.) Detective Clark asked if the
distance was comparable to the distance between him
and a “big football” that was in the room. (Id.) Ray
agreed. (Id.) When Ray said that he could not estimate
the man’s age, his mother, who had previously viewed
Petitioner on the news, suggested that the man was
around “Uncle David’s” age, or around 30–35 years old,
and Ray agreed. (Id. at 1060–61.) Ray told Detective
Clark that he saw the man hitting the girl with his fist
and elbow—twice in the face and once in the stomach
with his fist, and in the mouth with his elbow. (Id. at
1064.) Later Ray said he saw the man hit the girl once
with his elbow in the girl’s stomach and hit her face
five times with his fist. (Id. at 1065.) When confronted
with his inconsistent responses, Ray said he could not

App. 109
picture exactly where the man hit the girl with his
elbow. (Id. at 1066.) Although Ray said he could not
hear anything because the van windows were closed,
when Detective Clark asked if the girl looked happy or
sad or crying or yelling, Ray said the girl was “kind of
yelling” and crying. (Id. at 1064.) Clark then asked
another leading question confirming that Ray could not
hear anything but could see that she was yelling. (Id.
at 1064.) When Ray said he could not see her bleeding,
Detective Clark first responded “. . . you probably just
didn’t notice that . . .” then acknowledged that maybe
it did not happen, but he was not “trying to put words
in [Ray’s] mouth.” (Id. at 1067.)
Laura was interviewed after her brother. She told
Detective Clark that when she went to the Choice
Market with her brother between 3:00 p.m. and 4:00
p.m. on May 1, she saw a man with long, brown,
messed up, curly hair driving a yellow van with one
hand while hitting a little blonde girl with the elbow of
his other arm. (EH Ex. 79 at 1012–16.) Laura was
asked how far away she was from the van when she
saw it, further than or closer to the football in the
room. (Id. at 1115.) Laura responded without
equivocation that it was further than the football, and
was “all the way to the fence . . . .” (Id. at 1015.) Both
Norma and Detective Clark talked her into agreeing it
was the same distance as the football, but when
Detective Clark followed up by asking if it was a little
further or a little closer, Laura again, consistent with
her first response, stated it was “a little further.”
Detective Clark, seemingly unhappy with the response,
suggested maybe she was just unsure about her
answer: “A little further, okay. And that’s okay, if

App. 110
you’re not sure . . . it’s certainly okay for you to say I
don’t know or I’m not sure.” (Id. at 1015.)
Laura told Detective Clark that the girl did nothing
in response to getting hit; she was not talking and
Laura did not hear her say anything. (EH Ex. 79 at
1017.) Detective Clark then posed the question “could
you see if the little girl was laughing or crying?” (EH
Ex. 79 at 1017–18.) Laura responded this time that the
girl was crying. (Id. at 1018.) When Laura stated she
knew the girl was crying because her face was red and
there were tears, Detective Clark disagreed with her:
“I’m not sure you could see tears . . .” (Id. at 1018.)
When Laura protested that she “saw her,” Detective
Clark responded: “Maybe you just, you know like when
you cry, you know there’s tears.” (Id.)
Later in the interview, Detective Clark and Norma
talked Laura into changing her initial negative
response to an uncertain and then a positive response:
Det. Clark: . . . did you watch any television?
Laura:

Yeah, but cartoons.

Det. Clark: Okay. Did you watch the news?
Laura:

No.

Det. Clark: Okay, did you think your brother
watched the news?
Laura:

No.

Det. Clark: You don’t, you don’t know?
Laura:

No.

App. 111
Det. Clark: You don’t know, okay. Mom, uh, let me
just ask you, did they both watch the
news?
Norma:

They both watched the news. Did we,
yeah we watched the news. Remember
I, I told you to come and watch the
news?

Laura:

Yeah.

(EH Ex. 79 at 1024–25.)
Defense counsel was on notice of the police reports
and interviews of Ray, Laura, and Norma Lopez. (EH
RT 10/30/17 at 125; EH RT 10/31/17 at 147.) Defense
counsel for both Petitioner and Angela, and a Pima
County Sherriff’s Office investigator, interviewed Ray
and Laura in each other’s presence, and in the presence
of their mother, on January 20, 1995 at the Lopez
home. (EH Exs. 78, 80.) During this pretrial interview,
Ray admitted to defense counsel that he did not have
an independent memory of many of the events of May
1, 1994; his answers in the interview derived from his
reading of the transcript of his interview with Detective
Clark months earlier. (Id. at 1075–76.) Contradicting
his statement to Detective Clark that he had witnessed
the incident on the way home from the Market (EH Ex.
77 at 1059), Ray stated during his defense interview
that on his walk to the market he saw a man in a van
hitting a little girl. (EH Ex.78 at 1077.) He described
the van as a scratched, old, solid yellow van without
any windows on the sides.12 (EH Ex. 78 at 1078–79.)
12

Petitioner’s van had side windows. (EH Ex. 65a at 4874–75.)

App. 112
Aerial photographs taken by the PCSD show an older
model solid yellow van without any windows along the
side panel, matching the description given by Ray
Lopez, in the Choice Market parking lot. (EH Ex. 94.)
During the pretrial interview, Ray described the
man as a white man with black curly hair, which he
agreed was as curly as an “afro” (EH Ex. 78 at
1080–81), but did not describe the man as wearing a
baseball cap (EH Ex. 77 at 1061). Ray testified the man
hit the girl in the stomach and on her face with his
hand, and she cried when she got hit, though he also
said he did not actually see her cry. (Id. at 1082–84.)
Ray stated he did not know how many times the man
hit the girl. (Id. at 1082–83.)
Laura also spoke with defense counsel, but only
after first listening to her brother’s interview and his
answers. (EH Ex. 80 at 1029.) Like her brother, Laura
remembered that the van was solid yellow without any
windows along the sides. (Id. at 1034.) Laura claimed
to be able to see the driver of the van all the way down
to the waist of his pants, but she was unable to recall
what the driver wore or what he looked like. (Id. at
1037.) Again, like her brother, Laura described the
man as having curly hair “[l]ike a black guy’s.” (Id. at
1038.) She saw the man hit the girl hard with his
elbow, twice in the face. (Id. at 1041.) Laura told
counsel that she only saw the back of the driver’s head
and she saw only some of the girl’s face from the side,
but she could tell that the girl was crying because
“[h]er face was red” and her “eyes were watery.” (Id. at
1038–39, 1041.) Initially, Laura stated that she was
sure the man she saw on the news was the man she

App. 113
saw in the van, but after further questioning by
defense counsel as to whether she was sure, or just
“thought it could be,” she responded that it “could be.”
(EH Ex. 80 at 1045–46.)
At the end of the interview, Bowman had Ray and
Laura take the interviewers out to the Choice Market
parking lot to identify where they were standing when
they observed the van traveling through the dirt lot.
(RH Ex. 78 at 1099–1100; see RT 4/7/95 at 41.)
Counsel conducted no further investigation until the
eve of trial when Petitioner’s investigator, George
Barnett, was directed to take photographs and
measurements of the van. (EH Ex. 17, Ex. 18.) Barnett
took photographs of the front and side of the
windshield of Petitioner’s van, as well as height
measurements of the driver and passenger side door
windows, attempting to cast doubt on Ray and Laura’s
ability to see. (EH Ex. 18 at 267–83). Defense counsel
noticed Barnett as a witness at trial who would be
expected to testify as to the various measurements
taken from Petitioner’s van. (EH Ex. 26.) Barnett
prepared a summary of the results of the investigation
on March 31, 1995, and defense counsel received the
results a day before Petitioner’s trial began. (See EH
Ex. 17 (facsimile transmittal indicating report sent
April 4, 1995). But see EH RT 10/30/17 at 120 (report
received April 8, 1995); EH Ex. 17 (cover page
signature line indicating report sent April 8, 1995).)
Ultimately, Barnett did not testify at Petitioner’s trial.

App. 114
c. Evidence of Other Potential Suspects
(i)

Angela Gray

In an interview conducted with defense counsel in
October 1994, Angela’s aunt, Donna Marini, who had
been taking care of Becky and Jonathon since Angela’s
arrest, stated that she believed the two children had
been abused by Angela because of what the children
said about being slammed up against the wall and
thrown down the stairs by Angela. (EH Ex. 32 at 1271.)
She was also generally concerned about the possibility
of sexual abuse, but not from Petitioner; it had
previously been reported to her by other family
members that visiting the house in the past they had
walked in to see Becky sleeping “with a bunch of drunk
men” at the house and “things like that that went on
all the time.” (Id. at 1272–73.)
Petitioner’s daughter Brandie told officers she had
seen Angela hit both Becky and Jonathon in the time
they were living in Petitioner’s trailer. (EH Ex. 1 at
886–87, 890–91.) She also saw Angela hit Rachel, hard
enough to leave a hand print on Rachel. (Id. at 891.)
Becky confirmed that Angela spanked Rachel hard
enough to leave a hand print on her, and that before
they moved in with Petitioner, Angela would kick
Becky when she got into trouble. (EH Ex. 40 at 1165,
1171.)
On May 3, 1994, Terry Richmond called PCSD and
told Detective Clark that he thought that Angela was
the one “hitting on the kids.” (EH Ex. 66 at 4946.) He
reported seeing Angela spank the kids, “sometimes” in
excess, and had also seen Angela smack Rachel in the

App. 115
face for not doing what Angela said. (EH Ex. 66 at
4946–47.) Petitioner’s neighbors also reported that
Angela screamed at the children threatening them with
physical harm while Petitioner acted appropriately
around children. (EH Ex. 16 at 249–50.)
(ii)

Other Children in the Trailer
Park

In Becky’s statement to Detective Ferrier on May 2,
she indicated that when she returned from visiting her
friend’s house, Rachel was lying on the couch and she
saw blood on the pillow. (EH Ex. 38 at 1112, 1118.)
Becky heard Rachel tell their mother that a boy had
pushed her out of the van and hit her with a metal bar
in the stomach. (EH Ex. 38 at 1111–12, 1115, 1120.)
Julian Duran and Dawn Kopp were at Stephanie
Fleming’s trailer around 5:00 p.m. on Sunday May 1.
Kopp told Sergeant Pesquiera that Stephanie’s son
Patrick had supposedly told Stephanie that her other
son Ryan hit Rachel in the stomach with a stick and
that is when she went to the bathroom and tried to
throw up. (EH Ex. 66 at 5161.) When Stephanie was
interviewed, she acknowledged that her two-year-old
son Ryan, still in diapers, was “mean” sometimes, and
had struck some of the older children before, but not
enough to cause a bruise or injury. (EH Ex. 72 at 340.)
Brandie was interviewed on May 2 and reported
that a boy had hit Rachel in the stomach with a metal
bar, and she thought the same boy, maybe one of
Stephanie’s kids, had pushed Rachel out of the van.
(EH Ex. 1 at 796, 811.)

App. 116
Petitioner told officers that, on Sunday when he saw
Rachel fall out of the van, she told him one of the boys
pushed her out of the van. (EH Ex. 73 at 691, 695.)
(iii)

Becky

Angela reported that Becky could be overly rough
with Rachel, saying once she pushed her in front of a
moving car, and another time Angela was told that
Rachel had fallen from a clothesline after Becky had
put her up there. (EH Ex 1 at 494–495, 536.)
(iv)

Jonathon

Bowman acknowledged in these hearings that
evidence acquired during the investigation suggested
that there may have been sexual problems between
Rachel and her brother Jonathon, that Jonathon had
been molesting other children, that Rachel was afraid
of Jonathon when he was in the bedroom where Rachel
slept, and that Jonathon had to be moved out of the
girls’ bedroom into separate sleeping quarters due to
sexual behavior directed toward Brandie. (EH RT
10/30/17 at 106–09; EH Ex. 1 at 890, 892–95; EH Ex.
30.)
Sergeant Pesquiera could not recall if she or one of
her investigators conducted a forensic interview about
any improper touching happening among the children
in the trailer. (EH RT 11/6/17 at 77.) Sergeant
Pesquiera admitted that there was no reason she could
think of why she would have ruled out such an
investigation. (Id. at 78–79.)

App. 117
(v)

Zoly

Prior to moving in with Petitioner, about a month
before Rachel’s death, Angela and her children lived
with her former boyfriend, “Zoly,” for several years.
(EH RT 11/7/17 at 45–46; EH Ex. 1 at 426, 472, 489.)
Zoly was physically abusive toward Angela, and
remained in frequent contact with the children, most
recently for Rachel’s birthday on April 7. (EH Ex 1. at
426, 472–73, 489–90, 576.) An entry in defense
counsel’s trial notes states: “Zol[y] - problems w/
Johnny & Rachel sexually in past.” (EH RT 10/30/17 at
105–06; EH Ex. 30.) Angela provided Zoly’s full name,
as well as his address to Sergeant Pesquiera (id. at
512), but there is no documented report that law
enforcement attempted to locate or interview Zoly. (EH
Ex. 66; RT 11/7/17 at 54.) Though he was a “person of
interest,” he was never considered a possible suspect.
(RT 11/7/17 at 54–55.) Sergeant Pesquiera testified at
the evidentiary hearing that there would have been a
note in the investigative record if she had followed up
with Zoly.
2.

Evidence That Could
Presented at Trial

Have

Been

In this next section the Court reviews the evidence
presented during these federal habeas proceedings that
Petitioner asserts a reasonable investigation would
have uncovered.

App. 118
a. Medical Evidence
(i)

Fatal Small Bowel Injury

During the recent evidentiary hearing before this
Court, the Court heard testimony from Dr. Janice
Ophoven, Dr. Mary Pat McKay, and Dr. Keen, among
other experts. The Court also heard testimony from Dr.
Howard. (EH RT 11/7/17 at 63–133.) Dr. Ophoven, Dr.
McKay, and Dr. Keen all agree that it is not possible
that the injury to Rachel’s small bowel occurred on the
afternoon of May 1, 1994. (EH RT 10/31/17 at 82, 95,
107; EH RT 11/1/17 at 37–38; EH RT 11/2/17 (a.m.) at
9.) Both Dr. Ophoven and Dr. McKay, experts retained
by Petitioner, concluded that the injury to Rachel’s
small bowel occurred at least 48 hours (and probably
many more hours) before her death. (EH RT 11/1/17 at
29, 35–36; EH RT 11/2/17 (a.m.) at 20; EH Ex. 113 at
6634–31; EH Ex. 106 at 4275–76.)
Dr. Ophoven explained that the fatal injury to
Rachel’s duodenum occurred in the retroperitoneal
space, which is just behind, but separated from, the
abdominal cavity or peritoneum. (EH RT 11/1/17 at
11–13; EH Ex. 107 (sealed) at 6678–79.) The
inflammatory response to an injury in this area is
initially restricted to the tissue area of
the retroperitoneum. (EH RT 11/1/17 at 14.)
Retroperitoneal injuries do not manifest in the same
kind of symptoms as an injury inside the peritoneum,
such as appendicitis, where the inflammation spreads
quite rapidly and symptoms develop quickly. (Id. at
11–15.) Individuals may experience discomfort—a
bellyache, nausea, or a change in appetite—but would
not necessarily look like they were suffering from an

App. 119
impending catastrophe. (Id. at 15.) As a result, the
delay between injury and the time of onset of
symptoms—let alone diagnosis of injury—in injuries to
the duodenum like Rachel’s is often three or four or
more days. (Id.; Ex. 105 at 4272–73.) Individuals
commonly do not know they have a serious injury for
several days until there is a catastrophic
decompensation with the onset of peritonitis and,
simultaneously, shock. (EH RT 11/1/17 at 15.)
Dr. Ophoven conducted a pediatric forensic
pathology review of the autopsy records and supporting
documentation, including photographs and tissue slides
taken during Rachel’s autopsy. (EH RT 11/1/117 at 10;
EH Ex. 103 at 4243.) Based on her review of gross
autopsy photos showing the extent of inflammation in
Rachel’s abdomen, Dr. Ophoven concluded that the
development of this degree of peritonitis had taken at
least 48 hours. (EH RT 11/1/17 at 27–29; EH Ex. 107
(sealed) at 6675.) Dr. Ophoven’s analysis of the
microscopic slides also showed evidence of an
inflammatory response that would have taken days to
develop. (EH RT 11/1/17 at 32, 35–36; EH Ex. 105 at
4272; EH Ex. 107 (sealed) at 6680.)
Addressing the evidence that there were
eyewitnesses who saw Rachel being beaten by
Petitioner on the afternoon of May 1, Dr. Ophoven
rejected the idea that any additional blows to her
abdomen on that afternoon could have caused Rachel’s
death as the inflammatory process would have started
much earlier, she had already developed peritonitis,
and was already on her way to dying at that time. (EH
RT 11/1/17 at 88.) Dr. Ophoven testified that Isobel

App. 120
Tafe’s statement that Rachel looked sick and “grayish”
on Saturday was a symptom “specific to this sort of
[disease] process.” (Id. at 78.) Dr. Ophoven testified
that based on her review of the physical evidence,
including samples of tissue and chemical analysis from
Rachel taken at the time of autopsy, “the key findings
in this case of abdominal trauma of many days
duration were not made clear” during Petitioner’s trial.
(EH RT 11/1/17 at 37–38; EH Ex. 106 at 4276.) The
evidence demonstrates that “the fatal injuries to Rachel
Gray could not possibly have been inflicted on the day
prior to her death as suggested by the state at
[Petitioner’s] trial.” (Id.) Dr. Ophoven concluded that
the “veracity of this evidence is as scientifically precise
as any forensic determination available in medical
science.” (Id.)
Dr. Mary Pat McKay, a board-certified emergency
medicine practitioner specializing in trauma care with
additional experience teaching and researching in the
field of injury care and trauma, testified regarding her
personal experience treating duodenal injuries like
Rachel’s as well as an extensive literature review she
undertook focused on pediatric injuries involving
duodenal rupture, perforation, laceration, treatment,
and outcomes. (EH RT 11/2/17 (a.m.) at 5–6, 9; EH Ex.
113.) In her review, Dr. McKay identified “more than
200 cases of intestinal injury in children over many
decades, including at least 160 cases of duodenal
perforation with the timeline described from injury
through diagnosis to treatment and outcome.” (EH Ex.
113 at 6634–27.) In her review of the literature, Dr.
McKay did not find a single reported case in which a
duodenal injury resulted in death within 48 hours after

App. 121
the known time of injury. (EH RT 11/2/17 (a.m.) at 9,
15.)
Dr. McKay suspected Rachel’s injury was nonaccidental due to the delay in seeking treatment, but
could not rule out an accidental injury based on the
evidence. (Id. at 10.) In her experience, she has seen
duodenal injuries caused by bicycle handlebars and
even rough play such as wrestling. (Id. at 11.) In one
case, Dr. McKay treated a 17-year-old who suffered a
duodenal tear due to a knee to the solar plexus while
wrestling with a friend. Dr. McKay explained that the
patient presented to the emergency room “perfectly
healthy” with some abdominal pain. (Id. at 11.) The
patient actually left the emergency room before he was
diagnosed with a rupture in his retroperitoneum, and
ate a submarine sandwich for lunch before returning
for surgery the following day. (Id. at 11–12, 19.) Dr.
McKay described the teen’s delayed diagnosis as
consistent with her experience and the medical
literature, explaining that the inflammatory response
in these types of injuries is a “smoldering process.” (Id.
at 12.) The correct diagnosis and medical treatment are
often not undertaken for several days; Dr. McKay’s
literature review uncovered cases where the correct
diagnosis was not reached for up to seven days. (Id. at
12.)
Dr. McKay explained that the laceration to Rachel’s
duodenum would initially cause inflammation within
the retroperitoneal space, but not infection. (Id. at
12–13.) Eventually, if left untreated the inflammation
spreads and infection sets in, resulting in
overwhelming sepsis and death. (Id. at 13; Ex. 113 at

App. 122
6634.29.) The progression from the initial injury to
increased inflammation and infection, and eventually
death, takes a “very long period of time.” (Id. at 17; Ex.
113 at 6624.29.) In her literature review, Dr. McKay
found cases in which individuals suffered duodenal
lacerations like Rachel’s and survived, even though
they did not receive treatment for four to seven days.
(Id. at 15.)
Dr. McKay concluded that “Rachel’s duodenal injury
occurred no sooner than 36 hours prior to death and
likely occurred much earlier. There is absolutely zero
evidence to suggest it could have occurred in less than
24 hours.” (EH Ex. 113 at 6634.31; see also EH RT
11/2/17 (a.m.) at 20.)
Dr. Ophoven and Dr. McKay agreed that there is
nothing in Rachel’s medical records that would suggest
that her inflammatory response to the injury would
deviate from the standard case. (EH RT 11/1/17 at 59;
11/2/17 (a.m.) at 19–20.) Dr. Keen likewise testified
that his best estimate is that Rachel’s abdominal injury
occurred approximately two days prior to her death,
but at a minimum not less than a day could have
passed between time of injury and death. (EH RT
10/31/17 at 77, 107, 114–15.)
Dr. Howard testified that tissue slides of Rachel’s
duodenum showed “no sign of healing” and concluded
the injury was “acute, could be a few hours, typical of
a day or the same day as death.” (EH RT 11/7/17 at 85.)
On cross-examination, Dr. Howard maintained that the
injury was typical of being at least a few hours to 24 or
more hours old. (EH RT 11/7/17 at 105.) Dr. Howard
agreed, however, that he testified in Angela’s trial that

App. 123
the abdominal injury was most consistent with
infliction 24 hours before death but could be as few as
12 hours old. (Id. at 106.) Dr. Howard testified that
now his opinion was that the injury was most
consistent with “being several hours to 24 hours” old,
but also could have occurred in as little as 61 minutes
prior to death. (EH RT 11/7/17 at 107–08.) Dr. Howard
also agreed that he did not testify at Petitioner’s trial
that the injury was most consistent with 24 hours, but
that it was “typical of having occurred about one day
prior to death” and agreed that he never disclosed to
the jury that the injury was most consistent with
having occurred prior to May 1. (EH RT 11/7/17 at
109–10.) Dr. Howard explained that if he had been
asked the right questions at Petitioner’s trial, he would
have testified truthfully that in his judgment the injury
was most consistent with having occurred prior to May
1, but admitted that he did not make this finding clear
to Petitioner’s jury. (Id. at 110.)
Dr. Howard also admitted that a description of
Rachel looking sick and gray in color prior to May 1
could be compatible with the injury occurring before
that date. (EH RT 11/7/17 at 112–13.)
(ii)

Vaginal Injury

Dr. Ophoven conducted a microscopic examination
of the physical evidence of Rachel’s vaginal injury
obtained during autopsy. Prior to her 2010 report, she
requested a special “trichrome” stain be applied to the
anogenital tissues which revealed evidence of “a
mature vital reaction” indicated by low cell content
material as a result of the body making new tissue to
heal; “regeneration” or the replacement of surface

App. 124
epithelial cells; and “neovascularization” or new blood
vessel growth that occurs when tissue is healing and
growing. (EH RT 11/1/17 at 41–42; EH Ex. 106 at
4275.) Based upon her review of these slides, Dr.
Ophoven concluded that Rachel had a vaginal injury
that was weeks old, and possibly predated the time
period in which Rachel lived with Petitioner. (EH RT
11/1/17 at 42–43.)
Dr. Keen also reviewed the photo micrographs of
Rachel’s vaginal injury and identified connective tissue
in the trichrome staining, which indicated that the
vaginal injury was multiple days, possibly weeks, old,
and was older than the abdominal injury. (EH RT
10/31/17 at 92–94, 108.)
Both Dr. Ophoven and Dr. Keen agreed that the
evidence of some fresher blood in Rachel’s vaginal area
indicated a newer injury in combination with the older
injury, but did not necessarily indicate recent
intentional sexual trauma. Rather, the more recent
injury could result from irritation of an older injury,
poor hygiene, itching or scratching, or reopening of an
older wound during the death process. (See EH RT
10/31/17 at 94–95, 109; EH RT 11/1/17 at 43–45, 48,
78–79, 84.)
Dr. Howard concluded in his 2004 declaration that
the “injuries to Rachel’s vaginal area showed
characteristics consistent with hours to perhaps days
elapsing between the time of her abdominal injury and
her vaginal injury.” (EH Ex. 45 at 4379.) However,
during direct examination at the evidentiary hearing,
Dr. Howard testified that, based upon his review of
tissue samples, the vaginal injury was “an acute

App. 125
injury,” consistent with a few hours to a day, and
showed none of the characteristics consistent with an
injury at least a week old. (EH RT 11/7/17 at 76–77.)
On cross-examination, Dr. Howard admitted that he
testified at Angela’s trial that Rachel’s vaginal injury
was more typical of 24 hours old, and that this would
put the injuries outside of the 2:00 p.m. to 5:00 p.m.
window on Sunday, May 1, the timeframe during which
Petitioner allegedly assaulted Rachel. (Id. at 100–01.)
Dr. Howard further testified that his current opinion is
that the vaginal injury is “typical of an injury that
predates the afternoon of Sunday, May 1.” (Id. at 102.)
Dr. Howard admitted that his testimony at Petitioner’s
trial could have left the jury with the misimpression
that the vaginal injury was most consistent with
infliction between 2:00 and 5:00 on the afternoon of
Sunday, May 1, while his findings were that the injury
was most consistent with infliction on Saturday, April
30. (Id. at 103.) Dr. Howard agreed that even though he
held to the belief that the injury was more typical of
having occurred the day prior to May 1, he told
Petitioner’s jury that the injury was consistent with the
afternoon of May 1, because “it was a correct response
to the question asked” and he could “only answer in
court the questions [he was] asked.” (Id. at 103–04.)
(iii)

Bruising

Regarding the dating of bruises, Dr. Ophoven
explained that “[i]nterpreting the age of bruises from
physical appearance and color is recognized by the
forensic community to be very inexact [i.e., inaccurate],
and should not be done.” (EH Ex. 105 at 4273.) Dr.
Howard explained that “the timing of bruises, . . . like

App. 126
other injuries, is not precise,” and agreed that you
could not date a bruise, for instance, to 12 hours versus
48 hours. (EH RT 11/7/17 at 112.) Dr. Howard agreed,
that, had the attorneys asked him at Petitioner’s trial,
he would have told them that you cannot really
distinguish or date bruises to a specific day. (Id.) He
further agreed that he could not distinguish between a
bruise inflicted on April 29 from a bruise inflicted on
May 1. (Id.)
Dr. Ophoven testified that some of the marks on
Rachel’s body, along with some of the wounds that were
actively bleeding, could have been caused by metabolic
changes at the cellular level that occur when the body
is not getting enough oxygen and glucose. (EH RT
11/1/17 at 46–47.) Dr. Ophoven testified that, while
many of the marks on Rachel’s body were consistent
with trauma, many of the marks appear to her to be
more consistent with blotchy discolorations of the skin
associated with disseminated intravascular coagulation
(“DIC”), which is a cellular process the body
experiences when in shock. (Id. at 47–49; 52–53.) This
process, which occurs within a fairly short time after
shock, perhaps as little as two or three minutes,
renders the body unable to clot, and destabilizes the
clots that have already formed, potentially causing
bleeding from all orifices—from old wounds, the mouth
and nose, the GI tract, and urinary tract—and also can
cause marks to appear on the exterior of the body. (Id.
at 47–49.) Dr. McKay also testified that Rachel could
have suffered from DIC during sepsis. (EH RT 11/2/17
(a.m.) at 22–23.) Dr. Ophoven observed that photos
from autopsy did not show evidence of bruising or
bleeding on the underside of the tissue, which supports

App. 127
her theory that some of the marks may have appeared
as a result of DIC during the death process and not as
the result of an inflicted injury. (EH RT 11/1/17 at
49–50.) Dr. Ophoven concluded that while not all the
evidence of bruising on Rachel’s body was as a result of
DIC, the autopsy photos legitimately suggest that all
the marks may not be the result of abusive trauma. (Id.
at 53.) Contrary to Dr. Siefert’s opinion that bleeding
ceases very shortly after death, both Dr. Ophoven and
Dr. McKay agreed that it is possible for wounds to
continue to bleed or ooze for a period of time after
death. (Id. at 54; EH RT 11/2/17 (a.m.) at 24–25, 29.)
Dr. Howard, however, disagreed with this assessment
of the autopsy photos.
Dr. Ophoven further stated that it is possible that
many of the bruises observed on Rachel’s body at the
time of her death could have been caused by falls or
other injuries Rachel sustained while attempting to
walk or otherwise move around while suffering from
the final stages of sepsis and peritonitis. (EH RT
11/1/17 at 55–57.) Dr. Howard also agreed Rachel could
have sustained a bruise if she fell on a table that was
just outside of her bedroom. (EH RT 11/7/17 at 115.)
Dr. Ophoven and Dr. McKay testified that a circular
mark on Rachel’s chest was consistent with having
been caused by skin slippage due to an electrical
monitor being attached and then removed from
Rachel’s body after death. (EH RT 11/1/17 at 53–54; EH
RT 11/2/17 (a.m.) at 23–24.) Dr. Howard also agreed
that the round mark on Rachel’s chest could have been
caused by medical equipment such as a monitor pad.
(EH RT 11/7/17 at 71.)

App. 128
(iv)

Scalp Injury

Both Rachel and Petitioner had independently
reported to witnesses that Rachel had fallen from
Petitioner’s van on the afternoon of Sunday, May 1. Dr.
Ophoven and Dr. Hannon opined that the scalp injury
is consistent with a fall from a van involving the head
striking a hard surface. (EH Ex. 106 at 4275; Ex. 119
at 3993.) Dr. Howard also agreed that the scalp injury
is consistent with a fall onto a flat surface. (EH Ex. 45
at 4380.)
Dr. Howard testified in these proceedings that, after
reviewing biopsies of tissue samples from the scalp, he
concluded that the scalp injury was “acute”—showing
no evidence of healing—and occurred “hours or a day
prior to death.” (EH RT 11/7/17 at 75–76.) On crossexamination, Dr. Howard admitted that in his pretrial
interview, after reviewing the tissue slides from the
scalp injury, he stated that the scalp injury was
“probably two days old.” (Id. at 94–96.) He further
admitted that in his July 20, 2017 deposition, after
reviewing the slides twice before the deposition, he
testified that the scalp injury was, more probably than
not, at least two days old. (Id. at 96–97.)
Dr. Ophoven reviewed gross photographs of the
scalp injury and believed they were consistent with Dr.
Howard’s opinion given at his pretrial interview, based
on his microscopic review of the scalp tissue at that
time, that the injury was “probably two days old . . . .”
(EH RT 11/1/17 45–46.) Dr. Ophoven explained that
when DIC occurs during irreversible shock, the body
loses its ability to clot, and an old wound could begin
oozing or bleeding again. (Id. at 47–48.)

App. 129
Finally, both Dr. Hannon and Dr. Ophoven
concluded that Rachel’s scalp injury was not caused by
the pry bar. (EH RT 11/1/17 at 57–58; EH RT 11/2/17
(a.m.) at 55–56; EH Ex. 106 at 4275; EH Ex. 119 at
3993–94.) Dr. Hannon and Dr. Ophoven also concluded
that the pry bar found in the van was not used to cause
the fatal injury to Rachel’s bowel. (EH RT 11/1/17 at
57–58; EH RT 11/2/17 (a.m.) at 52–54; EH Ex. 119 at
3992–93.) Dr. Ophoven and Dr. Hannon agree that it is
possible that Rachel’s fatal abdominal injury could
have been inflicted by another child. (EH RT 11/1/17 at
58–59, 82–83; EH RT 11/2/17 (a.m.) at 55.) In Dr.
Hannon’s opinion, the child would have to be “fairly
large” (EH RT 11/2/17 (a.m.) at 55), and in Dr.
Ophoven’s opinion, the child would have to do
something more than simply hit her in the stomach
with a fist. (EH RT 11/1/17 at 82–83.)
b. Bloodstain Evidence
Petitioner offered the expert testimony of Stuart
James, an experienced blood pattern analyst. James
described three categories of bloodstain patterns:
(1) passive stains that require little energy to produce,
such as dripping blood; (2) spatter stains that take
more energy to create and result in the blood source
being broken up into smaller droplets; and (3) altered
stains—stains caused by activities such as clotting or
drying that affect the appearance of passive or spatter
stains. (EH RT 11/3/17 (a.m.) at 12; EH Ex. 121a.)
Spatter stains can be further categorized as:
(1) “impact spatter” caused by mechanisms such as a
beating or a gunshot; (2) “secondary spatter” caused by
blood dripping which results in satellite spatters

App. 130
around the drip; and (3) “projected spatter” caused by
mechanisms such as being “cast-off” of a surface
through centrifugal force, for example blood flying off
of a swinging hand or bloody hair that is flipped. (EH
RT 11/3/17 (a.m.) at 12, 14–15, 22; EH Ex. 121a.)
James testified that the principles used in his
bloodstain analysis were available in 1994, at the time
of Petitioner’s trial. (EH RT 11/3/17 (a.m.) at 6–9, 40.)
James testified that bloodstains on the carpet of the
van appeared to be the result of the passive dripping of
blood. (EH RT 11/3/17 (a.m.) at 17–18; EH Ex. 121 at
4072.) James concluded that the stains indicated
Rachel was actively bleeding and moving around while
in the van and may have made contact with the carpet
at some point in time. (EH RT 11/3/17 (a.m.) at 19–20;
EH Ex. 121 at 4072.) James further testified that the
bloodstains on the front passenger seat had the
appearance of a projected bloodstain pattern,
specifically a cast-off pattern consistent with, for
example, bloody hair swinging and causing blood to
project onto the surface of the seat. (EH RT 11/3/17
(a.m.) at 20–22.) James testified that the bloodstains he
observed in the van are consistent with Rachel being
carried or moved within the van while she was bleeding
from an open wound. (Id. at 22–23.)
James concluded that the bloodstains in the van
were not typical of those produced during a beating
because there was only a single laceration on Rachel’s
head. A single laceration often just produces blood flow
and not impact spatter, because there is no blood
already exposed that would spatter when struck by an
object. (Id. at 25.) Upon further questioning by the

App. 131
Court, James conceded that his conclusion that the
blood projection was from Rachel being carried in the
van, and not from impact spatter, was based on the
lack of physical evidence such as bruising that might
indicate Rachel was struck after the laceration
occurred. (Id. at 25–26.) James admitted that looking
only at the bloodstain he could not distinguish whether
it was as a result of Rachel being struck or a result of
Rachel’s hair swinging because of the movement of the
van. (Id. at 27.) James did explain that if Rachel had
been struck, either by overhead or lateral blows, he
would expect to see a cast-off pattern in the
underlining of the roof or on the dashboard and nearby
surfaces. (Id. at 27–28.) James noted that there was no
mention of these type of cast-off stains by the
investigator who inspected the van, though James did
not know if these other surfaces were ever inspected
and believed that there were not a sufficient number of
photographs taken. (Id. at 28–29.)
James further explained that the traces of blood on
the clothing that Petitioner was wearing on May 2 (i.e.,
the red t-shirt, jeans, and work boots) indicated contact
and proximity to a source of wet blood and are
insufficient to conclude anything about whether or not
a beating took place in the van. (EH RT 11/3/17 (a.m.)
at 33–35.) James further testified that these stains
could have occurred as the result of lifting or otherwise
attending to Rachel while she was bleeding. (Id. at 35.)
c. Reliability of Eyewitness Testimony/
Accident Reconstruction
Paul Gruen, Petitioner’s accident reconstruction
expert, concluded in his report that Ray and Laura

App. 132
“could not have seen inside the van, nor observed any
of the activities to which they testified, based on their
angles of observation, visual obstructions, speed of the
van, and the duration of the event.” (EH Ex. 110 at
3929.) Gruen reached this conclusion based on his
approximation of several variables used to reconstruct
the scene and the viewing ability of the children.
Gruen established the approximate location of the
Lopez children when they saw the van based on Ray’s
indication on a photograph during trial of where he and
his sister were when they saw the van. (EH RT 11/1/17
at 99–100; EH Ex. 66 (Trial Exhibit 199).) Gruen
estimated the van drove through the parking lot at a
speed between 15 to 20 miles per hour based on what
he believed was a reasonable speed after personally
driving his vehicle through the lot and observing other
cars drive through. (EH RT 11/1/17 at 105–06.) Gruen
photographed the van by positioning his camera at the
height of the children, which he determined to be 49
inches based on Ray’s school records. (Id. at 107, 140.)
Gruen determined the height of the top of Rachel’s
head in the passenger van based on reference material
establishing the sitting height of children. (Id. at 108.)
Gruen summarized the factors contributing to the
basis for his opinion that the children could not have
seen what they reported:
C

The children were too short in stature and thus,
their viewing angle of the event was too acute to
have accurately observed any activity inside the
van.

App. 133
C

A lower viewing angle also makes the van’s
interior appear dark, similar to window tint.

C

The van’s relative angle to the children was
constantly changing. The initial view would have
only been through the front windshield. As the
van traveled across the lot, view obstructions
would have been created by the driver’s side A
pillar, and by reflections on the windshield and
side window glass.

C

The van was traveling between 15 and 20 miles
per hour as it crossed the lot. The calculated
distance of observation was between 70 and 80
feet, depending on when the children’s attention
was drawn to the van. This speed range would
have only afforded the children a 2 to 4 second
window of opportunity to see inside the van, had
it even been possible to see inside the van.

C

Petitioner’s body dimensions would not have
allowed him to reach across the van’s interior
compartment to perform any kind of assault and
still maintain control of the van.

(EH Ex. 110 at 3933; see EH RT 11/1/17 at 127–28.)
On cross-examination, Gruen admitted that he did
not have the best information about important data in
this case used to conduct the line of sight analysis,
including where the children were standing, their
distance to the van, the speed of the van, and the
distance and direction the van traveled. (EH RT
11/1/17 at 137–47, 151.) Gruen admitted that the
measurement he used for one variable—how long the
children had to observe the van—contradicted

App. 134
eyewitness statements. (Id. at 153.) Gruen also
testified that his analysis did not account for any
potential swerving of the van, as described by the
Lopez children and as noted as an ongoing problem
with the van by Joyce Richmond in her interview with
the police. (Id. at 148–51.)
Gruen testified that his ultimate opinion would not
change if many of the variables—the placement of the
children, the speed of the van, the height of the
children, and whether Rachel was sitting or
standing—were altered because, based on his analysis,
it was too dark inside the van to see the driver
elbowing the passenger in the seat from further
distances away given the darkness of the window. (Id.
at 106, 113–14, 123.) Gruen explained that the interior
of the van would appear darker to a shorter individual.
(Id. at 128.) Gruen also opined that the fact that the
van may have been swerving a little bit would not
make that much difference. (Id. at 148–51.)
Gruen admitted on cross-examination that,
disregarding the lighting conditions, and based only on
the line of sight, the Lopez children could see both the
passenger and the driver as shown in the computer
animation demonstrated during the evidentiary
hearing. (Id. at 163–64.) Gruen explained, however,
that the children would not have been able to see the
driver hitting the face or chest of the child. (Id. at 177.)
Gruen never measured the tint on the van windows,
and was not able to confirm that there was any factory
tint on the window, but believed there was some
factory tinting on at least the side window. (Id. at
165–66.)

App. 135
Patrick Hannon, Petitioner’s biomechanics analyst,
concluded that Laura and Ray’s observations were not
accurate, and the physical actions of Petitioner
described by the children while he was driving the
yellow van are extremely improbable from a functional
anatomy/biomechanics perspective. (EH Ex. 119 at
3994; EH RT 11/2/17 (a.m.) at 50.) For his opinion,
Hannon relied on some of the approximations produced
by Gruen. (EH Ex. 119 at 3988.) For example, Hannon
relied upon the speed of the van (“15 to 20 miles per
hour”) and the time of observation (“two to four
seconds”) estimations and calculations performed by
Gruen, which, as discussed above, are contradicted by
witness recollections in the record. (Id. at 3989.)
Hannon noted that reflected light contrast and the
general lighting environment prevented a clear
unambiguous observation by the Lopez children. (Id. at
3988–89.) Hannon opined that the children would have
had the ability to observe Petitioner’s upper torso,
head, and neck as well as six inches of Rachel’s head,
a conclusion supported by the photographs Hannon
took showing that the interior of the van was visible to
an outside observer. (EH RT 11/2/17 (a.m.) at 40; EH
Ex. 119 at 4001–11, 4014–23.) Hannon explained that
several other factors such as visual acuity at 70 or 80
feet, perspective error, glare, lack of illumination inside
the van, as well as physical obstructions such as the “A
pillar” in the van door and Petitioner himself, would
make it “questionable” whether the children could “see
with any kind of surety or conviction.” (EH RT 11/2/17
(a.m.) at 39–41.)

App. 136
Hannon also simulated, through photographs, the
position Petitioner would have been in while leaning
over to strike or elbow Rachel from the driver’s seat.
(EH Ex. 119 at 3996, 4025–28.) Petitioner would have
been able to hit the passenger with his elbow, but the
steering wheel would move up or down while he was
doing so, producing a change in direction, or a “swerve.”
(EH RT 11/2/17 (a.m.) at 73–74.) This is precisely what
Ray Lopez observed—he told his mother that the van
was swerving as if the driver were drunk. (EH RT
11/1/17 at 148.) Joyce Richmond also pointed out that
she had difficulty keeping the van from swerving while
she was driving it, prompting an observer to report her
as a drunk driver. (EH Ex. 1 at 1311.)
Regarding Rachel’s injuries, Hannon concluded that
Rachel did not suffer any injuries consistent with the
actions that the Lopez children described. (EH RT
11/2/17 (a.m.) at 50.) Although there was evident
bruising, Hannon believed that an elbow or backhand
fist to Rachel’s face would have fractured her nasal
bones. (Id. at 50–51.) Hannon also opined that the fatal
abdominal injury was not caused by the pry bar,
explaining that if Rachel had been hit by the pry bar
with enough force to cause the abdominal injury it
would also have caused a very deep laceration, which
was not present. (Id. at 52–53.)
Petitioner also presented evidence from Dr. Esplin,
a forensic psychologist with experience in the area of
child witness reliability. (EH RT 11/2/17 (p.m.) at 4–6.)
Dr. Esplin testified that by the mid-1990s there was a
scientific consensus regarding the general principles of
investigative interviews that would substantially

App. 137
reduce the risk of obtaining unreliable information
from child witnesses; he conducted trainings, presented
scientific papers, and testified in cases on the subject in
the early 1990s. (EH RT 11/2/17 (p.m.) at 7–9.)
Dr. Esplin reviewed the Lopez children’s pretrial
statements and trial testimony and concluded that the
information the Lopez children provided was unreliable
due to post-event contamination and the use of
interview procedures that did not involve scientifically
sound methods. (EH RT 11/2/17 (p.m.) at 14–15; EH
Ex. 115 at 3828.) Dr. Esplin explained that postcontamination occurred when the children were
exposed to television coverage and were interviewed in
the presence of each other and their mother. (EH RT
11/2/17 (p.m.) at 15, 23–29) Dr. Esplin further
explained that the reliability of the children’s
interviews was compromised through excessively
leading and suggestive interviews containing forcedchoice questions. (EH RT 11/2/ 17 (p.m.) at 15–18, 29.)
Dr. Esplin opined that the children’s statements were
inconsistent over time. (EH RT 11/2/17 (p.m.) at 18.)
Dr. Esplin nonetheless believed that the Lopez
children saw something happen in the van “that had
some emotional significance.” Moreover, Dr. Esplin
agreed that several aspects of the Lopez children’s
testimony were reliable and consistent: they saw a
yellow van in the Choice Market parking lot, the van
was moving, they saw objects and movement in the
van, and they saw the van swerve. (EH RT 11/2/17
(p.m.) at 38.)

App. 138
V.

ANALYSIS
A.

Ineffective Assistance of Trial
Counsel: Deficient Performance
1. Medical Evidence

“Deference to counsel is owed only to strategic
decisions made after ‘thorough investigation of law and
facts relevant to plausible options.’” Hernandez, 878
F.3d at 850 (quoting Strickland, 466 U.S. at 690).
Counsel’s strategic decisions made after less than
complete investigation may still be reasonable “to the
extent that reasonable professional judgments support
the limitations on investigation.” Id. at 691. “An
attorney need not pursue an investigation that would
be fruitless, much less one that might be harmful to the
defense.” Harrington v. Richter, 562 U.S. 86, 108
(2011). Strickland “does not enact Newton’s third law
for the presentation of evidence, requiring for every
prosecution expert an equal and opposite expert from
the defense.” Richter, 562 U.S at 111.
The Court recognizes that the American Bar
Association (“ABA”) standards are guidelines only, and
no set of rules for counsel’s conduct can take into
account “the variety of circumstances faced by defense
counsel or the range of legitimate decisions regarding
how best to represent a criminal defendant.”
Strickland, 466 U.S. at 688–89. The Supreme Court
has, however, consistently relied upon relevant ABA
Guidelines in effect at the time of trial when reviewing
attorney conduct and examining reasonableness. See,
e.g., Rompilla v. Beard, 545 U.S. 374, 387 (2005)
(referencing ABA Guidelines when considering

App. 139
ineffective assistance of counsel claim); Wiggins v.
Smith, 539 U.S. 510, 524 (2003) (referring to ABA
Guidelines as “well-defined norms,” and “standards to
which we long have referred as ‘guides to determining
what is reasonable’” (quoting Strickland, 466 U.S. at
688)); Williams, 529 U.S. at 396 (citing ABA Guidelines
to find “that trial counsel did not fulfill their obligation
to conduct a thorough investigation of the defendant’s
background”). Under prevailing norms of practice as
reflected in the American Bar Association standards, it
was unreasonable for counsel to not conduct a prompt
investigation of the circumstances of the case and
explore all avenues leading to facts relevant to the
merits of the case, and to secure the assistance of
experts where necessary or appropriate. See ABA
Standards for Criminal Justice Prosecution Function
and Defense Function, Third Edition (1993), Section 44.1; ABA Guidelines for the Performance of Counsel in
Death Penalty Cases (1989), Section 11.4.1.
A court errs if it relies on the ABA Guidelines
without consideration for whether they reflect the
prevailing professional practice at the time of trial. See
Van Hook, 558 U.S. at 7 (finding appellate court erred
by relying on ABA guidelines announced 18 years after
petitioner’s trial). In this case, however, Petitioner
established through Cooper’s testimony that, at the
time of Petitioner’s trial, the standards cited above
from the ABA Guidelines were well-established under
prevailing professional norms, both at the Pima County
Defender’s Office and by the private sector defense bar
in Pima County. In Petitioner’s case, under prevailing
professional norms, the central focus of the defense

App. 140
should have been an investigation into when Rachel
suffered her injuries.
More importantly, the scope of trial counsel’s
investigation was also unreasonable in light of what
counsel actually knew or should have known. While
counsel need not be prepared for “any contingency” and
may not be faulted for a reasonable miscalculation or
lack of foresight, see Richter, 562 U.S. at 110
(quotations omitted), the State’s plan to introduce
medical evidence to place Petitioner alone with Rachel
during the time she was injured was not just a remote
possibility. Bowman acknowledged during these
proceedings that it would have been reasonable to
anticipate that the State would present medical
evidence dating Rachel’s injuries to the afternoon of
May 1. (EH RT 10/30/17 at 86.) Bruner testified that he
did expect that at some point during the trial the State
would present medical evidence tying Rachel’s injuries
to those couple of disputed hours. (EH RT 10/31/17 at
123–24).
Aside from counsel’s admissions during these
proceedings, there were several significant red flags
that should have objectively and reasonably alerted
counsel to the need to investigate the medical evidence
regarding the timing of Rachel’s injuries. Defense
counsel should have been aware of the State’s theory of
the case, at a minimum, by reviewing the grand jury
proceedings from May 13, 1994. The clear implications
of Sergeant Pesquiera’s testimony during the grand
jury proceedings was that Rachel appeared to be fine
until she took a trip with Petitioner, alone, to the store
on the afternoon of May 1, where she was seen being

App. 141
beaten in the van by the Lopez twins. (EH Ex. 62.)
That Bruner in fact recognized the importance of the
State’s evidence tying Rachel’s injuries to the relevant
time period is evident from Bruner’s opening statement
to the jury acknowledging that the events during “a
couple of disputed hours” on the afternoon of May 1
would be central to the case. (RT 4/6/95 at 60.)
Knowing the critical importance of the timeline,
defense counsel acted unreasonably in failing to
conduct his own investigation with respect to the
dating of the injuries and in failing to challenge any of
the State’s evidence that suggested that all of Rachel’s
injuries were consistent with being inflicted on the
afternoon of Sunday, May 1, when Rachel was alone
with Petitioner in his van.
Additionally, the evidence implicating Petitioner
was largely circumstantial, and Petitioner maintained
his claim of innocence throughout the proceedings,
giving no reason for counsel “to believe that pursuing
certain investigations would be fruitless or even
harmful . . . .” Strickland, 466 U.S. at 691 (“The
reasonableness of counsel’s actions may be determined
or substantially influenced by the defendant’s own
statements or actions.”). Trial counsel also had
evidence in his file—primarily from Becky’s
statements—that Rachel showed no signs of a physical
beating and rape during the afternoon of May 1. Later,
when Rachel was found sick at the Flemings’s house at
around 5:15 p.m. on Sunday evening, she was observed
to go to Petitioner willingly.13 (EH Ex. 72 at 342.) This
13

The record does not support Respondents’ argument that Rachel
was hiding from Petitioner and clung so tightly to Stephanie that

App. 142
evidence should have suggested to counsel that perhaps
Rachel had not been beaten or assaulted by Petitioner
that afternoon.
Rachel also appeared ill to Isobel Tafe, a neighbor,
on Saturday April 30. Rachel was out in the trailer
park without apparent adult supervision and she
looked “sick” and had a pale grayish pallor. Counsel
knew that Rachel was observed to have a similar pallor
on Sunday afternoon after she was discovered sick at
the Flemings’s camper. This evidence points to the
possibility that Rachel was already suffering from
peritonitis on April 30, suggesting the need to
investigate the timing of Rachel’s injuries more closely.
Dr. Howard made statements during his pretrial
interview dating Rachel’s scalp injury to April 30 or
earlier, and he suggested the vaginal injury and small
bowel injury might have been inflicted prior to May 1.
This evidence from the State’s expert significantly
bolstered the need for a defense investigation of the
medical timeline between injuries and death.
The possibility that others harmed Rachel also
supported the necessity of investigating the medical
timeline from injuries to death.14 Evidence that others
she had to be “given” to Petitioner and did not “willingly” go back
to him. Though Stephanie did describe Rachel as clinging to her
and not wanting to let go, so much so that she choked her, when
Petitioner arrived and Stephanie “handed Rachel to him, she went
. . . willingly.” (EH Ex. 72 at 342.)
14

The Court does not find that counsel was ineffective for failing
to investigate other potential suspects; rather, law enforcement’s
failure to do so combined with evidence that Rachel may have been

App. 143
may have caused Rachel’s injuries further
substantiated the need to investigate the medical
evidence and its association with the timing of Rachel’s
injuries. For example, trial counsel had evidence
suggesting Jonathon may have been molesting other
children and Rachel was afraid of him. Defense
counsel’s trial notes suggested trial counsel had reason
to believe that Angela’s former boyfriend “Zoly” may
have had problems with Rachel sexually in the past.
(EH RT 10/30/17 at 105–06, EH Ex. 30.) All of this
evidence heightened the plausibility that Rachel might
have experienced sexual trauma before living with
Petitioner, or at least before May 1, and, therefore, that
the medical timeline between the vaginal injury and
death needed to be fully investigated.
Additionally, trial counsel acquired evidence
demonstrating that Angela had been physically abusive
to her children. After moving into Petitioner’s trailer,
Angela had struck Rachel so hard that the next day a
handprint was seen on Rachel, and Angela was also
observed striking Rachel in the head. Angela also was
reported to inflict blows on Becky’s stomach, and throw
her children down stairs and slam them against walls.
Petitioner’s neighbors also reported that Angela
screamed at the children, threatening them with
physical harm, while Petitioner acted appropriately
around children. (EH Ex. 16 at 249–50.) All of this

harmed by others contributed to the need for defense counsel to
investigate the timing of Rachel’s injuries more closely. It appears
from the record that Sergeant Pesquiera did not conduct a
thorough investigation because she thought Jones was the
perpetrator.

App. 144
evidence strongly suggested that Angela could have
caused one or more of Rachel’s injuries, including her
small bowel injury, and therefore an investigation was
needed in order to determine if Rachel’s injuries could
be dated to sometime prior to that Sunday afternoon.
Even if counsel were convinced that the Lopez children
in fact witnessed some sort of beating that took place in
the van, the evidence suggesting that others could have
inflicted the fatal injury and sexual assault furthered
counsel’s need to further investigate the timeline.
Beyond this, defense counsel knew from Angela that
Becky was possibly abusive toward her sister and had
on one occasion hung Rachel high above the ground
from a clothesline, an activity that could have resulted
in injury.
All of these circumstances would have indicated to
any reasonable attorney that a medical investigation
into the timing of Rachel’s injuries was necessary, but
counsel in this case failed to conduct a reasonable
investigation. The Court therefore finds that the failure
to conduct such an investigation with the assistance of
a medical expert was objectively unreasonable under
prevailing professional norms. This finding, while not
dependent on Petitioner’s standard of care testimony,
is further substantiated by the testimony of Petitioner’s
expert Dan Cooper regarding the prevailing
professional norms at the time of Petitioner’s trial.
The Court finds that defense counsel’s brief
consultation with Dr. Keen did not satisfy counsel’s
duty to investigate the timing of Rachel’s injuries.
Although Bowman initially posed a question to Dr.
Keen as to whether Rachel’s injuries could be dated,

App. 145
the evidence demonstrates that counsel failed to have
Dr. Keen pursue the injury-dating investigation to its
completion and that this failure was due to inattention
and neglect, not reasoned strategic judgment. The
Court finds its conclusion in this respect is supported
by substantial evidence.
Dr. Keen needed to be supplied with autopsy tissue
slides and photographs in order to reliably assess the
age of the injuries. Defense counsel was aware of this
but failed to take steps to have the necessary medical
investigation completed. Bruner and Bowman’s
respective testimony that they “thought” or “hoped”
they would have supplied the autopsy tissue slides does
not reach the critical question. It was not Dr. Keen’s
responsibility to conduct a thorough investigation;
rather, it was counsel’s responsibility to ensure Dr.
Keen conducted one. Counsel knew the slides were
needed to make a reliable timeline assessment but
failed to ensure they were provided to Dr. Keen. Thus,
due to counsel’s failure to follow through with this
critical line of inquiry, Dr. Keen never examined the
evidence needed to reliably date Rachel’s injuries. If he
had, it is reasonably likely this critical defense
evidence would have been discovered and presented to
the jury. The Court finds counsel’s failure to have Dr.
Keen examine the necessary evidence was objectively
unreasonable, the product of inattention and neglect,
and not reasoned strategic judgment.
Respondents’ suggestion that defense counsel
concluded his investigation because Dr. Keen reviewed
the autopsy report with the time of injury questions in
mind and agreed with the medical conclusions of Dr.

App. 146
Howard is not supported by the evidence. First, defense
counsel’s testimony does not support this claim.
Although Bruner agreed that if Dr. Keen had reached
this conclusion it would probably have ended the
medical investigation and he would not have kept
shopping for an expert until he found one that
disagreed with Dr. Howard, neither Bruner nor
Bowman had an independent recollection of discussing
the case with Dr. Keen. (EH RT 10/31/17 at 26, 33, 127,
148–50.) Bowman conceded that it is possible that Dr.
Keen might have reached this conclusion, but stated
that it is also possible that counsel simply “dropped the
ball and didn’t follow up properly.” (Id. at 34.) Second,
there is no evidence Dr. Keen was ever provided
evidence of Dr. Howard’s opinions with respect to the
timing of Rachel’s injuries—Dr. Howard’s opinions
regarding the injury were not stated in the autopsy
report, but rather were provided to counsel in pretrial
interviews and in testimony from Angela’s trial. There
is no evidence that counsel communicated in any way
with Dr. Keen after Dr. Howard’s timeline opinions
became evident to counsel. Third, Dr. Keen’s testimony
in these proceedings establishes that, if he had been
provided evidence of Dr. Howard’s opinions with
respect to the timing of Rachel’s injuries and with the
necessary evidence to evaluate these findings—namely,
tissue slides and autopsy photographs—Dr. Keen
would have disagreed with those opinions, taking into
consideration the processes available to evaluate tissue
slides microscopically in 1994. (EH RT 10/31/17 at
96–97.) Finally, the lack of documentation in the Pima
County Medical Examiner’s office indicating the
transmission of tissue samples and autopsy
photographs supports this conclusion. The Court finds

App. 147
that there is no evidence supporting Respondents’
contention that Dr. Keen advised defense counsel that
he agreed with Dr. Howard that Rachel’s injuries could
be reliably dated to the afternoon of May 1. Although
the Court “presume[s]” that counsel “made all
significant decisions in the exercise of reasonable
professional judgment,” the record with respect to Dr.
Keen rebuts the presumption of competence. Cullen v.
Pinholster, 563 U.S. 170, 189 (2011) (quoting
Strickland, 466 U.S. at 690).
2. Bloodstain Evidence
Because the evidence known to trial counsel
rendered it plausible, as discussed above, that Rachel
was not assaulted and raped by Petitioner on May 1
during the alleged third trip in the van, it was
reasonably necessary to investigate the implications of
the blood evidence presented at Petitioner’s trial
suggesting the rape and assault of Rachel took place in
the van. The Court finds that trial counsel’s failure to
investigate the blood evidence was objectively
unreasonable under prevailing professional norms.
Counsel knew before trial that there was going to be
evidence presented with respect to the interpretation
of blood evidence, but failed to consult with any
bloodstain interpretation expert. Becky had reported
that Petitioner and Angela took Rachel into the
bathroom to do CPR, and then they rushed Rachel to
the hospital on the morning of May 2. (EH Ex. 40 at
1234.) Thus, there was reason to believe that the trace
amounts of blood on Petitioner’s clothing might have
been simply transferred from Rachel’s bleeding head
while Petitioner was attempting to administer aid or

App. 148
transport Rachel to the hospital. Similarly, counsel
were on notice that the small stain of blood on the
carpet of the van was located adjacent to the passenger
seat, where Rachel was being held in her mother’s
arms on the way to the hospital on May 2. There was
reason to expect that the carpet stain might be the
result of blood dripping from Rachel’s head during the
trip to the hospital on May 2, and not a stain left from
Rachel’s head lying in the back of the van after her
head was bleeding as a result of being beaten and hit
during the sexual assault, as the prosecution argued at
trial. (EH RT 4/13/95 at 95–96.) Moreover, trial counsel
were on notice that that there was no attempt to either
identify or recover the clothing worn by Petitioner or
Rachel on Sunday, May 1. The State argued, based on
the evidence of spatter stains found on the passenger
seat, floor of the van, and the right sleeve of
Petitioner’s shirt, that after the assault, Petitioner put
her in the passenger seat of the car and kept hitting
her “trying to make her shut up.” (Id. at 97–100.)
Defense counsel knew that the prosecution was
going to present bloodstain interpretation evidence, but
counsel failed to conduct any independent investigation
of the blood evidence. The only reason counsel could
think of for not doing so was that he had never
consulted with such an expert previously.
The Court finds based on all of the foregoing that
trial counsel’s failure to investigate the blood evidence
was objectively unreasonable under the prevailing
professional norms.

App. 149
3. Reliability of Eyewitness Testimony/
Accident Reconstruction
The Court finds that trial counsel’s investigation
into the reliability of the Lopez children’s eyewitness
accounts was not objectively unreasonable. Bruner
believed (1) it was not physically possible for the
children to have witnessed what they described,
(2) that the children’s statements were unreliable and
had been influenced by their mother, and (3) that the
statements should have been suppressed. With these
concerns in mind, the Court nonetheless finds that
defense counsel conducted a reasonable investigation
into the statements of the Lopez children.
As Bowman stated at the evidentiary hearing, the
defense “did conduct an investigation into the Lopez
children’s account.” (EH RT 10/31/17 at 23.) Bowman
drove to the Lopez home and interviewed Ray, Laura,
and Norma about their observations. Laura and Ray
were questioned in depth about their observations and
their statements in the police reports. At the end of
those interviews, Bowman asked Ray and Laura to go
outside and demonstrate where they had been standing
in the Choice Market parking lot when they made
their observations. After the interviews, defense
counsel directed Barnett to take photographs and
measurements of Petitioner’s van in an attempt to
discredit the accounts of Ray and Laura.
Ultimately, defense counsel made a reasonable
decision, based on reasonable investigatory efforts, not
to pursue further investigations. Counsel believed that,
even if the Lopez children could not have seen all they
claimed to have, that they at least had seen some

App. 150
memorable event that left a lasting impression on the
children, a belief that was left intact following a
reasonable investigation into the children’s accounts of
the incident as well as Petitioner’s admission that he
drove through the Choice Market parking lot on May 1
with Rachel in his yellow van. Furthermore, neither
the Lopez children nor their mother knew Petitioner or
Rachel, and there is no discernible motivation, aside
from the impact the event made on them, for the Lopez
children to report the incident to their mother. Counsel
reasonably chose to challenge the children’s accounts
and ability to see into the van through crossexamination.
Defense counsel also determined that the Lopez
accounts could not be impeached by the defense
investigator and also apparently decided not to call
Petitioner to testify, even after preparing his script for
trial. Counsel knew that it was Petitioner’s word
against the testimony of the Lopez family, and
Petitioner had admitted that he was at the Choice
Market that afternoon.15 (EH Ex. 66 at 5330, 5357.)
Moreover, had Petitioner testified, he may have been
impeached with his prior felony conviction. (EH Ex. 1
at 2302–03.) Thus, the Court finds that Petitioner has
not overcome the presumption that counsel did not call
Barnett or Petitioner to testify “for tactical reasons
15

There is also evidence that was presented in these proceedings
suggesting Petitioner saw two children in the Choice Market
parking lot on May 1 in the afternoon (see EH RT 11/1/17 at
142–43; EH Ex. 212), though it is not clear to the Court if this
evidence was available to defense counsel before trial. Accordingly,
the Court does not take this fact into account in determining
whether counsel’s performance was deficient.

App. 151
rather than through sheer neglect.” Cullen v.
Pinholster, 563 U.S. 170, 191 (2011) (quoting
Strickland, 466 U.S. at 690).
In sum, trial counsel rendered adequate
performance by: (1) reviewing the police interviews of
Norma, Ray, and Laura Lopez; (2) interviewing the
three before trial; (3) recreating the event in the Choice
Market parking lot with the Lopez children;
(4) investigating Petitioner’s van with the investigator,
taking measurements and photographs in an attempt
to disprove the observations of the Lopez children;
(5) cross-examining Ray, Laura, and Norma at trial
about their accounts; and (6) preparing Petitioner to
testify in specific rebuttal to Ray and Laura’s
eyewitness accounts. (EH Exs. 76–80; RT 4/7/95 at
18–28, 41–46, 57–62; EH RT 10/30/17 at 125; EH RT
10/31/17 at 147; EH RT 11/1/17 at 157.)
4. Funding
The Court rejects any suggestion by Respondents
that trial counsel’s deficient pretrial investigation be
excused on the grounds that funding for investigators
and experts was lacking or inadequate. Arizona
recognizes a statutory and due process right to funding
for experts and investigators. See State v. Apelt
(Michael), 176 Ariz. 349, 365–66, 861 P.2d 634, 650-51
(1993) (citing State v. Knapp, 114 Ariz. 531, 540–41,
562 P.2d 704, 713–14 (1977)). There is no evidence that
the trial court denied any of Petitioner’s funding
requests, or that it would have if a proper request had
been made. Bruner and Bowman acknowledged that
they believed additional funding for experts would have
been granted on a showing of reasonable need. (EH RT

App. 152
10/31/17 at 16 (“I think if we wanted something and
thought it was important, we could have done
something about it through the Court.”); id. at 145
(“[Y]ou’d have to go hat in hand to the judge to get any
additional funding for experts . . . . But up to a certain
point you never had real trouble getting experts. I don’t
think Judge Carruth would have denied us funding if
. . . it was reasonable.”)) Petitioner’s standard of care
expert Dan Cooper agreed with trial counsel’s
assessment. (EH RT 11/3/17 (p.m.) at 21–25.)
5. Trial Strategy
The Court considers, as its starting premise, that
counsel’s failure to investigate the medical timeline
“might be considered sound trial strategy” under these
circumstances. See Pinholster, 563 U.S. 170, 191 (2011)
(quoting Strickland, 466 U.S. at 689). After a careful
review of the state-court record and the evidence
presented in these federal habeas proceedings,
however, the Court finds that trial counsel’s
investigative failure was due to inattention and
neglect, and not the result of reasoned strategic
judgment. Bruner’s trial strategy was to challenge the
prosecution’s evidence. Aside from having his private
investigator conduct a handful of interviews, Bruner
did not conduct any other independent investigation to
advance that strategy. “Counsel cannot justify a failure
to investigate simply by invoking strategy. . . . Under
Strickland, counsel’s investigation must determine
strategy, not the other way around.” Weeden v.
Johnson, 854 F.3d 1063, 1070 (9th Cir. 2017).
Petitioner’s counsel failed “to make reasonable
investigations or to make a reasonable decision that

App. 153
makes particular investigations unnecessary.” Wiggins,
539 U.S. at 521–22 (citing Strickland, 466 U.S. at
690–91.)
There is no evidence that counsel made a strategic
decision not to conduct further investigation of the
injury timeline. The only explanation Bruner has
offered for his limited investigation is from his 2002
declaration where he states he possibly just assumed
Petitioner was guilty based on the State’s version of the
case. (EH Ex. 9 at 4391.) Additionally, Bruner’s actions
during the trial suggest that this was no strategic
choice, but rather an oversight. Bruner agreed during
the evidentiary hearing in these proceedings that he
missed an important issue with respect to the timing of
Rachel’s injuries and should have done more to
determine the time of injuries. (EH RT 10/31/17 at
131.)
Finally, to the extent he recognized the need to
investigate the injury timeline, counsel unreasonably
abandoned his efforts to do so. Bruner retained a
forensic expert, Dr. Keen, and Bruner’s partner
Bowman correctly posed a number of significant
questions about the timing and nature of Rachel’s
injuries. Had counsel followed through on this
investigation before abandoning further inquiry, his
decisions may have been reasonable. As noted above,
however, the record indicates that counsel did not
make a strategic decision to forego answers to these
questions, but simply abandoned efforts to do so.
Even without the aid of experts, however, it is
difficult to establish ineffective assistance when
counsel actively and capably advocates for a defendant

App. 154
and conducts a skillful cross-examination that draws
attention to weaknesses in the conclusions of the
State’s experts. Richter, 562 U.S. at 111. Thus, counsel
in this case could have made a reasonable strategic
decision to rely on Dr. Howard’s prior statements and
testimony to challenge the State’s theory that the
injuries were inflicted during the afternoon of May 1.
See id. (“In many instances cross-examination will
be sufficient to expose defects in an expert’s
presentation.”). But the possibility that counsel made
a reasonable strategic decision to forego investigation
of the injury timeline—choosing instead to vigorously
challenge the State’s evidence through crossexamination—is dispelled by counsel’s complete failure
to cross-examine the State’s witnesses on this issue. It
is undisputed that, at Petitioner’s trial, Bruner never
challenged or disputed the critical injury timeline
evidence. Bruner failed to impeach Dr. Howard with
his earlier statements and testimony finding Rachel’s
injuries “most consistent” with infliction prior to May
1. Bruner admitted this failure was due to inattention
and the fact that he simply did not recognize the
importance of the dating of the injuries. (EH RT
10/31/17 at 132–33.) Bruner also failed to crossexamine Becky with her four prior statements after she
offered testimony at trial, for the first time, that
Petitioner took Rachel on a third trip in the van,
affording the prosecution an opportunity to argue that
Petitioner committed the offenses on May 1 during this
third trip in the van.
The Court finds that in this instance, invocation of
the strategy of challenging the State’s evidence does
not alter the Court’s findings that trial counsel’s

App. 155
investigative failures were objectively unreasonable
under prevailing professional norms. An investigation
into the medical timeline and bloodstain evidence
would not be inconsistent with Bruner’s strategy to
challenge the State’s evidence. Bruner admitted in
these proceedings that such an investigation would
have been consistent with his chosen strategy.
Judging the reasonableness of counsel’s conduct on
the facts of this case, viewed as of the time of counsel’s
conduct, see Strickland, 466 U.S. at 690, the Court
finds that counsel’s decision to forego inquiry into the
medical evidence regarding the time of injury was
objectively unreasonable in light of the vast body of
evidence pointing to the need to investigate the medical
timeline between Rachel’s injuries and her death.
B.

Ineffective Assistance
Counsel: Prejudice

of

Trial

1. Timing of Rachel’s Injuries
Prejudice is shown by evidence of a “reasonable
probability that, but for counsel’s unprofessional errors,
the result of the proceeding would have been different.
A reasonable probability is a probability sufficient to
undermine confidence in the outcome.” Strickland 466
U.S. at 694. If the Court determines that the new
evidence presented in these proceedings would have
created reasonable doubt in the mind of one juror, this
Court must grant relief. See Hernandez, 878 F.3d at
852. When evaluating whether counsel’s error
prejudiced the outcome of the trial, “Strickland does
not permit the court to reimagine the entire trial.”

App. 156
Hardy v. Chappell, 849 F.3d 803, 823 (9th Cir. 2017.)
The prosecution’s case must be left undisturbed. Id.
Contrasting the evidence presented at trial with the
evidence that could have been presented at trial by
reasonably effective counsel, the Court finds that
counsel’s failure to conduct his own investigation with
respect to the dating of the injuries and to challenge
any of the State’s evidence which suggested that all of
Rachel’s injuries were consistent with infliction on the
afternoon of Sunday, May 1—when Rachel was alone
with Petitioner in his van—resulted in prejudice to
Petitioner. The new evidence presented in these
proceedings undermines considerably the confidence in
the outcome of the trial court proceedings. Had counsel
conducted an adequate investigation of the medical,
physical, and eyewitness testimony, he could have
presented an extremely different evidentiary picture
than that shown to the jury at Petitioner’s trial.
Namely, trial counsel could have cast doubt on whether
Rachel’s injuries were actually inflicted on the
afternoon of May 1, when she was in Petitioner’s care.16
16

Respondents suggest that the evidence presented in these
proceedings was the result of the unlimited time and resources of
Petitioner’s federal habeas counsel, and that, at the time of
Petitioner’s trial, Petitioner would not have had similar resources
available. The Court finds, however, that had counsel simply
followed up with the medical timeline investigation by sending the
autopsy slides to Dr. Keen, as was clearly contemplated and for
which there would have likely been available funds, there is a
reasonable probability that one juror would have found Dr. Keen’s
opinion that Rachel’s injuries could not be reliably dated to May 1
convincing and would have had a reasonable doubt as to
Petitioner’s guilt. This conclusion would only be strengthened if
counsel had also conducted an effective cross-examination of Dr.

App. 157
Instead, counsel admitted to the jury during closing
argument that “maybe [Petitioner] did take her out and
murder her,” but that the State had not shown any
motive for him to have done so. (RT 4/13/95 at 130.)
Although Dr. Howard testified on direct
examination that all of Rachel’s injuries, including her
scalp laceration, her abdominal injury, the vaginal
injury, and the majority of the bruises on her body,
appeared acute and consistent with infliction on the
afternoon of Sunday, May 1, 1994 (EH RT. 11/7/17 at
89–90), the Court finds this testimony not credible. As
he admitted on cross-examination, Dr. Howard may
“potentially” have “different answers” depending on
how a question is worded. (EH RT 11/7/17 at 91.) Dr.
Howard admitted that, if he had been asked the right
questions by the lawyers for Petitioner, he certainly
would have testified truthfully that the injury was
most consistent with having occurred prior to May 1.
Dr. Howard’s inconsistent answers are plain in the
differing testimony he provided on direct examination,
on cross-examination, and during examination by the
Court during the evidentiary hearing. The Court finds
that counsel’s failure to impeach Dr. Howard with his
inconsistent statements left the jury unaware that Dr.
Howard’s “truthful” opinion was that Rachel’s small
bowel, scalp and vaginal injuries were “most
consistent” or “typical” with having occurred prior to
May 1. (EH RT 11/7/17 at 111–12.) If trial counsel had
impeached Dr. Howard’s testimony with his earlier
inconsistent statements, as was done at the evidentiary
Howard with only the materials available to defense counsel before
trial.

App. 158
hearing, the Court finds that the jury would likely have
found Dr. Howard’s testimony not credible or
persuasive. See Hernandez, 878 F.3d at 858 (the proper
inquiry for a court when considering prejudice is how
the court believes the jury would have assessed the
credibility of the witnesses); Earp v. Davis, 881 F.3d
1135, 1145 (9th Cir. 2018) (district court, as fact-finder
in habeas proceedings, is tasked with weighing and
making factual findings as to the credibility of
witnesses) (citing Anderson v. City of Bessemer City,
N.C., 470 U.S. 564, 575 (1985)). Due to the inconsistent
and imprecise nature of Dr. Howard’s statements (see,
e.g., EH RT 11/7/17 at 105 (“[The abdominal injury is]
certainly typical of being at least a few hours old. It
could be also typical of what it looks like at 24 or
more.”); see also id. at 106–08, 121–23; 128–29), the
Court gives little weight to his testimony in these
proceedings that Rachel’s abdominal injuries were
consistent with having been inflicted within hours of or
on the same day as death. (EH RT 11/7/17 at 88–89,
105, 107, 128.)
Similarly, the Court concludes that the statements
made by Dr. Howard with respect to Rachel’s vaginal
injury at Petitioner’s trial and on direct examination
during the evidentiary hearing are entitled to little
weight, as they are contradicted by statements he
made in his pretrial interview, during Angela’s trial, in
his 2004 declaration, and on cross-examination at the
recent hearing. The Court concludes that a jury would
find more credible the testimony of Dr. Ophoven and
Dr. Keen—that Rachel suffered from a vaginal injury
that was one or more weeks old.

App. 159
Additionally, in light of his inconsistent statements,
the Court does not find credible Dr. Howard’s recent
testimony that based upon his more recent review of
the slides, he has concluded that Rachel’s scalp injury
is more typical of having occurred within hours to a
day, rather than two days, before Rachel’s death. (See
EH RT 11/7/17 at 95, 120–21.)
Finally, Dr. Ophoven explained in her declaration
that “[i]t has been well established that visual
determination of the age of any bruise is scientifically
unreliable,” and that the only reliable method of
assessing the age of a bruising injury is to take tissue
samples and test them, which Dr. Howard failed to do.
(EH Ex. 106 at 4277.) Dr. Howard admitted in his
recent testimony that there is no reliable method to
precisely date bruises, and that in this case he could
not distinguish between a bruise inflicted on April 29
or May 1. (EH RT 11/7/17 at 112.) At trial, Dr. Howard
and Dr. Seifert suggested to the jury that many of
Rachel’s bruises could be linked to the afternoon of May
1. However, this evidence, which went unchallenged at
trial, turns out to be scientifically unsupportable and
untrue.
Dr. Ophoven could have provided evidence to the
jury that “[i]nterpreting the age of bruises from
physical appearance and color is recognized by the
forensic community to be very inexact [i.e., inaccurate],
and should not be done.” (EH Ex. 105 at 4273.) The
Court concludes that had trial counsel presented
evidence that the visual dating of bruises is unreliable,
it would have called into question Dr. Siefert’s
conclusion that the bruising that he established had

App. 160
been inflicted within one day of death, which included
95% of the bruises, were consistent with having been
inflicted between the hours of 2:00 p.m. and 5:30 p.m.
on the day prior to Rachel’s death, as well as Dr.
Howard’s suggestion that many of Rachel’s bruises
occurred within one to two days prior to her death.
Had trial counsel provided evidence to evaluate the
potential cause and timing of Rachel’s injuries to one or
more medical experts at the time of Petitioner’s trial,
such an expert would have been able to testify that her
injuries were not consistent with having been inflicted
on the afternoon of Sunday, May 1—thus negating the
very grounds on which the State relied to prove that
Petitioner inflicted the fatal small bowel injury, vaginal
injury, and scalp injury. (See, e.g., EH RT 10/31/17 at
96–97; EH RT 11/1/17 at 37–38, 59; EH RT 11/2/17
(a.m.) at 20; see also RT 4/13/95 at 92 (“Who is her
rapist? Who is her murderer? The answer to that
question is simple. Who was with her all day on
Sunday, May 1st.”).) Moreover, the evidence from the
recent hearing casts reasonable doubt on the State’s
allegation at trial that the pry bar found in Petitioner’s
van was the implement that caused Rachel’s injuries.
The Court concludes that, had trial counsel presented
medical testimony from an expert such as Dr. Ophoven,
Dr. Keen, or Dr. McKay to rebut the State’s medical
evidence at trial, the jury would have found such
evidence credible and relevant to its determination of
guilt. Moreover, if trial counsel had impeached Dr.
Howard’s testimony with his earlier inconsistent
statements, as was done at the evidentiary hearing, the
Court finds that the jury would likely find Dr.
Howard’s testimony unpersuasive, and less credible

App. 161
than testimony offered by Petitioner’s medical
witnesses. See Hernandez, 878 F.3d at 858.
Finally, the evidentiary hearing in this case has
demonstrated that the police investigation was colored
by a rush to judgment and a lack of due diligence and
thorough professional investigation; effective counsel
would have brought this to the jury’s attention, casting
further doubt on the strength of the State’s case.
The Court finds that counsel’s deficient
investigation pervaded the entire evidentiary picture
presented at trial, resulting in a “breakdown in the
adversary process that renders the result [of
Petitioner’s trial] unreliable.” Strickland, 466 U.S. at
687; see also Hardy, 849 F.3d at 824 (finding that trial
counsel’s failure to investigate “altered the entire
evidentiary picture”). The Court has considered the
totality of the evidence—the evidence before the jury at
trial and the evidence admitted in these proceedings—
and finds that there is a reasonable probability that,
absent counsel’s failure to investigate and offer
evidence regarding the timeline of Rachel’s injuries, at
least one reasonable juror would have had a reasonable
doubt as to Petitioner’s guilt. See Strickland, 466 U.S.
at 695.
2. Bloodstain Evidence
Petitioner asserts that his convictions were
sustained in part based on the interpretation of blood
evidence, citing the Arizona Supreme Court’s
statement that “[b]lood spatter in the van likely was
created by [Petitioner] hitting Rachel after she had
already suffered a head injury.” Jones, 188 Ariz. at 397,

App. 162
937 P.2d at 319. Petitioner now argues that he has
presented evidence that demonstrates that there are
credible innocent explanations for the blood found on
Petitioner’s clothing and in the van. The Court
considers the claim that Petitioner suffered prejudice
from counsel’s failure to investigate the bloodstain
evidence, and finds that, even if trial counsel’s
deficiency regarding the failure to investigate the
bloodstain evidence alone would not be sufficiently
prejudicial, the cumulative effect of counsel’s
deficiencies in this regard, together with the errors and
prejudice addressed above, undermines the Court’s
confidence in the jury’s verdict. See Silva v. Woodford,
279 F.3d 825, 834 (9th Cir. 2002) (“[C]umulative
prejudice from trial counsel’s deficiencies may amount
to sufficient grounds for a finding of ineffectiveness of
counsel.”)
Petitioner’s expert reported that the bloodstains on
the carpet of the van, including Item V6, described as
an “impression stain” by Sergeant Pesquiera, appeared
to be the result of passive dripping of blood, indicating
that Rachel “may have made contact with the carpet
with a bloody area at some point in time.” (EH Ex. 121
at 4072; see also EH RT 11/3/17 (a.m.) at 19–20.) Thus,
while Petitioner’s expert might have established that
Sergeant Pesquiera mischaracterized this bloodstain,
his testimony would not have refuted the prosecution’s
assertion that Rachel’s “head was bleeding as she was
laying in the back of that van because she had been
beaten and hit with that pry bar as part of that sexual
assault.” (See RT 4/13/95 at 97.) Furthermore, while
James concluded that both bloodstains on the carpet
(Items V6 and V7) appeared to be the result of the

App. 163
passive dripping of blood, rather than blood spatter,
James opined that both of the carpet stains indicated
that Rachel “was actively bleeding and moving around
while in the van.” (EH Ex. 121 at 4072; EH RT 11/3/17
(a.m.) at 19–20 (emphasis added).) Because James
agreed that Rachel must have been bleeding and
“moving around” in the van, his testimony would have
conclusively refuted any argument by Petitioner that
the blood was present in the van simply as a result of
Petitioner and Angela’s efforts to obtain medical care
for Rachel on Monday morning while her head was still
bleeding from the laceration. (See Doc. 288 at 62.)
Furthermore, James admitted that he could not
determine whether the bloodstains on the passenger
seat were impact spatter as a result of Rachel being
struck after blood collected in her hair from the
laceration, or were, instead, a projected, “cast-off”
bloodstain pattern as a result of her hair simply
swinging because of the movement of the van. James
conceded that his conclusion that the bloodstains on
the passenger seat were not impact spatter was based
on his assumption, refuted by the record in this case,
that there was no other physical evidence, such as the
presence of bruising, that Rachel had been struck after
the laceration occurred.
The State’s theory of the case, however, did not rest
solely, or even primarily, on the bloodstain evidence
presented at trial. As this Court has emphasized
several times, the State’s main theory of the case was
that Rachel was solely in Petitioner’s care when her
fatal injuries were inflicted. In reviewing the evidence
on appeal, the Arizona Supreme Court noted several

App. 164
factors that it relied on in reaching its conclusion that
the physical and sexual assault of Rachel occurred
within a two-hour time period during which Rachel was
alone with Petitioner in the van. See Jones, 188 Ariz. at
397, 937 P.2d at 319. The likelihood that the
bloodstains were evidence of Petitioner striking Rachel
in the van after she had already suffered a head injury
was one among several other more substantial factors
which James’s testimony would not have altered:
(1) Becky testified that Rachel spent the morning with
her and their brother watching cartoons and “seemed
fine” when her siblings went out to ride their bikes, at
about 3:00 p.m., (2) Rachel “seemed fine” after the first
two times that she returned with Petitioner, (3) if
Rachel had already suffered genital injuries, she would
have been in pain, (4) the third time that Petitioner
went out with Rachel, he told Becky that he was going
to his brother’s house but his brother’s wife testified
that Petitioner never visited their house on that day,
(5) during Petitioner’s third trip with Rachel, two
children saw Petitioner at 5:00 p.m., hitting Rachel
while he drove, (6) the next time that Becky saw
Rachel, at about 6:30 p.m., Rachel was in a lot of pain,
and (7), many of the injuries that Rachel now had were
consistent with defense against a sexual assault. Id.
James’s testimony would not have altered any of these
findings; at best it might have cast doubt on what the
children may have actually seen, but would not have
called into question the relevant fact that Petitioner
was alone with Rachel in his van during the critical
two-hour period when her fatal injuries were inflicted.
In sum, a bloodstain expert would not have been
able to rule out the possibility that Rachel was struck

App. 165
while in the van or refute the prosecution’s theory of
the case. At best, such testimony would have presented
an alternative explanation for the presence of some of
the bloodstains in the van, but Petitioner has offered no
“innocent explanation” for the bloodstains on the carpet
behind the passenger seat in the van. Accordingly, the
Court finds that there is no reasonable probability of a
different outcome had Petitioner presented a bloodstain
expert at trial, as, in light of the evidence presented at
trial, it alone would not sufficiently raise a reasonable
doubt as to Petitioner’s guilt. However, considered
cumulatively with trial counsel’s failure to investigate
the medical timeline, the Court finds that the evidence
of possible alternative and innocent explanations for
some of the bloodstains in the van would strengthen,
somewhat, the Court’s finding of prejudice based on the
failure to investigate the medical timeline alone.
3. Reliability of Eyewitness Testimony/
Accident Reconstruction
Even if defense counsel’s investigation of the Lopez
children’s statements was deficient, Petitioner has
not established that it was prejudicial. There is
no reasonable probability that a more thorough
investigation of the Lopez children’s statements would
have resulted in a different outcome.
Neither Petitioner’s accident reconstructionist nor
his biomechanics expert provided reliable evidence that
the children could not have seen Petitioner striking
Rachel. As Gruen admitted during these habeas
proceedings, his line of sight analysis was dependent
on multiple variables which were either unknown or
were inconsistent with the known evidence. To the

App. 166
extent his conclusion depended on “ever-changing light
conditions,” Gruen failed to substantiate this theory
with evidence or analysis. (EH RT 11/1/17 at 164.) At
most, Petitioner’s experts might have been able to
establish that it was physically improbable that the
children could have observed some of the specific
details about which they testified, or that the children’s
testimony was unreliable, in some part, as a result of
post-event contamination or suggestive questioning.
But both Gruen and Hannon agreed that the children
would have been able to see Petitioner and Rachel in
the van.
Dr. Esplin’s testimony—concluding that major
aspects of the Lopez children’s statements were reliable
and independently corroborated, as well as his own
opinion that the children saw something of “emotional
significance”—did not disprove Ray and Laura’s
account of seeing Petitioner violently assaulting
Rachel. Dr. Esplin conceded that significant portions of
the Lopez children’s testimony were reliable: the Lopez
children could see into the yellow van driven by
Petitioner, and they obviously saw some “important
salient” event. His testimony does not support
Petitioner’s claim that his trial counsel were ineffective
in failing to call such a forensic child psychologist.
Moreover, if Petitioner’s trial counsel had presented
the evidence from each of these experts, it may have
actually been detrimental to his case. Each expert
would have damaged Petitioner’s defense by agreeing
that portions of the Lopez children’s account were
credible.

App. 167
Finally, had trial counsel more aggressively
challenged the reliability of the testimony of the Lopez
children, counsel might have opened the door for the
State to present the rebuttal evidence that Petitioner
had previously hit his own children with his elbow,
similar to the Lopez children’s description. (Ex. 1, at
916–37); see e.g., State v. Woratzeck, 134 Ariz. 452, 454,
657 P.2d 865, 867 (1982) (objections to admission of
testimony may be waived when defendant opens door
to further inquiry on a topic by introducing that topic
while examining a witness); State v. Mincey, 130 Ariz.
389, 405, 636 P.2d 637, 653 (1981) (“We agree with the
state that appellant opened the door to this line of
questioning during his opening statement . . . .”).
Defense counsel had already successfully defeated the
State’s motion to admit this evidence at trial. (ROA
102, 117, 124).
4. Conclusion
Had Petitioner’s counsel adequately investigated
and presented medical and other expert testimony to
rebut the State’s theory that Petitioner beat and
sexually assaulted Rachel on the afternoon of May 1,
1994, there is a reasonable probability that the jury
would not have unanimously convicted Petitioner of
any of the counts with which he was charged. Count
One (intentionally or knowingly engaging in an act of
sexual intercourse with Rachel, in violation of A.R.S.
§ 13-1406), Count Two (intentionally or knowingly
causing physical injury to Rachel by striking her
abdominal area causing a rupture to her small
intestine, under circumstances likely to produce death
or serious physical injury, in violation of A.R.S. §13-

App. 168
3623 (B)(1)), and Count Three (intentionally or
knowingly causing physical injury to Rachel by
bruising her face and ear and causing a laceration to
her head, in violation of A.R.S §13-3623) all depend
upon the premise that Petitioner physically and
sexually assaulted Rachel on May 1, 1994, when she
was in his custody. The Court finds that, had defense
counsel performed adequately, there is a reasonable
probability that at least one juror would have had a
reasonable doubt as to whether Petitioner was cause of
Rachel’s injuries.
Respondents assert, however, that Petitioner is not
entitled to habeas relief because his conviction for child
abuse on Count Four (intentionally or knowingly
endangering Rachel by failing to take her to a hospital,
in violation of A.R.S. § 13-3623(B)((1)), which does not
depend on the timing of the fatal injury or the identity
of the assailant, independently supports his felony
murder conviction on Count Five. Respondents further
argue that, as a matter of law, the factual and legal
findings with respect to the convictions on these two
counts are presumed to be correct. Finally,
Respondents contend that Petitioner’s own experts in
these proceedings agree that Petitioner’s failure to take
Rachel to the hospital either caused or contributed to
her death.17
17

Respondents also argue that Petitioner has presented no
evidence that counsel was deficient in failing to investigate and
challenge Count Four, asserting counsel aggressively, but
unsuccessfully, challenged that count by arguing to the jury and
the Arizona courts that Petitioner did not have the requisite “care”
or “custody” of Rachel under Arizona’s child abuse statute, A.R.S.
§ 13-3623(B). The Court disagrees with this assessment. Petitioner

App. 169
The Court agrees with Respondents that the jurors
were properly instructed to consider all lesser-included
offenses, as well as all mental states, and to return a
verdict “uninfluenced by your decision as to the other
charges.” (EH RT 3/09/18 at 29.) The trial court
instructed the jurors that the sexual assault charge in
Count One and the charges of child abuse under
circumstances likely to cause death or serious physical
injury in Counts Two and Four could serve as predicate
felonies to support the felony murder charge in Count
Five.18 The trial court instructed the jurors that the
child abuse charges could only be considered predicate
felonies if they (1) were committed intentionally or
knowingly, and (2) if the circumstances were likely to
cause death or serious physical injury. (RT 4/13/95 at
148–49.) The jury found Petitioner guilty of Count Five
of the Indictment only after finding, with respects to
Counts Two and Four, that the crimes were committed
under circumstances likely to produce death or serious
physical injury and that Petitioner committed these
crimes with a knowing and intentional mental state.
(ROA 139.) The Court disagrees with Respondents’
assertion, however, that “there was no theory by the
has maintained throughout these habeas proceedings that counsel
failed to adequately investigate the medical evidence and the
medical timeline of Rachel’s injuries as to Petitioner’s convictions
as a whole. Having already found that counsel was deficient in that
regard, the question for the Court, which it answers in the
affirmative, is whether this deficiency resulted in prejudice to
Petitioner’s convictions.
18

The State withdrew its allegation of premeditation with regard
to Count Five prior to submission of the count to the jury; thus,
only the felony murder count was presented to the jury.

App. 170
prosecutor, that [all these counts] were somehow so
essentially intertwined that they are interrelated and
relied upon each other.” (EH RT 3/09/18 at 29–30.) The
Court finds that Petitioner’s conviction on Count Four,
for failure to take Rachel to the hospital, was
intertwined with the allegations that Petitioner had
inflicted the injuries to Rachel discussed in Counts
One, Two, and Three on May 1.
In evaluating prejudice under Strickland, the Court
“may not invent arguments the prosecution could have
made” at trial. Weeden, 854 F.3d at 1972 (quoting
Hardy, 832 F.3d at 1141). In contrast to Respondents’
assertions now, at trial the State argued explicitly that
the conviction on Count Four depended on the timing
of the fatal injury and the identity of the assailant by
asserting that Rachel was the victim of a crime of
sexual assault, and that “when that sexual assault was
committed” she became the victim of other crimes,
including Count Four (RT 4/13/95 at 82). The State
explained at trial that “Rachel died because she was
beaten in order to be raped. She died as a result of that
beating both because the internal injuries killed her and
because only the [Petitioner] knew how badly she was
hurt, only the [Petitioner] had the means of taking that
baby to the hospital, but for obvious reasons he could
not, and so he let her die.” (Id. at 104–05) (emphasis
added). The State acknowledged in closing argument
during trial that, of all the other witnesses who
testified at trial that they saw Rachel sick in the late
afternoon or evening of May 1, only Petitioner knew
why and how badly she was hurt, and “to cover his own
responsibility for what he had done” failed to take her
to the hospital. If Petitioner was not responsible for the

App. 171
assault, under the State’s own theory he would be less
likely to have had reason to prevent Rachel from being
taken to the hospital.
Moreover, to the extent Respondents assert that the
arguments or theories of counsel are not evidence, and
the jury was properly instructed to consider each
offense separately, the evidence at trial that Petitioner
committed the offense knowingly and intentionally was
minimal. If Petitioner was not the perpetrator, if he did
not cause the injuries, there was little evidence
presented at trial that would suggest he was put on
notice of the severity of the injuries, and thus could
form the requisite intentional and knowing mental
state. While there is evidence that Petitioner was
concerned about getting Rachel care because he would
be perceived as the perpetrator of child abuse, a
reasonable juror could find he was concerned about law
enforcement making such an assumption because she
had been in his care, regardless of whether he had
inflicted her injuries.
While Petitioner’s own experts in these proceedings
do agree that Petitioner’s failure to take Rachel to the
hospital either caused or contributed to her death, the
experts’ testimony does not show that Petitioner had
the requisite mental state of “intentionally and
knowingly” to support a conviction of the class 2 felony
child abuse charge, a felony murder predicate, as
opposed to a lesser charge of the class 3 felony,

App. 172
recklessly, or class 4 felony, negligently. See A.R.S.
§ 13-3623(B)(1)–(3).19
At a minimum, in light of the evidence presented at
trial and in these proceedings, the Court finds that
there is a reasonable probability that the jury would
not have found that Petitioner acted with a knowing or
intentional mental state in Count Four if the defense
had put on evidence questioning the medical timeline
and suggesting that he was not the actual perpetrator
of the assault. For the reasons stated above, the Court
finds a reasonable probability that, had counsel not
performed deficiently, Petitioner’s jury would not have
convicted him of any of the predicate felonies and thus
concludes that Petitioner has demonstrated prejudice
with respect to the capital charge.
C.

Ineffective Assistance of PCR
Counsel: Deficient Performance

The Ninth Circuit has already determined that
Petitioner’s claim of ineffective assistance of trial

19

Although Respondents now point to Dr. Ophoven’s opinion that
“it would have been evident to anyone with Rachel that she was in
need of immediate medical attention” in support of their argument
that Petitioner cannot show prejudice with respect to Count Four,
see Doc. 289 at 13, the prosecution at trial argued that Petitioner
acted “intentionally and knowingly” in failing to obtain medical
care based on the theory that he had inflicted and therefore knew
the extent of Rachel’s injuries. The prosecution did not
independently contend that Petitioner had the requisite mental
state based only on his observation of Rachel’s physical appearance
on May 1, and the Court “may not invent arguments the
prosecution could have made if it had known its theory of the case
would be disproved.” Hardy, 832 F.3d at 1141.

App. 173
counsel (Claim ID) is a “substantial” claim, thus
satisfying the prejudice prong of Martinez’s cause and
prejudice inquiry. See Clabourne, 745 F.3d at 377.
Petitioner must show that PCR counsel’s performance
was ineffective under the standards of Strickland to
determine if the procedural default of Claim 1D (GuiltPhase) can be excused. Clabourne, 745 F.3d at 377
(citations omitted). Strickland, in turn, requires
Petitioner to establish that post-conviction counsel’s
performance was deficient and there was a reasonable
probability that, absent the deficient performance, the
result of the post-conviction proceedings would have
been different. Clabourne, 745 F.3d at 377 (citations
omitted).
To demonstrate PCR counsel’s performance was
deficient, Petitioner must show that counsel’s failure to
raise the underlying IAC claim did not “fall[ ] within
the wide range of reasonable professional assistance”
and “overcome the presumption that, under the
circumstances, the challenged action might be
considered sound trial strategy.” Strickland, 466 U.S.
at 689 (citation and internal quotation marks omitted).
The Court concludes that Petitioner has rebutted the
presumption of reasonableness, and established that
PCR counsel’s failure to investigate and present a trial
counsel IAC claim on the same grounds presented in
this proceeding constitutes deficient performance under
the standard of Strickland.
Although he lacked the experience to satisfy
Arizona’s requirements for the appointment of capital
post-conviction counsel under A.R.S. § 13-4041 and
Rule 6.8(c) of the Arizona Rules of Criminal Procedure,

App. 174
the Arizona Supreme Court appointed James Hazel to
represent Petitioner in his state PCR proceedings.
While Hazel’s lack of qualifications to represent
Petitioner does not, per se, establish ineffective
assistance of counsel, the Court finds upon review of
the record and the evidence presented in these
proceedings that Hazel performed deficiently.
Arizona recognizes a statutory and due process
right to funding for experts and investigators. Apelt,
176 Ariz. at 365–66, 861 P.2d at 650–51. However,
funding requests must articulate grounds of reasonable
necessity. Id. at 650. “‘[U]ndeveloped assertions that
the requested assistance would be beneficial’ are not
enough.” Id. at 651 (quoting Caldwell v. Mississippi,
472 U.S. 320, 323 n.1 (1985). As this Court summarized
above in the analysis of trial counsel’s performance,
and as acknowledged by PCR counsel in these
proceedings (EH RT 11/3/17 (a.m.) at 74), there was
substantial evidence in the record that would have
supported a request for appointment of an expert
pathologist in pursuit of an investigation into the
medical evidence bearing on the timing of Rachel’s
injuries. Hazel should have known, after reviewing the
file in these proceedings, that the timing of Rachel’s
injuries was a central issue at Petitioner’s trial, and
that trial counsel’s failure to challenge the state’s
timeline would give rise to a question whether trial
counsel had adequately investigated the timing of the
injuries. Hazel also should have been aware of the
discrepancies in Dr. Howard’s testimony at the two
trials, as well as Becky’s inconsistent testimony. The
record also should have raised questions about the
adequacy of trial counsel’s investigation of the

App. 175
bloodstain evidence. The Court finds that PCR counsel
acted deficiently by failing to request investigatory
assistance to develop these claims, or, lacking funding
for investigatory resources, failing to attempt to
develop these claims himself.
Respondents characterize Petitioner’s claim of
ineffective assistance of PCR counsel as a claim based
solely on the assertion that, if Hazel had written a
better-worded motion, the post-conviction court would
have provided sufficient funding to re-investigate the
case. (Doc. 289 at 7.) The Court disagrees. Petitioner
has always maintained that PCR counsel performed
deficiently by failing to conduct any outside
investigation that would enable the prosecution’s
evidence to be tested in a meaningful way. To the
extent PCR counsel may have reasonably limited his
investigation due to a lack of resources, Petitioner
maintains that the motion for funding for an
investigator was not simply poorly-worded, but legally
and factually insufficient and in disregard of the
Arizona Supreme Court’s directions for requesting
resources.
Respondents argue that the record establishes that
Hazel did not perform deficiently, noting that he:
(1) reviewed the record, (2) spoke with trial and
appellate counsel, (3) met with Petitioner,
(4) repeatedly requested funding for an investigator,
(5) requested a mitigation specialist, (6) interviewed
Angela, (7) filed a post-conviction petition, and
(8) obtained an evidentiary hearing on a claim of

App. 176
ineffective assistance of counsel.20 “One of the purposes
of Rule 32 proceedings in Arizona ‘is to furnish an
evidentiary forum for the establishment of facts
underlying a claim for relief when such facts have not
previously been established of record.’” State v. Watton,
164 Ariz. 323, 328 (1990) (quoting State v. Scrivner,
132 Ariz. 52, 54, 643 P.2d 1022, 1024 (App. 1982)).
Notably absent from the record is any indication,
outside of a single interview of Angela a day after he
prepared the final Rule 32 petition, that PCR counsel
attempted to identify or investigate any potential claim
that relied on the establishment of facts outside the
record. Counsel spent 100 hours over three months
doing little more than reviewing the record in this case.
The petition he filed after that review, alleging four
claims of ineffective assistance of trial counsel, is
almost completely devoid of any assertion of prejudice,
and it is apparent from the petition that counsel
believed he was not obligated to prove prejudice. (See
EH Ex. 135 at 13–14 (PCR Petition) (stating Petitioner
was required to show he was prejudiced or that the
result was unfair, and arguing Petitioner was entitled
to relief because defense counsel’s representation
rendered the trial court proceedings fundamentally
unfair); see also EH Ex. 136 at 4–5 (Reply to Response
20

Respondents’ argument is generous to PCR counsel. A review of
Hazel’s billing records indicate Hazel spent less than half an hour
speaking with trial counsel just after his appointment, and this
discussion related to obtaining the file; Hazel spoke with Petitioner
twice during his representation—once approximately three months
after his appointment, and once just before he filed the Rule 32
petition. (EH Ex. 128.) Additionally, as discussed below, competent
counsel is not demonstrated by the repeated filing of legally and
factually insufficient motions for investigatory resources.

App. 177
to PCR Petition) (disagreeing with the State’s position
that Petitioner must show he suffered actual
prejudice)).21 “An attorney’s ignorance of a point of law
that is fundamental to his case combined with his
failure to perform basic research on that point is a
quintessential example of unreasonable performance
under Strickland.” Hinton v. Alabama, 571 U.S. 263,
274 (2014).
Significantly, it is difficult to justify Hazel’s decision
to forego any investigation into the State’s strongest
evidence of guilt: the medical evidence tying Rachel’s
injuries to a narrow window of time during the
afternoon of May 1 and Petitioner’s opportunity to
assault Rachel during the alleged third trip in the
van. The Court finds that Hazel had more than
reasonable grounds to investigate whether there were
constitutional deficiencies in trial counsel’s
investigation of the timing of Rachel’s injuries, as well
as counsel’s investigation of the bloodstain evidence.
Having grounds to investigate these issues, he failed to
do so.
21

In making this argument, Hazel relied on an incorrect
interpretation of the Supreme Court’s decision in Lockhart v.
Fretwell, 506 U.S. 363 (1993) (holding that in addition to
demonstrating that the outcome would have been different, a
defendant must also demonstrate that trial counsel’s errors
rendered the trial unreliable or fundamentally unfair in order to
avoid granting windfalls to defendants). To the extent Hazel may
have reasonably relied on this interpretation, by the time Hazel
filed his reply to the response to the PCR, and well before the
evidentiary hearing on Petitioner’s PCR petition, the Court had
made clear that the decision in Fretwell did not supplant the
Court’s well-established Strickland analysis regarding prejudice.
See Williams v. Taylor, 529 U.S. 362, 391–92 (2000).

App. 178
Hazel agreed it would have been reasonable to
attempt to interview Dr. Howard, but believed “it all
starts with the investigator.” Hazel also conceded he
did not “absolutely” need an investigator, and, in fact,
had conducted Angela’s interview himself. Despite this
acknowledgement, Hazel did not attempt to interview
Dr. Howard or investigate Becky’s inconsistent
statements. Hazel also failed to point out the
inconsistencies in Dr. Howard’s testimony and his
pretrial statements and testimony from Angela’s trial.
The Court finds that it would have been reasonable to
attempt to interview Dr. Howard, or point out the
inconsistent statements, and it would not have been
necessary to have an investigator to do so.
Hazel’s failure to investigate these issues cannot be
excused for lack of funding. Hazel reviewed Petitioner’s
file and stated he “absolutely” questioned whether trial
counsel had fully investigated Petitioner’s case. (EH RT
11/3/17 (a.m.) at 59.) Despite this acknowledgement,
PCR counsel requested no funding for a forensic
investigation. Nor did PCR counsel attempt to contact
Petitioner’s consulting expert at trial, Dr. Keen.
Further, to the extent an investigator might have
been necessary to pursue these issues, Hazel failed to
file a properly supported request for one. Despite the
direction provided by the Arizona Supreme Court to
request the appointment of investigators and experts
pursuant to A.R.S. § 13-4013(B) and § 13-4041(J),
Hazel filed his requests for the appointment of an
investigator pursuant to Rule 706(a) of the Arizona
Rules of Evidence, a rule that has no application to
indigent defense funding in criminal cases. The request

App. 179
for an investigator was denied because Hazel failed to
provide any specific reason to support the need for
the appointment of an investigator, a statutory
requirement of A.R.S. § 13- 4013(B). Hazel’s motion for
reconsideration was denied for the same reason. Hazel
believed that facial compliance with the statute would
not have helped because, in his opinion, his funding
requests would have been denied anyway. (EH RT
11/3/17 (a.m.) 61, 65–68, 73–74, 77–78, 80–81.) Hazel
never attempted to formulate an application for
funding that addressed the PCR court’s concerns. Hazel
spent approximately 100 hours working on Petitioner’s
state court petition for post-conviction relief. Nearly
100 percent of counsel’s billed time was spent
reviewing the file and drafting the petition. Hazel’s
own attempts at investigation consisted of talking with
Petitioner and, after the petition was written,
interviewing Angela.
The Court finds that Hazel’s claim that his funding
requests would have been arbitrarily denied are
speculative and against the weight of the evidence.
Trial counsel and Petitioner’s standard of care expert
uniformly agreed that properly grounded funding
requests were routinely granted in Pima County. Hazel
had before him extensive evidence that if presented in
an application for funding would have conveyed to the
PCR court that there was a well-founded reasonable
need to investigate the central issue in Petitioner’s
case. Nonetheless, Hazel failed to inform the PCR court
of any of the evidence which would have supported the
need for funding, and he never requested funding for
experts.

App. 180
In Hinton v. Alabama, the Supreme Court found
counsel’s failure to request additional funding for an
expert was unreasonable and constituted deficient
performance because it was based, not on a strategic
decision, but on counsel’s mistaken belief that he would
be unable to obtain additional funding combined with
his failure to investigate the state’s funding statute.
134 S. Ct. 1081, 1089 (“An attorney’s ignorance of a
point of law that is fundamental to his case combined
with his failure to perform basic research on that
point is a quintessential example of unreasonable
performance.”) Similarly, Hazel’s decision to forego a
properly grounded request for an investigator or for
experts to assist him with the investigation of the
medical time of injury evidence and the bloodstain
evidence was based on either ignorance of the
requirements of the appropriate funding statute or on
counsel’s mistaken assumption of the Arizona courts’
unwillingness to fund experts, and was not a
reasonable strategic decision. Cf. Hinton, 134 S. Ct. at
1088.
In conclusion, the Court finds that Hazel’s
performance and his failures to investigate fell below
an objective standard of reasonableness under
prevailing professional norms.
D.

Ineffective Assistance
Counsel: Prejudice

of

PCR

As explained above in Section IV.A and IV.B, the
Court finds Petitioner has already demonstrated trial
counsel performed deficiently, and there was a
reasonable probability that but for trial counsel’s
deficient performance the result of the trial proceedings

App. 181
would have been different. Accordingly, the Court finds
that there is a reasonable probability that, absent PCR
counsel’s deficient performance, the result of the postconviction proceedings would have been different. See
Clabourne, 745 F.3d at 377–78 (when PCR counsel has
performed deficiently, determining whether there was
a reasonable probability of a different outcome “is
necessarily connected to the strength of the argument
that trial counsel’s assistance was ineffective.”)
Furthermore, as discussed above, the Court finds
Petitioner’s trial counsel guilt-phase IAC claim
meritorious. Accordingly, the Court rejects
Respondents’ argument that even if PCR counsel’s
performance was deficient, Petitioner cannot establish
prejudice from PCR counsel’s failure to raise Claim 1D
because the claim has no merit.
VI.

CONCLUSION

The Court finds that because Petitioner has met his
burden under Martinez to establish ineffective
assistance of post-conviction counsel as cause for the
default of his substantial claim of ineffective assistance
of trial counsel for failure to conduct an adequate pretrial investigation, Petitioner has overcome the
procedural default of Claim 1D. The Court further finds
that Petitioner has demonstrated that trial counsel
performed constitutionally deficiently when he failed to
perform an adequate pretrial investigation, leading to
his failure to uncover key medical evidence that
Rachel’s injuries were not sustained on May 1, 1994, as
well as his failure to impeach the state’s other physical
and eyewitness testimony with experts who could
support the chosen defense. Petitioner has shown that

App. 182
had counsel performed constitutionally adequately,
there is a reasonable probability that his jury would
not have convicted him of any of the crimes with which
he was charged and previously convicted. Accordingly,
Petitioner has demonstrated prejudice due to counsel’s
failures with respect to all counts in the indictment.
Therefore,
(1)
Petitioner’s Petition for a Writ of Habeas
Corpus is GRANTED without reaching the merits of
the remaining claim, Claim 1D (Penalty Phase);
(2)
the State of Arizona is directed to release
Petitioner from custody unless it notifies this Court
that (a) it has initiated new trial proceedings within 45
days of the filing date of this Order, and (b) actually
commences Petitioner’s retrial within 180 days of the
filing date of this Order.
(3)
the Clerk of Court is directed to enter
judgment and close the case. IT IS FURTHER
ORDERED that the Clerk of Court forward a copy of
this Order to Janet Johnson, Clerk of the Arizona
Supreme Court, 1501 W. Washington, Suite 402,
Phoenix, Arizona, 85007-3329.
IT IS SO ORDERED.
Dated at Anchorage, Alaska, this 31st day
of July, 2018.
/s/ Timothy M. Burgess
TIMOTHY M. BURGESS
UNITED STATES DISTRICT JUDGE

App. 183
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
No. CV-01-00592-TUC-TMB
[Filed: July 31, 2018]
__________________________________________
Barry Lee Jones,
)
)
Petitioner,
)
)
v.
)
)
Charles L. Ryan, et al,
)
)
Respondents.
)
__________________________________________)
JUDGMENT IN A CIVIL CASE
DEATH PENALTY CASE
Decision by Court. This action came for
consideration before the Court. The issues have been
considered and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that pursuant
to the Court’ Order filed July 31, 2018, Petitioner’s
Petition for Writ of Habeas Corpus pursuant to 28
U. S. C. § 2254 is GRANTED without reaching the
merits of the remaining claim, Claim 1D (Penalty
Phase).
Brian D. Karth
District Court Executive/Clerk of
Court

App. 184
July 31, 2018
By

s/ B Cortez
Deputy Clerk

App. 185

APPENDIX C
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-99006
D.C. No. 4:01-cv-00592-TMB
[Filed: August 24, 2020]
__________________________________________
BARRY LEE JONES,
)
Petitioner-Appellee,
)
)
&
)
)
DAVID SHINN, Director, Arizona
)
Department of Corrections; STEPHEN
)
MORRIS, Warden, Arizona State
)
Prison-Eyman Complex,
)
Respondents-Appellants.
)
__________________________________________)
ORDER
Before: Johnnie B. Rawlinson, Richard C. Clifton,
and Paul J. Watford, Circuit Judges.
Order;
Dissent by Judge Collins

App. 186
SUMMARY*
__________________________________________________
Habeas Corpus
The panel denied a petition for rehearing and
denied on behalf of the court a petition for rehearing en
banc.
Dissenting from the denial of rehearing en banc,
Judge Collins, joined by Judges Callahan, Ikuta, R.
Nelson, Lee, Bress, Bumatay, and VanDyke, wrote that
the panel’s decision disregards controlling Supreme
Court precedent by creating a new judge-made
exception to the restrictions imposed by the
Antiterrorism and Effective Death Penalty Act on the
use of new evidence in habeas corpus proceedings.
__________________________________________________
COUNSEL
Myles A. Braccio (argued), Assistant Attorney General;
Lacey Stover Gard, Chief Counsel; Mark Brnovich,
Attorney General; Capital Litigation Section, Office of
the Attorney General, Tucson, Arizona; for
Respondents-Appellants.
Cary Sandman (argued) and Karen Smith, Assistant
Federal Public Defenders; Jon M. Sands, Federal
Public Defender; Office of the Federal Public Defender,
Tucson, Arizona; for Petitioner-Appellee.

*

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 187
Ken Paxton, Attorney General; Jeffrey C. Mateer, First
Assistant Attorney General; Kyle D. Hawkins, Solicitor
General; Matthew H. Frederick, Deputy Solicitor
General; Jason R. LaFond, Assistant Solicitor General;
Office of the Attorney General, Austin, Texas; for
Amicus Curiae State of Texas.
__________________________________________________
ORDER
The panel has unanimously voted to deny
Respondent-Appellant’s petition for rehearing. Judge
Rawlinson and Judge Watford have voted to deny the
petition for rehearing en banc, and Judge Clifton so
recommends.
The full court has been advised of the petition for
rehearing en banc. A judge of the court requested a
vote on en banc rehearing. The matter failed to receive
a majority of votes of non-recused active judges in favor
of en banc consideration. Fed. R. App. P. 35.
The petitions for rehearing and rehearing en banc
(Docket Entry No. 71) are DENIED. No future
petitions for rehearing or rehearing en banc will be
entertained.
__________________________________________________
COLLINS, Circuit Judge, with whom CALLAHAN,
IKUTA, R. NELSON, LEE, BRESS, BUMATAY, and
VANDYKE, Circuit Judges, join, dissenting from the
denial of rehearing en banc:
The panel decisions in Ramirez v. Ryan, 937 F.3d
1230 (9th Cir. 2019), and Jones v. Shinn, 943 F.3d 1211

App. 188
(9th Cir. 2019), disregard controlling Supreme Court
precedent by creating a new judge-made exception to
the restrictions imposed by the Antiterrorism and
Effective Death Penalty Act (“AEDPA”) on the use of
new evidence in habeas corpus proceedings. See 28
U.S.C. § 2254(e)(2). I respectfully dissent from our
failure to rehear these cases en banc.1
As the Supreme Court has explained, the negligence
of “postconviction counsel” in developing the
evidentiary record in state court is “chargeable to the
client and precludes relief unless the conditions of
§ 2254(e)(2) are satisfied.” Holland v. Jackson, 542 U.S.
649, 653 (2004). Specifically, § 2254(e)(2) bars “relief
based on new evidence,” with or without a hearing,
unless one of its exceptions is applicable. Id. In both
Jones and Ramirez, state postconviction counsel failed
to develop the record to support the current claims of
ineffective assistance of trial counsel that both
petitioners wish to present in federal habeas corpus
proceedings. Although there is (and can be) no
contention that any of § 2254(e)(2)’s exceptions apply in
either case, the panels in both cases nonetheless held
that the strictures of § 2254(e)(2) did not apply to the
new evidence that the petitioners wished to present in
support of the merits of those claims.
The panels’ reasoning was that, because the
Supreme Court has held that ineffective assistance of
postconviction counsel may establish “cause to excuse”
the separate “procedural default” of failing to raise an

1

In light of the common issue raised in the two cases, I am filing
an identical combined dissent in both cases.

App. 189
ineffective-assistance-of-trial-counsel claim in state
court, see Martinez v. Ryan, 566 U.S. 1, 13 (2012), a
similar exception should also be recognized to excuse
the separate prohibition on new evidence set forth in
§ 2254(e)(2). But Martinez relied on “the Court’s
discretion” to alter judge-made rules of procedural
default, id., and that power to recognize “judge-made
exceptions” to judge-made doctrines does not extend to
statutory provisions, Ross v. Blake, 136 S. Ct. 1850,
1857 (2016). “There, Congress sets the rules—and
courts have a role in creating exceptions only if
Congress wants them to.” Id. And Congress has been
clear in § 2254(e)(2) that it does not want any such new
exceptions. Indeed, prior to the enactment of
§ 2254(e)(2), both distinct types of failure (i.e., failure
to raise a claim at all and failure to develop the factual
record) were governed by the same “cause and
prejudice” standard that Martinez later modified. See
Coleman v. Thompson, 501 U.S. 722, 753–54 (1991);
Keeney v. Tamayo-Reyes, 504 U.S. 1, 11 (1992). But in
§ 2254(e)(2), Congress explicitly abrogated Keeney’s
“cause and prejudice” standard and replaced it with a
much more demanding standard that is concededly not
met in either Jones or Ramirez. Given that Congress
has eliminated in the evidentiary-development context
the very predicate on which Martinez is based, we have
no authority to rewrite the statute and to engraft a
judge-made Martinez exception onto it.
The Ramirez decision presents a particularly stark
violation of § 2254(e)(2). Jones only went so far as to
contend that the same evidence used to established
cause and prejudice under Martinez could then be used,
notwithstanding § 2254(e)(2), to establish the merits of

App. 190
the underlying ineffective-assistance-of-trial-counsel
claim. While I believe that even this result contravenes
Supreme Court authority, it at least has the virtue of
making its new judge-made exception to § 2254(e)(2)
coextensive with the Martinez exception. But in
Ramirez, the panel held that, even after the Martinez
exception had been established with new evidence, the
petitioner was entitled to keep going and to develop
even more evidence as if § 2254(e)(2) did not exist at
all. Nothing supports Ramirez’s egregious disregard of
the clear strictures of § 2254(e)(2).
I
A
David Ramirez was convicted by an Arizona jury of
the first-degree murders of his girlfriend and her
daughter, and he was sentenced to death by a judge.
Ramirez, 937 F.3d at 1234. Ramirez’s trial attorney,
Mara Siegel, was a Maricopa County public defender,
and Ramirez’s case was her first capital assignment.
Id. at 1235. After his conviction and sentence were
affirmed on direct appeal, Ramirez filed a petition for
postconviction relief in state court, but he did not raise
a claim that his trial counsel had been ineffective in the
particular respects that he now asserts. Id. at 1238.
The state petition was denied. Id.
Ramirez then filed a federal habeas petition, the
operative version of which raised the claim that trial
counsel was ineffective in her presentation of
mitigation evidence during the penalty phase. 937 F.3d
at 1238. The federal district court initially denied the
claim as procedurally defaulted, because Ramirez had

App. 191
failed to raise the claim during his initial state
postconviction-relief proceeding. See Martinez Ramirez
v. Ryan, 2010 WL 3854792 (D. Ariz. Sept. 28, 2010).
While Ramirez’s appeal from that decision was pending
in this court, the Supreme Court issued its decision in
Martinez, in which the Court held that a petitioner
may establish “cause” to excuse a procedural default if
the petitioner can show (1) that the petitioner’s
postconviction counsel was ineffective in failing to raise
an ineffective-assistance-of-trial-counsel claim, and
(2) that the underlying ineffective-assistance-of-trialcounsel claim is “substantial,” that is, “has some
merit.” 566 U.S. at 14. A panel of this court remanded
for reconsideration of Ramirez’s ineffective-assistanceof-trial-counsel claim “in light of intervening law.”
On remand, Ramirez asked for an evidentiary
hearing to develop evidence regarding whether his
postconviction-relief counsel was ineffective, in order to
establish “cause” for the default under Martinez.
Ramirez acknowledged that 28 U.S.C. § 2254(e)(2) bars
factual development of claims not developed in state
court, but relying on our precedent in Dickens v. Ryan,
740 F.3d 1302, 1321 (9th Cir. 2014) (en banc), he
argued that the cause-and-prejudice question under
Martinez is not a “claim” for purposes of § 2254(e)(2)
and that evidence could be received to see whether the
default could be excused under Martinez.
Ramirez also submitted declarations from various
family members describing the truly deplorable
conditions of his upbringing. Ramirez, 937 F.3d at
1238–39. Compared to the testimony that Siegel
elicited during the original sentencing hearing, the new

App. 192
declarations paint a darker picture of the abuse and
neglect that Ramirez’s mother inflicted on her children.
Ramirez also submitted a declaration from Siegel
herself, in which she admitted that the mitigation
evidence that she presented was “very limited.” Id. at
1240. Finally, Ramirez submitted a declaration from
Dr. McMahon, a psychologist whom the state trial
court had appointed to evaluate Ramirez’s mental
health during the penalty phase of his criminal trial.
Id. Dr. McMahon stated that Siegel failed to give him
Ramirez’s IQ scores or school reports and that, had she
done so, he likely would have expanded his evaluation,
and he would not have found that Ramirez was not
intellectually disabled. Id.
The district court noted that, “for different
reasons,” both sides agreed that the court should
consider the merits of Ramirez’s ineffective-assistanceof-trial-counsel claim. As the court explained, the State
argued that the lack of merit to that claim showed that
postconviction counsel “did not perform ineffectively in
failing to raise the claim in state court” and that the
Martinez standard therefore could not be met. Ramirez,
by contrast, argued that postconviction counsel was
ineffective in failing to raise the claim and that the
merits of that claim therefore had to be considered de
novo. The court denied Ramirez’s request for an
evidentiary hearing, concluding that such a hearing
was “not warranted” in light of the existing evidence,
but the court accepted his newly submitted exhibits
into the record. After comparing the evidence on
mitigation presented at the penalty phase of Ramirez’s
trial to the information in the newly submitted
exhibits, the court resolved the merits of the

App. 193
underlying claim, concluding that Siegel’s performance
was not deficient and that any deficiency did not
prejudice Ramirez.
Ramirez again appealed to this court. The panel
reversed, finding that the district court should not have
“collapsed what should have been a two-step process”:
first evaluating whether the performance of Ramirez’s
postconviction counsel constituted ineffective
assistance that excused the procedural default under
Martinez, and only then addressing the merits of the
underlying ineffective-assistance-of-trial-counsel claim,
“after allowing a chance for any necessary record or
evidentiary development.” Ramirez, 937 F.3d at 1242
n.7. The panel then proceeded to address the merits of
the Martinez analysis, concluding that Ramirez’s
postconviction counsel did render ineffective assistance
and that Ramirez’s underlying claim was “substantial,”
thus excusing his procedural default under Martinez.
Id. at 1243–48. Finally, the panel concluded that “the
district court erred in denying Ramirez evidentiary
development of his ineffective assistance of counsel
claim” and remanded for further evidentiary
development on that underlying claim. Id. at 1248.
B
Barry Lee Jones was convicted by an Arizona jury
of sexual assault, child abuse, and felony murder of his
girlfriend’s four-year-old daughter, Rachel Gray. Jones,
943 F.3d at 1215. A judge sentenced him to death. Id.
at 1217. Jones filed a petition for postconviction relief
in state court, in which he claimed ineffective
assistance of trial counsel regarding certain aspects of

App. 194
his attorney’s representation. Id. at 1218. The petition
was denied. Id.
Jones then filed a federal habeas petition, the
operative version of which raised several new claims
that his trial attorney was ineffective at both the guilt
and penalty phases of Jones’ case. 943 F.3d at 1218.
The district court denied most of the claims as
procedurally defaulted. Jones v. Schriro, 2008 WL
4446619, at *5 (D. Ariz. Sept. 29, 2008). While the case
was on appeal in this court, the Supreme Court issued
its decision in Martinez. This court remanded the case
to the district court for reconsideration of Jones’s claim.
This court’s remand order determined that Jones’s
claims were “substantial” and that one prong of the
Martinez analysis was therefore already satisfied.
(Recall that Martinez requires a petitioner to show that
postconviction counsel was ineffective and that the
underlying ineffective-assistance- of-trial-counsel claim
is “substantial.” See 566 U.S. at 14.)
On remand, the district court ordered the parties to
brief the other prong of Martinez—whether Jones’s
postconviction counsel was ineffective for failing to
raise the underlying ineffective-assistance-of-trialcounsel claim—as well as the merits of that underlying
claim itself. Jones contended that trial counsel was
ineffective during both the guilt and penalty phases of
the trial. Based on new exhibits submitted by Jones,
the district court found enough initial merit to Jones’s
arguments that postconviction counsel had been
ineffective that the court granted Jones’s request for a
full evidentiary hearing on whether Jones’s default of
his underlying claims could be excused under Martinez.

App. 195
In granting that request, the court concluded that 28
U.S.C. § 2254(e)(2) did not apply to new evidence used
to establish cause under Martinez. The district court
went a step further, however, and also granted Jones’s
request for an evidentiary hearing to develop his
underlying ineffective-assistance-of-trial-counsel claim.
After a seven-day evidentiary hearing, the district
court issued a decision granting Jones’s habeas
petition. Jones v. Ryan, 327 F. Supp. 3d 1157 (D. Ariz.
2018). The court concluded that Jones’s trial counsel
had performed a deficient investigation into medical
evidence of the timeline of Rachel’s injuries and that,
had a proper investigation been performed, counsel
could have cast doubt on the state’s theory that
Rachel’s injuries occurred while she was in Jones’s
care. Id. at 1198–1202, 1206–09. The court then
concluded that Jones’s postconviction-relief counsel
rendered ineffective assistance in failing to raise that
claim, thereby excusing Jones’s procedural default
under Martinez. Id. at 1214–17.
The state appealed, arguing that, although 28
U.S.C. § 2254(e)(2) did not bar the district court from
holding an evidentiary hearing on Jones’s efforts to
establish cause for default under Martinez, the statute
did bar the district court from considering any of the
evidence from the Martinez hearing when analyzing
the merits of the underlying claim. The panel rejected
the state’s argument, concluding that a district court is
not barred from considering evidence developed to
overcome a procedural default under Martinez when
analyzing the underlying claim. Jones, 943 F.3d at
1220–22.

App. 196
II
We should have granted rehearing en banc because,
in contravention of controlling Supreme Court
authority, the panels’ decisions in Jones and Ramirez
create a new judge-made exception to 28 U.S.C.
§ 2254(e)(2)’s strict limitations on expansion of the
evidentiary record in habeas corpus cases.
A
The petitioners in Jones and Ramirez confronted
two distinct obstacles to presenting their ineffectiveassistance-of-trial-counsel claims in federal habeas
corpus proceedings. First, the claims they sought to
assert had not been presented in their state
postconviction proceedings, and the resulting
procedural default required them to show cause and
prejudice to excuse that default. Second, the petitioners
had failed to develop in the state court record the facts
that they needed to establish their claims, and this
presented a separate obstacle that would require them
to make an appropriate showing before a federal
habeas court could consider any additional evidence.
See 28 U.S.C. § 2254(e)(2). In order to set the panels’
decisions in context, it is helpful to summarize the
applicable state of the law concerning these two
distinct procedural hurdles.
1
The general rule against consideration of
procedurally defaulted claims in federal habeas corpus
is a judge-made doctrine that has long been recognized
by the Supreme Court. The Court’s rule is “grounded in
principles of comity,” because “a habeas petitioner who

App. 197
has failed to meet the State’s procedural requirements
for presenting his federal claims has deprived the state
courts of an opportunity to address those claims in the
first instance.” Coleman, 501 U.S. at 731–32. Because
Arizona requires that ineffective-assistance-of-trialcounsel claims be presented in the first state
postconviction petition, see Martinez, 566 U.S. at 6–7,
the petitioners’ failure to present their claims in
Arizona state court constitutes a procedural default, see
Coleman, 501 U.S. at 735 n.1 (where claim was not
exhausted in state court and state court “would now
find the claims procedurally barred,” there “is a
procedural default for purposes of federal habeas”); see
also Trevino v. Thaler, 569 U.S. 413, 421 (2013) (failure
to raise a claim in state court “at the time or in the
place that state law requires” qualifies as procedural
default). But the Supreme Court has recognized
exceptions to this judge-made rule: procedurally
defaulted claims may be considered if the petitioner
can (1) show “cause” for the default and “actual
prejudice” from the state’s alleged violation of federal
law or (2) demonstrate that application of the rule
would “result in a fundamental miscarriage of justice.”
Coleman, 501 U.S. at 750.
In Coleman, the Court held that attorney error
generally does not constitute “cause” to excuse a
procedural default because “cause” must be something
“external to the petitioner,” and error by a petitioner’s
attorney is not “external” because “the attorney is the
petitioner’s agent when acting, or failing to act.” 501
U.S. at 753. But Coleman observed that attorney error
can constitute “cause” when the error qualifies as
ineffective assistance of counsel, in violation of the

App. 198
Sixth Amendment. Id. at 753–54. The reason for this
exception is “not because . . . the error is so bad that
the lawyer ceases to be an agent of the petitioner”; such
an argument, the Court explained, “would be contrary
to well-settled principles of agency law,” under which
even an agent’s negligence is imputed to the principal.
Id. at 754. Rather, the reason for the exception is that,
when effective assistance of counsel is constitutionally
guaranteed, “‘the Sixth Amendment itself requires that
responsibility for the default be imputed to the State.’”
Id. (quoting Murray v. Carrier, 477 U.S. 478, 488
(1986)). And because “[t]here is no constitutional right
to an attorney in state post-conviction proceedings,”
Coleman reasoned, an error by postconviction counsel
is not imputed to the state and cannot constitute
“cause.” Id. at 752.
In Martinez v. Ryan, however, the Court created a
“narrow exception” to Coleman’s holding that
negligence by postconviction counsel can never
constitute cause to excuse default. 566 U.S. at 9. The
Court expressed special concern about applying
Coleman’s strict rule in the context of claims that trial
counsel was ineffective, because such claims often can
be brought only in postconviction proceedings—where
effective representation is not constitutionally
guaranteed— and, further, because such claims “often
require investigative work and an understanding of
trial strategy.” Id. at 11. The Martinez Court pointedly
declined to rest its exception to Coleman on the
premise that there is a constitutional right to effective
assistance of postconviction counsel in the presentation
of an ineffective-assistance-of-trial-counsel claim. Id. at
9. Instead, recognizing that “[t]he rules for when a

App. 199
prisoner may establish cause to excuse a procedural
default are elaborated in the exercise of the Court’s
discretion,” id. at 13, the Court held that, “as
an equitable matter,” ineffective assistance of
postconviction counsel (or lack of postconviction
counsel) can constitute “cause” to excuse procedural
default of an ineffective-assistance-of-trial-counsel
claim, but only if the claim is “substantial,” id. at 14.
2
The second distinct obstacle that the petitioners
face here was their failure to adequately develop in
state court the factual evidence needed to establish the
ineffective-assistance- of-trial-counsel claims that they
now wish to present. Again relying upon judge-made
rules governing the writ of habeas corpus, the Supreme
Court previously had treated such a failure as
comparable to a procedural default, and the Court
therefore generally required a showing of cause and
prejudice to excuse the failure. See, e.g., Keeney, 504
U.S. at 8–10. The rationale for this additional federal
habeas rule was likewise grounded in federalism:
“encouraging the full factual development in state court
of a claim that state courts committed constitutional
error advances comity by allowing a coordinate
jurisdiction to correct its own errors in the first
instance.” Id. at 9. Under Keeney, a failure to develop
the record occurs even when the petitioner’s counsel is
responsible, id. at 4 (requiring cause and prejudice
even though the failure was “apparently due to the
negligence of postconviction counsel”), and the requisite
cause cannot be shown “where the cause asserted is

App. 200
attorney error,” id. at 10 n.5 (citing Coleman, 501 U.S.
722).
However, in enacting AEDPA, Congress partially
abrogated Keeney and replaced it with a different and
more demanding set of standards. The relevant
provision is contained in 28 U.S.C. § 2254(e)(2), which
provides as follows:
If the applicant has failed to develop the factual
basis of a claim in State court proceedings, the
court shall not hold an evidentiary hearing on
the claim unless the applicant shows that—
(A) the claim relies on—
(i) a new rule of constitutional law, made
retroactive to cases on collateral review
by the Supreme Court, that was
previously unavailable; or
(ii) a factual predicate that could not have
been previously discovered through the
exercise of due diligence; and
(B) the facts underlying the claim would be
sufficient to establish by clear and convincing
evidence that but for constitutional error, no
reasonable factfinder would have found the
applicant guilty of the underlying offense.
Id. The Supreme Court has made two important
rulings concerning the meaning of § 2254(e)(2), and
those decisions establish the governing law concerning
this separate procedural obstacle to the presentation of
a claim in federal habeas corpus.

App. 201
First, in Williams v. Taylor (Michael Williams),2 529
U.S. 420 (2000), the Court held that Congress’s use of
the word “failed” in the opening clause of § 2254(e)(2)
was “intended to preserve” Keeney’s definition of what
counts as the sort of state-court failure that triggers
the rule. Id. at 433. As the Court explained, Keeney’s
cause-and-prejudice requirement applied—and
therefore § 2254(e)(2)’s replacement for that cause-andprejudice standard now applies—when “there is lack of
diligence, or some greater fault, attributable to the
prisoner or the prisoner’s counsel.” Id. at 432 (emphasis
added). Thus, § 2254(e)(2) preserves the rule that
attorney failure to develop the record triggers the need
to make a further showing to excuse that failure. But
Congress dramatically changed the circumstances
under which such attorney failure can be excused, by
replacing the cause-and-prejudice and fundamentalmiscarriage-of-justice tests with the stricter exceptions
in § 2254(e)(2). Id. at 433. Notably, ineffective
assistance of postconviction counsel is not included in
the statute as a ground for excusing the failure to
develop the factual basis of a claim in state court. Thus,
it is not sufficient to show that counsel’s lack of
diligence failed to uncover the new evidence; rather, it
must be shown that the “factual predicate . . . could not
have been previously discovered through the exercise
of due diligence.” 28 U.S.C. § 2254(e)(2)(A)(ii)
(emphasis added).

2

The Supreme Court coincidentally decided another AEDPA case
named Williams v. Taylor (involving Terry Williams) on the very
same day. See 529 U.S. 362 (2000).

App. 202
Second, the Supreme Court held in Holland v.
Jackson that § 2254(e)(2)’s strictures are applicable
whenever the petitioner attempts to rely on evidence
that was not presented in state court, and not merely
when the petitioner seeks a formal evidentiary hearing.
542 U.S. at 653. In Holland, habeas petitioner Jackson
had been convicted of murder in state court, primarily
on the testimony of a single eyewitness. Id. at 650.
Seven years later, Jackson attempted to reopen his
state postconviction case because he claimed that a
new witness would contradict the primary witness’s
testimony. Id. at 650–51. The state court denied the
motion, finding “no satisfactory reason given for the
defendant’s failure to locate this witness.” Id. at 651.
The Supreme Court reversed the Sixth Circuit’s
subsequent grant of habeas relief, holding in relevant
part that consideration of the new witness’s testimony
was barred under § 2254(e)(2). Reaffirming that
“[a]ttorney negligence” in developing the state court
record “is chargeable to the client and precludes relief
unless the conditions of § 2254(e)(2) are satisfied,” id.
at 653 (citing Michael Williams, 529 U.S. at 439–40;
Coleman, 501 U.S. at 753–54), the Court held that
Jackson’s failure to present the testimony of the new
witness to the state court was subject to the strictures
of § 2254(e)(2). Moreover, the Court made clear that,
despite the fact that § 2254(e)(2)’s limitations applied
to the holding of an “evidentiary hearing,” “[t]hose
same restrictions apply a fortiori when a prisoner seeks
relief based on new evidence without an evidentiary
hearing.” Id.
Thus, under Michael Williams and Holland, where
the petitioner’s attorney in state postconviction

App. 203
proceedings negligently fails to develop the record on a
claim, a federal habeas court may not consider new
evidence in support of that claim unless the strictures
of § 2254(e)(2) have been met.
B
Against this backdrop, the panel decisions in Jones
and Ramirez are directly contrary to controlling
Supreme Court authority.
1
Jones held that, notwithstanding § 2254(e)(2),
“Martinez’s procedural-default exception applies to
merits review, allowing federal habeas courts to
consider evidence not previously presented to the state
court.” Jones, 943 F.3d at 1221 (emphasis added). Jones
erred by engrafting Martinez’s judge-made exception to
a judge-made rule onto the separate statutory rule set
forth in § 2254(e)(2). Jones made no effort to reconcile
its holding with Holland or Michael Williams; indeed,
Jones did not mention either decision. Its holding is
directly contrary to those decisions, which (as
explained earlier) bar consideration of new evidence to
evaluate the merits of a claim in federal habeas
proceedings—even when that evidence was not
previously discovered due to the negligence of
postconviction counsel—unless one of the narrow
exceptions set forth in § 2254(e)(2) is satisfied. Jones
did not suggest that any of those exceptions are
applicable here. Instead, Jones relied on two
arguments to justify its holding, but neither has merit.

App. 204
a
Jones relied primarily on policy-based arguments
for extending Martinez’s exception to § 2254(e)(2). This
court has previously held that, because a claim of
ineffective assistance of postconviction counsel “is not
a constitutional claim” but only a predicate for showing
“cause” to excuse a failure to present a claim (namely,
ineffective assistance of trial counsel), a petitioner
seeking to show such cause “is not asserting a ‘claim’
for relief as that term is used in § 2254(e)(2).” Dickens,
740 F.3d at 1321. Section 2254(e)(2) thus does not bar
a hearing to develop the facts necessary to establish
cause under Martinez. See id. Because in Jones the
district court had already conducted a lengthy hearing
for that purpose, the panel held that it would be
“‘simply illogical, and extraordinarily burdensome to
the courts and the litigants,’” to hear evidence
concerning cause under Martinez but then to disregard
that very same evidence when addressing the merits of
the underlying claim. Jones, 943 F.3d at 1221 (quoting
the district court decision). Additionally, the panel
endorsed the plurality view in Detrich v. Ryan, 740
F.3d 1237 (9th Cir. 2013) (en banc), that if § 2254(e)(2)
could stymie factual development for claims rescued
from procedural default by Martinez, then “‘Martinez
would be a dead letter.’” 943 F.3d at 1222 (quoting
Detrich, 740 F.3d at 1247 (four-judge plurality)); see
also Ramirez, 937 F.3d at 1248 (likewise relying upon
the Detrich plurality).
As an initial matter, the Jones panel and the
Detrich plurality overstate the extent of the
inconsistency between Martinez and § 2254(e)(2), as

App. 205
noted by the amicus brief filed by the State of Texas in
support of rehearing en banc in the Jones case.
Martinez excuses the procedural default of failing to
raise a claim of ineffective assistance of trial counsel in
a state postconviction petition when the default is
attributable to the ineffective assistance of state
postconviction counsel. Section 2254(e)(2) separately
bars the development of new evidence in support of a
habeas claim in federal court. Thus, § 2254(e)(2) poses
no obstacle to review where the state court record
(either at trial or in subsequent proceedings) is already
sufficient to establish trial counsel’s mistakes—e.g.,
“claims based on a failure to object to inadmissible
evidence, requesting an incorrect jury instruction, or
per se ineffective assistance of counsel.” Brief for the
State of Texas as Amicus Curiae at 12–13, Jones v.
Shinn, No. 18-99006 (9th Cir. Dec. 23, 2019) (ECF No.
75). To the extent that such mistakes nonetheless were
not raised on state postconviction review due to the
ineffectiveness of postconviction counsel, Martinez
paves the way to federal habeas relief.
But even if most Martinez claims would be barred
by § 2254(e)(2), that would not give us a license to
contravene the settled law governing that statute.
Nothing in the text of § 2254(e)(2) says that its
prohibition on consideration of new evidence does not
apply when postconviction counsel was ineffective or
where “cause” has been shown to excuse some separate
procedural default. On the contrary, AEDPA amended
§ 2254(e)(2) to abolish precisely the same “cause and
prejudice” standard that Martinez invoked (and
modified) and replaced it with a much more demanding
standard (which both panels agree is not met in these

App. 206
cases). See Michael Williams, 529 U.S. at 433
(“Congress raised the bar Keeney imposed on
prisoners.”). Section 2254(e)(2) therefore eliminated
any basis for extending Martinez to excuse a failure to
develop the record. That is, because the predicate for
Martinez’s holding is the cause-and-prejudice standard,
and because § 2254(e)(2) expressly eliminated that
standard in the context of a failure to develop the
record, the entire predicate for applying Martinez is
simply absent in that context.
Where, as here, Congress has specifically modified
and limited pre-existing equitable doctrines that
otherwise would have applied, we have no authority to
ignore those limitations. See McQuiggin v. Perkins, 569
U.S. 383, 395–96 (2013) (noting that § 2254(e)(2)
specifically modified the previously recognized
“miscarriage of justice exception”). Accordingly, this is
not a situation in which Congress left undisturbed a
long-settled background presumption concerning the
scope of equitable authority in federal habeas corpus
proceedings. See id. at 397 (concluding that, outside of
contexts such as § 2254(e)(2), Congress presumably
intended to leave “intact and unrestricted” the longrecognized equitably based “miscarriage of justice
exception”). The Jones panel and the Ramirez panel
thus lacked the authority to engraft a judge-made
exception onto § 2254(e)(2)—particularly when it is
contrary to the construction of that statute under
Michael Williams and Holland. As the Supreme Court
explained in a separate context in Ross v. Blake,
although “judge-made exhaustion doctrines . . . remain
amenable to judge-made exceptions, . . . a statutory
exhaustion provision stands on a different footing.

App. 207
There, Congress sets the rules—and courts have a role
in creating exceptions only if Congress wants them to.”
136 S. Ct. at 1857 (emphasis added). Under Ross, we
have no role in creating exceptions to § 2254(e)(2).3
Moreover, the Jones panel’s reasoning (like the
plurality’s reasoning in Detrich) rests largely on a
bootstrap argument. Dickens held that establishing
“cause” under Martinez is not a “claim,” and so a
federal court does not violate § 2254(e)(2) by receiving
new evidence to consider whether such cause has been
established. 740 F.3d at 1321. But by saying that such
evidence should then be considered on the merits of the
“claim,” the panel erases the distinction that Dickens
drew and thereby endorses the very violation of
§ 2254(e)(2) that Dickens purported to avoid. To the
extent that the resulting scenario seems illogical or
wasteful, that is only because the district court in
Jones failed to consider up front both of the separate
obstacles that Jones faced. There is no point in
conducting a Martinez hearing to discover “cause” to
excuse a procedural default if the defaulted claim will
3

Even if the Jones panel were correct in perceiving some tension
between Martinez and the construction of § 2254(e)(2) adopted in
Michael Williams and Holland, that would not justify the panel’s
disregard of the latter decisions. As the Supreme Court has made
clear, “[i]f a precedent of this Court has direct application in a case,
yet appears to rest on reasons rejected in some other line of
decisions, the Court of Appeals should follow the case which
directly controls, leaving to this Court the prerogative of overruling
its own decisions.” Rodriguez de Quijas v. Shearson/American
Express, Inc., 490 U.S. 477, 484 (1989). Because Martinez says
literally nothing whatsoever about § 2254(e)(2), it cannot provide
any basis for disregarding the directly applicable caselaw
construing that provision.

App. 208
inevitably fail on the merits because (due to the other
procedural obstacle) evidence outside the state record
cannot be considered in any event. Given the
insuperable obstacle presented by § 2254(e)(2), whether
the distinct obstacle presented by Coleman/Martinez
could or could not be excused made no difference.
To the extent that it seems unfair that a potentially
meritorious claim might escape federal habeas review,
that feature is inherent in the restrictions that AEDPA
imposes on the grant of federal habeas relief. For
purposes of § 2254(e)(2), the evidence developed at the
Martinez cause-and-prejudice hearing stands on no
different footing than the new evidence presented to
the court in Holland, and Holland squarely holds that
such new evidence may not be considered unless the
restrictions of § 2254(e)(2) have been met. 542 U.S. at
653. The resulting disparate treatment of procedural
default under Martinez and failure to develop the
factual basis for a claim under § 2254(e)(2) is the
unmistakable consequence of Congress’s asymmetrical
intervention in this area of the law, in which Congress
eliminated the cause-and-prejudice standard only in
the Keeney context, and not in the Coleman context.
Absent a constitutional objection—and the Jones panel
did not suggest that its conclusion was required by the
Constitution—we lack the authority to improve upon
Congress’s policy judgment by judicially rewriting
§ 2254(e)(2).
b
The Jones panel hinted at a second ground for its
holding, but it is equally untenable. Specifically, the
panel stated that its conclusion was consistent with the

App. 209
decisions of the Eighth and Fifth Circuits in Sasser v.
Hobbs, 735 F.3d 833 (8th Cir. 2013), and Barrientes v.
Johnson, 221 F.3d 741 (5th Cir. 2000). See Jones, 943
F.3d at 1222. Those decisions, in turn, rested on the
premise that, if counsel was ineffective in failing to
develop the record or there is otherwise cause and
prejudice to excuse that failure, then there was no
“fail[ure] to develop the factual basis of a claim in State
court proceedings” within the meaning of § 2254(e)(2).
See Sasser, 735 F.3d at 853–54; Barrientes, 221 F.3d at
771 & n.21. This rationale is based on a clear
misreading of Michael Williams.
Michael Williams unambiguously states that
§ 2254(e)(2) preserved Keeney’s understanding of what
counted as a “failure” to develop the record, thereby
triggering the need to excuse that failure. See 529 U.S.
at 433–34. Michael Williams further states that such a
failure is shown when “there is lack of diligence, or
some greater fault, attributable to the prisoner or the
prisoner’s counsel,” id. at 432 (emphasis added); see
also Holland, 542 U.S. at 653 (“Attorney negligence,
however, is chargeable to the client and precludes relief
unless the conditions of § 2254(e)(2) are satisfied.”).
Moreover, in holding that ineffective assistance of state
postconviction counsel may provide cause and prejudice
for failure to raise a claim of ineffective assistance of
trial counsel, the Supreme Court in Martinez did not
retreat from Coleman’s and Michael Williams’s holding
that, in determining whether a procedural failure or
default has occurred, habeas petitioners are bound by
the action (or inaction) of their lawyers under “wellsettled principles of agency law.” Coleman, 501 U.S. at
754; see also Michael Williams, 529 U.S. at 432; cf.

App. 210
Maples v. Thomas, 565 U.S. 266, 282–83 (2012) (noting,
even post-Martinez, “the essential difference between
a claim of attorney error, however egregious, and a
claim that an attorney had essentially abandoned his
client” and holding that, “under agency principles,”
attorney error is not chargeable to the client only in the
latter situation). Under Martinez, the question of
ineffective assistance thus goes, not to the underlying
question of whether there was a procedural default or
other failure, but rather to the question of whether that
default or failure is excused. 566 U.S. at 13–14.
Accordingly, the suggestion that the existence of
cause and prejudice means that there was no failure to
develop the record for purposes of § 2254(e)(2), see
Sasser, 735 F.3d at 853–54; Barrientes, 221 F.3d at
771, is plainly incorrect. Not only does this mix up the
issue of procedural failure with the distinct issue of
whether that failure is excused, but this reasoning
would effectively restore the Keeney cause-andprejudice standard that § 2254(e)(2) expressly
abrogated. See Michael Williams, 529 U.S. at 433. If
the existence of cause and prejudice means that there
was no failure to develop the record sufficient to trigger
§ 2254(e)(2), then the remainder of § 2254(e)(2) would
be a dead letter, and the operative standard would be
the cause-and-prejudice test.
Because there was a failure to develop the state
court record in both Jones and Ramirez, § 2254(e)(2) is
triggered and that failure can be excused only if a
petitioner meets one of the strict statutory exceptions
in § 2254(e)(2). Because § 2254(e)(2) abolishes Keeney’s
cause-and-prejudice test, the fact that Martinez allows

App. 211
postconviction ineffective assistance to establish cause
and prejudice to excuse a failure to raise a claim does
not mean that such ineffective assistance meets the
more demanding excusal standards established in
§ 2254(e)(2) to excuse a failure to develop the record in
state court. Neither the Jones panel nor the Ramirez
panel claimed that the exceptions in § 2254(e)(2) were
met, and the prohibition of that section therefore
applies. Under Holland, that means the new evidence
in each case may not be received in considering the
merits of the underlying claim of ineffective assistance
of trial counsel.
2
As explained above, the Jones panel held only that
the evidence developed at the Martinez cause-andprejudice hearing in that case could be considered on
the merits of the underlying ineffective-assistance-oftrial-counsel claim. The Ramirez panel went one step
further and held that, after cause and prejudice have
been established under Martinez (as the Ramirez panel
found in that case), the strictures of § 2254(e)(2) do not
apply at all and the petitioner is “entitled to
evidentiary development to litigate the merits of his
ineffective assistance of trial counsel claim.” Ramirez,
937 F.3d at 1248. The only authority cited for this
proposition is the Detrich plurality, but that opinion
(like Jones) only supports the view that, “[i]f the
district court holds an evidentiary hearing before ruling
on the Martinez motion, evidence received at that
hearing is not subject to the usual habeas restrictions
on newly developed evidence.” 740 F.3d at 1247
(emphasis added); see also id. (“even with respect to the

App. 212
underlying trial-counsel IAC [ineffective-assistance- ofcounsel] ‘claim,’ given that the reason for the hearing
is the alleged ineffectiveness of both trial and PCR
[postconviction-relief] counsel, it makes little sense to
apply § 2254(e)(2)”). That view is wrong for all of the
reasons explained earlier, but nothing in that rationale
justifies taking the additional step of completely
dispensing with the strictures of § 2254(e)(2) and
allowing further evidentiary development after the
Martinez standard has already been satisfied.4
*

*

*

I respectfully dissent from the denial of rehearing
en banc.

4

Ramirez’s argument that Arizona waived any objection based on
§ 2254(e)(2) by failing to raise the issue may have some force to the
extent that Ramirez also presents the Jones issue (i.e., the use of
the same evidence for the dual purposes of satisfying Martinez and
addressing the merits), but not as to the Ramirez panel’s
additional step of ordering further evidentiary development after
the Martinez standard had been met. Ramirez’s appeal did not
specifically ask for the further relief that the panel ultimately
provided on that score. Arizona therefore had no occasion to object
under § 2254(e)(2) to additional evidentiary development beyond
what was needed to satisfy Martinez. The panel’s decision
presented that § 2254(e)(2) issue for the first time, and Arizona
properly raised the issue in its Petition for Rehearing.

App. 213

APPENDIX D
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 10-99023
D.C. No. 2:97-cv-01331-JAT
[Filed: September 11, 2019]
__________________________________________
DAVID MARTINEZ RAMIREZ,
)
Petitioner-Appellant,
)
)
v.
)
)
CHARLES RYAN,
)
Respondent-Appellee.
)
__________________________________________)
OPINION
Appeal from the United States District Court
for the District of Arizona
James A. Teilborg, District Judge, Presiding
Argued and Submitted January 16, 2019
San Francisco, California
Before: Sidney R. Thomas, Chief Judge, and Marsha
S. Berzon and Richard R. Clifton, Circuit Judges.

App. 214
Opinion by Chief Judge Thomas;
Partial Concurrence and Partial Dissent by Judge
Berzon
SUMMARY*
__________________________________________________
Habeas Corpus / Death Penalty
The panel affirmed in part and reversed in part the
district court’s denial of David Ramirez’s habeas corpus
petition challenging his Arizona conviction and death
sentence for the murders of his girlfriend and her
daughter, and remanded.
The panel explained that the district court—on
remand for reconsideration of whether post-conviction
counsel’s ineffectiveness constituted cause and
prejudice under Martinez v. Ryan, 566 U.S. 1 (2012), to
overcome the procedural default of Ramirez’s claim of
trial counsel’s ineffectiveness—erred by conducting a
full merits review of the underlying ineffective
assistance of counsel claim on an undeveloped record,
rather than addressing whether the claim was
“substantial.” The panel held that the underlying claim
of ineffective assistance of trial counsel was
substantial, thus constituting “prejudice” under
Martinez, because trial counsel failed to present or
pursue evidence of Ramirez’s intellectual disability,
failed to provide relevant and potentially mitigating
evidence to the psychologist who evaluated Ramirez,
and subsequently relied on the psychologist’s report,

*

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 215
despite possessing contrary facts. The panel held that
Ramirez established cause under Martinez because had
post-conviction counsel raised the substantial claim of
ineffective assistance of trial counsel, there is a
reasonable probability that the result of the postconviction proceedings would have been different.
The panel held that the district court erred in
denying Ramirez evidentiary development of his
ineffective assistance of counsel claim, and that on
remand he is entitled to evidentiary development to
litigate the merits of his ineffective assistance of trial
counsel claim.
The panel held that the district court correctly
concluded that Ramirez’s due process rights under Ake
v. Oklahoma, 470 U.S. 68 (1985), were not violated, as
Ramirez received the assistance of an independent
psychologist, and there was no impermissible waiver of
self-representation.
The panel held that the Arizona state courts did not
unconstitutionally apply a causal nexus requirement to
Ramirez’s mitigating evidence in violation of McKinney
v. Ryan, 813 F.3d 798 (9th Cir. 2015).
The panel declined to expand the certificate of
appealability to include three uncertified issues.
Dissenting in part, Judge Berzon would grant a
certificate of appealability with regard to Ramirez’s
claim under Atkins v. Virginia, 536 U.S. 304 (2002)
(prohibiting the execution of intellectually disabled
persons); hold that the claim relates back to Ramirez’s
ineffective assistance of counsel claim; and remand to
the district court for further proceedings.

App. 216
__________________________________________________
COUNSEL
Paula K. Harms (argued) and Timothy M. Gabrielsen,
Assistant Federal Public Defenders; Jon M. Sands,
Federal Public Defender; Office of the Federal Public
Defender, Phoenix, Arizona; for Petitioner-Appellant.
John P. Todd (argued), Special Assistant Attorney
General; Lacey Stover Gard, Chief Counsel; Mark
Brnovich, Attorney General; Office of the Attorney
General, Phoenix, Arizona; for Respondent-Appellee.
__________________________________________________
OPINION
THOMAS, Chief Judge:
David Ramirez was convicted by a jury and
sentenced to death by a judge for the 1989 murders of
his girlfriend, Mary Ann Gortarez and her daughter,
Candie. Ramirez appeals the district court’s denial of
his petition for writ of habeas corpus, raising three
certified claims and three uncertified claims. Because
Ramirez demonstrated cause and prejudice to overcome
the procedural default of his ineffective assistance of
trial counsel claim, we reverse the judgment of the
district court and remand for the district court to allow
evidentiary development of Ramirez’s ineffective
assistance of trial counsel claim.
We affirm the district court’s conclusion that
Ramirez’s right to due process under Ake v. Oklahoma,
470 U.S. 68 (1985), was not violated. We also agree that
the Arizona state courts did not improperly exclude

App. 217
mitigating evidence that lacked a causal connection to
his crime. See McKinney v. Ryan, 813 F.3d 798 (9th Cir.
2015).1 We decline to expand the certificate of
appealability to include the three uncertified issues
raised by Ramirez.
I
The central question in this appeal is whether the
procedural default of Ramirez’s claim of ineffective
assistance of trial counsel is excused under Martinez v.
Ryan, 566 U.S. 1 (2012). Because post conviction
counsel, whom Arizona concedes performed deficiently,
failed to raise a substantial claim of ineffective
assistance of trial counsel in Ramirez’s initial state
collateral proceeding, we conclude that the procedural
default is excused. Ramirez has an ineffective
assistance of counsel claim “that has some merit” under
Martinez, 566 U.S. at 14–16, because trial counsel
failed to present or pursue evidence of Ramirez’s
intellectual disability, failed to provide relevant and
potentially mitigating evidence to the psychologist who
evaluated Ramirez, and subsequently relied on the
psychologist’s report, despite possessing contrary facts.

1

After briefing and oral argument of this appeal, the United States
Supreme Court granted certiorari in McKinney v. Arizona, No. 181109, ___ U.S. ___ , 2019 WL 936074 (June 10, 2019), to address
resentencing after a capital sentence is vacated due to a causal
nexus error. Ramirez filed a motion for a stay pending the outcome
of that case. Ramirez’s motion is DENIED. Because we conclude
that the Arizona state courts did not apply an unconstitutional
causal nexus requirement to Ramirez’s mitigating evidence, no
resentencing is required.

App. 218
A
In the early morning hours of May 25, 1989,
neighbors alerted the police after hearing screams and
thuds coming from the Gortarez apartment.2 Officers
arrived and observed Ramirez, who appeared to be
intoxicated, covered in blood. Ramirez v. Ryan, No. CV97-01331-PHX-JAT, 2016 WL 4920284, at *1 (D. Ariz.
Sept. 15, 2016). Officers found Candie’s naked body in
a bedroom, and Mary Ann’s body on the living room
floor. Id. Both women had been stabbed multiple times.
Id. Ramirez was charged with two counts of first degree
murder. Id.
Ramirez was initially represented by counsel, Mara
Siegel, a Maricopa County public defender.3 This case
was Siegel’s first capital assignment, and, as she
admitted, she was unprepared to represent someone
“as mentally disturbed” as Ramirez. Ramirez, through
counsel, filed a pretrial motion for appointment of
experts, including psychologists and a mitigation
expert, among others. In the motion, Ramirez cited Ake
and requested the court pay for an independent
psychiatric evaluation, a child psychologist, and a
2

Facts regarding the underlying murders are extensively
discussed in the Arizona Supreme Court case affirming Ramirez’s
convictions on direct appeal. State v. Ramirez, 871 P.2d 237 (Ariz.
1994) (en banc).

3

On October 6, 1989, Ramirez requested to represent himself by
presenting an illegible motion to the court. Ramirez represented
himself for a time, with Siegel as advisory counsel, until he
requested she resume representation after jury selection. Siegel
represented Ramirez through trial and sentencing. Ramirez v.
Ryan, 2016 WL 4920284, at *4.

App. 219
mitigation expert to assess his sanity at the time of the
alleged offense.
The trial court denied Ramirez’s requests for
experts but appointed an investigator to assist
Ramirez. During a subsequent pre-trial motions
hearing, the investigator explained why a psychologist
was important to help determine Ramirez’s social
upbringing and to collaborate with a mitigation
specialist. The trial court expressed disbelief and
confusion at the request for a mitigation specialist (“I
have never heard of that in a quarter century”) and
psychiatrist (“I don’t believe I have ever appointed a
psychiatrist in my life”), noting that “I don’t think that
the defendant in this case deserves any favors from this
Court because he represents himself. He’s pulling this
Court’s leg, and I’m not impressed by that at all.”
Ultimately, the court agreed to appoint a fingerprint
expert and serologist to assist Ramirez during the guilt
phase. No psychologist was appointed for the merits
trial. The case was transferred to a different judge for
trial.
At trial, only one witness was called on behalf of the
defense. Ramirez did not testify and the jury found him
guilty of two counts of first-degree murder. State v.
Ramirez, 871 P.2d at 239, 242.
B
After the jury returned the guilty verdicts, the trial
court appointed a psychologist proposed by Ramirez,
Dr. McMahon, “to test and evaluate the defendant’s
current mental health and, if such is deemed
appropriate, conduct further diagnostic testing and

App. 220
evaluation.” Ramirez v. Ryan, 2016 WL 4920284, at *4.
Dr. McMahon met with Ramirez three times for a total
of five hours and reviewed the documents trial counsel
provided. Trial counsel provided Dr. McMahon with
police reports, plea agreements from prior charges, the
public defender’s notes from an interview with
Ramirez, and sentencing orders from two other
convictions of burglary and theft. However, trial
counsel did not provide Dr. McMahon with Ramirez’s
school records or IQ scores. Ultimately, trial counsel’s
case for mitigation consisted of a sentencing
memorandum with attachments, and testimony from
three of Ramirez’s family members and two Arizona
Department of Corrections employees who previously
supervised Ramirez. Id. at *5–8.
1
The sentencing memorandum highlighted Ramirez’s
ability to adapt in the structured life of prison. Id. at
*5–6. The sentencing memorandum also discussed
Ramirez’s chaotic childhood, school attendance, history
of substance abuse and sexual abuse, gang affiliation,
and impaired state of mind at the time of the murders.
Id. It also discussed Ramirez’s life in prison and early
involvement with the criminal justice system. Dr.
McMahon’s report, which was attached to the
sentencing memorandum, detailed Ramirez’s prior
aggravated assault conviction and his work and prison
history.
The sentencing memorandum asserted that
Ramirez’s ability to appreciate the wrongfulness of his
conduct was substantially impaired, a statutory
mitigating circumstance. Ramirez reported to Dr.

App. 221
McMahon that he had consumed approximately twelve
drinks and shot up with cocaine multiple times on the
evening of the murder, which led Dr. McMahon to
conclude that Ramirez’s ability to appreciate the
wrongfulness of his conduct or conform his conduct to
the law was significantly diminished due to his
psychological condition and drug and alcohol
intoxication on the night of the crimes. Id. at *4–5.
The sentencing memorandum indicated that
Ramirez’s mother, Maria, was an alcoholic. However,
Dr. McMahon’s report provided the following
contradictory observation: that Maria “never worked,
devoting her time as a traditional Mexican-American
mother whose responsibility revolves around the home
and her children.” The report observed that Ramirez’s
mother “was always there for [Ramirez] when he
needed her as he was growing up.” Ramirez told Dr.
McMahon that several family members had sexually
abused him, but explained that he did not tell his
mother about it because he “was fearful she would
become extremely upset and angry.” In completing his
report, Dr. McMahon did not interview Ramirez’s
family members and relied solely on Ramirez’s selfreporting and the records trial counsel provided.
Although the sentencing memorandum noted
Ramirez’s low IQ scores—70 and 77—trial counsel
relied on Dr. McMahon’s report to conclude that
Ramirez was “now well within the average range of
intelligence.” Dr. McMahon measured Ramirez’s IQ
score using the Peabody Picture Vocabulary Test
(PPVT), reporting that Ramirez scored 94, which is “in
no way indicative of any form of mental retardation.”

App. 222
The sentencing memorandum also noted that Ramirez
changed schools ten times before seventh grade and did
not complete high school.4
2
During the mitigation hearing, trial counsel
subpoenaed three of Ramirez’s family members to
testify on his behalf: his aunt and two younger sisters.
Ramirez’s aunt, Erlinda Martinez, who was
approximately the same age as Ramirez, testified that
Maria was about sixteen when she gave birth to
Ramirez. Ramirez’s biological father was not around.
Erlinda testified that she heard Maria drank while she
was pregnant. Erlinda stated that Maria would stay
out partying all night and would disappear for days.
Maria was involved with “a lot of men.” She also
testified that Maria would make Ramirez cook for his
siblings and clean the house because Maria “wasn’t
home watching over the kids, the way a mother
should.” Ramirez’s grandmother raised Ramirez for a
couple of years. Erlinda also stated that Ramirez had
behavioral problems as a child.
Mary Castillo, Ramirez’s younger sister, testified
that Ramirez was very affectionate, and helped to keep
his siblings clothed and fed, but that Maria “was there
for us too.”5 Mary testified that Maria did not have a

4

According to trial counsel, she contacted Ramirez’s schools but
many of Ramirez’s school and psychological records were destroyed
per state policy, so she was unable to provide additional records.

5

Declarations from Ramirez’s family members later revealed that
Mary Castillo was “also very slow” and could not read or write.

App. 223
drinking problem until later in life. She could not recall
where Ramirez went to school or whether he changed
schools frequently.
Cynthia Orozco, another of Ramirez’s younger
sisters, testified that Ramirez was a good brother who
supported his wife and son. Ramirez was older than
Cynthia, and Cynthia testified that they were “hardly
together” when they were younger. She testified she
did not have many memories before she was nine years
old (when Ramirez would have been about fifteen years
old). In the year before the crime, Ramirez lived with
her, helped her out with chores, and gave her money
every week.
Two Department of Corrections employees who had
supervised Ramirez in the prison kitchen testified
about Ramirez’s job duties in prison and said that
Ramirez was a good worker.
3
The sentencing judge found three aggravating
circumstances: Ramirez had two prior violent felony
convictions; the murders were committed in an
especially cruel, heinous, or depraved manner; and he
committed multiple murders at the same time. State v.
Ramirez, 871 P.2d at 242.
The judge found the following statutory mitigating
circumstance, that Ramirez’s “capacity to appreciate
the wrongfulness of his conduct or conform his conduct
to the requirements of the law was significantly
impaired.” Id. The judge also found the following nonstatutory mitigating circumstances:

App. 224
(1) his unstable family background,
(2) his poor educational experience,
(3) that he was a victim of sexual abuse while he
was young,
(4) his gang affiliation,
(5) his chronic substance abuse,
(6) his psychological history, and,
(7) his love of family.
Id.
The judge sentenced Ramirez to death on both
counts. Id. at 239. On direct appeal, the Arizona
Supreme Court affirmed Ramirez’s convictions and
sentence. Id. at 239. The Arizona Supreme Court
independently reviewed Ramirez’s death sentence,
affirming the trial court’s assessment of aggravating
and mitigating circumstances and imposition of the
death sentence. The United States Supreme Court
denied certiorari. Ramirez v. Arizona, 513 U.S. 968
(1994).
C
Ramirez filed his initial petition for post-conviction
relief in state court, which was denied in its entirety in
1996. The Arizona Supreme Court summarily denied
Ramirez’s petition for review. Ramirez’s post-conviction
counsel did not raise the ineffective assistance of trial
counsel claim before us now in the initial petition.
Arizona concedes that post-conviction counsel in the

App. 225
initial collateral
deficiently.

review

proceeding

performed

In 1997, Ramirez filed a petition for habeas relief
with the federal district court. The district court later
substituted the Federal Public Defender (FPD) for the
previous habeas counsel, “due to concerns regarding
the quality of representation.” Because of the
substitution and its reason, the district court allowed
Ramirez to amend his petition. The district court
initially allowed Ramirez to add the current ineffective
assistance of trial counsel claim, finding it related back
to the original petition. But the court ultimately
concluded that the claim had been procedurally
defaulted by an independent and adequate state bar,
and that the procedural default was not excused.6
Martinez Ramirez v. Ryan, No. CV-97-1331-PHX-JAT,
2010 WL 3854792 (D. Ariz. Sept. 28, 2010) (preMartinez procedural default not excused); Martinez
Ramirez v. Schriro, No. CV 97-1331-PHX-JAT, 2007
WL 864415, *11 (D. Ariz. March 20, 2007) (order
granting leave to amend).
While Ramirez’s appeal was pending in this court,
the Supreme Court decided Martinez, which held: “a

6

The current ineffective assistance of counsel claim was initially
raised by private pro bono counsel in a successive state habeas
petition because the FPD’s appointment was for the limited
purpose of litigating Ramirez’s claim under Atkins v. Virginia, 536
U.S. 304 (2002) (categorically prohibiting the execution of persons
with an intellectual disability). The current ineffective assistance
of trial counsel claim was summarily denied because Arizona law
requires that ineffective assistance of counsel be raised at the
initial collateral review proceeding.

App. 226
procedural default will not bar a federal habeas court
from hearing a substantial claim of ineffective
assistance at trial if, in the initial-review collateral
proceeding, there was no counsel or counsel in that
proceeding was ineffective.” 566 U.S. 1at 17.
In light of Martinez, we remanded for
reconsideration of whether post-conviction counsel’s
ineffectiveness constituted cause to overcome the
procedural default of Ramirez’s claim of trial counsel’s
ineffectiveness. Ramirez v. Ryan, 2016 WL 4920284, at
*1. The district court ordered supplemental briefing,
and Ramirez submitted evidence, including
declarations not submitted earlier, to support his
request to excuse the procedural default. Id. at *4, 8.
The new declarations submitted by Ramirez’s
family members, who were not contacted by trial
counsel, reveal the extent of abuse, poverty, and
neglect that Ramirez suffered as a child. Ramirez’s
step-father, three of Ramirez’s maternal aunts, an
aunt’s ex-husband, and two of Ramirez’s uncles
submitted declarations. The information in these
declarations contrasted with the information revealed
at sentencing. Several of the new declarations were
from family members who had first hand knowledge of
the abuse and neglect Ramirez suffered, and several
actually lived with or cared for Ramirez. Ramirez lived
with his step-father for seven years. Ramirez’s
maternal aunt, Eloise Arce, and her husband, William
Laubner, Jr., cared for Ramirez for over a year.
In contrast, the testimony presented by two of
Ramirez’s younger sisters during the mitigation
hearing relayed no information about Ramirez’s early

App. 227
years, although they both testified to Ramirez’s good
nature. Mary Castillo, who has a learning disability
herself, contradicted the report that her mother had a
drinking problem early in her life. Cynthia Orozco
testified that she and Ramirez were “hardly together”
when they were younger and that she did not have
many memories before she was nine years old (when
Ramirez would have been fifteen). Ramirez’s aunt,
Erlinda, did testify to red flags, including hearing that
Maria drank while pregnant and had “many male
friends.” However, the testimony of Ramirez’s younger
sisters seemed to conflict with her account.
In the new declarations, Ramirez’s family members
stated they would have been willing to testify but were
never contacted by trial counsel. The declarations
reveal that Ramirez was born to a poor migrant worker
family. Family members noted their continual exposure
to pesticides in the fields where they worked. His
mother, Maria, became pregnant with Ramirez after
her brother-in-law raped her. Maria was an alcoholic
and drug user who drank during her pregnancy, and
she attempted to abort the fetus by ingesting herbs and
jumping off of the counter.
Things did not improve after Ramirez was born.
Maria did not nurture or show love to Ramirez, and
Ramirez was often “shuttled around,” between various
family members, even as an infant, because “[n]obody
wanted him.” Eloise, who cared for Ramirez for over a
year when he was an infant, concluded that “no
mother/child bond was ever formed between [Ramirez
and Maria].” Maria told a family member that she
would put beer in Ramirez’s bottle “when he was just

App. 228
a few years old.” Family members recalled that
Ramirez and his siblings went hungry, not eating for
days while Maria was out drinking and partying.
Ramirez was forced to steal food to feed himself. Maria
and her children moved frequently, finding whatever
“shack” she could, and the homes were always “filthy,”
with animal feces on the floor. Ramirez and his siblings
would eat on the floor, where they also slept on dirty
mattresses.
Family members also recalled seeing Maria
physically abuse Ramirez, hitting him with “anything
she could get her hands on, including electrical cords
and shoes.” Family members testified that Maria
solicited men for sex in bars and allowed men to have
sex with her daughter to support her drug and alcohol
habit. Maria had an infant who died from exposure
after being left in the house without heat in the winter
at night while Maria went out partying; Ramirez was
in the house asleep at the time.
In addition to the physical abuse and neglect,
family members testified to Ramirez’s apparent
developmental delays, which included delayed walking,
potty training, and speech; not being able to read; and
“slow” or odd behavior. Family members recalled
Ramirez could not take care of himself at a basic level:
he had poor hygiene, did not know how to comb his
hair, and he ate with his hands because he could not
use utensils properly.
During post-conviction proceedings, trial counsel
also submitted a declaration, acknowledging that
Ramirez’s trial was her first capital case and that she
had no previous capital experience. She also

App. 229
represented Ramirez by herself. In her declaration, she
noted she was not prepared to handle “the
representation of someone as mentally disturbed as
David Ramirez,” and she also acknowledged that she
“did not fully understand his limitations,” which
prevented her from “explain[ing] David’s situation to
him on a level that he could fully comprehend.” She
noted that “[t]he mitigating information that we did
present was very limited,” and remarked that had she
had the information later presented by Ramirez’s
family members with first hand knowledge of his
childhood, it “would have changed the way I handled
both David’s guilt phase and his sentencing phase.” He
also stated she “had no strategic reason for not
presenting all the mitigation information available.”
Dr. McMahon also submitted a declaration,
indicating that he did not receive Ramirez’s IQ scores
or school reports. According to Dr. McMahon, had he
been provided with Ramirez’s school records and IQ
scores, he “would have insisted on obtaining
information about Mr. Ramirez’s adaptive behavior.”
He also stated that he would not have administered the
PPVT IQ test, which is not a comprehensive IQ test,
but rather “would have given Mr. Ramirez a
comprehensive IQ test.” In addition, Dr. McMahon
would not have concluded that Ramirez was not
intellectually disabled, because the scores of 70 and 77
on the “more comprehensive WISC IQ test[,] . . . would
have indicated to me that Mr. Ramirez may be
retarded and it would have greatly expanded the
nature of the evaluation I did conduct.”

App. 230
Again, the district court determined that Ramirez’s
claim of ineffective assistance of trial counsel was
procedurally barred and denied Ramirez’s request for
evidentiary development. The district court did not,
however, analyze whether Ramirez had demonstrated
cause and prejudice under Martinez, but instead based
its decision on whether Ramirez’s underlying
ineffective assistance of counsel claim would ultimately
succeed on the merits. Ramirez v. Ryan, 2016 WL
4920284, at *4. The district court concluded that
“Ramirez ha[d] not shown that Siegel’s performance at
sentencing fell below an objective standard of
reasonableness.” Id. at *9. The district court also found
that “[e]ven if [trial counsel’s] performance was
deficient, Ramirez cannot show prejudice.” Id. at *11.
The district court issued a certificate of
appealability for the procedural default of Ramirez’s
ineffective assistance of trial claim, concluding that
“reasonable jurists could debate the conclusion that
[the ineffective assistance of counsel claim] is
procedurally barred.” Id. at *13.
On appeal, Ramirez raises three certified claims:
that (1) the procedural bar of his ineffective trial
counsel claim is excused under Martinez, (2) his due
process rights under Ake were violated when the trial
court denied his request for mental health experts, and
(3) the Arizona state courts applied an unconstitutional
causal nexus requirement to exclude his mitigation
evidence.
II

App. 231
We review the denial of habeas relief de novo. Lopez
v. Schriro, 491 F.3d 1029, 1036 (9th Cir. 2007).
Ramirez’s certified claims are not subject to the
deferential review of 28 U.S.C. § 2254(d) because the
state court did not address these claims on the merits.
Ramirez v. Schriro, No. CV 97-1331-PXH-JAT, 2008
WL 5220936, at *14 n.10 (D. Ariz. Dec. 12, 2008); see 28
U.S.C. § 2254(d).
A federal court is precluded from reviewing a claim
that has been barred by an independent state
procedural rule. Martinez, 566 U.S. at 9. When a
petitioner has procedurally defaulted a claim, “federal
habeas review of the claims is barred unless the
prisoner can demonstrate cause for the default and
actual prejudice as a result of the alleged violation of
federal law.” Coleman v. Thompson, 501 U.S. 722,
750 (1991). Generally, post-conviction counsel’s
ineffectiveness does not qualify as cause to excuse a
procedural default. Id. at 754–55. However, in
Martinez, the Supreme Court announced a narrow set
of circumstances under which a petitioner can establish
cause. 566 U.S. at 17. Under Martinez, the procedural
default of a substantial claim of ineffective assistance
of trial counsel is excused if state law requires that all
claims be brought in the initial collateral review
proceeding, as Arizona law does, and if in that
proceeding there was no counsel or counsel was
ineffective. Id.
Thus, to establish “cause” under Martinez—the first
part of establishing “cause and prejudice” to excuse a
procedural default—Ramirez must demonstrate that
post-conviction counsel was ineffective under

App. 232
Strickland v. Washington, 466 U.S. 668 (1984).
Clabourne v. Ryan, 745 F.3d 362, 377 (9th Cir. 2014),
overruled on other grounds by McKinney, 813 F.3d at
819. In turn, Strickland requires demonstrating “that
both (a) post-conviction counsel’s performance was
deficient, and (b) there was a reasonable probability
that, absent the deficient performance, the result of the
post-conviction proceedings would have been different.”
Id. (citation omitted). Determining whether there was
a reasonable probability that the result of the postconviction proceedings would be different “is
necessarily connected to the strength of the argument
that trial counsel’s assistance was ineffective.” Id.
To establish “prejudice” under Martinez’s second
prong of the “cause and prejudice” analysis, Ramirez
must demonstrate that his underlying ineffective
assistance of trial counsel claim is “substantial.” Id. In
Martinez, the Supreme Court defined substantial to be
a “claim that has some merit,” and explained the
procedural default of a claim will not be excused if the
ineffective assistance of counsel claim “is insubstantial,
i.e., it does not have any merit or [ ] it is wholly without
factual support.” Martinez, 566 U.S. at 14–16.
The Supreme Court provided no further definition
of substantial, but cited the standard for issuing a
certificate of appealability as analogous support for
whether a claim is substantial. Martinez, 566 U.S. at
14 (citing Miller-El v. Cockrell, 537 U.S. 322 (2003)).
Using the standard for issuing a certificate of
appealability, for a claim to be substantial a petitioner
must show “that reasonable jurists could debate
whether the issue should have been resolved in a

App. 233
different manner or that the claim was adequate to
deserve encouragement.” Apelt v. Ryan, 878 F.3d 800,
828 (9th Cir. 2017) (quotations omitted). “A court
should conduct a ‘general assessment of the[ ] merits,’
but should not decline to issue a certificate ‘merely
because it believes the applicant will not demonstrate
an entitlement to relief.’” Cook v. Ryan, 688 F.3d 598,
610 n.13 (9th Cir. 2012) (alteration in original) (quoting
Miller-El, 537 U.S. at 336–37)).
The analysis of whether both cause and prejudice
are established under Martinez will necessarily
overlap, “since each considers the strength and validity
of the underlying ineffective assistance claim.” Djerf v.
Ryan, No. 08-99027, ___ F.3d ___, 2019 WL 3311147, at
*6 (9th Cir. July 24, 2019). However, the requirements
remain distinct. Clabourne, 745 F.3d at 377 (a finding
of “‘prejudice’ for purposes of the ‘cause and prejudice’
analysis which requires only a showing that the triallevel ineffective assistance of counsel claim was
‘substantial’—does not diminish the requirement. . .
that petitioner satisfy the ‘prejudice’ prong under
Strickland in establishing ineffective assistance by
post-conviction counsel”).
Thus, to establish cause and prejudice in order to
excuse the procedural default of his ineffective
assistance of trial counsel claim, Ramirez must
demonstrate the following: (1) post-conviction counsel
performed deficiently; (2) “there was a reasonable
probability that, absent the deficient performance, the
result of the post-conviction proceedings would have
been different,” Id.; and (3) the “underlying ineffectiveassistance-of-trial-counsel claim is a substantial one,

App. 234
which is to say that the prisoner must demonstrate
that the claim has some merit.” Martinez, 566 U.S. at
14.
III
Ramirez has demonstrated both cause and prejudice
under Martinez to excuse the procedural default of his
ineffective assistance of trial counsel claim. We do not
draw a conclusion regarding the ultimate success of his
ineffective assistance of trial counsel claim. Rather, we
remand for Ramirez to pursue evidentiary development
of that claim in the district court.
Whether post-conviction counsel’s performance was
deficient turns on the strength and substantiality of
Ramirez’s trial counsel ineffective assistance of counsel
claim. We therefore first address whether Ramirez’s
underlying ineffective assistance of trial counsel claim
is substantial, i.e., whether Ramirez can establish
prejudice under Martinez. Then we evaluate postconviction counsel’s performance under Strickland to
determine whether Ramirez has established cause
under Martinez.
A
The district court erred by conducting a full merits
review of Ramirez’s underlying ineffective assistance of
trial counsel claim on an undeveloped record. The
district court skipped to a conclusion on the merits of
the ineffective assistance of trial counsel claim, thereby
holding Ramirez to a higher burden than required in

App. 235
the Martinez procedural default context.7 The district
court concluded that “Ramirez has not shown that
Siegel’s performance at sentencing fell below an
objective standard of reasonableness.” Ramirez v.
Ryan, 2016 WL 4920284, at *9. The district court also
concluded that “even if Siegel’s performance were
deficient, Ramirez cannot show prejudice.” Id. at *11.
Ramirez was not, however, required to demonstrate the
ultimate success of his underlying ineffective assistance
of counsel claim, but rather whether he had established
cause and prejudice under Martinez.
Indeed, the district court did not address whether
the claim was “substantial” at all and failed to evaluate
post-conviction counsel’s performance under Strickland
except to refute, in a footnote, Ramirez’s contention
that the court had already determined that postconviction counsel performed deficiently. Id. at *3 n.1.

7

The district court collapsed what should have been a two-step
process: first, decide whether the procedural default is excused,
and if so, then address the claim squarely, after allowing a chance
for any necessary record or evidentiary development. Had the
district court found the procedural default excused, even implicitly,
then reached the merits of the claim on a properly developed
record, this case may have been different. See Apelt v. Ryan, 878
F.3d 800, 824 (9th Cir. 2017) (concluding “that the district court
implicitly determined that Apelt met the cause and prejudice
standard set forth in Coleman v. Thompson, and thus could
address the merits of Apelt’s IAC claims” (internal citation
omitted)). However, the district court explicitly held that the
procedural default was not excused based on its conclusion that
Ramirez’s ineffective assistance of trial counsel claim failed on the
merits.

App. 236
The district court issued a certificate of
appealability for the procedural default of Ramirez’s
ineffective assistance of counsel claim, finding that
“reasonable jurists could debate the conclusion that
[the ineffective assistance of counsel claim] is
procedurally barred.” Id. at *13.
B
We now turn to a de novo review of whether
Ramirez has demonstrated that his claim of ineffective
assistance of trial counsel is substantial, thus
constituting “prejudice” under Martinez. Ramirez
asserts that his claim of ineffective assistance of trial
counsel is substantial because trial counsel failed to
present evidence of intellectual disability, brain
damage, and “the myriad mitigating circumstances in
his background.” We agree.
1
To conduct a “general assessment of the merits” of
Ramirez’s underlying ineffective assistance of trial
counsel claim, we must examine the Strickland
standard. See Cook, 688 F.3d at 610 & n.13. Under
Strickland, a petitioner must prove that counsel’s
performance fell below an objective standard of
reasonableness and that the deficiency prejudiced the
petitioner. 466 U.S. at 689. An objective standard of
reasonableness is measured by the “prevailing
professional norms” at the time of representation. Id.
at 688. The inquiry of counsel’s performance under
Strickland is “highly deferential,” the court “must
indulge a strong presumption that counsel’s conduct
falls within the wide range of reasonable professional

App. 237
assistance,” and “the defendant must overcome the
presumption that, under the circumstances, the
challenged action might be considered sound trial
strategy.” Id. at 689 (quotations omitted).
The professional norms when Ramirez was
sentenced placed an affirmative duty on counsel “to
investigate, develop, and present mitigation evidence
during penalty phase proceedings.” Summerlin v.
Schriro, 427 F.3d 623, 630 (9th Cir. 2005) (en banc)
(discussing prevailing professional norms during the
1980s). During capital penalty proceedings, “[t]he duty
to investigate is critically important.” Id. “Although
we must defer to a lawyer’s strategic trial choices,
those choices must have been made after counsel has
conducted reasonable investigations or made a
reasonable decision that makes particular
investigations unnecessary.” Id. (internal quotations
and citation omitted).
There is a “belief, long held by this society, that
defendants who commit criminal acts that are
attributable to a disadvantaged background or to
emotional and mental problems, may be less culpable
than defendants who have no such excuse.” Boyde v.
California, 494 U.S. 370, 382 (1990) (quotations
omitted; emphasis in original). Because of this shared
belief, “it is imperative that all relevant mitigating
information be unearthed for consideration at the
capital sentencing phase.” Summerlin, 427 F.3d at 630
(alterations and quotations omitted). An investigation
should include “inquiries into social background and
evidence of family abuse.” Id. Counsel must also probe
for evidence of mental impairment and “examine the

App. 238
defendant’s physical health history, particularly for
evidence of potential organic brain damage and other
disorders.” Id.
2
We first assess trial counsel’s performance under
the first prong of Strickland to determine whether
Ramirez’s claim is substantial. Ramirez has presented
a substantial claim that trial counsel performed
deficiently because she failed to pursue or present
evidence that Ramirez was intellectually disabled;
failed to provide potentially powerful mitigating
evidence to Dr. McMahon; and subsequently relied on
Dr. McMahon’s report, despite possessing conflicting
facts. We recognize that this is not a case where
counsel failed to present any mitigating evidence.
However, her failure to present or pursue evidence
that, if considered, could have made a difference in the
outcome of Ramirez’s trial, is substantial, particularly
given that our review is de novo and unconstrained by
the strictures of 28 U.S.C. § 2254(d). Thus, Ramirez’s
ineffective assistance of trial counsel claim was at least
a substantial one within the meaning of Martinez.
For example, trial counsel had evidence
demonstrating that Ramirez may have been
intellectually disabled. She knew he scored 70 and 77
on IQ scores in school, was three to four grades behind
his peers, switched schools ten times before completing
seventh grade, and never graduated from high school.
Ramirez v. Ryan, 2016 WL 4929284, at *5. As she later
revealed, her own interactions with Ramirez raised
concerns about his intellectual functioning and ability
to understand his situation. Trial counsel had no

App. 239
capital experience and had not even observed a capital
trial or sentencing. She admitted she was unprepared
to represent “someone as mentally disturbed as David
Ramirez, especially in a capital case.”
Despite possessing these facts, trial counsel failed
to investigate further or present a claim of mental
impairment, and instead relied on Dr. McMahon’s
conclusion that Ramirez was “well within the average
range of intelligence.”
“We have repeatedly held that counsel may render
ineffective assistance if he is on notice that his client
may be mentally impaired, yet fails to investigate his
client’s mental condition as a mitigating factor in a
penalty phase hearing.” Caro v. Woodford, 280 F.3d
1247, 1254 (9th Cir. 2002) (quotations omitted). Here,
inexplicably, trial counsel did not provide Ramirez’s IQ
scores or the school records she did have to Dr.
McMahon. While it is generally reasonable to rely on
an expert opinion, particularly where Ramirez
requested the expert, it is not reasonable to fail to
provide that expert with the critical information that
would inform the tenor and type of evaluation
administered. Id. (“[C]ounsel’s failure to investigate
and provide appropriate experts with the information
necessary to evaluate Caro’s neurological system for
mitigation constituted deficient performance under
Strickland.”). Dr. McMahon’s conclusion that Ramirez
was “well within the average range of intelligence”
could well have been different had he had knowledge of
Ramirez’s poor school records and attendance, his low
IQ scores, his exposure to alcohol, and trial counsel’s

App. 240
interactions with Ramirez, as Dr. McMahon’s later
declaration attests.
Trial counsel provided Dr. McMahon with police
reports, plea agreements, notes from an interview, and
sentencing orders. The fact that she presented Dr.
McMahon with certain information, but failed to
provide the records that could lead to potentially
powerful mitigating evidence, is unreasonable and
supports a substantial claim of deficient performance.
See Clabourne, 745 F.3d at 383 (concluding that
petitioner’s counsel was ineffective during capital
sentencing based on three grounds, including for
“fail[ing] to provide any mental health expert with
health records sufficient to develop an accurate
psychological profile of [petitioner].”).
Trial counsel also possessed facts regarding
Ramirez’s upbringing that contradicted the conclusions
and observations in Dr. McMahon’s report. The
report concluded that Maria “devot[ed] her time as
a traditional Mexican-American mother whose
responsibility revolved around the home and her
children,” and that Maria “was always there” for
Ramirez “as he was growing up.” As additional
mitigating testimony from family members who lived
with and cared for Ramirez later revealed, Dr.
McMahon’s description of Maria’s relationship with
Ramirez could not be farther from the truth. Maria
physically abused Ramirez, who was repeatedly
shuttled around family members’ homes because he
was not wanted. Ramirez and his siblings were
neglected and left alone for days on end, living in
“filthy” conditions. They were often hungry. Ramirez

App. 241
witnessed significant violence at home. Ramirez
evidenced significant developmental delays and
attended school sporadically, not finishing high school.
Despite counsel’s affirmative duty to “conduct
sufficient investigation and engage in sufficient
preparation to be able to present and explain the
significance of all the available mitigating evidence,”
the misleading conclusions and observations in Dr.
McMahon’s report were left unchallenged and
unexplained. See Mayfield v. Woodford, 270 F.3d 915,
927 (9th Cir. 2001) (en banc) (quotations and
alterations omitted) (quoting Williams v. Taylor, 529
U.S. 362, 399 (2000)).
Trial counsel had a duty to investigate and pursue
mitigating evidence, especially where “tantalizing
indications in the record suggest[ed] that certain
mitigating evidence may be available.” Lambright v.
Schriro, 490 F.3d 1103, 1117 (9th Cir. 2007)
(quotations omitted). Given trial counsel’s knowledge
of Ramirez’s poor school records and attendance, his
low IQ scores, her own interactions with Ramirez, his
exposure to alcohol, and the red flags in his family’s
testimony, trial counsel was under an affirmative “duty
to investigate and present mitigating evidence of
mental impairment as well as evidence of family
abuse.” Id. at 1117. Ramirez has made out a
substantial claim that trial counsel performed
deficiently.
3
Given the deficient performance, we next analyze
whether Ramirez has demonstrated a substantial claim

App. 242
of prejudice as a result of trial counsel’s deficient
performance. Under Strickland, “[t]o establish
‘prejudice,’ a petitioner ‘must show that there is a
reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different.’” Sexton v. Cozner, 679 F.3d
1150, 1159–60 (9th Cir. 2012). “To assess that
probability, we consider the totality of the available
mitigation evidence—both that adduced at trial, and
the evidence adduced in the habeas proceeding—and
reweigh it against the evidence in aggravation.” Porter
v. McCollum, 558 U.S. 30, 41 (2009) (quotations and
alterations omitted).
First, we address the effect of counsel’s failure to
provide Dr. McMahon with Ramirez’s IQ scores. Trial
counsel’s failure to provide accurate and complete
records to Dr. McMahon support a substantial claim of
prejudice to Ramirez because the failure led to the
presentation of an inaccurate and flawed report at
sentencing. Although Ramirez was sentenced to death
before Atkins,8 as the district court noted, “in Arizona

8

The government argues that the determination that Ramirez was
not intellectually disabled in the context of his Atkins claim
hearings is binding here. We disagree. Finding that Ramirez is
intellectually disabled and thus cannot be executed under Atkins
is different than presenting mitigating evidence of an intellectual
disability. See Doe v. Ayers, 782 F.3d 425, 441 (9th Cir. 2015).
(“[A]ll potentially mitigating evidence is relevant at the sentencing
phase of a death case, so a troubled childhood and mental problems
may help even if they don’t rise to a specific, technically-defined
level.”). Nevertheless, we note that two experts did diagnose
Ramirez with an intellectual disability in connection with the
Atkins claim.

App. 243
a ‘slow, dull and brain-damaged’ mental impairment
may have a significant mitigating effect as it may
evidence an inability of the defendant to control his
conduct.” Martinez Ramirez v. Ryan, 2010 WL 3854792,
at *5. In his declaration, Dr. McMahon remarked that
he would not have concluded that Ramirez’s score on
the PPVT test was “in no way indicative of any form of
mental retardation” had he seen Ramirez’s school
record and IQ scores, as “[t]hese scores would have
indicated to me that Mr. Ramirez may be retarded and
it would have greatly expanded the nature of the
evaluation I did conduct.” It also would have changed
the type of testing that Dr. McMahon administered. Dr.
McMahon indicated in his declaration that he would
not have administered the PPVT test, but “would have
given Mr. Ramirez a comprehensive IQ test[, because]
[t]he PPVT is not a comprehensive IQ test.” The IQ
tests that resulted in Ramirez’s lower scores of 70 and
77 were “the more comprehensive WISC IQ tests.”
Second, the mitigating evidence introduced during
post-conviction proceedings was not all cumulative. We
disagree that the new mitigating evidence “would
barely have altered the sentencing profile presented to
the sentencing judge.” See Strickland, 466 U.S. at
699–700. Viewing the record of mitigating evidence
available as a whole to the sentencing judge and the
record of mitigating evidence available now, we are
persuaded that Ramirez’s claim of prejudice is not
“wholly without factual support.” See Martinez, 566
U.S. at 16.
The mitigation evidence presented during
sentencing did not consistently or accurately describe

App. 244
the circumstances of Ramirez’s life. Dr. McMahon’s
report concluded that Ramirez was “well within the
average range of intelligence,” and indicated Maria was
a loving mother who was there for the children and
Ramirez as he was growing up. During the mitigation
hearing, Ramirez’s family members generally testified
about Ramirez’s good qualities. The testimony of
Ramirez’s younger sisters was largely unhelpful:
Cynthia did not live with Ramirez for much of their
childhood and could not recall any details of their
childhood. Mary testified to a relatively normal
childhood, although it was later revealed that Mary
herself faced intellectual challenges.
Overall, the picture of mitigation presented at
sentencing is relatively innocuous compared to the
details that later emerged about Ramirez’s life. The
sentencing memorandum used by trial counsel
highlighted and discussed Ramirez’s criminal history,
school attendance, substance abuse, and ability to
adapt in prison. Had the sentencing memorandum
instead highlighted that Ramirez’s childhood was
“filled with abuse and privation, or the reality that he
was ‘borderline mentally retarded,’” there is “a
reasonable probability that the result of the sentencing
proceeding would have been different if competent
counsel had presented and explained the significance
of all the available evidence.” See Williams, 529 U.S. at
398–99 (quotations omitted). The judge did find several
mitigating factors, and only three aggravating factors.
Had the evidence of a mental impairment been
introduced, as well as the evidence of the level of abuse
Ramirez suffered, there is a substantial claim that the

App. 245
judge “would have struck a different balance.” See
Porter, 558 U.S. at 42 (quotations omitted).
The mitigating evidence Ramirez has presented is
not too speculative, irrelevant, or weak to disregard. Cf.
Schriro v. Landrigan, 550 U.S. 465, 481 (2007). Neither
is it a situation where the petitioner is pointing to some
unknown and yet to be discovered mitigating evidence.
Djerf, 2019 WL 3311147, at *7 (“Djerf has failed to
identify any evidence related to his childhood that
counsel should have, but did not, uncover.”). Here, two
psychologists diagnosed Ramirez as intellectually
disabled, with one finding evidence of brain
dysfunction. Subsequent declarations revealed the
extent of the physical abuse and extreme neglect that
Ramirez suffered, corroborated by multiple family
members who were not contacted by trial counsel.
In sum, Ramirez has established a substantial claim
that he was prejudiced by trial counsel’s deficient
performance under Strickland. Based on the foregoing,
and without Ramirez receiving the benefit of full
evidentiary development, we cannot conclude that
Ramirez’s ineffective assistance of trial counsel claim
overall “is insubstantial, i.e., it does not have any merit
or [ ] it is wholly without factual support.” Martinez,
566 U.S. at 16. Therefore, Ramirez has established
prejudice under Martinez.
C
We now turn to whether Ramirez has established
cause under Martinez. We conclude that he has. The
government concedes that post-conviction counsel’s
performance was constitutionally deficient, but argues

App. 246
that because trial counsel’s performance was not
deficient, post-conviction counsel’s “failure to raise a
successful ineffective assistance of trial counsel claim
was not prejudicial.” (“[T]here is little question that his
performance was constitutionally deficient under
Strickland.”).
As the foregoing discussion indicates, we conclude
that Ramirez’s ineffective assistance of trial counsel
claim is “substantial.” The underlying ineffective
assistance of counsel claim is strong enough to support
a conclusion that, had post-conviction counsel
performed effectively and raised the claim, “there [is]
a reasonable probability that, absent the deficient
performance, the result of the post-conviction
proceedings would have been different.” See Clabourne,
745 F.3d at 377.
The district court clearly saw problems with postconviction counsel’s performance and potential
prejudice as a result. Although the district court did
not conclude that post-conviction counsel was deficient
under Strickland, the court made the following
observations while assessing post-conviction counsel’s
performance in a pre-Martinez context:
Based on the sentencing record, [post-conviction
relief (“PCR”)] counsel was on notice that
Petitioner had two IQ tests documenting low
intelligence and another test demonstrating he
was behind his peers in educational
development. PCR counsel was also on notice
that the presentence report indicated that
Petitioner displayed low intelligence and
emotional immaturity. Even though Dr.

App. 247
McMahon reported that Petitioner was not
mentally retarded, PCR counsel was still on
notice of the contrast between Dr. McMahon’s
report and the low IQ scores being reported, as
well as the mental health deficiencies counsel
presented as mitigation at sentencing. PCR
counsel was also on notice of his need to
investigate mental health because in Arizona a
“slow, dull and brain-damaged” mental
impairment may have a significant mitigating
effect as it may evidence an inability of the
defendant to control his conduct.
Martinez Ramirez v. Ryan, 2010 WL 3854792, at *5
(internal citations omitted).
Post-conviction counsel possessed evidence that
indicated that Ramirez could have an intellectual
disability, and knew that trial counsel failed to present
or pursue evidence of an intellectual disability. Had
post-conviction counsel performed effectively, by
reviewing the record, trial counsel’s failure to present
evidence of Ramirez’s intellectual disability would have
readily revealed itself. Also, had post-conviction
counsel conducted a reasonable investigation into
Ramirez’s upbringing, taking into account the “red
flags” raised at the penalty phase hearing, the record
of physical abuse and neglect Ramirez suffered as a
child could have been presented in support of the
ineffective assistance of trial counsel claim. Had postconviction counsel raised the substantial claim of
ineffective assistance of trial counsel, for failure to
pursue and present mitigating evidence of an
intellectual disability, there is a reasonable probability

App. 248
that the result of the post-conviction proceedings would
have been different. We therefore conclude that
Ramirez has established cause under Martinez.
D
Finally, the district court erred in denying Ramirez
evidentiary development of his ineffective assistance of
counsel claim. Ramirez asserts he should have been
given the opportunity to present testimony from mental
health experts, sentencing counsel, prior investigators,
a capital mitigation expert, and lay witnesses in order
to prove his ineffective assistance of counsel claim. We
agree. Martinez, 566 U.S. at 13 (“Ineffective-assistance
claims often depend on evidence outside the trial
record.”). Because we now hold that Ramirez has
established both cause and prejudice to excuse the
procedural default of his claim, he no longer requires
evidentiary development to support establishing cause
and prejudice under Martinez. However, he is entitled
to evidentiary development to litigate the merits of his
ineffective assistance of trial counsel claim, as he was
precluded from such development because of his postconviction counsel’s ineffective representation. See
Detrich v. Ryan, 740 F.3d 1237, 1247 (9th Cir. 2013)
(en banc).
IV
The district court correctly concluded that Ramirez’s
rights under Ake v. Oklahoma were not violated. 470
U.S. 68 (1985). Ramirez asserts that because the
record demonstrated that his mental health would be
an issue during sentencing, due process required the

App. 249
appointment of a mental health expert.9 Ramirez also
asserts that the district court’s interpretation of Ake
was erroneous and that the trial court forced Ramirez
to waive self-representation to obtain a mental health
expert.
Under Ake, a defendant is entitled to an
independent psychological examination to assist in his
defense during “a capital sentencing proceeding, when
the State presents psychiatric evidence of the
defendant’s future dangerousness.” 470 U.S. at 83.
Under our precedent, the right to a mental health
expert is not limited to when the state presents
evidence of future dangerousness. Williams v. Ryan,
623 F.3d 1258, 1268–69 (9th Cir. 2010) (“[O]ther
circuits have interpreted Ake to require a state to
provide a defendant expert psychiatric assistance at
sentencing only where the state also planned to rely on
psychiatric testimony. Yet, we have never read Ake so
narrowly.”). Indeed, “[w]here the mental health of an
accused person is genuinely in issue, due process
requires the opportunity to have an independent
mental health expert to assist the defense.” Williams v.
Stewart, 441 F.3d 1030, 1049 (9th Cir. 2006).
The district court rejected Ramirez’s Ake claim,
noting that Ake does not require the appointment of a
mitigation specialist. Further, the district court found
that even under a broad reading of Ake, according to
the district court, Ramirez had not made a showing

9

Ramirez argued in the district court that he was denied mental
health experts during the guilt phase of his proceeding; however,
he does not pursue that claim on appeal.

App. 250
that his mental health would be a significant issue in
sentencing. Finally, the district court noted that the
trial court did appoint a psychologist, Dr. McMahon,
whose report Ramirez and the trial court relied on to
find a statutory mitigating circumstance. Ramirez v.
Schriro, 2008 WL 5220936, at *16.
The district court correctly rejected Ramirez’s Ake
claim. Due process under Ake does not require the
appointment of a mitigation specialist, so we assess
whether Ramirez was denied access to an independent
psychological evaluation. We agree with the district
court that even under a broad reading of Ake,
Ramirez’s claim fails because he did receive the
assistance of an independent psychologist. Similarly,
despite the court’s initial incredulity at appointing a
psychologist and a mitigation specialist, it ultimately
appointed several experts, so there was no
impermissible waiver of self-representation.10
Ramirez asserts that the “subsequent appointment
of a neutral psychologist is irrelevant.” We disagree. To
the extent Ramirez is relying on Smith v. McCormick,
that case is easily distinguishable. 914 F.2d 1153 (9th
Cir. 1990). In Smith, due process was violated because
the court ordered a psychiatrist to report directly to the
court, so the psychiatrist never met with Smith’s
counsel and “in no sense assisted in the evaluation or
preparation of the defense.” Id. at 1157–58.

10

In addition, the trial judge who expressed incredulity over
Ramirez’s pre-trial requests for experts did not preside over
Ramirez’s sentencing because the case was transferred before trial.

App. 251
Here, the trial court appointed Dr. McMahon, a
psychologist suggested by Ramirez. Although the court
appointed Dr. McMahon on its own motion and to help
the court make a decision, ultimately Ramirez, not the
state or the court, relied on Dr. McMahon’s report.
Ramirez did not request the appointment of an
additional psychologist to rebut anything in Dr.
McMahon’s report. Additionally, the trial court relied
on Dr. McMahon’s report to find one statutory
mitigating factor: that Ramirez lacked the “capacity to
appreciate the wrongfulness of his conduct or to
conform his conduct to the requirements of law.”
Ramirez’s due process rights under Ake were not
violated.
V
Although we sua sponte expanded the certificate of
appealability to include the issue of whether the
Arizona state courts improperly excluded Ramirez’s
mitigating evidence because it was not causally
connected to his crime in violation of McKinney, we
conclude that the Arizona courts did not
unconstitutionally apply a causal nexus requirement to
Ramirez’s mitigating evidence.
Under Lockett v. Ohio, during capital sentencing,
the sentencing judge should “not be precluded from
considering, as a mitigating factor, any aspect of a
defendant’s character or record and any circumstances
of the offense that the defendant proffers as a basis for
a sentence less than death.” 438 U.S. 586, 604 (1978).
In McKinney, 813 F.3d at 816, 819, we held that the
Arizona Supreme Court was improperly excluding
nonstatutory mitigating evidence as a matter of law,

App. 252
requiring defendants to prove a causal connection
between the mitigating evidence and the commission of
the crime, during its review of death sentences in
violation of Lockett and Eddings v. Oklahoma, 455 U.S.
104 (1982).
This unconstitutional causal nexus requirement was
articulated by the Arizona Supreme Court in capital
cases from the late 1980s until 2005. See State v.
Anderson, 111 P.3d 369, 391 (Ariz. 2005) (holding that
mitigating evidence in a capital case cannot be rejected
because it lacks a causal nexus to the crime); see also
McKinney, 813 F.3d at 809. During that time period,
the Arizona Supreme Court case law “forbade as a
matter of law giving weight to [nonstatutory]
mitigating evidence, such as family background or
mental condition, unless the background or mental
condition was causally connected to the crime.” Two
specific cases that enunciated these rules were State v.
Wallace, 773 P.2d 983 (Ariz. 1989) and State v. Ross,
886 P.2d 1354 (Ariz. 1994). Id. at 802.
In McKinney, defendant’s proffered mitigating
evidence was explicitly rejected by both the Arizona
trial court and the Arizona Supreme Court: “A difficult
family background, including childhood abuse, does not
necessarily have substantial mitigating weight absent
a showing that it significantly affected or impacted the
defendant’s ability to perceive, comprehend, or control
his actions.” State v. McKinney, 917 P.2d 1214, 1227
(Ariz. 1996). The Arizona Supreme Court cited Ross,
886 P.2d at 1363, to support its disregard of the
mitigating evidence. Id.

App. 253
In Apelt, we identified the critical factors that
indicated whether the Arizona courts during the
pertinent time period did not apply the
unconstitutional causal nexus requirement by
disregarding mitigating evidence otherwise generally
used during that period. 878 F.3d at 839–40. In Apelt,
we noted the following factors: (1) the trial court did
not state a factual conclusion regarding a causal nexus
between the mitigation evidence and the defendant’s
conduct; (2) the Arizona Supreme Court did not state a
factual conclusion that any proffered mitigation would
have “influenced [the defendant] not to commit the
crime;” and (3) the Arizona Supreme Court did not cite
either Ross or Wallace when reviewing the mitigating
evidence. Id.
Though the Arizona Supreme Court reviewed
Ramirez’s convictions in 1994, during the period that
the Arizona Supreme Court was applying a causal
nexus requirement, the record here indicates that
mitigating evidence was not rejected as a matter of law.
In fact, the record compels the opposite conclusion.
Importantly, the trial court found nonstatutory
mitigating factors including: “his unstable family
background,” “his poor educational experience,” “that
he was a victim of sexual abuse while he was young,”
“his chronic substance abuse,” “his psychological
history,” and “his love of family.” At a hearing before
Ramirez was sentenced, the judge stated, “I have
difficulty placing substantial significance on the
lifestyle that this Defendant experienced, although I,
obviously, am giving it some weight.”

App. 254
The Arizona Supreme Court affirmed all of the
mitigating circumstances found by the trial court, and
neither of the state courts excluded any mitigating
evidence because it was not causally connected to the
crime. Ramirez argues that had the judge truly
considered the mitigating factors, he would not have
been sentenced to death. What the trial court would
have decided had it considered all the mitigating
evidence actually presented at trial–as opposed to the
evidence that could have been presented had trial
counsel not been ineffective–is not at all self-evident; it
is certainly not proof that, despite express attestation
to the contrary, no weight was given to the mitigating
evidence in question.
Here, as in Apelt, there is no statement from either
state court that indicates that the state courts refused
to consider mitigating evidence as a matter of law
because it was unrelated to the crime. Additionally, the
sentencing judge expressly indicated that he would
give some weight to the relevant mitigating factors.
Further, neither of the state courts cited to Ross or
Wallace in reviewing Ramirez’s mitigating evidence.
We are not prepared to find error where the Arizona
courts did not articulate an unconstitutional causal
nexus test to mitigating evidence, did not cite Ross or
Wallace, found several non-statutory mitigating
factors, and stated that the non-statutory factors would
be given some weight.
VI
In sum, we reverse the judgment of district court as
to the procedural default of the ineffective assistance of
counsel claim, and remand for an evidentiary hearing

App. 255
on that issue. We affirm the district court’s denial of
Ramirez’s Ake claim and reject Ramirez’s McKinney
claim. We do not reach the remaining uncertified
issues.11 See 28 U.S.C. § 2253(c)(2).
AFFIRMED in part, REVERSED in part, and
REMANDED.
__________________________________________________
BERZON, Circuit Judge, dissenting in part:
I concur in the opinion except in one respect: I
would grant a certificate of appealability with regard to
Ramirez’s claim under Atkins v. Virginia, 536 U.S. 304
(2002) (prohibiting the execution of intellectually
disabled persons), see Opinion at 40 n.11, hold that the
claim does relate back to Ramirez’s ineffective
assistance of counsel claim, and remand to the district
court for further proceedings.
We may grant a certificate of appealability if the
petitioner makes “a substantial showing of the denial
of a constitutional right.” 28 U.S.C. § 2253(c)(2). A
petitioner makes this substantial showing “by
demonstrating that jurists of reason could disagree
with the district court’s resolution of his constitutional
claims.” Cain v. Chappell, 870 F.3d 1003, 1015 (9th Cir.
2017). But the district court did not consider the merits
of Ramirez’s Atkins constitutional claim because it
concluded that the claim was not timely filed and did
11

One of these uncertified issues that we decline to address is
Ramirez’s claim under Atkins v. Virginia, 536 U.S. 304. Ramirez
is, of course, not precluded from asserting an independent Atkins
claim when an execution date is set based on his alleged
intellectual disability at that time.

App. 256
not relate back to a timely filed habeas claim under
Federal Rule of Civil Procedure 15. In this
circumstance, our inquiry has two parts:
When the district court denies a habeas petition
on procedural grounds without reaching the
prisoner’s underlying constitutional claim, a
[certificate of appealability] should issue when
the prisoner shows, at least, [1] that jurists of
reason would find it debatable whether the
petition states a valid claim of the denial of a
constitutional right and [2] that jurists of reason
would find it debatable whether the district
court was correct in its procedural ruling.
Slack v. McDaniel, 529 U.S. 473, 484 (2000). Applying
this standard, a certificate of appealability should issue
on the relation back issue.
First, jurists of reason would find it debatable
whether Ramirez has a valid claim under Atkins.
Ramirez is likely not entitled to relief under 28 U.S.C.
§ 2254(d)(1), as the state court decision is probably not
contrary to federal law clearly established at the time.
See Shoop v. Hill, 139 S. Ct. 504 (2019). But Ramirez
could possibly prevail on his claim under section
2254(d)(2) that the state court unreasonably
determined the facts in concluding that Ramirez was
not intellectually disabled. Cf. Brumsfeld v. Cain, 135
S. Ct. 2269, 2278 (2015) (concluding that under section
2254(d)(2) the state court unreasonably determined the
facts regarding petitioner’s Atkins claim).
Ramirez contends that the state court unreasonably
determined the facts by, inter alia, relying on certain

App. 257
experts it acknowledged did not have the requisite
credentials and did not administer the proper tests;
refusing to take the Flynn effect1 into account; and
refusing to follow community intelligence standards by
placing significant weight on Ramirez’s adaptive
strengths while in prison rather than outside a
structured environment. Ramirez has raised a
colorable argument that, by failing to follow the
established science on intellectual disability, the state
court unreasonably determined that he was not
intellectually disabled.
Second, I believe it more than debatable that the
district court erred in its procedural ruling, and that
Ramirez’s Atkins claim does relate back to his timely
filed ineffective assistance of counsel claim. A claim
relates back under Rule 15(c) if there is “a common core
of operative facts uniting the original and newly
asserted claims.” Mayle v. Felix, 545 U.S. 644, 659
(2005). A claim will not relate back “when the new
claims depend upon events separate in ‘both time and
type’” from the original relief requested. Id. at 657.
This “time and type” language “refers not to the claims,
or grounds for relief. Rather, it refers to the facts that
support those grounds.” Ha Van Nguyen v. Curry, 736
F.3d 1287, 1297 (9th Cir. 2013) abrogated on other
grounds by Davila v. Davis, 137 S. Ct. 2058 (2017).

1

“The basic premise of the Flynn effect is that because average IQ
scores increase over time, a person who takes an IQ test that has
not recently been normed against a representative sample of the
population will receive an artificially inflated IQ score.” Smith, 813
F.3d at 1184.

App. 258
The Atkins claim and the ineffective assistance of
trial counsel claim we are remanding for consideration
on the merits share a “common core of operative facts”
similar in “time and type.” See Mayle, 545 U.S. 657, 59.
The core of Ramirez’s ineffective assistance claim is the
failure of his attorney and the psychological expert to
investigate and appreciate the facts indicating the
severity of Ramirez’s mental impairments, principally
his intellectual disability. Litigating the ineffective
assistance of trial counsel claim on its merits requires
presenting the evidence trial counsel should have
introduced regarding Ramirez’s mental disability.
Ramirez’s Atkins claim depends on the same
facts—what a properly developed record shows
concerning Ramirez’s cognitive abilities and adaptive
behavior.
The district court held that “[w]hile proof that
Petitioner is mentally retarded could have been offered
as mitigation at sentencing and, therefore, is
reasonably part of his IAC-at-sentencing claim, the
Atkins claim is not based on attorney error.” This
difference indicates that the two are different types of
claims. But as Ha Van Nyguen clarified, that is not the
relevant inquiry under Mayle. See 736 F.3d at 1297.
(The district court’s decision in 2008 was made without
the benefit of Ha Van Nyguen, a decision published in
2013.) “[F]acts that support those grounds” for relief in
each claim—Ramirez’s actual intellectual disability—
are similar—indeed, largely identical—in time and
type. See id.
Respondents rely on Schneider v. McDaniel, 674
F.3d 1144 (9th Cir. 2012), to argue that Ramirez’s

App. 259
Atkins claim does not relate back. Schneider is
inapposite. In Schneider, the petitioner argued that his
new ineffective assistance of counsel claim related back
to a previous, different ineffective assistance claim
because of the common fact of counsel’s ineffectiveness.
Id. at 1151. The substantive part of the two
claims—that is, what counsel did not do and so was
ineffective—was entirely different. See id. It was this
kind of partial overlap that Schneider rejected, because
it “would stand the Supreme Court’s decision in Mayle
on its head.” Id. Here, in contrast, the new claim that
relates back is a merits claim, not one of ineffective
assistance of counsel. As to that merits claim, the
overlap with the merits aspect of the Ramirez’s
ineffective assistance of counsel claim is near complete.
This case is also distinct from one arguing that an
ineffective assistance of counsel claim relates back to a
connected merits claim. In United States v. Ciampi, 419
F.3d 20 (1st Cir.2005), for example, petitioner’s
ineffective assistance of counsel claim was based on his
counsel’s failure to inform petitioner of his rights before
the plea. Ciampi held that ineffective assistance claim
did not relate back to his initial petition alleging a due
process violation based on the court’s failure to advise
the petitioner of the same consequences. Id. at 24. As
the facts of Ciampi illustrate, ineffective assistance
claims often incorporate both facts contained in the
trial record and supplemental facts regarding the
actions (and inactions) of counsel. An ineffective
assistance claim will factually overlap in some respects
with a related merits claim, but, as in Ciampi, critical
facts outside the trial record may not overlap. If those
supplemental facts are core operative facts of an

App. 260
ineffective assistance claim, the claim may not relate
back to the underlying merits claim. I note that some
ineffective assistance claims do relate back to the
incorporated merits issue. Ha Van Nyguen, 736 F.3d at
1297, so held, concluding that an ineffective assistance
of appellate counsel claim for failing to raise a double
jeopardy claim did relate back because it shared a
common core of facts with petitioner’s timely filed cruel
and unusual punishment claim.
What we have here is the reverse situation from
Nyguen: the ineffective assistance of trial counsel claim
required establishing what an effective trial counsel
would have done regarding the underlying claim—here
the penalty phase mitigation presentation as it related
to Ramirez’s mental disability—and whether it was
likely to have succeeded; the merits claim that is
sought to be added to the habeas petition—the Atkins
claim—concerns the same issue—Ramirez’s mental
disability. In that circumstance, the relevant core facts
of the merits claim are necessarily incorporated in the
ineffective assistance claim, so relation back is
appropriate. That is the scenario currently before us.
The central concern of the relation back doctrine as
applied in Mayle and Nyguen is whether the newly
articulated claim will require substantial additional
factual development. Now that the merits portions of
the ineffective assistance of trial counsel claim
concerning the failure to present available evidence of
Ramirez’s mental disability at the penalty phase is
going forward, the Aktins claim will not require
substantially different factual development. Both
claims turn essentially on whether Ramirez was

App. 261
intellectually disabled at the time of trial, and if so, to
what degree. The district court on remand already
must allow evidentiary development regarding the
merits of Ramirez’s ineffective assistance of trial
counsel claim with regard to penalty phase mitigating
evidence for purposes of determining whether trial
counsel was ineffective. In all likelihood, the evidence
presented to show what trial counsel should have
presented but did not will include the very same expert
evidence introduced in state court in support of the
Atkins claim.
In sum, Ramirez has shown “at least, that jurists of
reason would find it debatable whether the petition
states a valid claim of the denial of a constitutional
right” under Atkins. See Slack, 529 U.S. at 484.
Because jurists of reason would also disagree with the
district court’s relation back holding, Ramirez is
entitled to a certificate of appealability on his Atkins
claim. See id.
Once a certificate of appealability is granted, we
review the district court’s denial of Ramirez’s proposed
amendment for abuse of discretion. Hebner v. McGrath,
543 F.3d 1133, 1136 (9th Cir. 2008). Because the Atkins
claim does share a “common core of operative facts”
with his ineffective assistance claim as discussed
above, and because the district court misapplied the
“time and type” language in Mayle, see Ha Van Nguyen,
736 F.3d at 1297, I would conclude that Ramirez’s
Atkins claim does relate back to the timely filed habeas
petition, and that the district court abused its
discretion in holding otherwise.

App. 262

APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
No. CV-97-01331-PHX-JAT
[Filed: September 15, 2016]
__________________________________________
David Martinez Ramirez,
)
)
Petitioner,
)
)
v.
)
)
Charles L. Ryan, et al.,
)
)
Respondents.
)
__________________________________________)
ORDER
On December 2, 2014, the Ninth Circuit Court of
Appeals remanded this case for reconsideration of
Claim 34 in light of Martinez v. Ryan, 132 S. Ct. 1309
(2012). (Doc. 249.) Claim 34 alleges ineffective
assistance of counsel at sentencing. Martinez holds that
the ineffective assistance of post-conviction counsel can
serve as cause for the procedural default of claims of
ineffective assistance of trial counsel. This Court
previously found Claim 34 defaulted and barred from
federal review.

App. 263
Ramirez filed his supplemental Martinez brief on
March 4, 2015. (Doc. 256.) Respondents filed a response
in opposition and Ramirez filed a reply. (Docs. 257,
260.) For the reasons set forth below, Claim 34 remains
procedurally barred. Ramirez’s request for evidentiary
development is denied.
I.

BACKGROUND

In 1990, Ramirez was convicted of two counts of
premeditated first-degree murder for the deaths of
Mary Ann Gortarez and her 15-year-old daughter
Candie. See State v. Ramirez, 178 Ariz. 116, 119–21,
871 P.2d 237, 240–42 (1994) (describing facts of the
crimes).
In the early morning hours of May 25, 1989,
neighbors heard noise coming from the Gortarez
apartment and called 911. Officers arrived and entered
the apartment. They saw Mary Ann’s body on the living
room floor. Ramirez, shirtless and covered in blood,
approached the officers. He appeared to be intoxicated.
Candie’s body was found naked in one of the
bedrooms. There was blood throughout the apartment.
A knife blade was found in the front hall, a cake knife
was found near Mary Ann’s arm, part of the cake knife
handle and a handle matching the blade found in the
hall were in her hair, a pair of bloody scissors was
found in the bathroom, and in a rear hallway there was
a blood-soaked box cutter.
Mary Ann had been stabbed 18 times in the neck,
and in the back and knee. She had defensive wounds on
her hand and forearms. Her daughter had been stabbed
15 times in the neck. Vaginal swabs taken from Candie

App. 264
tested positive for semen; Petitioner could not be
excluded as the donor of the semen.
At sentencing, the judge found three aggravating
circumstances: Ramirez had two prior violent felony
convictions, under A.R.S. § 13-703(F)(2); Ramirez
committed the murders in an especially cruel, heinous,
or depraved manner, A.R.S. § 13-703 (F)(6); and
Ramirez committed multiple homicides during the
same episode, A.R.S. § 13-703(F)(8). (Doc 257-2, Ex. N.)
The judge found one statutory mitigating circumstance
and seven non-statutory circumstances, but determined
that they were not sufficiently substantial to warrant
leniency. (Id.)
The court sentenced Ramirez to death on both
murder counts. The Arizona Supreme Court affirmed
Ramirez’s convictions and sentences on direct appeal.
Ramirez, 178 Ariz. 116, 871 P.2d 237. Ramirez filed a
Petition for Post-conviction Relief (PCR), which the
trial court denied in its entirety. The Arizona Supreme
Court summarily denied review.
On June 26, 1997, Ramirez filed his initial habeas
petition in this Court. (Doc. 1.) After briefing, the Court
issued a ruling on the procedural status of the
twelve claims raised in Ramirez’s amended petition,
dismissing all except portions of Claims 1 and 2. (Doc.
26.) On July 6, 2004, Ramirez filed a supplemental
petition alleging additional claims. (Doc. 84.)
The parties briefed the remaining claims. (Docs. 90,
97, 103, 110.) The Court subsequently granted a stay of
the sentencing claims, to allow Petitioner to seek relief
from his death sentence in state court based on a claim

App. 265
of mental retardation pursuant to Atkins v. Virginia,
536 U.S. 304 (2002). (Doc. 119.) During the stay, the
Court issued a ruling denying evidentiary development
and dismissing Ramirez’s conviction claims. (Doc. 140.)
The state court found that Ramirez was not mentally
retarded under Arizona law. (Doc. 232-6.)
Ramirez filed a notice of PCR petition in state court
regarding the Atkins claim and a separate successive
PCR notice raising five additional claims. When those
five claims had been exhausted in state court, Ramirez
sought to amend the petition to include them in this
Court. (Doc. 145.) The Court granted amendment only
as to Claim 34 (Doc. 158), and Ramirez filed a second
amended petition incorporating that claim (Doc. 162).
The Court initially concluded that Claim 34 had
been procedurally defaulted in state court based on an
independent and adequate procedural bar. (Doc. 207.)
After further briefing, the Court concluded that
Ramirez had demonstrated neither cause and prejudice
nor a fundamental miscarriage of justice to excuse
default of the claim. (Doc. 242.)
II.

APPLICABLE LAW

Federal review is generally not available for a state
prisoner’s claims when those claims have been denied
pursuant to an independent and adequate state
procedural rule. Coleman v. Thompson, 501 U.S. 722,
750 (1991). In such situations, federal habeas review is
barred unless the petitioner can demonstrate cause and
prejudice or a fundamental miscarriage of justice. Id.
Coleman held that ineffective assistance of counsel in

App. 266
post-conviction proceedings does not establish cause for
the procedural default of a claim. Id.
In Martinez, however, the Court announced a new,
“narrow exception” to the rule set out in Coleman. The
Court explained that:
Where, under state law, claims of ineffective
assistance of trial counsel must be raised in an
initial-review collateral proceeding, a procedural
default will not bar a federal habeas court from
hearing a substantial claim of ineffective
assistance at trial if, in the initial-review
collateral proceeding, there was no counsel or
counsel in that proceeding was ineffective.
132 S. Ct. at 1320; see also Trevino v. Thaler, 133 S. Ct.
1911, 1918 (2013).
Accordingly, under Martinez a petitioner may
establish cause for the procedural default of an
ineffective assistance claim “where the state (like
Arizona) required the petitioner to raise that claim in
collateral proceedings, by demonstrating two things:
(1) ‘counsel in the initial-review collateral proceeding,
where the claim should have been raised, was
ineffective under the standards of Strickland . . .’ and
(2) ‘the underlying ineffective-assistance-of-trialcounsel claim is a substantial one, which is to say that
the prisoner must demonstrate that the claim has some
merit.’” Cook v. Ryan, 688 F.3d 598, 607 (9th Cir. 2012)
(quoting Martinez, 132 S. Ct. at 1318); see Clabourne v.
Ryan, 745 F.3d 362, 377 (9th Cir. 2014), overruled on
other grounds by McKinney v. Ryan, 813 F.3d 798, 818
(9th Cir. 2015) (en banc); Dickens v. Ryan, 740 F.3d

App. 267
1302, 1319–20 (9th Cir. 2014) (en banc); Detrich v.
Ryan, 740 F.3d 1237, 1245 (9th Cir. 2013) (en banc).
In Clabourne, the Ninth Circuit summarized its
Martinez analysis. To demonstrate cause and prejudice
sufficient to excuse the procedural default, a petitioner
must make two showings:
First, to establish ‘cause,’ he must establish that
his counsel in the state postconviction
proceeding was ineffective under the standards
of Strickland. Strickland, in turn, requires him
to establish that both (a) post-conviction
counsel’s performance was deficient, and
(b) there was a reasonable probability that,
absent the deficient performance, the result of
the post-conviction proceedings would have been
different.
Clabourne, 745 F.3d at 377 (citations omitted).
Determining whether there was a reasonable
probability of a different outcome “is necessarily
connected to the strength of the argument that trial
counsel’s assistance was ineffective.” Id. at 377–78.
“PCR counsel would not be ineffective for failure to
raise an ineffective assistance of counsel claim with
respect to trial counsel who was not constitutionally
ineffective.” Sexton v. Cozner, 679 F.3d 1150, 1157 (9th
Cir. 2012).
To establish prejudice, the petitioner must
demonstrate that his underlying ineffective assistance
of counsel claim is substantial, or “has some merit.” Id.
A claim is substantial if it meets the standard for
issuing a certificate of appealability. Martinez, 132 S.

App. 268
Ct. 1318–19 (citing Miller-El v. Cockrell, 537 U.S. 322
(2003)). According to that standard, “a petitioner must
show that reasonable jurists could debate whether (or,
for that matter, agree that) the petition should have
been resolved in a different manner or that the issues
presented were adequate to deserve encouragement to
proceed further.” Detrich, 740 F.3d at 1245 (quoting
Miller-El, 537 U.S. at 336).
Claims of ineffective assistance of counsel are
governed by the principles set forth in Strickland v.
Washington, 466 U.S. 668 (1984). To prevail under
Strickland, a petitioner must show that counsel’s
representation fell below an objective standard of
reasonableness and that the deficiency prejudiced the
defense. Id. at 687–88.
The inquiry under Strickland is highly deferential,
and “every effort [must] be made to eliminate the
distorting effects of hindsight, to reconstruct the
circumstances of counsel’s challenged conduct, and to
evaluate the conduct from counsel’s perspective at the
time.” Id. at 689; see Wong v. Belmontes, 558 U.S. 15
(2009) (per curiam); Bobby v. Van Hook, 558 U.S. 4
(2009) (per curiam); Cox v. Ayers, 613 F.3d 883, 893
(9th Cir. 2010). To satisfy Strickland’s first prong, a
defendant must overcome “the presumption that, under
the circumstances, the challenged action might be
considered sound trial strategy.” Id.
With respect to Strickland’s second prong, a
defendant must affirmatively prove prejudice by
“show[ing] that there is a reasonable probability that,
but for counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable

App. 269
probability is a probability sufficient to undermine
confidence in the outcome.” Id. at 694. “In assessing
prejudice, we reweigh the evidence in aggravation
against the totality of available mitigating evidence.”
Wiggins v. Smith, 539 U.S. 510, 534 (2003). The
“totality of the available evidence” includes “both that
adduced at trial, and the evidence adduced” in
subsequent proceedings. Id. at 536 (quoting Williams
v. Taylor, 529 U.S. 362, 397–98 (2000)).
III.

DISCUSSION

In Claim 34, Ramirez alleges that he received
ineffective assistance of counsel at sentencing. (Doc.
162 at 105.) The parties agree, though for different
reasons, that the Court should reach the merits of this
claim. . (See Doc. 257 at 1.) Respondents contend that
review of the merits shows that PCR counsel did not
perform ineffectively in failing to raise the claim in
state court. (Id.) Ramirez argues that default of the
claim is excused by PCR counsel’s ineffective
performance and therefore the claim must be reviewed
de novo.1 (Doc. 256 at 2–3.) As Respondents note, the
parties’ arguments lead to the same place: an analysis
of Claim 34.

1

Ramirez contends that this Court has already determined that
PCR counsel performed deficiently in presenting the claim of
ineffective assistance of counsel at sentencing. (Doc. 256 at 2–3.)
The Court disagrees. The Court outlined the facts concerning PCR
counsel’s performance while discussing cause and prejudice in a
pre-Martinez context. (See Doc. 242 at 4–13.) The Court did not
consider the question of whether PCR counsel’s performance was
both deficient and prejudicial under Strickland.

App. 270
Ramirez alleges that counsel was ineffective for
failing to discover and present significant mitigating
evidence. (Doc. 162 at 105.) Respondents argue that
counsel’s performance at sentencing was not deficient
and that Ramirez was not prejudiced because the new
information he offers is “de minimis, without
significant probative value, and cumulative” to the
evidence presented at sentencing. (Doc. 257 at 42–55.)
As discussed next, the Court, after reviewing the
parities’ arguments and the new evidence submitted by
Ramirez, finds that trial counsel did not perform at a
constitutionally ineffective level during Ramirez’s
sentencing.
A.

Additional facts

Ramirez originally chose to represent himself. After
jury selection, he requested that advisory counsel,
Mara Siegel, be appointed to represent him going
forward. The court granted the request and Siegel
represented Ramirez at trial and sentencing.
Following the guilty verdicts, the trial judge,
Maricopa County Superior Court Judge Thomas
O’Toole, appointed Dr. Mickey McMahon “to test and
evaluate the defendant’s current mental health and, if
such is deemed appropriate, conduct further diagnostic
testing and evaluation.”2 (Doc. 257-1, Ex. E.)

2

The appointment was made pursuant to Rule 26.5 of the Arizona
Rules of Criminal Procedure, which allows the trial court to order
a defendant to undergo mental health examination or diagnostic
evaluation at any time prior to sentencing. Ariz. R. Crim. P. 26.5.

App. 271
Judge O’Toole originally set the sentencing for
September 21, 1990, within 60 days of the verdicts.
(Id., Ex. D.) At Siegel’s request, he continued the
sentencing to October 19, 1990. (Id., Ex. F.)
Subsequently the court denied Ramirez’s request to
continue the Aggravation/Mitigation Hearing beyond
the October 19 date, but agreed to schedule the
imposition of sentence for a subsequent date. (Id., Ex.
G.) On October 19, the trial court permitted Ramirez to
continue part of the mitigation presentation to
November 30. (Id., Ex. J at 112!13.)
1.

Dr. McMahon’s Report

Dr. McMahon met with Ramirez on three occasions.
(Id., Ex. I at 2.) He interviewed Ramirez, performed
psychological tests, reviewed materials documenting
Ramirez’s criminal history, and prepared a report.
The report first recounts Ramirez’s version of the
crimes. Ramirez had been out of prison for
approximately three months before the murders. (Id. at
1.) He began drinking and using cocaine around 9:30
p.m. that evening; he injected cocaine once and initially
had two glasses of beer. (Id.) He had two more beers
and two mixed drinks at a bar and then “shot up with
cocaine a second time that evening.” (Id. at 1!2.) He
“went back to his girlfriend’s apartment around 10:45
pm and shot up with cocaine 4 more times and had
approximately 6 more beers before the murder took
place.” (Id. at 2.)
Ramirez told Dr. McMahon he had sex with the 15year-old daughter the night of the murders and had
had sex with her on four previous occasions. (Id.)

App. 272
Ramirez claimed the murders were committed by two
black men but stated “he didn’t care if he was executed
for the crime.” (Id.)
Ramirez “denied that his stepfather ever hit him,
his seven siblings, or their mother.” (Id. at 3.)
According to Ramirez, his mother devoted “her time as
a traditional Mexican-American mother whose
responsibility revolve[d] around the home and her
children. She was always there for the client when he
needed her as he was growing up.” (Id.)
Dr. McMahon noted that Ramirez was “generally
quite protective of family members and [would] not
tolerate any probing into potentially negative aspects
of their lives, insisting that our conversation be tinged
with ‘respect,’ and only then would he be willing to
talk, not otherwise.” (Id.) Dr. McMahon reported that
Ramirez “was quite protective of his family and not
willing to include them in any way he thought would
place them in a negative light.” (Id. at 7.)
Ramirez said he was involved in serious car
accidents but denied ever sustaining a head injury or
being knocked unconscious. (Id. at 4.)
Ramirez told Dr. McMahon that he had sexual
intercourse with his aunt when he was 10 years old
and that his cousin took advantage of him sexually
about 20 times. (Id.)
Ramirez finished ninth grade but left school in
tenth grade when he joined a gang. (Id. at 6.)
Dr. McMahon administered the Peabody Picture
Vocabulary IQ Test (“PPVT”), which resulted in an IQ

App. 273
score of 94. Accordingly, Dr. McMahon opined that
Ramirez was “well within the average range of
intelligence and in no way indiative [sic] of any form of
mental retardation.” (Id.)
Dr. McMahon discussed the results of other
psychological tests. (Id. at 6!7.) Although Ramirez fit
the profile of one who withdraws into fantasy under
extreme stress, Dr. McMahon found no evidence that
Ramirez suffered from schizophrenia, paranoid type.
(Id. at 6.) He found that Ramirez’s alcoholism scale was
high given his history of alcohol abuse. (Id.) Ramirez
scored high on the psychomotor acceleration test. (Id.
at 7.) Dr. McMahon opined that Ramirez’s “manic-like
behavior [was] due to more than just the cocaine
abuse.” (Id. at 7.)
In summary, Dr. McMahon wrote, “The above
results indicate that most likely the primary factor
related to the murder was the abuse of alcohol and
cocaine.” (Id.) He concluded, “I can state with
reasonable psychological certainty that the defendant’s
capacity to appreciate the wrongfulness of his conduct
or conform his conduct to the requirements of the law
was significantly diminished.” (Id. at 8.)
2.

Sentencing Memorandum

Prior to the mitigation hearing, Siegel filed a 29page sentencing memorandum with supporting
attachments, including school records, jail records, and
pre-sentence reports. (Doc. 257-1, Ex. H.) In arguing for
a life sentence, the main themes of the memorandum
were Ramirez’s chaotic childhood and school years, his
ability to adapt to the structured life of prison, his

App. 274
history of drug and alcohol abuse, and his impaired
state of mind at the time of the murders.
Siegel described Ramirez’s family background as
characterized by “poverty, uncertainty, chaos.” (Id. at
4.) Ramirez, the oldest of eight siblings, was born to a
16-year-old mother. (Id.) He never knew his own
father. (Id.) His mother, an alcoholic, died of ethyl
alcohol hepatitis. (Id. at 12.)
To prepare the memorandum, Siegel “requested all
of David Ramirez’s school records from kindergarten
through high school.” (Id.) She discovered, however,
that “nearly all of David’s school records were
destroyed by the early 1970’s.” (Id. at 5.) She was able
to obtain from the Phoenix Elementary School District
his school identification card and his IQ test results
from 1967 and 1969. (Id.) These records showed that
Ramirez changed schools 10 times before he had
completed the seventh grade and did not complete high
school. (Id.)
Siegel detailed Ramirez’s poor attendance at the
various schools. (Id. at 5!7.) She discussed the results
of IQ tests administered when Ramirez was a student.
These included a score of 70 on the Stanford Binet test
in 1967, and a 1969 test, which measured Ramirez’s IQ
as 77. (Id. at 7.) Siegel noted that this score indicated
“borderline intellectual functioning,” explaining that
“D.S.M.–III-R states that a person is mildly retarded
if he/she has an I.Q. of 50 to 55, to approximately
70 (D.S.M.-III-R).” (Id.) Siegel reported that a
defense investigator contacted the individuals who
administered the tests but neither remembered
Ramirez. (Id.)

App. 275
Siegel discussed Ramirez’s move to El Monte,
California, and his poor high school grades. (Id. at 7!8.)
She learned that, five years after a student’s
graduation, all of his psychological testing records are
destroyed. (Id. at 8.) However, she did attach Ramirez’s
1971 California Achievement Grade Point Test, with
test scores revealing he was “3!4 grade levels below his
schoolmates.” (Id.)
Siegel wrote about the sexual abuse Ramirez
experienced as a child. At age 10, his 15-year-old aunt
forced him to have intercourse, and at age 10 and 11 he
was molested by an older female cousin. (Id. at 8.)
Siegel noted that in California Ramirez joined a
gang in part due to family problems caused by his
mother’s alcoholism. (Id. at 9.)
Siegel discussed Ramirez’s early involvement with
the criminal justice system. She cited records
indicating that Ramirez had become “institutionalized,”
so that he was able to function productively within the
structured prison environment. (Id. at 9!12.) Siegel
noted that Ramirez’s IQ score 94 of as measured by Dr.
McMahon was “now well within the average range of
intelligence.” (Id. at 22.) She argued “[t]his increase in
basic intelligence may be due to the structured
environment of prison where David completed his
G.E.D.” (Id. at 22.)
Siegel detailed Ramirez’s history of drug and alcohol
abuse, noting that he began using drugs as a young
teenager. (Id. at 21.) She explained that on the night of
the killings, “he had intravenously injected heroin 5 to
6 times within 4 to 5 hour period prior to the

App. 276
homicides. He had also drank a substantial amount of
beer.” (Id.)
Citing Dr. McMahon’s report, Siegel argued that
Ramirez’s “capacity to appreciate the wrongfulness of
his conduct or conform his conduct to the requirements
of the law was significantly diminished,” a statutory
mitigating fact under A.R.S. § 13!751(G)(1). She cited
Dr. McMahon’s opinion that a “combination of David’s
psychological makeup coupled with the indigestion [sic]
of alcohol and cocaine for a period of 2 months prior to
and including May 25, 1989,” significantly impaired his
capacity at the time of the murders. (Id. at 18!20.)
Siegel also expressed concern about Ramirez’s
mental outlook and his attitude toward his sentencing:
David Ramirez has wanted to be sentenced to
death if convicted by a jury since June of 1989.
The defendant has been either reluctant or
refused to cooperate with any efforts to collect
background material on him, contact his family
members, doctors, etc., since shortly after this
counsel was appointed to represent Mr. Ramirez
in June, 1989.
....
Throughout the preparation for a mitigation
hearing, David has evidenced an inappropriate
affect in his behavior, particularly when
discussing the seriousness of the punishment to
be imposed, if convicted. If it was not so readily
apparent as a defense mechanism, David has

App. 277
evidenced an almost flippant attitude toward
being put to death.
(Id. at 20!21) (emphasis added).
3.

Mitigation Hearing

At the mitigation hearing, Siegel presented
testimony from Ramirez’s aunt, Erlinda Martinez, and
two of Ramirez’s sisters, Mary Castillo and Cynthia
Orozco. His aunt, who was about the same age as
Ramirez, testified that Ramirez’s mother was about 16
when Ramirez was born. She was “always drinking”
and often intoxicated. (Ex. J at 31!32, 42!43.) When
she was pregnant with Ramirez, she would stay out all
night drinking beer; sometimes she would be gone for
days. (Id. at 33.) His mother died of alcohol-related
problems. (Id. at 64.)
Ramirez’s mother had a lot of male friends. (Id. at
33.) She used Ramirez as a housekeeper and babysitter
for her other children. (Id. at 34.) At one point, Ramirez
lived with his grandmother for about three years, but
his mother wanted him back because she had no one
else to take care of the children. (Id. at 35.)
Ramirez’s biological father was not around and none
of Ramirez’s siblings had the same father as Ramirez;
four different men fathered the children in his family.
(Id. at 36!37.)
His aunt did not recall Ramirez having problems in
school. (Id. at 39.) Because his mother moved
frequently, Ramirez attended more than seven
grammar schools. (Id. at 65.) His aunt could not
remember if Ramirez had been kept back in school. (Id.

App. 278
at 68.) She believed that while growing up Ramirez and
his family had adequate food and clothing. (Id. at
57!58.)
As a teenager Ramirez had a number of problems
with his stepfather and ran away often. (Id. at 40!41,
43!44.) Ramirez had belt marks on his body; his aunt
believed he was beaten by his stepfather. (Id. at 41.)
Once he had a “busted lip.” (Id.) His mother and
stepfather had numerous fights. (Id. at 43.)
Although Ramirez had two sons with his first wife,
he still helped raise his younger sisters. (Id. at 45.)
Ramirez was working as a dishwasher and janitor at
the time. (Id. at 59, 68.) His sons and ex-wife attended
the mitigation hearing. (Id. at 45, 88.)
His aunt testified that Ramirez often wrote to her
daughter. (Id.) She felt she could confide in him. (Id. at
49.)
When Ramirez found out that the defense
investigator had subpoenaed his aunt to testify, he
called to tell her he felt bad about involving her and
her daughter in the case. (Id. at 51!52.) She learned
that Ramirez had specifically told family members not
to come to the trial or sentencing. (Id. at 52.)
Ramirez’s aunt also testified about his positive
traits, characterizing him as “a beautiful person,” “very
sentimental,” “caring,” “a good guy,” “level-headed,”
“fairly intelligent,” and “a responsible worker.” (Id. at
48, 61, 55, 69.) She couldn’t believe he committed the
crimes he was accused of. (Id. at 50.) She didn’t believe
Ramirez should get the death penalty. (Id.)

App. 279
Ramirez’s younger sister Mary Castillo also testified
that as a child he helped with household chores and
made sure his sisters were clothed and fed. (Id. at
73!74.) Castillo did not recall her mother having a
terrible drinking problem, but later in life she drank
heavily and died of her alcohol abuse. (Id. at 74.)
Ramirez was “the man around the house” until his
stepfather joined the family (Id. at 76.)
Castillo testified that she considered the stepfather
strict, but not unreasonably so; that Ramirez followed
the stepfather’s orders; and that she did not recall
Ramirez having any problems with his stepfather. (Id.)
While incarcerated, Ramirez had written letters to
Castillo’s daughters. (Id. at 77.) Ramirez did not want
Castillo to testify because he did not want her involved
in his case. (Id. at 78!79.) Castillo did not think death
was an appropriate sentence. (Id. at 50.) She loved her
brother and felt that a death sentence would hurt the
entire family. (Id. at 80–81.) Castillo also had positive
views of Ramirez’s character. She described him as “a
very good brother,” who had “been there for” the family
and was kind, sensitive, and affectionate. (Id. at
83!84.)
Cynthia Orozco, another of Ramirez’s sisters, also
testified. (Id. at 89.) She had lived with Ramirez and
his wife when he was working as a dishwasher and
cook. (Id. at 93.) His wife did not work. (Id. at 94.)
According to Orozco, Ramirez would come home from
work, eat dinner, and then go back to work. (Id.) She
was about 15 the first time Ramirez went to prison. (Id.
at 95.) They wrote one another while he was in prison.
(Id. at 96!97.)

App. 280
When Ramirez got out of prison in 1989, he came to
live with her and her family. (Id. at 97.) He was
working at a furniture store and bought her a TV
stand. (Id. at 97!98.) He cleaned the house, cooked,
and gave her money every week. (Id. at 98, 100.)
Ramirez always took time to listen to her; she felt
closer to Ramirez than to her other brother. (Id. at
101.)
Ramirez told her not to come to the aggravation/
mitigation hearing, but she was subpoenaed. (Id. at
106.) She stated that it would affect her “[r]eal bad” if
the court sentenced Ramirez to death. (Id. at 108.)
At the continuation of the mitigation hearing, Siegel
presented two additional witnesses, employees of the
Department of Corrections, food service supervisors
who testified that Ramirez was hardworking,
responsible, and cooperative. (Ex. L at 7–10, 19–21.)
Both witnesses would assign Ramirez the top rating as
an employee. (Id. at 10, 24.)
As noted, following the sentencing hearing, the
court found three aggravating factors: that Ramirez
had two prior violent felony convictions; that he
committed the murders in an especially cruel, heinous,
or depraved manner; and that he committed multiple
homicides during the same episode. (Doc 257-2, Ex. N.)
In mitigation, the court found that Ramirez was
impaired under § 13–703(G)(1). The court also found
seven non-statutory mitigating circumstances:
(1) Ramirez’s unstable family background, (2) his poor
educational experience, (3) that he was the victim of
sexual abuse when he was young, (4) his gang

App. 281
affiliation, (5) his chronic substance abuse, (6) his
psychological history, and (7) his love of family. (Id.)
The court determined that none of the mitigating
circumstances, taken individually or collectively,
warranted leniency. (Id.)
B.

Analysis

Ramirez alleges that Siegel performed ineffectively
under Strickland by failing to present mitigating
evidence of Ramirez’s mental retardation, brain
damage, impaired intellectual functioning, childhood
poverty, childhood neglect and abuse, in utero exposure
to pesticides and alcohol, and the fact that he was the
product of the rape of his 15-year-old mother by his
uncle. He also contends that Siegel performed
ineffectively in failing to provide Dr. McMahon with
additional information concerning Ramirez’s low IQ
scores and poor grades.
In support of this claim, Ramirez submits new
evidence about counsel’s sentencing stage performance.
In a declaration from 2010, 20 years after Ramirez’s
trial, Siegel states that she does not think she was
prepared to handle a capital trial as sole counsel and
that if she had discovered the new information
obtained by habeas counsel, she would have presented
it at sentencing. (Doc. 256-2, Ex. Q at 1, 2.) In her
declaration, also from 2010, Nora Shaw, the defense
investigator, stated that this additional mitigating
information should have been investigated and
presented at sentencing. (Id., Ex. R.) Dr. McMahon
attested in a 2004 declaration that he was not provided
information about Ramirez’s social history, or school,
vocational, or medical records. (Doc. 256-1, Ex. P.) If he

App. 282
had been provided with the records showing Ramirez’s
previous IQ scores, he would have investigated whether
Ramirez was mentally retarded. (Id.)
Ramirez’s family members testified at the Atkins
hearing in 2004 and have provided declarations
describing the circumstances of Ramirez’s birth and
childhood. (Doc. 256-1, Ex’s D–N.) According to this
information, Ramirez was conceived when his 15-yearold mother was raped. She drank during her pregnancy
and tried on several occasions to abort the fetus. When
Ramirez was a toddler his mother fed him beer in a
bottle. Ramirez’s family were migrant workers, and he
was exposed to pesticides in utero and as a child
working in the fields. Ramirez appeared slow, and was
late in reaching his developmental milestones.
Ramirez grew in extreme poverty. He was thin and
malnourished, and stole food or relied on charity or
handouts from neighbors. The living conditions were
filthy due to his mother’s neglect.
His mother would leave the children at home while
she went out drinking. Ramirez and the other children
were exposed to sex and violence when their mother
brought men home from the bars. She physically
abused Ramirez with slaps and kicks.
Drs. Ricardo Weinstein and Mark Tasse prepared
reports in connection with the Atkins litigation in state
court. (Doc. 256-1, Ex’s A, B.) They both concluded that
Ramirez met the definition of mentally retarded. Dr.
Weinstein performed neurological testing and a
Quantitative Electroencephalogram, which revealed
that Ramirez suffered from “extensive and diffuse

App. 283
brain dysfunction with particular involvement of the
frontal lobes.” (Doc. 245-1, Ex. A at 29.)
1.

Siegel’s performance was not deficient
under Strickland

The inquiry under Strickland is highly deferential,
and “every effort [must] be made to eliminate the
distorting effects of hindsight, to reconstruct the
circumstances of counsel’s challenged conduct, and to
evaluate the conduct from counsel’s perspective at the
time.” Strickland, 466 U.S. at 689. Thus, to satisfy the
deficient performance prong, Ramirez must overcome
“the presumption that, under the circumstances, the
challenged action might be considered sound trial
strategy.” Id. The court “cannot ‘second-guess’ counsel’s
decisions or view them under the ‘fabled twenty-twenty
vision of hindsight.’” Edwards v. Lamarque, 475 F.3d
1121, 1127 (9th Cir. 2007) (quoting LaGrand v.
Stewart, 133 F.3d 1253, 1271 (9th Cir. 1998)). “The test
has nothing to do with what the best lawyers would
have done. Nor is the test even what most good lawyers
would have done. We ask only whether some
reasonable lawyer at the trial could have acted, in the
circumstances, as defense counsel acted at trial.”
Coleman v. Calderon, 150 F.3d 1105, 1113 (9th Cir.),
rev’d on other grounds, 525 U.S. 141 (1998).
Ramirez has not shown that Siegel’s performance at
sentencing fell below an objective standard of
reasonableness. The fact that she represented Ramirez
on her own without previous capital experience does
not establish deficient performance. Woods v. Sinclair,
764 F.3d 1109, 1132 (9th Cir. 2014) cert. denied sub
nom. Holbrook v. Woods, 135 S. Ct. 2311 (2015); see

App. 284
Ortiz v. Stewart, 149 F.3d 923, 933 (9th Cir. 1998) (“It
is well established that an ineffective assistance claim
cannot be based solely on counsel’s inexperience.”);
LaGrand, 133 F.3d at 1275 (“In considering a claim of
ineffective assistance of counsel, it is not the experience
of the attorney that is evaluated, but rather, his
performance.”).
The most notable factor in assessing the quality of
Siegel’s performance is that it led the trial judge to find
that one statutory and seven nonstatutory mitigating
circumstances had been proved. The nonstatutory
circumstances included Ramirez’s unstable family
background, poor educational experience, sexual abuse,
substance abuse, and psychological history.
Next, the Court must take into account the
circumstances of Siegel’s representation. See
Strickland, 466 U.S. at 691. These include Ramirez’s
reluctance to involve his family in the proceedings.
Despite this reluctance, counsel called three family
members to testify on his behalf at the mitigation
hearing.
Although Siegel was able to collect Ramirez’s
Arizona and California school records, they were not
provided to Dr. McMahon prior to his evaluation of
Ramirez. Dr. McMahon, after examining Ramirez and
administering the PPVT, found no evidence of
retardation. It was reasonable for Siegel to rely on Dr.
McMahon’s findings and not pursue the issue of mental
retardation. See Hendricks v. Calderon, 70 F.3d 1032,
1038 (9th Cir. 1995) (“In general, an attorney is
entitled to rely on the opinions of mental health experts
in deciding whether to pursue an insanity or

App. 285
diminished capacity defense.”); Harris v. Vasquez, 949
F.2d 1497, 1525 (9th Cir. 1990) (“It is certainly within
the ‘wide range of professionally competent assistance’
for an attorney to rely on properly selected experts.”)
(quotation omitted); see also West v. Ryan, 608 F.3d
477, 487–89 (9th Cir. 2010) (holding counsel was not
deficient for failing to unearth additional mental health
evidence where the doctor’s report contained no red
flags).
This is not a case where counsel completely failed to
investigate or present mitigating evidence. See Porter
v. McCollum, 558 U.S. 30, 39–40 (2009) (finding
deficient performance where counsel collected no
records, conducted no interviews, and had only one
short meeting with his client concerning the penalty
phase); Silva v. Woodford, 279 F.3d 825, 846 (9th Cir.
2002) (finding deficient performance where counsel
“conducted no investigation whatsoever into Silva’s
past and also failed to even minimally assist in the
preparation of possible mental defenses”); Bean v.
Calderon, 163 F.3d 1073, 1078 (9th Cir. 1998) (finding
deficient performance where counsel “engaged in no
preparation” and “conducted no investigation of
penalty-phase issues”); Clabourne v. Lewis, 64 F.3d
1373, 1386–87 (9th Cir. 1995) (holding that counsel
provided ineffective assistance when he “gave up” and
failed to present mitigating evidence at the sentencing
hearing).
Instead, this case more closely resembles Schurz v.
Ryan, 730 F.3d 812, 815 (9th Cir. 2013), where the
Ninth Circuit held that counsel’s failure to present
mitigating evidence at sentencing did not constitute

App. 286
deficient performance. The court found that the
unpresented mitigating evidence about the petitioner’s
drug abuse and dysfunctional family life was
cumulative to the information counsel provided in his
sentencing memorandum and attached psychological
evaluation. Id. The court also noted that the new
evidence that was not cumulative, including allegations
of childhood sexual abuse, cerebral dysfunction, and
fetal alcohol syndrome, was either “speculative” or
minimally “relevant.” Id.
In Ramirez’s case, Siegel prepared a detailed
sentencing memorandum and attached exhibits,
including school records, IQ test scores, and Dr.
McMahon’s report. Siegel argued Ramirez was
impaired at the time of the crimes and that his
background contained a number of mitigating
circumstances. The court found that these
circumstances were proved. Siegel’s performance was
not deficient. See Babbitt v. Calderon, 151 F.3d 1170,
1174 (9th Cir. 1998) (rejecting ineffective assistance
“arguments predicated upon showing what defense
counsel could have presented, rather than upon
whether counsel’s actions were reasonable”).
2.

Ramirez was not prejudiced by Siegel’s
performance

Even if Siegel’s performance were deficient,
Ramirez cannot show prejudice. First, much of the
evidence Ramirez claims should have been offered was,
in fact, presented to the sentencing court. The court
was aware of Ramirez’s difficulties as a student, his
poor grades and his low IQ test scores. The court was
aware that Ramirez’s mother was an alcoholic who

App. 287
drank while she was pregnant with Ramirez. The court
knew that Ramirez’s home life was chaotic, with an
absent father, an abusive stepfather, and a neglectful
mother, and that he was obliged to care for his younger
siblings. This profile of Ramirez’s background is not
significantly altered by the new evidence. See
Strickland, 466 U.S. at 699–700 (finding no prejudice
where omitted evidence “would barely have altered the
sentencing profile presented to the sentencing judge.”);
see also Woratzeck v. Stewart, 97 F.3d 329, 336–37 (9th
Cir. 1996) (finding no prejudice from counsel’s failure
to investigate or call additional witnesses at mitigation
phase because all of the information the witnesses
would have presented was contained in the presentence
report); Babbitt, 151 F.3d at 1176 (finding no prejudice
where evidence omitted at sentencing was “largely
cumulative of the evidence actually presented”).
Ramirez contends that the new “evidence paints an
entirely different picture of Ramirez’s moral culpability
than was presented at sentencing.” (Doc. 256 at 38.)
The Court disagrees. Ramirez cites mental retardation
as one of the categories of mitigating evidence omitted
by Siegel. As noted, at the time of sentencing, Siegel
relied on Dr. McMahon’s opinion that Ramirez’s IQ was
in the average range. (Doc. 257-1, Ex. I at 6; id., Ex. H
at 22.) She did, however, present Ramirez’s prior IQ
scores of 70 and 77. Moreover, the trial court, again
presided over by Judge O’Toole, determined at the
conclusion of the Atkins litigation that Ramirez had
failed to prove he met the statutory definition of
mentally retarded.

App. 288
In support of his claim of mental retardation,
Ramirez cites statements of family members that he
was exposed to pesticides in utero and as a young child
working in the fields. Dr. Weinstein also cited his
findings of brain dysfunction as “consistent with and
confirmatory of mental retardation.” (Doc. 256-1, Ex. B
at 29.) While this evidence was not presented at
sentencing, its omission has little prejudicial effect
given the court’s conclusion that Ramirez was not
mentally retarded.
Other new evidence cited by Ramirez includes
information that he was the product of the rape of his
teenage mother by his uncle, and that his mother
attempted to terminate the pregnancy. On their own,
these circumstances have little mitigating value as
they do not bear on Ramirez’s “character or record” or
the “circumstances of the offence.” Lockett v. Ohio, 438
U.S. 586, 604 (1978). To the extent the information is
relevant to Ramirez’s intellectual capacity, as just
discussed that issue was before the court at sentencing
and during the PCR proceedings.
In Schriro v. Landrigan, 550 U.S. 465, 481 (2007),
the Supreme Court held the petitioner was not
prejudiced by counsel’s failure to present mitigating
evidence indicating that the petitioner suffered from
fetal alcohol syndrome with attendant cognitive and
behavioral defects, was abandoned by his birth mother,
was raised by an alcoholic adoptive mother, began
abusing alcohol and drugs at an early age, and had a
genetic predisposition to violence. The Court described
the evidence as “poor quality,” and therefore not
supportive of a colorable claim of ineffective assistance

App. 289
of counsel. Id.; see Rhoades v. Henry, 638 F.3d 1027,
1052 (9th Cir. 2010) (holding “that [petitioner’s] newly
proffered facts . . . add too little, and the aggravating
circumstances are too strong, to make it reasonably
probable that the sentencing decision would have been
different but for counsel’s performance”); Heishman v.
Ayers, 621 F.3d 1030, 1038 (9th Cir. 2010) (“[E]ven if
Heishman had offered the additional evidence of his
difficult upbringing, he has not shown a reasonable
probability that the jury would have imposed a
sentence of life without parole.”).
In determining prejudice the court weighs the
totality of the mitigating evidence against the
aggravating factors. In this case there were three
aggravating factors. First, Ramirez was previously
convicted of two violent felonies, aggravated assault
and robbery. A.R.S. § 13-703(F)(2). Next, Ramirez
committed multiple murders, killing both Mrs.
Gortarez and her teenage daughter. A.R.S. § 13703(F)(8). The multiple murders aggravating factor “is
entitled to ‘extraordinary weight.’” State v. Garza, 216
Ariz. 56, 72, 163 P.3d 1006, 1022 (2007) (quoting State
v. Hampton, 213 Ariz. 167, 185, 140 P.3d 950, 968
(2006). Finally, the murders were especially heinous,
cruel, or depraved. A.R.S. § 13-703(F)(6). The Arizona
Supreme Court, in its independent review of the (F)(6)
factor, described the supporting facts:
The victims in this case endured great pain and
suffering over a prolonged period of time. The
neighbors testified to the banging, screaming,
cries for help, and running noises that alerted
them to the homicides and that continued for 20

App. 290
to 30 minutes. When the police arrived, they
found evidence of great violence; they discovered
blood and murder weapons throughout the
apartment. Expert testimony as well as the
physical evidence established that both victims
were conscious during the time that defendant
repeatedly stabbed each of them 15–20 times.
Each was obviously aware of the other’s
suffering. Both sustained numerous other cuts
and bruises. Mrs. G suffered defensive wounds
while fighting unsuccessfully to save her life.
The victims’ sufferings were inescapably
foreseeable to defendant.
Ramirez, 178 Ariz. at 129, 871 P.2d at 250.
Given the strength of these aggravating factors,
there is not a reasonable probability that the additional
evidence cited by Ramirez would have resulted in a
different verdict. See Samayoa v. Ayers, 649 F.3d 919,
929 (9th Cir. 2011) (finding no prejudice from failure to
present additional mitigation where the crimes, the
murder of a mother and child, were “brutal and
horrific”); Leavitt v. Arave, 646 F.3d 605, 616 (9th Cir.
2011) (“Given the exceptional depravity of this murder,
it is unlikely that additional evidence of a brain
abnormality would have made a difference.”); Bible v.
Ryan, 571 F.3d 860, 872 (9th Cir. 2009) (finding no
prejudice for failure to present evidence of brain injury
where the “significant amount of aggravating
circumstances” consisted of the especially cruel murder
of a nine-year-old child). Ramirez was not prejudiced by
Siegel’s performance at sentencing.

App. 291
IV.

EVIDENTIARY DEVELOPMENT

Ramirez seeks an evidentiary hearing, discovery,
and expansion of the record. (Doc. 256 at 39–45.)
Having reviewed the entire record, including the
evidence presented by Ramirez in his supplemental
Martinez brief, the Court concludes that an evidentiary
hearing is not warranted. See Landrigan, 550 U.S. at
474 (“[I]f the record refutes the applicant’s factual
allegations or otherwise precludes habeas relief, a
district court is not required to hold an evidentiary
hearing.”); Rule 8(a) of the Rules Governing Section
2254 Cases. There are no contested facts concerning
Siegel’s performance at sentencing. Whether
Petitioner’s allegations of ineffective assistance of trial
counsel are “substantial” under Martinez is resolvable
on the record. See Sexton, 679 F.3d at 1161 (finding
record “sufficiently complete” with respect to
underlying ineffective assistance of trial counsel claim);
cf. Dickens, 740 F.3d at 1321 (explaining that “a district
court may take evidence to the extent necessary to
determine whether the petitioner’s claim of ineffective
assistance of trial counsel is substantial under
Martinez”) (emphasis added). However, the Court will
expand the record to include the exhibits attached to
Ramirez’s supplemental brief, as both parties have
relied on the information contained therein.
V.

CERTIFICATE OF APPEALABILITY

Pursuant to 28 U.S.C. § 2253(c)(2), a certificate of
appealability may issue only when a petitioner “has
made a substantial showing of the denial of a
constitutional right.” This showing can be established
by demonstrating that “reasonable jurists could debate

App. 292
whether (or, for that matter, agree that) the petition
should have been resolved in a different manner” or
that the issues were “adequate to deserve
encouragement to proceed further.” Slack v. McDaniel,
529 U.S. 473, 484 (2000). For procedural rulings, a
certificate will issue only if reasonable jurists could
debate whether the petition states a valid claim of the
denial of a constitutional right and whether the court’s
procedural ruling was correct. Id.
The Court finds that reasonable jurists could debate
the conclusion that Claim 34 is procedurally barred.
VI.

CONCLUSION

Siegel’s performance at sentencing was neither
deficient nor prejudicial. Claim 34 is without merit. If
PCR counsel had raised the claim, there is no
reasonable probability that the result of the postconviction proceedings would have been different.
Clabourne, 745 F.3d at 377; see Sexton, 679 F.3d at
1157.
The default of Claim 34 is not excused under
Martinez. The claims remains defaulted and barred
from federal review.
IT IS ORDERED that Claim 34 is denied as
procedurally barred
IT IS FURTHER ORDERED granting
Certificate of Appealability as to Claim 34.
Dated this 14th day of September, 2016.

a

App. 293
/s/ James A. Teilborg
James A. Teilborg
Senior United States District Judge

App. 294

APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
No. CV-97-1331-PHX-JAT
[Filed: September 28, 2010]
__________________________________________
David Martinez Ramirez,
)
)
Petitioner,
)
)
vs.
)
)
Charles L. Ryan, et al.,
)
)
Respondents.
)
__________________________________________)
DEATH PENALTY CASE
ORDER
In a prior Order, the Court concluded that
Petitioner’s remaining claim, Claim 34, had been
procedurally defaulted in state court based on an
independent and adequate procedural bar. (Doc. 207.)1
However, because the parties still needed an
opportunity to fully brief the claim, the Court was not
in a position to consider whether Petitioner had
legitimate cause and prejudice to excuse the default or
1

“Doc.” refers to the documents in this Court’s case file.

App. 295
whether a fundamental miscarriage of justice would
occur if Claim 34 was not reviewed on the merits.
Following briefing on these issues, the Court concludes
that Petitioner has demonstrated neither cause and
prejudice nor a fundamental miscarriage of justice to
excuse his procedural default of Claim 34.
Background Summary2
In Petitioner’s briefing in support of cause and
prejudice, he alleges that certain pretrial, trial, and
sentencing events prevented his post-conviction counsel
from raising Claim 34 in a timely manner. In pretrial
proceedings, on September 28, 1989, Petitioner filed a
motion for appointment of experts, requesting an
independent psychiatric evaluation, a child
psychologist, a mitigation specialist, a fingerprint
examiner, a jury consultant, a serologist, and a
pathologist. (ROA-PCR 39.)3 In the motion, Petitioner
cited Ake v. Oklahoma, 470 U.S. 68 (1985), and
requested, without explanation, that an independent
psychiatrist be appointed to assess his sanity at the
2

This factual summary provides the background related to
Petitioner’s cause and prejudice arguments. A more complete
procedural history may be found in prior Orders. (See, e.g., Doc.
190.)
3

“ROA-PCR” refers to documents in the four-volume record on
appeal from post-conviction proceedings prepared for Petitioner’s
first petition for review to the Arizona Supreme Court (Case No.
CR-96-0464-PC). “ROA-PCR-ME” refers to the one volume of
minute entries issued by the trial court. “RT” refers to the
reporter’s transcript from Petitioner’s trial and sentencing in state
court proceedings. This record was provided to the Court by the
Arizona Supreme Court on July 30, 2001. (Doc. 53.)

App. 296
time of the crime. (Id. at 2.) He summarily requested
the appointment of the other experts. (Id. at 3.)
Subsequently, the court appointed an investigator to
assist Petitioner, who at that point was representing
himself with advisory counsel. (RT 10/6/89 at 13; ROAPCR 43.) The following week, the court denied the
remainder of the expert requests without prejudice,
allowing for reconsideration after Petitioner had an
opportunity to consult with his investigator. (RT
10/11/89 at 5-6; ROA-PCR-ME 45.) At an ex parte
proceeding, Petitioner’s investigator asserted that a
child psychologist was important to help determine
Petitioner’s social upbringing and to collaborate with a
mitigation specialist. (RT 12/12/89 at 10.) A mitigation
specialist was needed to work with the investigator,
Petitioner, and mental health professionals in order to
prepare a complete mitigation presentation. (Id. at 1012.) Advisory counsel explained that the mental health
experts were requested for mitigation purposes in the
event Petitioner was found guilty, not to evaluate his
competency to stand trial. (Id. at 13.) The court denied
the request for a mitigation specialist but indicated
that it would be reconsidered if Petitioner was
convicted. (Id. at 17.) It appears the Court appointed a
serologist. (RT 12/12/89 at 16; ROA-PCR-ME 140.)
Subsequently, prior to trial, there was a change of
judge ordered, with Maricopa County Superior Court
Judge Thomas W. O’Toole, presiding over the case.
After jury selection, Petitioner requested that advisory
counsel be appointed to represent him going forward,
and the court granted the request. (RT 7/11/90 at 9697; ROA-PCR-ME 108.) After the jury found Petitioner
guilty on both murder counts, Petitioner’s counsel

App. 297
informed the court that previously she had requested
a mitigation specialist; when the judge asked if she was
referring to Arizona Rule of Criminal Procedure 26.5,
which provides for presentence mental health
examinations, counsel answered, “Well, so to speak.”
(RT 7/27/90 at 6-7.) The court appointed the mental
health expert proposed by Petitioner, Dr. McMahon, “to
test and evaluate the defendant’s current mental
health and, if such is deemed appropriate, conduct
further diagnostic testing and evaluation.” (Id. at
7; ROA-PCR-ME 125.) The court authorized
compensation in the amount of $500, but that
additional fees and expenses could be obtained with
“prior written approval of the court.” (ROA-PCR-ME
125.) Petitioner made no other requests for the
appointment of experts prior to sentencing.
In his sentencing memorandum, Petitioner’s counsel
relied on Dr. McMahon’s August 18, 1990, evaluation
to support assertion of A.R.S. § 13-703 (G)(1) statutory
mitigating circumstance–that his ability to appreciate
the wrongfulness of his conduct or conform his conduct
to the law was significantly diminished. (ROA-PCR 149
at 18-19.) Dr. McMahon concluded that Petitioner’s
capacity to appreciate the wrongfulness of his conduct
or conform his conduct to the requirement of law was
significantly diminished due to his psychological
condition and his drug and alcohol intoxication on the
night of the crimes. (ROA-PCR 160 at 8.) Dr.
McMahon’s psychological evaluation also measured
Petitioner’s intelligence quotient (“IQ”), utilizing the
Peabody Picture Vocabulary Test (“PPVT”). Dr.
McMahon reported: “The defendant obtained a PPVT
IQ of 94, which is well within the average range of

App. 298
intelligence and in no way indicative of any form of
mental retardation.” (ROA-PCR 160 at 6.)
At sentencing, the judge found three aggravating
circumstances: Petitioner had two prior violent felony
convictions (A.R.S. § 13-703(F)(2)); Petitioner
committed the murders in an especially cruel, heinous,
or depraved manner (A.R.S. § 13-703 (F)(6)); and
Petitioner committed multiple homicides during the
same episode (A.R.S. § 13-703(F)(8)). The judge found
one statutory mitigating circumstance and seven nonstatutory circumstances, but determined they were not
sufficiently substantial to warrant leniency, and
sentenced Petitioner to death on both murder counts.
(ROA-PCR 169.) The Arizona Supreme Court affirmed
Petitioner’s convictions and sentences on direct appeal.
State v. Ramirez, 178 Ariz. 116, 871 P.2d 237 (1994).
Prior to filing his post-conviction relief (“PCR”)
petition, Petitioner did not request any investigative or
expert resources. (See ROA-PCR 177-190.) In his PCR
petition, Petitioner raised a claim of ineffective
assistance of counsel (“IAC”), alleging that counsel did
not have a cohesive defense strategy at trial or with
regard to mitigation. (ROA-PCR 190 at 7-8.) With
respect to IAC at sentencing, Petitioner alleged that
counsel did not have a clear strategy, which was
evidenced by counsel’s attempt to use Petitioner’s
alleged gang membership in mitigation. (Id. at 8.) The
PCR court ruled that Petitioner failed to raise a
colorable claim of ineffective assistance and denied
relief. (ROA-PCR-ME 192.) The Arizona Supreme
Court denied review.

App. 299
Petitioner initiated federal habeas proceedings,
raising both conviction and sentencing claims. (Docs. 1,
2, 18, 40, 55, 76.) Subsequently, the Court stayed
Petitioner’s sentencing claims so that he could file a
successive PCR petition in state court asserting that he
is mentally retarded and ineligible for capital
punishment pursuant to Atkins v. Virginia, 536 U.S.
304 (2002) (recognizing that the Eighth Amendment
prohibits a state from sentencing to death or executing
a mentally retarded person). (Doc. 119.) In state court,
the Court limited Petitioner’s counsel, the Federal
Public Defender (“FPD”), to the Atkins litigation. (Id.)
In April 2005, Petitioner initiated an Atkins claim in
successive PCR proceedings. (Doc. 228 at 1-13.)4
Subsequently, also in April 2005, a private attorney
“conducted an initial pro bono review” of Petitioner’s
case and filed a separate successive state PCR notice
attempting to litigate five non-Atkins claims, including
Claim 34, an allegation of ineffective assistance of
counsel for failing to conduct a complete mitigation
investigation, obtain, and present available mitigation
evidence at sentencing. (Doc. 145, Ex. A at 3.) The
PCR court summarily dismissed this action as
unexceptional, rendering it subject to timeliness rules
that required all PCR claims be filed during a
petitioner’s initial PCR proceeding. (Doc. 145, Ex. B; see
Ariz. R. Crim. P. 32.4(a), 32.2(b), 32.5 (West 2005)).
Based on the PCR court’s ruling, for Claim 34 to be
timely and considered on the merits, Petitioner was
4

In response to this Court’s Order, Respondents provided a
complete copy of the state court record of Petitioner’s Atkins
litigation to the Court for its review. (See Doc. 228, 1-8873.)

App. 300
required to have raised it during his initial PCR
proceeding. Petitioner did not raise Claim 34 during his
initial PCR proceeding. This Court has concluded that
Claim 34 was procedurally defaulted according to an
adequate and independent state procedural rule and
will not be considered on the merits apart from a
showing of cause and prejudice or a fundamental
miscarriage of justice. (Doc. 207.)5
Cause and Prejudice
In Coleman v. Thompson, 501 U.S. 722, 750 (1991),
the Court made explicit that if a state prisoner has
procedurally defaulted a federal claim in state court
pursuant to an independent and adequate procedural
rule, “federal habeas review of the claim[] is barred
unless the prisoner can demonstrate cause for the
default and actual prejudice as a result of the alleged
violation of federal law[.]” Ordinarily “cause” to excuse
a default exists if a petitioner can demonstrate that
“some objective factor external to the defense impeded
counsel’s efforts to comply with the State’s procedural
rule.” Id. at 753. Objective factors constituting cause
include interference by officials which makes
5

Due to his alleged mental retardation, Petitioner contends that
the Court should relax the procedural rules regarding cause and
prejudice and fundamental miscarriage of justice. (Doc. 215 at 2-5.)
In Tacho v. Martinez, 862 F.2d 1376, 1381 (9th Cir. 1988), the
court considered and concluded that the petitioner’s mental
condition did not constitute cause. Furthermore, the Court further
notes that Petitioner had counsel during all of his post-conviction
proceedings. See id. The Court addresses infra Petitioner’s
argument regarding allegations of mental retardation and whether
they constitute an excuse in the context of a fundamental
miscarriage of justice.

App. 301
compliance with the state’s procedural rule
impracticable, a showing that the factual or legal basis
for a claim was not reasonably available to counsel, and
constitutionally ineffective assistance of counsel.
Murray v. Carrier, 477 U.S. 478, 488 (1986); see also
Amadeo v. Zant, 486 U.S. 214, 222 (1988) (cause is
established if unavailable evidence was the reason for
the default). “Prejudice” is actual harm resulting from
the alleged constitutional error or violation. Magby v.
Wawrzaszek, 741 F.2d 240, 244 (9th Cir. 1984). To
establish prejudice resulting from a procedural default,
a habeas petitioner bears the burden of showing not
merely that the errors at his trial or sentencing
constituted a possibility of prejudice, but that they
worked to his actual and substantial disadvantage,
infecting the entire proceeding with errors of
constitutional dimension. United States v. Frady, 456
U.S. 152, 170 (1982).
Discussion
Petitioner asserts that he has cause and prejudice
to excuse his failure to present the claim because the
trial court, thru interrelated failures, prevented PCR
counsel from timely presenting it. Specifically, the trial
court failed to authorize funding for a mitigation
specialist, failed to fund a mental health expert until
sentencing proceedings, and then inadequately funded
the court-appointed mental health expert, Dr. Mickey
McMahon, Ph.D. (Doc. 215 at 9-10.) These failures also
prevented sentencing counsel from obtaining an
adequate social history of Petitioner to provide to Dr.
McMahon, which caused Dr. McMahon to conclude that
Petitioner was not mentally retarded. (Id. at 10-11.) Dr.

App. 302
McMahon’s allegedly inaccurate mental retardation
conclusion caused PCR counsel not to actively
investigate Petitioner’s mental health and present
Claim 34 during his initial PCR proceeding. See id. at
11 (citing Forman v. Smith, 633 F.2d 634, 641 (2d
Cir.1980) (observing in dicta that an official’s
intentional or inadvertent misleading statement “that
obscures the opportunity to develop a federal
constitutional violation” may constitute cause to excuse
a procedural default)).
State Official Interference
Cause may be established by demonstrating
interference by state officials that made compliance
with the state procedural rule impracticable. Coleman,
501 U.S. at 753. The external impediment, whether it
be government interference or the reasonable
unavailability of the factual basis for the claim, must
have prevented petitioner from constructing or raising
the claim. See Murray, 477 U.S. at 492.
In this case, nothing prevented Petitioner from
presenting Claim 34 during his initial PCR proceeding.
Even though Petitioner argues that the trial court’s
interrelated failures made compliance with the state
procedural rule impracticable, the sentencing record
shows otherwise. Counsel submitted a sentencing
memorandum specifically discussing that at the age of
9 and 12, Petitioner’s IQ was tested, and that he
recorded low IQ scores of 70 and 77 respectively. (ROAPCR 149 at 7.) Counsel presented Petitioner’s scores in
the context of possible mental retardation and
borderline intellectual functioning. (Id.) Counsel’s
sentencing memorandum chronicled Petitioner’s major

App. 303
difficulties progressing thru different grades in school,
and that at age 14, when he took the California
Achievement Grade Point Test, he scored 3-4 grade
levels below his schoolmates. (Id. at 7-8.) Petitioner’s
presentence report also described him as below average
intelligence and socially immature. (ROA-PCR 171.)
Based on this sentencing record, the trial court’s
actions did not keep Petitioner’s low intelligence from
being discovered, documented and further investigated
as a mental health issue. Rather, counsel presented it
as mitigation at sentencing. (ROA-PCR 149 at 5-8.)
Counsel’s presentation of Petitioner’s low intelligence
and possible mental retardation at sentencing put PCR
counsel on notice that his mental health was at issue
and warranted further investigation. PCR counsel was
also on notice that Arizona required that all allegations
of ineffective assistance be brought during the initial
PCR proceeding. Ariz. R. Crim. P. 32.5. Where the
petitioner had access to the information necessary to
state the claim, the failure to develop and present the
claim will not constitute cause. See Murray, 477 U.S. at
486 (citing Engle v. Isaac, 456 U.S. 107, 133-34 (1982)
(“the mere fact that counsel failed to recognize the
factual or legal basis for a claim, or failed to raise the
claim despite recognizing it, does not constitute cause
for a procedural default”)). On this record, the trial
court’s alleged failures did not impede or prevent PCR
counsel from complying with the state procedural rule.
Next, Petitioner alleges that Dr. McMahon’s official
interference establishes cause. Petitioner contends that
Dr. McMahon was a state actor and that his inaccurate
testing and reporting of Petitioner’s IQ impeded PCR

App. 304
counsel from asserting Claim 34 at his initial PCR
proceeding. (Doc. 215 at 10-12, 17-18.) Petitioner
argues that because Dr. McMahon was authorized by
the court, paid by the State to evaluate his mental
health, and provide a report to the court, his actions
are attributable to the state and constitute “official
interference” if adverse to Petitioner. (Id. at 10.) The
Court disagrees.
The Court need not decide whether Dr. McMahon
was a state actor under these circumstances because
there is no constitutional right implicated even if the
State did provide an ineffective psychologist at
sentencing for purposes of presenting mitigation. See
Harris v. Vasquez, 949 F.2d 1497, 1517-18 (9th Cir.
1991) (rejecting the argument that petitioner had a
constitutional right to a competent mental health
expert at trial or sentencing); see also Coleman, 501
U.S. at 753 (stating that only when counsel is
constitutionally required may attorney error constitute
cause and be imputed to the State) Thus, any alleged
misdiagnosis by Dr. McMahon regarding Petitioner
cannot constitute cause.
Furthermore, Dr. McMahon’s alleged failures did
not impede or prevent PCR counsel from complying
with the state procedural rule. As the Court has
already discussed, the sentencing record gave PCR
counsel notice that Petitioner’s mental health was at
issue and warranted additional investigation. Where
the petitioner had access to the information necessary
to state the claim, the failure to develop and present
the claim will not constitute cause. See Murray, 477
U.S. at 486.

App. 305
Petitioner relies on Parkus v. Delo, 33 F.3d 933 (8th
Cir. 1994), to argue that state officials prevented PCR
counsel from raising Claim 34. (Doc. 215 at 11.) In
Parkus, the habeas petitioner had an extensive history
as a mentally disturbed man who had been raised in
state institutions since the age of four. Id. at 934. Trial
counsel made a request for his childhood mental health
records, but was told by the records custodian that the
records had been destroyed. Id. at 936. As a result,
Parkus’s mental health expert was unable to testify at
trial or at sentencing that Parkus suffered from a
mental disease or defect. Id. He was convicted of firstdegree murder and received the death penalty. Parkus
failed to raise an IAC claim during post-conviction
proceedings. Id. at 937. During habeas proceedings,
however, Parkus obtained his childhood mental health
records (which had not, in fact, been destroyed) and,
based on those records, his mental health expert
submitted an affidavit attesting that Parkus suffered
from a mental disease or defect. Id. at 936. Due to the
missing mental health records, the court concluded
that Parkus did not have notice of his trial counsel’s
ineffectiveness and therefore had adequate cause not to
present the claim. Id. at 938. The Eighth Circuit
decided that there was “some” official interference
which made compliance with the procedural rule
impracticable and ordered an evidentiary hearing. Id.
at 938-39.
The lack of notice counsel had in Parkus is
distinguishable from the facts at issue here. Unlike
Parkus, in this case, there are no missing records.
Based on the sentencing record, PCR counsel was on
notice that Petitioner had two IQ tests documenting

App. 306
low intelligence and another test demonstrating he was
behind his peers in educational development. PCR
counsel was also on notice that the presentence report
indicated that Petitioner displayed low intelligence and
emotional immaturity. Even though Dr. McMahon
reported that Petitioner was not mentally retarded,
PCR counsel was still on notice of the contrast between
Dr. McMahon’s report and the low IQ scores being
reported, as well as the mental health deficiencies
counsel presented as mitigation at sentencing. PCR
counsel was also on notice of his need to investigate
mental health because in Arizona a “slow, dull and
brain-damaged” mental impairment may have a
significant mitigating effect as it may evidence an
inability of the defendant to control his conduct. See,
e.g., Walton v. Arizona, 159 Ariz. 571, 588, 769 P.2d
1017, 1034 (1989). Thus, unlike in Parkus, there was
no official interference preventing PCR counsel from
obtaining the factual basis for an IAC sentencing claim
for presentation during the PCR proceeding.
Petitioner also argues that Perkins v. LeCureux, 58
F.3d 214, 218 (6th Cir. 1995) supports his contention
that PCR counsel did not have the factual basis to raise
Claim 34 due to Dr. McMahon’s report. (Doc. 215 at
12.) In Perkins, a pre-AEDPA case, the court held that
petitioner had cause to bring a new habeas claim in a
successive petition because the facts underlying his
new claim did not arise until years after his initial
habeas proceeding had been concluded. Perkins, 58
F.3d at 218. Petitioner compares his case to Perkins,
arguing that due to Dr. McMahon’s misdiagnosis, the
factual basis of Petitioner’s mental retardation was

App. 307
unavailable to PCR counsel. (Doc. 215 at 12.) The Court
disagrees.
The availability of the factual basis of Claim 34 was
established by the sentencing record. The sentencing
record contained multiple records of low intelligence
and possible mental retardation. These records put
PCR counsel on notice that Petitioner’s mental health
warranted further investigation for possible IAC
allegations during PCR proceedings. See Williams v.
Taylor, 529 U.S. 420, 438-39, 444 (2000) (discussing the
availability of a potential Brady claim since state
habeas counsel was on notice of a psychiatric report, its
possible materiality and the need for further
investigation). Perkins is inapposite.
The Court concludes that neither the trial court’s
actions nor Dr. McMahon’s report prevented PCR
counsel from investigating and timely presenting Claim
34 during his initial PCR proceeding.
Ineffective Assistance of Sentencing Counsel
Next, Petitioner contends sentencing counsel’s
ineffectiveness constitutes cause to excuse the
procedural default. (Doc. 215 at 7, 10-11.) Petitioner
alleges that counsel was ineffective due to his failure to
properly provide background information to Dr.
McMahon prior to his psychological evaluation, which
resulted in Dr. McMahon improperly concluding that
Petitioner was not mentally retarded. (Id. at 11.)
Specifically, counsel should have provided Dr.
McMahon with Petitioner’s educational, vocational, and
medical records prior to his evaluation. (Id. at 13.)

App. 308
Before ineffective assistance of counsel may be
utilized as cause to excuse a procedural default, the
particular ineffective assistance allegation must first
be submitted and exhausted before the state courts as
an independent claim. See Murray, 477 U.S. at 489-90;
Tacho, 862 F.2d at 1381. A petitioner is not entitled to
bring an ineffective assistance claim as cause to excuse
a procedural default when that particular ineffective
assistance allegation itself is defaulted. See Edwards v.
Carpenter, 529 U.S. 446, 451-53 (2000). Here, PCR
counsel did not fairly present this particular IAC
allegation in state court. Therefore, it cannot serve as
cause to excuse the procedural default of Claim 34.
Inadequacy of Arizona’s Post-Conviction Process/
IAC of PCR Counsel
Alternatively, Petitioner argues cause to excuse his
default because Arizona’s post-conviction process was
inadequate to protect his rights due to its failure to
ensure he was appointed competent counsel and
because PCR counsel performed ineffectively. (Doc. 215
at 18-22.)
Although Petitioner contends that Arizona’s PCR
process failed to ensure he was appointed competent
counsel, Petitioner cites no case, and the Court has
found none which holds that a state is required by the
federal constitution to provide counsel in PCR
proceedings. The fact that a state may, “as a matter of
legislative choice,” Ross v. Moffitt, 417 U.S. 600, 618
(1974), provide for counsel in discretionary appeals
following a first appeal of right does not extend the
Sixth Amendment’s guarantee of effective counsel to
discretionary appeals. See Evitts v. Lucey, 469 U.S. 387,

App. 309
394, 397 n.7 (1985); Pennsylvania v. Finley, 481 U.S.
551, 559 (1987) (where a state provides a lawyer in a
state post-conviction proceeding, it is not “the Federal
Constitution [that] dictates the exact form such
assistance must assume,” rather, it is in a state’s
discretion to determine what protections to provide).
Further, the Ninth Circuit has held explicitly that
“ineffective assistance of counsel in [state] habeas
corpus proceedings does not present an independent
violation of the Sixth Amendment enforceable against
the states through the Due Process Clause of the
Fourteenth Amendment.” Bonin v. Calderon, 77 F.3d
1155, 1160 (9th Cir. 1996). Since Petitioner’s PCR
proceeding took place after his appeal of right, it was a
discretionary proceeding that did not confer a
constitutional right to the effective assistance of
counsel. Thus, even assuming that PCR counsel’s
performance did not conform to minimum standards, it
did not violate the federal constitution and cannot
excuse the procedural default.
As to Petitioner’s argument that PCR counsel’s
ineffectiveness establishes cause, IAC can represent
sufficient cause only when it rises to the level of an
independent constitutional violation. Coleman, 501
U.S. at 755. When a petitioner has no constitutional
right to counsel, there can be no constitutional
violation arising out of ineffectiveness of counsel. Id. at
752. There is no constitutional right to counsel in state
PCR proceedings. See Finley, 481 U.S. at 555; Murray
v. Giarratano, 492 U.S. 1, 7-12 (1989) (the Constitution
does not require states to provide counsel in PCR
proceedings even when the putative petitioners are
facing the death penalty); Bonin v. Vasquez, 999 F.2d

App. 310
425, 429-30 (9th Cir. 1993) (refusing to extend the right
of effective assistance of counsel to state collateral
proceedings).
In the context of IAC of PCR counsel, the Ninth
Circuit has considered and rejected the argument that
cause exists to excuse a procedural default where PCR
counsel failed to assert a claim during PCR
proceedings. See Ortiz v. Stewart, 149 F.3d 923, 932
(9th Cir. 1998); Nevius v. Sumner, 105 F.3d 453, 460
(9th Cir. 1996); Moran v. McDaniel, 80 F.3d 1261, 1271
(9th Cir. 1996); Bonin, 77 F.3d at 1158-59.6 Therefore,
PCR counsel’s alleged ineffectiveness does not
constitute cause.
The Court has denied all of Petitioner’s argument
regarding cause. Because Petitioner has not
established cause to excuse the procedural default, the
Court need not analyze prejudice. See Boyd v.
Thompson, 147 F.3d 1124, 1127 (9th Cir.1998).

6

Manning v. Foster, 224 F.3d 1129 (9th Cir. 2000) is not to the
contrary. In Manning, the Ninth Circuit reiterated that the actions
or omissions of PCR counsel cannot constitute cause to overcome
a procedural default. Id. at 1133 (stating that “any ineffectiveness
of Manning’s attorney in the post-conviction process is not
considered cause for the purposes of excusing the procedural
default at that stage”). In Manning, rather, the court held that
where direct appeal counsel actually interfered with the
petitioner’s ability to initiate post-conviction proceedings, such
conduct by constitutionally-entitled counsel may constitute cause
to excuse a procedural default.

App. 311
Discovery
Petitioner contends that he has produced enough
colorable evidence of cause to warrant discovery or an
evidentiary hearing. (See, e.g., Doc. 215 at 6-7.)
Specifically, Petitioner requests discovery in support of
his cause arguments: that sentencing counsel failed to
obtain and provide his necessary social history records
to Dr. McMahon, the failure of the trial court to
properly fund and timely appoint an independent
mental health expert or mitigation specialist, Dr.
McMahon’s misleading diagnosis, the inadequacies of
Arizona’s post-conviction relief system, including
funding limitations and the appointment of postconviction counsel. (Id.) Petitioner also contends that
he is entitled to conduct discovery regarding deceased
PCR counsel, including his bar records, depositions of
those who worked with him, and expert testimony on
the duties of post-conviction counsel. (Doc. 215 at 12,
n.8, 20-22.)
The Court first notes that Petitioner is not
requesting discovery in the context of an exhausted
claim. See, e.g., Bracy v. Gramley, 520 U.S. 899 (1997)
(discussing good cause for discovery in the context of an
exhausted claim). Rather, discovery is sought to
support Petitioner’s various contentions of cause to
excuse the procedural default of Claim 34. However, to
demonstrate cause, the petitioner must demonstrate
some external factor external to the defense impeded
his efforts to comply with the state procedural rule. See
Robinson v. Ignacio, 360 F.3d 1044, 1052 (9th Cir.
2004) (internal citation and quotation omitted). The
Court has already considered and concluded that none

App. 312
of Petitioner’s contentions constituted an external
impediment that excused his failure to raise Claim 34
in a timely manner. Hence, Petitioner cannot justify his
discovery requests as his cause contentions have been
rejected. See Campbell v. Blodgett, 997 F.2d 512, 524
(9th Cir. 1992) (stating that an evidentiary hearing is
not necessary to allow a petitioner to show cause and
prejudice if the court determines as a matter of law
that he cannot satisfy the standard). Therefore,
Petitioner’s requests for discovery are denied.
Fundamental Miscarriage of Justice
If a petitioner cannot meet the cause and prejudice
standard, the Court still may hear the merits of
procedurally defaulted claims if the failure to hear the
claims would constitute a “fundamental miscarriage of
justice.” Sawyer v. Whitley, 505 U.S. 333, 339 (1992).
The fundamental miscarriage of justice exception is
also known as the “actual innocence” exception. “[A]
claim of actual innocence is not itself a constitutional
claim, but instead a gateway through which a habeas
petitioner must pass to have his otherwise barred
constitutional claim considered on the merits.” Herrera
v. Collins, 506 U.S. 390, 404 (1993). There are two
types of claims recognized under this exception: 1) that
a petitioner is “innocent of the death sentence,” or, in
other words, that the death sentence was erroneously
imposed; and 2) that a petitioner is actually innocent of
the capital crime. See Calderon v. Thompson, 523 U.S.
538, 559-60 (1998). To be innocent of the crime itself,
the petitioner must show that “a constitutional
violation has probably resulted in the conviction of one
who is actually innocent[.]” Schlup v. Delo, 513 U.S.

App. 313
298, 327 (1995). The requisite probability requires a
showing “that it is more likely than not that no
reasonable juror would have found petitioner guilty
beyond a reasonable doubt.” Id. To be innocent of a
death sentence, the petitioner must show by clear and
convincing evidence that, but for a constitutional error,
no reasonable juror would have found the existence of
an aggravating circumstance or some other condition of
eligibility for the death sentence under the applicable
state law. Sawyer, 505 U.S. at 336, 345. Under this
standard, a showing of actual innocence refers to those
state-law requirements that must be satisfied to
impose the death penalty. Id. at 348.
In Atkins, 536 U.S. 304, the Supreme Court altered
the death penalty landscape by prohibiting states from
sentencing to death or executing a mentally retarded
person. The Atkins Court specifically reserved to the
states how mental retardation would be defined and
proven. 536 U.S. at 317; State v. Grell, 212 Ariz. 516,
521, 135 P.3d 696, 701 (2006). In the context of a
fundamental miscarriage of justice challenge, clear and
convincing proof that the petitioner is mentally
retarded under state law forecloses a condition of
eligibility for imposition or continued imposition of a
death sentence. See Sasser v. Norris, 553 F.3d 1121,
1126 n.4 (8th Cir. 2009) (applying Arkansas law and
stating that a petitioner is “actually innocent” and thus
ineligible for the death penalty where he demonstrates
that he is mentally retarded).
Actual Innocence of the Death Penalty
Petitioner contends that his mental retardation
renders him ineligible and actually innocent of the

App. 314
death penalty. (Doc. 215 at 24.) Because fundamental
miscarriage of justice is a federal issue, Petitioner
contends that this Court is not bound by the fact
finding or the disposition of his Atkins hearing in state
court that he is not mentally retarded. (Id. at 25.) On
the other hand, Petitioner concedes that determining
actual innocence of the death penalty is determined by
reference to Arizona law. (Doc 219 at 5.)
Both state and federal law are involved in this
Court’s fundamental miscarriage of justice analysis.
Under Sawyer, innocence of the death penalty requires
a proper showing by petitioner that he does not meet
some condition of eligibility for the death penalty under
state law. Sawyer, 505 U.S. at 345. Under Atkins, it is
up to the states to develop “appropriate ways to enforce
the constitutional restriction” upon the execution of the
mentally retarded. Atkins, 536 U.S. at 317. Thus, both
Sawyer and Atkins point this Court to state law to
determine as a condition for eligibility of the death
penalty whether Petitioner is mentally retarded. Yet,
it is under Sawyer that this Court evaluates, based on
the state court record, whether Petitioner has
demonstrated that he is mentally retarded. See Sawyer,
505 U.S. at 348; Winston v. Kelly, 600 F.Supp.2d 717,
735-36 (W.D. Va. 2009), vacated and remanded on other
grounds, 592 F.3d 535 (4th Cir. 2010) (evaluating
whether petitioner demonstrated that was actually
innocent of the death penalty due to mental retardation
in the context of the fundamental miscarriage of justice
exception). Under Sawyer, the Court is not undertaking
a de novo review of Petitioner’s Atkins hearing; rather,
the Court is undertaking a limited review of the record
to assess whether Petitioner demonstrated by clear and

App. 315
convincing evidence that no reasonable factfinder
would have determined that he is not mentally
retarded.
Arizona’s Mental Retardation Statute
In Arizona, similar to Sawyer’s burden of proof, the
statutory scheme requires that the petitioner prove
mental retardation to the trial court by clear and
convincing evidence. Grell, 212 Ariz. at 524, 135 P.3d
at 704 (concluding that Arizona’s burden of proof is not
unconstitutional); A.R.S. § 13-703.02(G) (West 2005).7
Under Arizona law, a petitioner establishes mental
retardation by proving that he meets the statutory
definition, which is “a mental deficit that
involves significantly subaverage general intellectual
functioning, existing concurrently with significant
impairment in adaptive behavior, where the onset of
the foregoing conditions occurred before the [petitioner]
reached the age of eighteen.” A.R.S. § 13-703.02(K)(2).
To establish mental retardation, a petitioner must
prove all three elements, the intellectual functioning
prong, the adaptive behavior prong, and onset before
the age of eighteen. See State v. Roque, 213 Ariz. 193,
227-28, 141 P.3d 368, 402-03 (2006).
Under the intellectual functioning prong,
“‘[s]ignificantly subaverage general intellectual
functioning’ means a full scale intelligence quotient of
seventy or lower.” A.R.S. § 13-703.02(K)(4). The court
is further directed to “take into account the margin of
error for the test administered.” Id. In Roque, the
7

Arizona’s current statute for mental evaluations for capital
defendants is codified at A.R.S. § 13-753.

App. 316
Arizona Supreme Court reiterated that the statute does
not refer to individual IQ sub-tests, but rather employs
a single intelligence quotient, the full scale IQ score.
Roque, 213 Ariz. at 228, 141 P.3d at 403. Because
mental retardation is generally a static mental
condition, full scale IQ testing is relevant both before
and after the age of eighteen. State v. Arellano, 213
Ariz. 474, 479-80, 143 P.3d 1015, 1020-21 (2006).
The standard error of measurement means that an
IQ score can overestimate or underestimate a person’s
true level of intellectual functioning. See Ledford v.
Head, No. 02-CV-1515, 2008 WL 754486 at *8 (N.D.
Ga. March 19, 2008). However, it may be speculative to
conclude that IQ scores receive either a downward
adjustment or an upward adjustment. See Walton v.
Johnson, 440 F.3d 160, 178 (4th Cir. 2006) (noting that
petitioner could only speculate that the standard error
of measurement would lower his IQ score). Moreover,
measurement error is more of a factor when only one
IQ test is given. See Ledford, 2008 WL 754486 at *8.
When more than one IQ test is given and the scores
corroborate each other, the possibility of measurement
error is substantially reduced. Id.
Under the adaptive behavior prong, the statute
requires an overall assessment of the petitioner’s
ability to meet society’s expectations of him; it does not
require a finding of mental retardation based solely on
proof of specific deficits in only a couple of areas. Grell,
212 Ariz. at 529, 135 P.3d at 709. The statute defines
adaptive behavior as “the effectiveness or degree to
which the defendant meets the standards of personal
independence and social responsibility expected of the

App. 317
defendant’s age and cultural group.” A.R.S. § 13703.02(K)(1). In Arellano, 213 Ariz. at 478-80, 143 P.3d
at 1019-21, the Arizona Supreme Court clarified that
behavior after age eighteen is relevant to the adaptive
behavior inquiry, even if the behavior under review
comes from within a prison context. In Arellano, the
court reversed a trial court ruling precluding Arizona
Department of Correction officials from testifying at a
mental retardation hearing regarding the petitioner’s
present adaptive behavior in prison. Id. at 480, 143
P.3d at 1021. In Grell, the court reiterated that the
statute requires a showing of current impairment in
adaptive ability and that an assessment based on
recent interviews is persuasive. Grell, 212 Ariz. at 52728, 135 P.3d at 707-08. Finally, the statute requires the
onset of mental retardation to occur before the age of
eighteen. A.R.S. § 13-703.02(K)(2).
Petitioner’s Atkins Proceeding
In support of his claim of innocence of the death
penalty, Petitioner filed numerous exhibits from his
2005 Atkins proceeding where he sought postconviction relief. (Doc. 215, Ex. 1-84.)
In 2005, Petitioner filed a successive PCR petition
alleging that he is mentally retarded. (Doc. 228 at 210244.) He supported his petition with scores from two
full scale IQ tests given to him at school, where his IQ
was reported at 70 and 77. (Id.) Petitioner also
attached to his petition a declaration from Dr. Ricardo
Weinstein, Ph.D., a psychologist who opined that he
was mentally retarded. (Id. at 246-300.)

App. 318
Under the statute, if a petitioner’s IQ is tested at 75
or less, the court appoints additional experts to
evaluate the petitioner and will hold a subsequent
hearing to determine whether petitioner is mentally
retarded. See A.R.S. § 13-703.02(D), (G); State ex rel
Thomas v. Duncan, 222 Ariz. 448, 451, 216 P.3d 1194,
1197 (App. 2009). In a post-trial evaluation of mental
retardation, each party selects one psychological expert
to evaluate and report to the court their findings on
whether the petitioner is mentally retarded. See A.R.S.
§ 13-703.02(D); State v. Cañez, 205 Ariz. 620, 626, 74
P.3d 932, 938 (2003) (because the statutory procedures
focus on a pre-trial mental retardation evaluation, in a
post-trial setting, courts utilize the statutory
procedures as applicable). In addition, the statute
allows appointment of a third psychologist, appointed
on behalf of the court, not the state or the petitioner.
See id. The PCR court appointed Dr. Ricardo Weinstein
for Petitioner, Dr. Sergio Martinez for the State and
Dr. John Toma, on behalf of the court. (Doc. 228 at
504.)
On November 25, 2005, Dr. Toma submitted his
report to the court. (Id. at 1875-1884.) Regarding
intellectual functioning, Dr. Toma administered the
Wechsler Adult Intelligence Scales-Third Edition
(“WAIS III”) to Petitioner on November 9, 2005.
Petitioner’s full scale IQ for the test was 77. (Id. at
1878.) Regarding adaptive behavior, Dr. Toma used the
Adaptive Behavior Scale–Residential and Community:
Second Edition (“ABS-RC:2”). (Id. at 1880.) Dr. Toma
reviewed all of Petitioner’s childhood records but also
focused on Petitioner’s current level of functioning and
concluded that he showed no significant deficits in

App. 319
adaptive functioning. (Id. at 1880-84.) Dr. Toma
concluded that Petitioner did not meet the statutory
definition for mental retardation. (Id. at 1884.)
On January 20, 2006, Dr. Martinez submitted his
report to the court. (Id. at 2396-2412.) Regarding
intellectual functioning, Dr. Martinez administered
WAIS III to Petitioner on January 11, 2006, reporting
a full scale IQ score of 87. (Id. at 2404.) Dr. Martinez
also administered the Reynolds Intellectual
Assessment Scales (“RIAS”) to Petitioner, with a score
of 91. (Id. at 2403.) Regarding adaptive behavior, Dr.
Martinez utilized the Adaptive Behavior Assessment
System-II (“ABAS-II”). (Id. at 2405.) Based on
Petitioner’s self-report and an extensive review of
background materials, Dr. Martinez concluded that
Petitioner demonstrated low average scores, not
significant impairment scores in adaptive functioning
testing. (Id. at 2408-09.) Dr. Martinez concluded that
Petitioner did not meet the statutory definition of
mental retardation. (Id. at 2411.)
On February 14, 2006, Dr. Weinstein submitted his
report to the court. (Id. at 1103-1135.) Regarding
intellectual functioning, Dr. Weinstein administered
the WAIS III to Petitioner on July 29, 2004, with a full
scale IQ score of 70. (Id. at 1111.) On November 11,
2004, Dr. Weinstein administered the WoodcockJohnson Intelligence Test-Third Edition (W-J III) to
Petitioner, with a full scale IQ score of 71. (Id. at 1112.)
Dr. Weinstein also reported that Petitioner’s two
school-age IQ tests utilized the Wechsler Intelligence
Scale for Children (“WISC”), scoring a 70 in 1967 and
a 77 in 1969. (Id. at 1122.) Dr. Weinstein also utilized

App. 320
the ABAS-II to evaluate adaptive behavior. (Id. at
1125-27.) Dr. Weinstein had Richard Garcia,
Petitioner’s step-father, rate Petitioner’s adaptive
behavior utilizing the ABAS-II. Dr. Weinstein
identified a number of childhood adaptive behavior
deficits based upon other interviews and declarations
from Petitioner’s family and friends regarding his
formative years. (Id. at 1123-1125.) Dr. Weinstein
identified deficits in conceptual, social, and practical
adaptive behavior skills. (Id.) Additionally, he found
deficits in Petitioner performing major activities for
daily living. (Id.) Dr. Weinstein concluded that
Petitioner met the statutory definition of mental
retardation. (Id. at 1127.)
Although not appointed by the court, on February
24, 2006, Dr. Marc Tasse, a recognized mental
retardation expert, submitted a report on behalf of
Petitioner. (Id. at 2425-2445.) Dr. Tasse did not
administer an IQ test to Petitioner, but reviewed the
intelligence testing that had been done. (Id. at 2432.)
Dr. Tasse opined that the RIAS test utilized by Dr.
Martinez was unreliable, that there would be a
significant practice effect on the last WAIS III test
administered by Dr. Martinez due to the short eight
week duration between the last time that Petitioner
had taken the same test, and that when all scores are
adjusted for the “Flynn Effect,”8 Petitioner meets the

8

According to the Flynn Effect theory, the passage of time inflates
full scale IQ test scores by approximately one-third to two-thirds
of a point per year since the normalization of the particular test in
question. The premise of the Flynn Effect theory is that IQ tests
that are not renormed to take rising IQ scores into account will

App. 321
statutory definition of significant subaverage
intellectual functioning. (Id. at 2434-36.) Dr. Tasse
utilized the ABAS II to administer an adaptive
behavior test to Petitioner. (Id. at 2436.) Dr. Tasse
concluded that Petitioner was significantly impaired in
adaptive functioning, with onset before the age of
eighteen. (Id. at 2443.) Finally, Dr. Tasse concluded
that Petitioner was mentally retarded under the
statutory definition. (Id. at 2445.)
The PCR court conducted an eight-day evidentiary
hearing. Dr. Weinstein and Dr. Tasse testified on
behalf of Petitioner. Dr. Martinez testified for the
State, and Dr. Toma testified on behalf of the court.
The following persons also testified, Petitioner’s Aunt,
Eloise Arce, and Phoenix School District Psychologists
Sidney Wilson and Gloria McConkey. Petitioner
formally waived his right to be present at the hearing
before the PCR court.
Intellectual Functioning
At the hearing, the experts testified that the WAIS
III was the most widely used IQ test. (See, e.g., Doc.
228 at 4797.) The third edition of the test is a 1997
revision of the second edition. (Id. at 5070.) It is an
individually administered test designed to assess the
intelligence of individuals ranging in age from 16 to 89
years. (Id.) Three experts tested Petitioner utilizing the
WAIS III. (Id. at 8728.) Dr. Tasse testified that it was
overstate a test taker’s score. Once calculated, these amounts are
subtracted from the full scale IQ score before applying the
standard margin of error. See, e.g., In Re Salazar, 443 F.3d 430,
433 (5th Cir. 2006).

App. 322
appropriate to adjust the WAIS III administered by Dr.
Martinez by five points downward due to practice effect
because he administered the test to Petitioner within
one year of the previous time that WAIS III was
administered. (Id. at 5251-52, 5255, 5265.) Dr.
Martinez alternatively administered the RAIS, but Dr.
Tasse discounted its use because it is a fairly new test
and not as comprehensive as WAIS III. (Id. at 2434-36.)
Dr. Tasse testified that the following full scale IQ
scores were valid: 70, 77, 70, 71, 77 and 82 (after
receiving the five point reduction for practice effect).
(Id. at 5250-51.)
The PCR court throughly reviewed and discussed
the evidence regarding the intellectual functioning
prong, as follows:
Full Scale I.Q. Testing
The Defendant has failed to establish by
clear and convincing evidence or by a
preponderance of the evidence that he suffers
from “significantly sub average general
intellectual functioning” which means a “full
scale intelligence quotient (IQ) of seventy or
lower.” A.R.S. § 13-703.02(G), (K)(2) & (4).
Beginning in February of 1967, when he was
9 years of age, through January of 2006, when
he was 38 years of age, the Defendant has been
given six full-scale IQ tests, as well as several
less thorough IQ tests. The six tests included
two WISC tests, a Woodcock-Johnson, 3rd edition
test (W-J III) and three WAIS III tests. In each
test, except for the WAIS-III test administered

App. 323
by Dr. Martinez on January 11, 2006, where the
practice effect skewed and raised the score to 87,
the Defendant’s IQ was determined to be 70, 77,
70, 71 and 77. . . . Applying the accepted “margin
of error for the tests administered,” it is 95
percent certain that the Defendant’s full scale
IQ is within the range of 63 to 82. This
consistency in IQ test scores over [more than a]
38 year period of time, especially on the “gold
standard” WISC and WAIS III tests,FN1 compels
the conclusion that the Defendant has failed to
establish by clear and convincing evidence or by
a preponderance of the evidence that his IQ is 70
or lower.
FN 1.
The court agrees with Dr. Marc
Tasse that these tests were properly
administered and scored.
Flynn Effect:
Though it has considered the “Flynn Effect”
in determining the defendant’s IQ, the Court is
not persuaded that it is required to apply it to
adjust downward each of the six full scale test
IQ scores for alleged test obsolescence. See
exhibits 223 and 210, where the Flynn Effect is
and is not applied to the various IQ test scores.
As shown by Exhibit 223, the defendant’s expert,
Dr. Marc Tasse, applies the Flynn Effect, as well
as the practice effect to the January 11, 2006
test, in finding that the Defendant’s IQ is 70 or
lower (these Flynn Effect adjusted scores are 64,
70, 69, 74 and 78 respectively). Although the
2005 AAMR User’s Guide, Exhibit 59, directs

App. 324
that the Flynn Effect, standard error of
measurement and practice effect, all be used
when scoring the WAIS-III test to determine a
person’s IQ, the Court concludes that use of
the Flynn Effect is not mandated by the statute
and is not part of the “current community,
nationally, and culturally accepted . . .
psychological and intelligence testing
procedures” that must be used when scoring all
full scale IQ tests. A.R.S. § 13-703.02(E)FN2
FN 2.
Although the Flynn Effect was
widely known when A.R.S. § 13-703.02
was enacted in 2001, and when Atkins
was decided in 2002, it was not adopted or
discussed by either. Recently, some
appellate courts have directed that the
trial court consider it when determining a
person’s IQ, Green v. Johnson, [No. CIVA
2:05CV340, 2006 WL 3746138 (E.D. Va.
Dec. 15, 2006)]; Walton v. Johnson, 440
F.3d 160, 176-178 (4th Cir. 2006) and
Walker v. True, 399 F.3d [3]15, 322-328
(4th Cir. 2005), while other courts have
rejected its application absent statutory
authorization. See Bowling v. Kentucky,
163 S.W.3d 361, 375 (2005) and cases
cited therein.
In fact, Dr. Weinstein, a defense expert, did
not adjust the full-scale IQ score for the Flynn
Effect in his 2004 Declaration and in his 2006
report to the court. In addition, Dr. Toma, the
court-appointed expert, did not use the Flynn

App. 325
Effect in scoring his testing of the defendant and
testified that such was not required for those
tests.
In addition, the Flynn Effect is not part of the
“margin of error . . .” calculation that A.R.S.
§ 13-703.02(K)(4) and the current WAIS Scoring
Manual require to be used in scoring the WAISIII tests administered in 2004, 2005 and 2006,
and was not used when the WISC tests were
given to the Defendant as a child in 1967 and
1969. Instead the manual merely directs that a
standard error of measurement of ± 7 be applied
in scoring the 1967 and 1969 WISC tests, and
that a standard error of measurement of ± 5 be
applied for W[AIS]-III tests given in 2004, 2005
and 2006.
In sum, the defendant has failed to show
by clear and convincing evidence or a
preponderance of evidence that he possesses
“significant sub average general intellectual
functioning,” as defined and required by A.R.S.
§ 13-703.02(G) & (K)(2) & (4).FN3
FN 3.
If the Flynn Effect was required
to be used in scoring these tests, the court
finds that the defendant has proved by a
preponderance of the evidence that his
full scale IQ is 70 or lower.
(Id. at 3828-30.)

App. 326
Intellectual Functioning Discussion
Under Sawyer, the Court’s limited review is to
assess whether Petitioner demonstrated by clear and
convincing evidence that no reasonable fact finder
would have determined that he is not mentally
retarded. According to Dr. Tasse’s testimony at the
evidentiary hearing, there were six valid full scale IQ
scores posted for Petitioner, 70, 77, 70, 71, 77 and 82.
(Id. at 5250-51.) These full scale IQ scores are
represented in the following chart.9
Date of
Administrat
ion

IQ Test and
Administrator

Results
Obtained

Standard
Margin of
Error

2/14/1967

WISC
(Wilson)

FSIQ = 70

63 to 77

10/6/1969

WISC
(McConkey)

FSIQ = 77

70 to 84

7/29/2004

WAIS-III
(Weinstein)

FSIQ = 70

65 to 75

GIA = 71

67 to 75

11/11/2004 W-J III
(Weinstein)

9

The PCR court utilized the following margin of error calculations
for the IQ tests–a standard error of measurement of ± 7 for scoring
the 1967 and 1969 WISC tests, and a standard error of
measurement of ± 5 for scoring the WAIS III tests. (Id. at 3830.)
Excluding any correction for the alleged Flynn Effect, Dr. Tasse
testified that the margin of error range for the WJ-III test was 67
to 75. (Id. at 5270.)

App. 327
11/9/2005

WAIS-III
(Toma)

FSIA = 77

72 to 82

1/11/2006

WAIS-III
(Martinez)

FSIQ = 82
(after 5
point
deduction)

77 to 87

Based on the evidence, Petitioner had two full scale
IQ scores that met the statutory requirement for
mental retardation and four scores that did not meet
the statutory requirement. A reasonable factfinder
could easily find Petitioner’s four IQ scores over 70
more persuasive than his two scores of 70 or below. See
Winston, 600 F. Supp.2d at 736 (concluding that the
petitioner failed to establish mental retardation in the
context of a fundamental miscarriage of justice inquiry
because his three scores over 70 were more persuasive
than his one score below 70).
When accounting for margin of error, as this Court
has already noted, it is necessarily speculative to
conclude that Petitioner’s IQ scores should receive
either a downward adjustment or an upward
adjustment. See Walton, 440 F.3d at 178 (stating that
petitioner could only speculate that the standard error
of measurement would lower his IQ score); see also
Winston, 600 F. Supp.2d at 729 (“there is no basis in
practice for using [standard error of measurement] to
find that an individual’s true IQ falls in the range
below the earned score on a given IQ test because it
was equally likely that the test-taker’s true IQ could
fall in the range above the earned score.”). In review of
Dr. Tasse’s testimony he made the same point at the

App. 328
evidentiary hearing. During cross-examination about
Petitioner’s IQ score on WJ-III, Dr. Tasse reiterated his
contention that Petitioner’s full scale IQ score of 71
should be adjusted downward for the Flynn Effect to
69. (Doc. 228 at 5261-62.) Dr. Tasse was then
questioned about margin of error and its effect on
Petitioner’s IQ score.
State’s Attorney: This test doesn’t establish that
his IQ falls below 70?
Dr Tasse: Yes, it does, in my opinion. . . . The
Woodcock-Johnson III, it established his IQ is below
70.
State’s Attorney: The range is 65 to 74; correct?
Dr. Tasse: Yes.
State’s Attorney: Okay. Explain your position?
Dr. Tasse: The GIA is 69; that is below 70.
(Doc. 228 at 5263.) Based on the testimony of
Petitioner’s own expert, Dr. Tasse agreed with what
this Court previously recognized–that the most
important number in the range is the earned full scale
IQ score. A reasonable factfinder could reject the
factual assertion that Petitioner’s full scale IQ scores
should be adjusted downward based on standard
margin of error. See Winston, 600 F. Supp.2d at 736.
Petitioner contends, however, that the Court should
disregard the state court’s conclusion regarding the
Flynn Effect, utilize it to adjust downward his full scale
IQ scores, and conclude that he has adequately proven
mental retardation. (Doc. 215 at 24.)

App. 329
Dr. Tasse indicated that there were six valid full
scale IQ scores posted for Petitioner, 70, 77, 70, 71, 77
and 82. (Id. at 5250-51.) According to Dr. Tasse, the full
scale IQ scores should be further reduced for the Flynn
Effect, recommending the six scores be reduced to, 64,
70, 69, 67, 74 and 78. (Id. at 8801.) Drs. Toma and
Martinez disagreed with Dr. Tasse’s testimony
regarding whether the Flynn Effect should be applied
to reduce individual full scale IQ scores. (Id. at 550910; 5568-69.) Drs. Toma and Martinez both testified
that it is not their clinical practice to reduce full scale
IQ scores for the Flynn Effect. (Id.)
For a number of reasons, the Court concludes that
there is fair support in the record not to factor in the
Flynn Effect to reduce Petitioner’s full scale IQ scores.
First, Arizona’s mental retardation statute does not
indicate that the Flynn Effect should be applied to full
scale IQ scores. Second, there is no Arizona precedent
indicating that the Flynn Effect should be applied.
Third, in Dr. Tasse’s testimony, he conceded that the
WAIS III administrative manual does not recommend
deducting points from an IQ test to factor in for the
Flynn Effect. (Doc. 228 at 5357-59.) Fourth, the experts
at the hearing did not all agree that individual IQ
scores should be adjusted downward for the Flynn
Effect. (Id. at 5250-51.) Finally, other courts have
arrived at the same conclusion that the Flynn Effect
need not be factored in to reduce a full scale IQ score.
See, e.g., Winston, 600 F. Supp.2d at 736 (stating that
a reasonable factfinder could reject the factual
assertion that full scale IQ scores should be adjusted
downward for the Flynn Effect).

App. 330
Under Sawyer, Petitioner has failed to establish by
clear and convincing evidence that no reasonable
factfinder would have determined that his full scale IQ
is not 70 or lower. Therefore, he has failed to establish
the significant subaverage general intellectual
functioning prong of the mental retardation statute.
See A.R.S. § 13-703.02(K)(2). Even though Petitioner
must establish all three prongs of the statute in order
to be found mentally retarded, the Court will proceed
to discuss the adaptive behavior prong and onset before
age 18.
Adaptive Behavior
In Petitioner’s fundamental miscarriage of justice
arguments, although he generally alleged that his
mental retardation renders him actually innocent of
the death penalty, his only specific argument regarding
adaptive behavior was that neither Dr. Toma nor Dr.
Martinez utilized established diagnostic methods to
assess adaptive behavior. (Doc. 215 at 24-25.)
The PCR court throughly reviewed and discussed
the evidence regarding Petitioner’s adaptive behavior,
as follows.
The court further finds that the Defendant
has proved by a preponderance of the evidence,
but not by clear and convincing evidence, that
throughout his childhood and adult life he has
suffered from significant impairment in adaptive
behavior in meeting the standards of personal
independence and social responsibility expected
of a person of his age and cultural group. A.R.S.
13-703.02(K)(1). All experts agreed that the

App. 331
AAMR [American Association on Mental
Retardation] Users Guide, 2002 edition, provides
the “current community, nationally, and
culturally accepted…procedure”for evaluating a
person’s adaptive behavior, as required by
A.R.S. 13-703.02(E). In essence, this requires
that the experts investigate and determine a
defendant’s conceptual, social and practical
adaptive behavior and skills in the context of his
or her behavior in the community. However, the
court can also consider a defendant’s
institutional behavior in determining whether
he has significant adaptive behavior deficits. See
State v. Arellano (Appelt) [sic], 213 Ariz. 474,
¶¶ 14-23 (2006), where the court held that,
pursuant to A.R.S. 13-703.02(K), the trial court
has the discretion to consider defendant’s adult
institutional behavior, including his
communication, social and interpersonal skills,
and work, leisure and health habits, in
determining the existence of adaptive behavior
deficits. This behavior is especially relevant in
this case, where the defendant has spent nearly
his entire his adult life in prison before and after
he committed these murders in1989. Finally, the
experts agree that the Adaptive Behavior
Assessment System, 2d edition, (ABAS-II) test is
the most appropriate and accepted formal
assessment tool for determining whether the
Defendant has significant adaptive behavior
deficits.
Viewed in this context, the Court agrees in
part with the findings of Drs. Weinstein and

App. 332
Tasse, that the Defendant has significant
adaptive behavior deficits as defined by A.R.S.
13-703.02(K)(1), particularly in the area of
conceptual, social, and practical skills. As
detailed in their reports and testimony, both
experts investigated all aspects of the
defendant’s life before and after turning 18 years
of age, including his institutional behavior. In
addition to reviewing the testimony of the
mitigation witnesses at the 1990 aggravation
and mitigation hearing, they also interviewed
several family members who were close to the
Defendant in his formative years when he grew
up in Phoenix and in southern California. They
also considered sworn declarations from
individuals who were familiar with the
Defendant’s behavior in non-institutional and
institutional settings. The defendant also
presented the testimony of Eloise Arce, an aunt
who cared for him for about18 months until age
three and who also observed him in his youth,
about his maladaptive conduct during his
childhood years in Phoenix. This information
confirmed, as detailed in the testimony and
reports of Drs. Weinstein and Tasse, that
although the Defendant as a young boy was a
good care giver to his younger siblings in the
absence of their alcoholic mother, he showed
many symptoms of very slow and delayed
development of conceptual, social and practical
skills. Finally, Dr. Tasse, unlike Drs. Toma and
Martinez, correctly administered the ABAS-II
test, the most appropriate adaptive behavior
test, to the Defendant and Richard Garcia, his

App. 333
stepfather from approximately 1966 to 1973.
This test, together with the independent
evidence of the defendant’s non-institutional
behavior, establishes probable cause to believe
that since childhood the Defendant has
displayed significant adaptive behavior
impairments in conceptual, social and practical
skills.
The Court is unable to conclude, however,
that there is clear and convincing evidence that
the defendant has significant adaptive behavior
deficits. A more complete picture of his conduct
in his formative years as a child and teenager,
as well as his conduct in prison over nearly all of
the last twenty-six years, shows that the
defendant has regularly shown adequate
personal independence and social responsibility
expected of a person of his age and cultural
group, including proper conceptual, social and
practical skills. In contrast to numerous hearsay
declarations of Richard Garcia and others,FN6
and the somewhat conflicting and unreliable
testimony of Eloise Arce about certain adaptive
behavior deficits of the defendant, the testimony
at the October 19, 1990 and November 30, 1990
sentencing mitigation hearing of Erlinda
Martinez, his aunt and the sister of the
defendant’s mother, and of two of the
defendant’s immediately younger sisters, shows
that when the defendant grew up in Phoenix he
exercised personal independence and proper
conceptual, social and practical skills for a
person of his age and cultural group. Before he

App. 334
became a teenager, and in the frequent absence
of his alcoholic mother, he was described as the
“man of the family,” who did most of the cooking,
cleaning and caring for his younger siblings. In
addition, they attributed his poor school
performance and being “kept back” in school to
his frequently missing school and constantly
changing schools due to his mother being
regularly on the move around Phoenix. This
nomadic existence is corroborated by the school
records and Joint Chronology timeline submitted
by the parties, which shows that over a sevenyear time frame from September of 1963 to
September of 1970, the defendant attended at
least ten different schools, was regularly absent
and was twice held back.
FN 6.
Most of the critical fact
witnesses relied on by the defendant’s
experts were not called to testify and thus
not subjected to cross-examination.
In 1971, at approximately the age 14, the
defendant moved to El Monte, California with
his mother and her husband, Richard Garcia.
Three years later the defendant and his mother
returned to Arizona without Richard. The
defendant then married and fathered two sons,
and was gainfully employed as a cook and
dishwasher at various locations before being
sent to prison for the first time in April of 1979.
The defendant’s conduct in prison, where he
has been since April of 1979 except for only two
short periods of release, further compels the

App. 335
conclusion that the defendant has failed to show
by clearing [sic] and convincing evidence that he
has significant adaptive behavior deficits.
Department of Corrections officers who
supervised the defendant from 1987 to 1989 at
Florence, testified that the defendant worked as
a porter in the officers dining room and prepared
and served food to DOC officers. His supervisors
described him as a self-starter, who was polite,
acted with responsibility, and was trusted and
skilled. At one point, he was promoted and put
in charge of running the morning shift at the
dining room.
In concluding that the defendant has failed to
show by clear and convincing evidence that he
has significant adaptive behavior deficits, the
court agrees with Dr. Toma’s opinion that the
defendant does not suffer from significant
adaptive behavior deficits and that as an adult
the defendant has consistently displayed the
ability to engage in independent and selfdirected thinking, planning and conduct.
Although Dr. Toma did not fully administer the
ABAS-II test to formally determine if the
defendant had significant impairment in
adaptive behavior, his opinion is credible
because it is based on numerous contacts with
the defendant during interviews and I.Q.
testing, and his evaluation of the defendant’s
well documented conduct during nearly 26 years
in prison from 1979 to 1989 and then from 1991
to 2006.FN8

App. 336
FN 8
This conduct is portrayed in the
voluminous prison and inmate records he
reviewed, exhibits 138-209 not in
evidence.
In sum, although the conflicting evidence
shows by a preponderance of the evidence that
the defendant has significant adaptive behavior
deficits, the court is unable to conclude that the
evidence of these deficits is clear and convincing.
(Doc. 228 at 3830-3833 (footnote 7 omitted.)
Adaptive Behavior Discussion
The Court’s limited Sawyer review evaluates
whether Petitioner established by clear and convincing
evidence that no reasonable factfinder would have
determined that he lacks significant adaptive behavior
deficits. In Apelt, 213 Ariz. at 478-80, 143 P.3d at 101921, the Arizona Supreme Court clarified that it is
proper to consider a petitioner’s institutional behavior
in determining whether he has significant adaptive
behavior deficits. Further, the controlling statute
defines mental retardation as including current
impairment in adaptive ability. See A.R.S. § 13703.02(K); Grell, 212 Ariz. at 527, 135 P.3d at 707.
Dr. Toma concluded, based on his interview with
Petitioner, and his review of Petitioner’s institutional
records as well as childhood records, that Petitioner
does not have significant adaptive behavior deficits.
(Doc. 228 at 1884.) Dr. Toma further concluded that as
an adult Petitioner had consistently displayed the
ability to engage in independent, self directed thinking,
citing his ability to utilize the prison library,

App. 337
maintaining correspondence with pen pals, defending
his rights in prison based on prison regulations,
dealing with monies in his prison account, and other
various correspondence with the prison. (Id. at 5519-24;
1881-84.) Dr. Martinez concluded, based on a current
interview and assessment of Petitioner’s adaptive
behavior, that Petitioner did not have significant
adaptive behavior deficits. (Id. at 2408-09.) In contrast,
both Dr. Tasse and Dr. Weinstein focused on Petitioner
formative and early teen-age years in concluding that
he did have significant adaptive behavior deficits. (Id.
at 1123-25, 2443.)
The PCR court reviewed all of the evidence taken
from the Atkins hearing and from Petitioner’s
mitigation hearing prior to sentencing and concluded
that Petitioner did not have significant adaptive
behavior deficits. (Id. at 3830-33.) Based on this
evidence, a reasonable fact finder could conclude that
Petitioner does not currently have significant adaptive
behavior deficits. See Winston, 600 F. Supp.2d at 736
(concluding that Petitioner failed to establish adaptive
behavior deficits due in part to differing expert
testimony).
Petitioner’s main argument against this conclusion
is that neither Dr. Toma nor Dr. Martinez utilized
established diagnostic methods to assess his adaptive
behavior. (Doc. 215 at 24-25.) Petitioner is referring to
Dr. Toma utilizing an adaptive behavior scale that was
not specifically designed to assess mental retardation
and Dr. Martinez, although properly utilizing the
ABAS-II, only relying on Petitioner’s self report of his
adaptive behavior, and not conducting independent

App. 338
interviews dating back to Petitioner’s non-institutional
behavior.
The PCR court reviewed this contention and
discounted the opinions of Drs. Toma and Martinez
regarding Petitioner’s pre-institutional adaptive
behavior. (Doc. 228 at 3831.) Citing agreement with the
reports of Drs. Weinstein and Tasse, the court found
that Petitioner, in his formative years as a child and
teenager displayed significant adaptive behavior
deficits. (Id.) However, under the statute, adaptive
behavior is measured by an overall assessment of the
Petitioner’s abilities; it is not based only on
administration of adaptive behavior scales. See Grell,
212 Ariz. at 529, 135 P.3d at 709. The Grell court also
emphasized that the statute defines mental retardation
as including current impairment in adaptive ability. Id.
at 527, 135 P.3d at 707 (stating that assessments based
on recent interviews of the petitioner are persuasive).
After reviewing all of the adaptive behavior
evidence, both pre-institutional and institutional
behavior, Dr. Toma and Dr. Martinez concluded that
Petitioner did not currently have significant adaptive
behavior deficits. (Doc. 228 at 5519-24; 1881-84 (Toma);
2408-09 (Martinez).) Concurring, the court concluded
that “as an adult the [petitioner] has consistently
displayed the ability to engage in independent and selfdirected thinking, planning, and conduct.” (Id. at 3833.)
After reviewing all of this evidence, under Sawyer,
Petitioner has failed to establish by clear and
convincing evidence that no reasonable fact finder

App. 339
would have determined that he lacks significant
adaptive behavior deficits.10
Conclusion
Under Sawyer, Petitioner cannot demonstrate that
no reasonable juror would have found him ineligible for
the death penalty due to his mental retardation.
Accordingly, his claim of actual innocence of the death
penalty cannot excuse the procedural default of Claim
34.
Actual Innocence of the Capital Crime
Petitioner argues that a fundamental miscarriage of
justice will occur if Claim 34 is not resolved on the
merits because he is actually innocent of the capital
crime due to new evidence of brain damage
demonstrating that he would be unable to premeditate,
an essential element of his first degree murder charge.
(Doc. 215 at 25; 219 at 7-8.)
In Schlup, the Court discussed the fundamental
miscarriage of justice exception in the context of a
claim of actual innocence of the capital crime. 513 U.S.
at 324-27. In Schlup, the petitioner accompanied his
actual innocence evidence with an assertion of
constitutional error at trial. Id. at 315. The Schlup
Court ruled that if a petitioner “presents evidence of

10

Petitioner raised no argument regarding the statutory
requirement that onset of adaptive behavior deficits occur before
the age of eighteen. The PCR court concluded that Petitioner
established by a preponderance of the evidence that onset of
adaptive behavior deficits occurred before he reached the age of
eighteen, citing A.R.S. § 13-703.02(K)(2). (Doc. 228 at 3833.)

App. 340
innocence so strong that a court cannot have confidence
in the outcome of the trial unless the court is also
satisfied that the trial was free of nonharmless
constitutional error, the petitioner should be allowed to
pass through the gateway and argue the merits of his
underlying claims.” Id. at 316. To establish the
requisite probability, the petitioner must prove with
“new reliable evidence” that “it is more likely than not
that no reasonable juror would have found petitioner
guilty beyond a reasonable doubt.” Id. at 324, 327.
However, even if Petitioner does have new evidence
indicative of brain damage, “Arizona does not allow
evidence of a defendant’s mental disorder short of
insanity either as an affirmative defense or to negate
the mens rea element of a crime.” State v. Mott, 187
Ariz. 536, 541, 931 P.2d 1046, 1051 (1997). A defendant
cannot present evidence of mental disease or defect to
show that he was incapable of forming a requisite
mental state for a charged offense. Id. at 540, 931 P.2d
at 1050; see Clark v. Arizona, 548 U.S. 735 (2006)
(upholding the constitutionality of the Mott rule and
finding that the exclusion of expert testimony
regarding diminished capacity does not violate due
process); see also Cook v. Schriro, 538 F.3d 1000, 1029
(9th Cir. 2008) (holding that in the context of a
fundamental miscarriage of justice challenge, evidence
of voluntary intoxication cannot negate premeditation
under Arizona law). Thus, because Petitioner’s new
evidence of brain damage would not negate
premeditation, Petitioner’s actual innocence of the
capital crime claim fails; it is not more likely than not
that no reasonable juror would have convicted him of
the crime in light of the new evidence.

App. 341
Finally, Petitioner argues that all of the new
mitigation evidence that he obtained at his Atkins
hearing should be considered to determine whether on
the basis of the additional mitigation, he has
established the fundamental miscarriage of justice
exception. (Doc. 215 at 24; 219 at 5-6.) This argument
was specifically rejected in Sawyer. The Sawyer Court
rejected the argument that the fundamental
miscarriage of justice exception should be extended
beyond the elements of eligibility for a capital sentence
to the existence of additional mitigating evidence. 505
U.S. at 345. The Court reasoned:
A federal district judge confronted with a claim
of actual innocence may with relative ease
determine whether a submission, for example,
that a killing was not intentional, consists
of credible, noncumulative, and admissible
evidence negating the element of intent. But it is
a far more difficult task to assess how jurors
would have reacted to additional showings of
mitigating factors, particularly considering the
breadth of those factors that a jury under our
decisions must be allowed to consider. . . . the
“actual innocence” requirement must focus on
those elements that render a defendant eligible
for the death penalty, and not on additional
mitigating evidence that was prevented from
being introduced as a result of a claimed
constitutional error.
Sawyer, 505 U.S. at 345-46, 347.

App. 342
PENDING MOTION
Respondents have asked the Court to strike the
exhibits that Petitioner filed in support of his
arguments regarding cause and prejudice and
fundamental miscarriage of justice. (Doc. 220.)
Respondents’ motion will be summarily denied; the
exhibits Petitioner filed in support of his memorandum
regarding cause and prejudice and fundamental
miscarriage of justice are certainly relevant to this
Court’s consideration of his arguments.
CERTIFICATE OF APPEALABILITY
In the event Petitioner appeals from this Court’s
judgment, the Court has evaluated the claims within
the petition for suitability for the issuance of a
certificate of appealability. See 28 U.S.C. § 2253(c);
Fed. R. App. P. 22(b)(1); Rule 11(a), 28 U.S.C. foll.
§ 2254.
Rule 22(b) of the Federal Rules of Appellate
Procedure provides that an applicant cannot take an
appeal unless a certificate of appealability has been
issued by an appropriate judicial officer. Rule 11(a), 28
U.S.C. foll. § 2254, provides that the district judge
must either issue or deny a certificate of appealability
when it enters a final order adverse to the applicant. If
a certificate is issued, the court must state the specific
issue or issues that satisfy 28 U.S.C. § 2253(c)(2).
Pursuant to 28 U.S.C. § 2253(c)(2), a COA may issue
only when the petitioner “has made a substantial
showing of the denial of a constitutional right.” This
showing can be established by demonstrating that
“reasonable jurists could debate whether (or, for that

App. 343
matter, agree that) the petition should have been
resolved in a different manner” or that the issues were
“adequate to deserve encouragement to proceed
further.” Slack v. McDaniel, 529 U.S. 473, 484 (2000)
(citing Barefoot v. Estelle, 463 U.S. 880, 893 & n.4
(1983)). For procedural rulings, a COA will issue only
if reasonable jurists could debate (1) whether the
petition states a valid claim of the denial of a
constitutional right and (2) whether the court’s
procedural ruling was correct. Id. The Court finds that
reasonable jurists could debate its resolution of Claims
12 and 34.
Based on the foregoing,
IT IS HEREBY ORDERED that Petitioner’s
second amended petition for writ of habeas corpus (Doc.
162) is DENIED WITH PREJUDICE. The Clerk of
Court shall enter judgment accordingly.
IT IS FURTHER ORDERED concluding that
Claim 34 is procedurally barred. Petitioner has not
established cause and prejudice or that a fundamental
miscarriage of justice will occur if Claim 34 is not
reviewed on the merits. (Doc. 215.)
IT IS FURTHER ORDERED that a Certificate of
Appealability is GRANTED as to the following issues:
Claim 12: Whether the trial court violated his
due process right to independent mental health
experts in preparation for his defense at trial
and sentencing in violation of Ake v. Oklahoma,
470 U.S. 68 (1985)

App. 344
Claim 34: Whether this Court properly found
Claim 34 procedurally defaulted according to an
adequate and independent state procedural rule
and whether this Court properly concluded that
the procedural default of Claim 34 was not
excused by cause and prejudice or a
fundamental miscarriage of justice.
IT IS FURTHER ORDERED denying
Respondents motion to strike cause and prejudice
exhibits. (Doc. 220.)
IT IS FURTHER ORDERED that the Clerk of
Court send a courtesy copy of this Order to Rachelle M.
Resnick, Clerk of the Arizona Supreme Court, 1501 W.
Washington, Phoenix, Arizona 85007-3329.
DATED this 28th day of September, 2010.

/s/ James A. Teilborg
James A. Teilborg
United States District Judge

App. 345
UNITED STATES DISTRICT COURT
DISTRICT OF ARIZONA
CV-97-1331-PHX-JAT
[Filed: September 28, 2010]
__________________________________________
David Martinez Ramirez,
)
)
Petitioner,
)
)
v.
)
)
Charles L. Ryan, et al.,
)
)
Respondents.
)
__________________________________________)
JUDGMENT IN A CIVIL CASE
__

Jury Verdict. This action came before the
Court for a trial by jury. The issues have been
tried and the jury has rendered its verdict.

XX

Decision by Court. This action came for
consideration before the Court. The issues have
been considered and a decision has been
rendered.

IT IS ORDERED AND ADJUDGED that, per the
Court’s order entered September 28, 2010, Petitioner’s
Second Amended Petition for Writ of Habeas Corpus
pursuant to 28 U.S.C. § 2254 is denied with prejudice.
Judgment is entered for respondents and against
petitioner. The action is dismissed.

App. 346
September 28, 2010
RICHARD H. WEARE
District Court
Executive/Clerk
s/L. Dixon
By: Deputy Clerk
cc: (all counsel)

App. 347

APPENDIX G
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
No. CV-97-1331-PHX-JAT
[Filed: November 4, 2010]
__________________________________________
David Martinez Ramirez,
)
)
Petitioner,
)
)
vs.
)
)
Charles L. Ryan, et al.,
)
)
Respondents.
)
__________________________________________)
DEATH PENALTY CASE
ORDER
Pursuant to FED.R.CIV.P. 52(b) and 59(e), Petitioner
moves the Court to expand his state court record to
include corrected reporter’s transcripts from his mental
retardation proceedings conducted in Maricopa County
Superior Court in 2005-06. (Doc. 244.) Respondents do
not oppose Petitioner’s motion so long as the filing of
corrected transcripts complies with the state court’s
previously issued order (see Doc. 228 at 4551, ordering
the preparation of corrected transcripts based on the
corrections listed at 4422-4453). (Doc. 244 at 3.)

App. 348
Petitioner further requests the Court stay these habeas
proceedings until all of the corrected transcripts have
been filed. (Doc. 244 at 3.)
A stay is unnecessary. As agreed to by Respondents,
Petitioner may file the corrected transcripts as they
become available from the state court reporter and they
will be substituted for the transcripts previously filed.
Accordingly,
IT IS HEREBY ORDERED granting, in part, and
denying, in part, Petitioner’s motion. (Doc. 244.) The
Court grants Petitioner’s motion to expand his state
court record with corrected transcripts. The Court
expands Petitioner’s state court record to include the
corrected transcripts attached to this motion, Exhibits
A and B. (Doc. 244.)
IT IS FURTHER ORDERED that, as they become
available, Petitioner shall file the corrected transcripts
ordered by the state court (see Doc. 228 at 4551), and
the Court expands Petitioner’s state court record to
include these corrected transcripts.
IT IS FURTHER ORDERED that Petitioner’s
request to stay these proceedings until all corrected
transcripts have been filed is DENIED. (Doc. 244.)
DATED this 4th day of November, 2010.
/s/ James A. Teilborg
James A. Teilborg
United States District Judge

App. 349

APPENDIX H
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 10-99023
D.C. No. 2:97-cv-01331-JAT
[Filed: August 24, 2020]
__________________________________________
DAVID MARTINEZ RAMIREZ,
)
Petitioner-Appellant,
)
)
v.
)
)
*
DAVID SHINN, Director, Arizona
)
Department of Corrections,
)
Respondent-Appellee.
)
__________________________________________)
ORDER
Before: Sidney R. Thomas, Chief Judge, and Marsha
S. Berzon, and Richard R. Clifton, Circuit Judges.
Order;
Dissent by Judge Collins

*

David Shinn has been substituted for his predecessor, Charles L.
Ryan, as Director, Arizona Department of Corrections, under Fed.
R. App. P. 43(c)(2).

App. 350
SUMMARY**
__________________________________________________
Habeas Corpus
The panel denied a petition for rehearing and
denied on behalf of the court a petition for rehearing en
banc.
Dissenting from the denial of rehearing en banc,
Judge Collins, joined by Judges Callahan, Ikuta, R.
Nelson, Lee, Bress, Bumatay, and VanDyke, wrote that
the panel’s decision disregards controlling Supreme
Court precedent by creating a new judge-made
exception to the restrictions imposed by the
Antiterrorism and Effective Death Penalty Act on the
use of new evidence in habeas corpus proceedings.
__________________________________________________
COUNSEL
Paula K. Harms (argued) and Timothy M. Gabrielsen,
Assistant Federal Public Defenders; Jon M. Sands,
Federal Public Defender; Office of the Federal Public
Defender, Tucson, Arizona; for Petitioner-Appellant.
John P. Todd (argued), Special Assistant Attorney
General; W. Scott Simon, Assistant Attorney General;
Lacey Stover Gard, Chief Counsel; Mark Brnovich,
Attorney General; Office of the Attorney General,
Phoenix, Arizona; for Respondent-Appellee.

**

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 351
ORDER
The panel has voted to deny the RespondentAppellee’s petition for rehearing. Chief Judge Thomas
and Judge Berzon voted, and Judge Clifton
recommended, to deny Respondent-Appellee’s petition
for rehearing en banc.
The full court was advised of the petition for
rehearing en banc. A judge requested a vote on whether
to rehear the matter en banc. The matter failed to
receive a majority of the votes of the nonrecused active
judges in favor of en banc consideration. See Fed. R.
App. P. 35.
The petition for panel rehearing and the petition for
rehearing en banc are DENIED. No future petitions
for rehearing or rehearing en banc will be entertained.
__________________________________________________
COLLINS, Circuit Judge, with whom CALLAHAN,
IKUTA, R. NELSON, LEE, BRESS, BUMATAY, and
VANDYKE, Circuit Judges, join, dissenting from the
denial of rehearing en banc:
The panel decisions in Ramirez v. Ryan, 937 F.3d
1230 (9th Cir. 2019), and Jones v. Shinn, 943 F.3d 1211
(9th Cir. 2019), disregard controlling Supreme Court
precedent by creating a new judge-made exception to
the restrictions imposed by the Antiterrorism and
Effective Death Penalty Act (“AEDPA”) on the use of
new evidence in habeas corpus proceedings. See 28

App. 352
U.S.C. § 2254(e)(2). I respectfully dissent from our
failure to rehear these cases en banc.1
As the Supreme Court has explained, the negligence
of “postconviction counsel” in developing the
evidentiary record in state court is “chargeable to the
client and precludes relief unless the conditions of
§ 2254(e)(2) are satisfied.” Holland v. Jackson, 542 U.S.
649, 653 (2004). Specifically, § 2254(e)(2) bars “relief
based on new evidence,” with or without a hearing,
unless one of its exceptions is applicable. Id. In both
Jones and Ramirez, state postconviction counsel failed
to develop the record to support the current claims of
ineffective assistance of trial counsel that both
petitioners wish to present in federal habeas corpus
proceedings. Although there is (and can be) no
contention that any of § 2254(e)(2)’s exceptions apply in
either case, the panels in both cases nonetheless held
that the strictures of § 2254(e)(2) did not apply to the
new evidence that the petitioners wished to present in
support of the merits of those claims.
The panels’ reasoning was that, because the
Supreme Court has held that ineffective assistance of
postconviction counsel may establish “cause to excuse”
the separate “procedural default” of failing to raise an
ineffective-assistance-of-trial-counsel claim in state
court, see Martinez v. Ryan, 566 U.S. 1, 13 (2012), a
similar exception should also be recognized to excuse
the separate prohibition on new evidence set forth in
§ 2254(e)(2). But Martinez relied on “the Court’s

1

In light of the common issue raised in the two cases, I am filing
an identical combined dissent in both cases.

App. 353
discretion” to alter judge-made rules of procedural
default, id., and that power to recognize “judge-made
exceptions” to judge-made doctrines does not extend to
statutory provisions, Ross v. Blake, 136 S. Ct. 1850,
1857 (2016). “There, Congress sets the rules—and
courts have a role in creating exceptions only if
Congress wants them to.” Id. And Congress has been
clear in § 2254(e)(2) that it does not want any such new
exceptions. Indeed, prior to the enactment of
§ 2254(e)(2), both distinct types of failure (i.e., failure
to raise a claim at all and failure to develop the factual
record) were governed by the same “cause and
prejudice” standard that Martinez later modified. See
Coleman v. Thompson, 501 U.S. 722, 753–54 (1991);
Keeney v. Tamayo-Reyes, 504 U.S. 1, 11 (1992). But in
§ 2254(e)(2), Congress explicitly abrogated Keeney’s
“cause and prejudice” standard and replaced it with a
much more demanding standard that is concededly not
met in either Jones or Ramirez. Given that Congress
has eliminated in the evidentiary-development context
the very predicate on which Martinez is based, we have
no authority to rewrite the statute and to engraft a
judge-made Martinez exception onto it.
The Ramirez decision presents a particularly stark
violation of § 2254(e)(2). Jones only went so far as to
contend that the same evidence used to established
cause and prejudice under Martinez could then be used,
notwithstanding § 2254(e)(2), to establish the merits of
the underlying ineffective-assistance-of-trial-counsel
claim. While I believe that even this result contravenes
Supreme Court authority, it at least has the virtue of
making its new judge-made exception to § 2254(e)(2)
coextensive with the Martinez exception. But in

App. 354
Ramirez, the panel held that, even after the Martinez
exception had been established with new evidence, the
petitioner was entitled to keep going and to develop
even more evidence as if § 2254(e)(2) did not exist at
all. Nothing supports Ramirez’s egregious disregard of
the clear strictures of § 2254(e)(2).
I
A
David Ramirez was convicted by an Arizona jury of
the first-degree murders of his girlfriend and her
daughter, and he was sentenced to death by a judge.
Ramirez, 937 F.3d at 1234. Ramirez’s trial attorney,
Mara Siegel, was a Maricopa County public defender,
and Ramirez’s case was her first capital assignment.
Id. at 1235. After his conviction and sentence were
affirmed on direct appeal, Ramirez filed a petition for
postconviction relief in state court, but he did not raise
a claim that his trial counsel had been ineffective in the
particular respects that he now asserts. Id. at 1238.
The state petition was denied. Id.
Ramirez then filed a federal habeas petition, the
operative version of which raised the claim that trial
counsel was ineffective in her presentation of
mitigation evidence during the penalty phase. 937 F.3d
at 1238. The federal district court initially denied the
claim as procedurally defaulted, because Ramirez had
failed to raise the claim during his initial state
postconviction-relief proceeding. See Martinez Ramirez
v. Ryan, 2010 WL 3854792 (D. Ariz. Sept. 28, 2010).
While Ramirez’s appeal from that decision was pending
in this court, the Supreme Court issued its decision in

App. 355
Martinez, in which the Court held that a petitioner
may establish “cause” to excuse a procedural default if
the petitioner can show (1) that the petitioner’s
postconviction counsel was ineffective in failing to raise
an ineffective-assistance-of-trial-counsel claim, and (2)
that the underlying ineffective-assistance-of-trialcounsel claim is “substantial,” that is, “has some
merit.” 566 U.S. at 14. A panel of this court remanded
for reconsideration of Ramirez’s ineffective-assistanceof-trial-counsel claim “in light of intervening law.”
On remand, Ramirez asked for an evidentiary
hearing to develop evidence regarding whether his
postconviction-relief counsel was ineffective, in order to
establish “cause” for the default under Martinez.
Ramirez acknowledged that 28 U.S.C. § 2254(e)(2) bars
factual development of claims not developed in state
court, but relying on our precedent in Dickens v. Ryan,
740 F.3d 1302, 1321 (9th Cir. 2014) (en banc), he
argued that the cause-and-prejudice question under
Martinez is not a “claim” for purposes of § 2254(e)(2)
and that evidence could be received to see whether the
default could be excused under Martinez.
Ramirez also submitted declarations from various
family members describing the truly deplorable
conditions of his upbringing. Ramirez, 937 F.3d at
1238–39. Compared to the testimony that Siegel
elicited during the original sentencing hearing, the new
declarations paint a darker picture of the abuse and
neglect that Ramirez’s mother inflicted on her children.
Ramirez also submitted a declaration from Siegel
herself, in which she admitted that the mitigation
evidence that she presented was “very limited.” Id. at

App. 356
1240. Finally, Ramirez submitted a declaration from
Dr. McMahon, a psychologist whom the state trial
court had appointed to evaluate Ramirez’s mental
health during the penalty phase of his criminal trial.
Id. Dr. McMahon stated that Siegel failed to give him
Ramirez’s IQ scores or school reports and that, had she
done so, he likely would have expanded his evaluation,
and he would not have found that Ramirez was not
intellectually disabled. Id.
The district court noted that, “for different reasons,”
both sides agreed that the court should consider the
merits of Ramirez’s ineffective-assistance-of-trialcounsel claim. As the court explained, the State argued
that the lack of merit to that claim showed that
postconviction counsel “did not perform ineffectively in
failing to raise the claim in state court” and that the
Martinez standard therefore could not be met. Ramirez,
by contrast, argued that postconviction counsel was
ineffective in failing to raise the claim and that the
merits of that claim therefore had to be considered de
novo. The court denied Ramirez’s request for an
evidentiary hearing, concluding that such a hearing
was “not warranted” in light of the existing evidence,
but the court accepted his newly submitted exhibits
into the record. After comparing the evidence on
mitigation presented at the penalty phase of Ramirez’s
trial to the information in the newly submitted
exhibits, the court resolved the merits of the
underlying claim, concluding that Siegel’s performance
was not deficient and that any deficiency did not
prejudice Ramirez.

App. 357
Ramirez again appealed to this court. The panel
reversed, finding that the district court should not have
“collapsed what should have been a two-step process”:
first evaluating whether the performance of Ramirez’s
postconviction counsel constituted ineffective
assistance that excused the procedural default under
Martinez, and only then addressing the merits of the
underlying ineffective-assistance-of-trial-counsel claim,
“after allowing a chance for any necessary record or
evidentiary development.” Ramirez, 937 F.3d at 1242
n.7. The panel then proceeded to address the merits of
the Martinez analysis, concluding that Ramirez’s
postconviction counsel did render ineffective assistance
and that Ramirez’s underlying claim was “substantial,”
thus excusing his procedural default under Martinez.
Id. at 1243–48. Finally, the panel concluded that “the
district court erred in denying Ramirez evidentiary
development of his ineffective assistance of counsel
claim” and remanded for further evidentiary
development on that underlying claim. Id. at 1248.
B
Barry Lee Jones was convicted by an Arizona jury
of sexual assault, child abuse, and felony murder of his
girlfriend’s four-year-old daughter, Rachel Gray. Jones,
943 F.3d at 1215. A judge sentenced him to death. Id.
at 1217. Jones filed a petition for postconviction relief
in state court, in which he claimed ineffective
assistance of trial counsel regarding certain aspects of
his attorney’s representation. Id. at 1218. The petition
was denied. Id.
Jones then filed a federal habeas petition, the
operative version of which raised several new claims

App. 358
that his trial attorney was ineffective at both the guilt
and penalty phases of Jones’ case. 943 F.3d at 1218.
The district court denied most of the claims as
procedurally defaulted. Jones v. Schriro, 2008 WL
4446619, at *5 (D. Ariz. Sept. 29, 2008). While the case
was on appeal in this court, the Supreme Court issued
its decision in Martinez. This court remanded the case
to the district court for reconsideration of Jones’s claim.
This court’s remand order determined that Jones’s
claims were “substantial” and that one prong of the
Martinez analysis was therefore already satisfied.
(Recall that Martinez requires a petitioner to show that
postconviction counsel was ineffective and that the
underlying ineffective-assistance- of-trial-counsel claim
is “substantial.” See 566 U.S. at 14.)
On remand, the district court ordered the parties to
brief the other prong of Martinez—whether Jones’s
postconviction counsel was ineffective for failing to
raise the underlying ineffective-assistance-of-trialcounsel claim—as well as the merits of that underlying
claim itself. Jones contended that trial counsel was
ineffective during both the guilt and penalty phases of
the trial. Based on new exhibits submitted by Jones,
the district court found enough initial merit to Jones’s
arguments that postconviction counsel had been
ineffective that the court granted Jones’s request for a
full evidentiary hearing on whether Jones’s default of
his underlying claims could be excused under Martinez.
In granting that request, the court concluded that 28
U.S.C. § 2254(e)(2) did not apply to new evidence used
to establish cause under Martinez. The district court
went a step further, however, and also granted Jones’s

App. 359
request for an evidentiary hearing to develop his
underlying ineffective-assistance-of-trial-counsel claim.
After a seven-day evidentiary hearing, the district
court issued a decision granting Jones’s habeas
petition. Jones v. Ryan, 327 F. Supp. 3d 1157 (D. Ariz.
2018). The court concluded that Jones’s trial counsel
had performed a deficient investigation into medical
evidence of the timeline of Rachel’s injuries and that,
had a proper investigation been performed, counsel
could have cast doubt on the state’s theory that
Rachel’s injuries occurred while she was in Jones’s
care. Id. at 1198–1202, 1206–09. The court then
concluded that Jones’s postconviction-relief counsel
rendered ineffective assistance in failing to raise that
claim, thereby excusing Jones’s procedural default
under Martinez. Id. at 1214–17.
The state appealed, arguing that, although 28
U.S.C. § 2254(e)(2) did not bar the district court from
holding an evidentiary hearing on Jones’s efforts to
establish cause for default under Martinez, the statute
did bar the district court from considering any of the
evidence from the Martinez hearing when analyzing
the merits of the underlying claim. The panel rejected
the state’s argument, concluding that a district court is
not barred from considering evidence developed to
overcome a procedural default under Martinez when
analyzing the underlying claim. Jones, 943 F.3d at
1220–22.
II
We should have granted rehearing en banc because,
in contravention of controlling Supreme Court

App. 360
authority, the panels’ decisions in Jones and Ramirez
create a new judge-made exception to 28 U.S.C.
§ 2254(e)(2)’s strict limitations on expansion of the
evidentiary record in habeas corpus cases.
A
The petitioners in Jones and Ramirez confronted
two distinct obstacles to presenting their ineffectiveassistance-of-trial-counsel claims in federal habeas
corpus proceedings. First, the claims they sought to
assert had not been presented in their state
postconviction proceedings, and the resulting
procedural default required them to show cause and
prejudice to excuse that default. Second, the petitioners
had failed to develop in the state court record the facts
that they needed to establish their claims, and this
presented a separate obstacle that would require them
to make an appropriate showing before a federal
habeas court could consider any additional evidence.
See 28 U.S.C. § 2254(e)(2). In order to set the panels’
decisions in context, it is helpful to summarize the
applicable state of the law concerning these two
distinct procedural hurdles.
1
The general rule against consideration of
procedurally defaulted claims in federal habeas corpus
is a judge-made doctrine that has long been recognized
by the Supreme Court. The Court’s rule is “grounded in
principles of comity,” because “a habeas petitioner who
has failed to meet the State’s procedural requirements
for presenting his federal claims has deprived the state
courts of an opportunity to address those claims in the

App. 361
first instance.” Coleman, 501 U.S. at 731–32. Because
Arizona requires that ineffective-assistance-of-trialcounsel claims be presented in the first state
postconviction petition, see Martinez, 566 U.S. at 6–7,
the petitioners’ failure to present their claims in
Arizona state court constitutes a procedural default, see
Coleman, 501 U.S. at 735 n.1 (where claim was not
exhausted in state court and state court “would now
find the claims procedurally barred,” there “is a
procedural default for purposes of federal habeas”); see
also Trevino v. Thaler, 569 U.S. 413, 421 (2013) (failure
to raise a claim in state court “at the time or in the
place that state law requires” qualifies as procedural
default). But the Supreme Court has recognized
exceptions to this judge-made rule: procedurally
defaulted claims may be considered if the petitioner
can (1) show “cause” for the default and “actual
prejudice” from the state’s alleged violation of federal
law or (2) demonstrate that application of the rule
would “result in a fundamental miscarriage of justice.”
Coleman, 501 U.S. at 750.
In Coleman, the Court held that attorney error
generally does not constitute “cause” to excuse a
procedural default because “cause” must be something
“external to the petitioner,” and error by a petitioner’s
attorney is not “external” because “the attorney is the
petitioner’s agent when acting, or failing to act.” 501
U.S. at 753. But Coleman observed that attorney error
can constitute “cause” when the error qualifies as
ineffective assistance of counsel, in violation of the
Sixth Amendment. Id. at 753–54. The reason for this
exception is “not because . . . the error is so bad that
the lawyer ceases to be an agent of the petitioner”; such

App. 362
an argument, the Court explained, “would be contrary
to well-settled principles of agency law,” under which
even an agent’s negligence is imputed to the principal.
Id. at 754. Rather, the reason for the exception is that,
when effective assistance of counsel is constitutionally
guaranteed, “‘the Sixth Amendment itself requires that
responsibility for the default be imputed to the State.’”
Id. (quoting Murray v. Carrier, 477 U.S. 478, 488
(1986)). And because “[t]here is no constitutional right
to an attorney in state post-conviction proceedings,”
Coleman reasoned, an error by postconviction counsel
is not imputed to the state and cannot constitute
“cause.” Id. at 752.
In Martinez v. Ryan, however, the Court created a
“narrow exception” to Coleman’s holding that
negligence by postconviction counsel can never
constitute cause to excuse default. 566 U.S. at 9. The
Court expressed special concern about applying
Coleman’s strict rule in the context of claims that trial
counsel was ineffective, because such claims often can
be brought only in postconviction proceedings—where
effective representation is not constitutionally
guaranteed—and, further, because such claims “often
require investigative work and an understanding of
trial strategy.” Id. at 11. The Martinez Court pointedly
declined to rest its exception to Coleman on the
premise that there is a constitutional right to effective
assistance of postconviction counsel in the presentation
of an ineffective-assistance-of-trial-counsel claim. Id. at
9. Instead, recognizing that “[t]he rules for when a
prisoner may establish cause to excuse a procedural
default are elaborated in the exercise of the Court’s
discretion,” id. at 13, the Court held that, “as

App. 363
an equitable matter,” ineffective assistance of
postconviction counsel (or lack of postconviction
counsel) can constitute “cause” to excuse procedural
default of an ineffective-assistance-of-trial-counsel
claim, but only if the claim is “substantial,” id. at 14.
2
The second distinct obstacle that the petitioners
face here was their failure to adequately develop in
state court the factual evidence needed to establish the
ineffective-assistance-of-trial-counsel claims that they
now wish to present. Again relying upon judge-made
rules governing the writ of habeas corpus, the Supreme
Court previously had treated such a failure as
comparable to a procedural default, and the Court
therefore generally required a showing of cause and
prejudice to excuse the failure. See, e.g., Keeney, 504
U.S. at 8–10. The rationale for this additional federal
habeas rule was likewise grounded in federalism:
“encouraging the full factual development in state court
of a claim that state courts committed constitutional
error advances comity by allowing a coordinate
jurisdiction to correct its own errors in the first
instance.” Id. at 9. Under Keeney, a failure to develop
the record occurs even when the petitioner’s counsel is
responsible, id. at 4 (requiring cause and prejudice
even though the failure was “apparently due to the
negligence of postconviction counsel”), and the requisite
cause cannot be shown “where the cause asserted is
attorney error,” id. at 10 n.5 (citing Coleman, 501 U.S.
722).
However, in enacting AEDPA, Congress partially
abrogated Keeney and replaced it with a different and

App. 364
more demanding set of standards. The relevant
provision is contained in 28 U.S.C. § 2254(e)(2), which
provides as follows:
If the applicant has failed to develop the factual
basis of a claim in State court proceedings, the
court shall not hold an evidentiary hearing on
the claim unless the applicant shows that—
(A) the claim relies on—
(i) a new rule of constitutional law,
made retroactive to cases on collateral
review by the Supreme Court, that
was previously unavailable; or
(ii) a factual predicate that could not
have been previously discovered
through the exercise of due diligence;
and
(B) the facts underlying the claim would
be sufficient to establish by clear and
convincing evidence that but for
constitutional error, no reasonable
factfinder would have found the applicant
guilty of the underlying offense.
Id. The Supreme Court has made two important
rulings concerning the meaning of § 2254(e)(2), and
those decisions establish the governing law concerning
this separate procedural obstacle to the presentation of
a claim in federal habeas corpus.

App. 365
First, in Williams v. Taylor (Michael Williams),2
529 U.S. 420 (2000), the Court held that Congress’s use
of the word “failed” in the opening clause of § 2254(e)(2)
was “intended to preserve” Keeney’s definition of
what counts as the sort of state-court failure that
triggers the rule. Id. at 433. As the Court explained,
Keeney’s cause-and-prejudice requirement applied—
and therefore § 2254(e)(2)’s replacement for that causeand-prejudice standard now applies—when “there is
lack of diligence, or some greater fault, attributable to
the prisoner or the prisoner’s counsel.” Id. at 432
(emphasis added). Thus, § 2254(e)(2) preserves the rule
that attorney failure to develop the record triggers the
need to make a further showing to excuse that failure.
But Congress dramatically changed the circumstances
under which such attorney failure can be excused, by
replacing the cause-and-prejudice and fundamentalmiscarriage-of-justice tests with the stricter exceptions
in § 2254(e)(2). Id. at 433. Notably, ineffective
assistance of postconviction counsel is not included in
the statute as a ground for excusing the failure to
develop the factual basis of a claim in state court. Thus,
it is not sufficient to show that counsel’s lack of
diligence failed to uncover the new evidence; rather, it
must be shown that the “factual predicate . . . could not
have been previously discovered through the exercise
of due diligence.” 28 U.S.C. § 2254(e)(2)(A)(ii)
(emphasis added).

2

The Supreme Court coincidentally decided another AEDPA case
named Williams v. Taylor (involving Terry Williams) on the very
same day. See 529 U.S. 362 (2000).

App. 366
Second, the Supreme Court held in Holland v.
Jackson that § 2254(e)(2)’s strictures are applicable
whenever the petitioner attempts to rely on evidence
that was not presented in state court, and not merely
when the petitioner seeks a formal evidentiary hearing.
542 U.S. at 653. In Holland, habeas petitioner Jackson
had been convicted of murder in state court, primarily
on the testimony of a single eyewitness. Id. at 650.
Seven years later, Jackson attempted to reopen his
state postconviction case because he claimed that a
new witness would contradict the primary witness’s
testimony. Id. at 650–51. The state court denied the
motion, finding “no satisfactory reason given for the
defendant’s failure to locate this witness.” Id. at 651.
The Supreme Court reversed the Sixth Circuit’s
subsequent grant of habeas relief, holding in relevant
part that consideration of the new witness’s testimony
was barred under § 2254(e)(2). Reaffirming that
“[a]ttorney negligence” in developing the state court
record “is chargeable to the client and precludes relief
unless the conditions of § 2254(e)(2) are satisfied,” id.
at 653 (citing Michael Williams, 529 U.S. at 439–40;
Coleman, 501 U.S. at 753–54), the Court held that
Jackson’s failure to present the testimony of the new
witness to the state court was subject to the strictures
of § 2254(e)(2). Moreover, the Court made clear that,
despite the fact that § 2254(e)(2)’s limitations applied
to the holding of an “evidentiary hearing,” “[t]hose
same restrictions apply a fortiori when a prisoner seeks
relief based on new evidence without an evidentiary
hearing.” Id.
Thus, under Michael Williams and Holland, where
the petitioner’s attorney in state postconviction

App. 367
proceedings negligently fails to develop the record on a
claim, a federal habeas court may not consider new
evidence in support of that claim unless the strictures
of § 2254(e)(2) have been met.
B
Against this backdrop, the panel decisions in Jones
and Ramirez are directly contrary to controlling
Supreme Court authority.
1
Jones held that, notwithstanding § 2254(e)(2),
“Martinez’s procedural-default exception applies to
merits review, allowing federal habeas courts to
consider evidence not previously presented to the state
court.” Jones, 943 F.3d at 1221 (emphasis added). Jones
erred by engrafting Martinez’s judge-made exception to
a judge-made rule onto the separate statutory rule set
forth in § 2254(e)(2). Jones made no effort to reconcile
its holding with Holland or Michael Williams; indeed,
Jones did not mention either decision. Its holding is
directly contrary to those decisions, which (as
explained earlier) bar consideration of new evidence to
evaluate the merits of a claim in federal habeas
proceedings—even when that evidence was not
previously discovered due to the negligence of
postconviction counsel—unless one of the narrow
exceptions set forth in § 2254(e)(2) is satisfied. Jones
did not suggest that any of those exceptions are
applicable here. Instead, Jones relied on two
arguments to justify its holding, but neither has merit.

App. 368
a
Jones relied primarily on policy-based arguments
for extending Martinez’s exception to § 2254(e)(2). This
court has previously held that, because a claim of
ineffective assistance of postconviction counsel “is not
a constitutional claim” but only a predicate for showing
“cause” to excuse a failure to present a claim (namely,
ineffective assistance of trial counsel), a petitioner
seeking to show such cause “is not asserting a ‘claim’
for relief as that term is used in § 2254(e)(2).” Dickens,
740 F.3d at 1321. Section 2254(e)(2) thus does not bar
a hearing to develop the facts necessary to establish
cause under Martinez. See id. Because in Jones the
district court had already conducted a lengthy hearing
for that purpose, the panel held that it would be
“‘simply illogical, and extraordinarily burdensome to
the courts and the litigants,’” to hear evidence
concerning cause under Martinez but then to disregard
that very same evidence when addressing the merits of
the underlying claim. Jones, 943 F.3d at 1221 (quoting
the district court decision). Additionally, the panel
endorsed the plurality view in Detrich v. Ryan, 740
F.3d 1237 (9th Cir. 2013) (en banc), that if § 2254(e)(2)
could stymie factual development for claims rescued
from procedural default by Martinez, then “‘Martinez
would be a dead letter.’” 943 F.3d at 1222 (quoting
Detrich, 740 F.3d at 1247 (four-judge plurality)); see
also Ramirez, 937 F.3d at 1248 (likewise relying upon
the Detrich plurality).
As an initial matter, the Jones panel and the
Detrich plurality overstate the extent of the
inconsistency between Martinez and § 2254(e)(2), as

App. 369
noted by the amicus brief filed by the State of Texas in
support of rehearing en banc in the Jones case.
Martinez excuses the procedural default of failing to
raise a claim of ineffective assistance of trial counsel in
a state postconviction petition when the default is
attributable to the ineffective assistance of state
postconviction counsel. Section 2254(e)(2) separately
bars the development of new evidence in support of a
habeas claim in federal court. Thus, § 2254(e)(2) poses
no obstacle to review where the state court record
(either at trial or in subsequent proceedings) is already
sufficient to establish trial counsel’s mistakes—e.g.,
“claims based on a failure to object to inadmissible
evidence, requesting an incorrect jury instruction, or
per se ineffective assistance of counsel.” Brief for the
State of Texas as Amicus Curiae at 12–13, Jones v.
Shinn, No. 18-99006 (9th Cir. Dec. 23, 2019) (ECF No.
75). To the extent that such mistakes nonetheless were
not raised on state postconviction review due to the
ineffectiveness of postconviction counsel, Martinez
paves the way to federal habeas relief.
But even if most Martinez claims would be barred
by § 2254(e)(2), that would not give us a license to
contravene the settled law governing that statute.
Nothing in the text of § 2254(e)(2) says that its
prohibition on consideration of new evidence does not
apply when postconviction counsel was ineffective or
where “cause” has been shown to excuse some separate
procedural default. On the contrary, AEDPA amended
§ 2254(e)(2) to abolish precisely the same “cause and
prejudice” standard that Martinez invoked (and
modified) and replaced it with a much more demanding
standard (which both panels agree is not met in these

App. 370
cases). See Michael Williams, 529 U.S. at 433
(“Congress raised the bar Keeney imposed on
prisoners.”). Section 2254(e)(2) therefore eliminated
any basis for extending Martinez to excuse a failure to
develop the record. That is, because the predicate for
Martinez’s holding is the cause-and-prejudice standard,
and because § 2254(e)(2) expressly eliminated that
standard in the context of a failure to develop the
record, the entire predicate for applying Martinez is
simply absent in that context.
Where, as here, Congress has specifically modified
and limited pre-existing equitable doctrines that
otherwise would have applied, we have no authority to
ignore those limitations. See McQuiggin v. Perkins, 569
U.S. 383, 395–96 (2013) (noting that § 2254(e)(2)
specifically modified the previously recognized
“miscarriage of justice exception”). Accordingly, this is
not a situation in which Congress left undisturbed a
long-settled background presumption concerning the
scope of equitable authority in federal habeas corpus
proceedings. See id. at 397 (concluding that, outside of
contexts such as § 2254(e)(2), Congress presumably
intended to leave “intact and unrestricted” the longrecognized equitably based “miscarriage of justice
exception”). The Jones panel and the Ramirez panel
thus lacked the authority to engraft a judge-made
exception onto § 2254(e)(2)—particularly when it is
contrary to the construction of that statute under
Michael Williams and Holland. As the Supreme Court
explained in a separate context in Ross v. Blake,
although “judge-made exhaustion doctrines . . . remain
amenable to judge-made exceptions, . . . a statutory
exhaustion provision stands on a different footing.

App. 371
There, Congress sets the rules—and courts have a role
in creating exceptions only if Congress wants them to.”
136 S. Ct. at 1857 (emphasis added). Under Ross, we
have no role in creating exceptions to § 2254(e)(2).3
Moreover, the Jones panel’s reasoning (like the
plurality’s reasoning in Detrich) rests largely on a
bootstrap argument. Dickens held that establishing
“cause” under Martinez is not a “claim,” and so a
federal court does not violate § 2254(e)(2) by receiving
new evidence to consider whether such cause has been
established. 740 F.3d at 1321. But by saying that such
evidence should then be considered on the merits of the
“claim,” the panel erases the distinction that Dickens
drew and thereby endorses the very violation of
§ 2254(e)(2) that Dickens purported to avoid. To the
extent that the resulting scenario seems illogical or
wasteful, that is only because the district court in
Jones failed to consider up front both of the separate
obstacles that Jones faced. There is no point in
conducting a Martinez hearing to discover “cause” to
excuse a procedural default if the defaulted claim will
3

Even if the Jones panel were correct in perceiving some tension
between Martinez and the construction of § 2254(e)(2) adopted in
Michael Williams and Holland, that would not justify the panel’s
disregard of the latter decisions. As the Supreme Court has made
clear, “[i]f a precedent of this Court has direct application in a case,
yet appears to rest on reasons rejected in some other line of
decisions, the Court of Appeals should follow the case which
directly controls, leaving to this Court the prerogative of overruling
its own decisions.” Rodriguez de Quijas v. Shearson/American
Express, Inc., 490 U.S. 477, 484 (1989). Because Martinez says
literally nothing whatsoever about § 2254(e)(2), it cannot provide
any basis for disregarding the directly applicable caselaw
construing that provision.

App. 372
inevitably fail on the merits because (due to the other
procedural obstacle) evidence outside the state record
cannot be considered in any event. Given the
insuperable obstacle presented by § 2254(e)(2), whether
the distinct obstacle presented by Coleman/Martinez
could or could not be excused made no difference.
To the extent that it seems unfair that a potentially
meritorious claim might escape federal habeas review,
that feature is inherent in the restrictions that AEDPA
imposes on the grant of federal habeas relief. For
purposes of § 2254(e)(2), the evidence developed at the
Martinez cause-and-prejudice hearing stands on no
different footing than the new evidence presented to
the court in Holland, and Holland squarely holds that
such new evidence may not be considered unless the
restrictions of § 2254(e)(2) have been met. 542 U.S. at
653. The resulting disparate treatment of procedural
default under Martinez and failure to develop the
factual basis for a claim under § 2254(e)(2) is the
unmistakable consequence of Congress’s asymmetrical
intervention in this area of the law, in which Congress
eliminated the cause-and-prejudice standard only in
the Keeney context, and not in the Coleman context.
Absent a constitutional objection—and the Jones panel
did not suggest that its conclusion was required by the
Constitution—we lack the authority to improve upon
Congress’s policy judgment by judicially rewriting
§ 2254(e)(2).
b
The Jones panel hinted at a second ground for its
holding, but it is equally untenable. Specifically, the
panel stated that its conclusion was consistent with the

App. 373
decisions of the Eighth and Fifth Circuits in Sasser v.
Hobbs, 735 F.3d 833 (8th Cir. 2013), and Barrientes v.
Johnson, 221 F.3d 741 (5th Cir. 2000). See Jones, 943
F.3d at 1222. Those decisions, in turn, rested on the
premise that, if counsel was ineffective in failing to
develop the record or there is otherwise cause and
prejudice to excuse that failure, then there was no
“fail[ure] to develop the factual basis of a claim in State
court proceedings” within the meaning of § 2254(e)(2).
See Sasser, 735 F.3d at 853–54; Barrientes, 221 F.3d at
771 & n.21. This rationale is based on a clear
misreading of Michael Williams.
Michael Williams unambiguously states that
§ 2254(e)(2) preserved Keeney’s understanding of what
counted as a “failure” to develop the record, thereby
triggering the need to excuse that failure. See 529 U.S.
at 433–34. Michael Williams further states that such a
failure is shown when “there is lack of diligence, or
some greater fault, attributable to the prisoner or the
prisoner’s counsel,” id. at 432 (emphasis added); see
also Holland, 542 U.S. at 653 (“Attorney negligence,
however, is chargeable to the client and precludes relief
unless the conditions of § 2254(e)(2) are satisfied.”).
Moreover, in holding that ineffective assistance of state
postconviction counsel may provide cause and prejudice
for failure to raise a claim of ineffective assistance of
trial counsel, the Supreme Court in Martinez did not
retreat from Coleman’s and Michael Williams’s holding
that, in determining whether a procedural failure or
default has occurred, habeas petitioners are bound by
the action (or inaction) of their lawyers under “wellsettled principles of agency law.” Coleman, 501 U.S. at
754; see also Michael Williams, 529 U.S. at 432; cf.

App. 374
Maples v. Thomas, 565 U.S. 266, 282–83 (2012) (noting,
even post-Martinez, “the essential difference between
a claim of attorney error, however egregious, and a
claim that an attorney had essentially abandoned his
client” and holding that, “under agency principles,”
attorney error is not chargeable to the client only in the
latter situation). Under Martinez, the question of
ineffective assistance thus goes, not to the underlying
question of whether there was a procedural default or
other failure, but rather to the question of whether that
default or failure is excused. 566 U.S. at 13–14.
Accordingly, the suggestion that the existence of
cause and prejudice means that there was no failure to
develop the record for purposes of § 2254(e)(2), see
Sasser, 735 F.3d at 853–54; Barrientes, 221 F.3d at
771, is plainly incorrect. Not only does this mix up the
issue of procedural failure with the distinct issue of
whether that failure is excused, but this reasoning
would effectively restore the Keeney cause-andprejudice standard that § 2254(e)(2) expressly
abrogated. See Michael Williams, 529 U.S. at 433. If
the existence of cause and prejudice means that there
was no failure to develop the record sufficient to trigger
§ 2254(e)(2), then the remainder of § 2254(e)(2) would
be a dead letter, and the operative standard would be
the cause-and-prejudice test.
Because there was a failure to develop the state
court record in both Jones and Ramirez, § 2254(e)(2) is
triggered and that failure can be excused only if a
petitioner meets one of the strict statutory exceptions
in § 2254(e)(2). Because § 2254(e)(2) abolishes Keeney’s
cause-and-prejudice test, the fact that Martinez allows

App. 375
postconviction ineffective assistance to establish cause
and prejudice to excuse a failure to raise a claim does
not mean that such ineffective assistance meets the
more demanding excusal standards established in
§ 2254(e)(2) to excuse a failure to develop the record in
state court. Neither the Jones panel nor the Ramirez
panel claimed that the exceptions in § 2254(e)(2) were
met, and the prohibition of that section therefore
applies. Under Holland, that means the new evidence
in each case may not be received in considering the
merits of the underlying claim of ineffective assistance
of trial counsel.
2
As explained above, the Jones panel held only that
the evidence developed at the Martinez cause-andprejudice hearing in that case could be considered on
the merits of the underlying ineffective-assistance-oftrial-counsel claim. The Ramirez panel went one step
further and held that, after cause and prejudice have
been established under Martinez (as the Ramirez panel
found in that case), the strictures of § 2254(e)(2) do not
apply at all and the petitioner is “entitled to
evidentiary development to litigate the merits of his
ineffective assistance of trial counsel claim.” Ramirez,
937 F.3d at 1248. The only authority cited for this
proposition is the Detrich plurality, but that opinion
(like Jones) only supports the view that, “[i]f the
district court holds an evidentiary hearing before ruling
on the Martinez motion, evidence received at that
hearing is not subject to the usual habeas restrictions
on newly developed evidence.” 740 F.3d at 1247
(emphasis added); see also id. (“even with respect to the

App. 376
underlying trial-counsel IAC [ineffective-assistance-ofcounsel] ‘claim,’ given that the reason for the hearing
is the alleged ineffectiveness of both trial and PCR
[postconviction-relief] counsel, it makes little sense to
apply § 2254(e)(2)”). That view is wrong for all of the
reasons explained earlier, but nothing in that rationale
justifies taking the additional step of completely
dispensing with the strictures of § 2254(e)(2) and
allowing further evidentiary development after the
Martinez standard has already been satisfied.4
*

*

*

I respectfully dissent from the denial of rehearing
en banc.

4

Ramirez’s argument that Arizona waived any objection based on
§ 2254(e)(2) by failing to raise the issue may have some force to the
extent that Ramirez also presents the Jones issue (i.e., the use of
the same evidence for the dual purposes of satisfying Martinez and
addressing the merits), but not as to the Ramirez panel’s
additional step of ordering further evidentiary development after
the Martinez standard had been met. Ramirez’s appeal did not
specifically ask for the further relief that the panel ultimately
provided on that score. Arizona therefore had no occasion to object
under § 2254(e)(2) to additional evidentiary development beyond
what was needed to satisfy Martinez. The panel’s decision
presented that § 2254(e)(2) issue for the first time, and Arizona
properly raised the issue in its Petition for Rehearing.

